<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2019 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-674, Part 7]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 115-674, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2987

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2019 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                      MARCH 14, 22; APRIL 11, 2018


         Printed for the use of the Committee on Armed Services
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
 
         
         
         
         

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
           2019 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 7

                            STRATEGIC FORCES
                            
                            



                                                 S. Hrg. 115-674, Pt. 7
 
                DEPARTMENT OF DEFENSE AUTHORIZATION FOR
                APPROPRIATIONS FOR FISCAL YEAR 2019 AND
                    THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2987

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2019 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                      MARCH 14, 22; APRIL 11, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ____                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-249 PDF            WASHINGTON : 2020         



                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman     JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
DAVID PERDUE, Georgia                ANGUS S. KING, JR., Maine
TED CRUZ, Texas                      MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina       ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                  GARY C. PETERS, Michigan
TIM SCOTT, South Carolina            
                              
                                     
                  Christian D. Brose, Staff Director
                  Elizabeth L. King, Minority Staff 
                                 Director



                    Subcommittee on Strategic Forces

  DEB FISCHER, Nebraska, Chairman     JOE DONNELLY, Indiana
JAMES M. INHOFE, Oklahoma             MARTIN HEINRICH, New Mexico
TOM COTTON, Arkansas                  ELIZABETH WARREN, Massachusetts
DAN SULLIVAN, Alaska                  GARY C. PETERS, Michigan
TED CRUZ, Texas
LINDSEY GRAHAM, South Carolina       
                                     
                                     
                                     

                                  (ii)


                             C O N T E N T S


                             March 14, 2018

                                                                   Page

Department of Energy Atomic Energy Defense Activities and             1
  Programs.

Gordon-Hagerty, Honorable Lisa E., Under Secretary for Nuclear        2
  Security, Department of Energy.
Owendoff, James M., Acting Assistant Secretary for Environmental     12
  Management, Department of Energy.
Trimble, David C., Director, Natural Resources and Environment,      20
  Government Accountability Office.

Questions for the Record.........................................    63

                             March 22, 2018

                                                                   Page

Ballistic Missile Defense Policies and Programs..................    73

Rood, Honorable John C., Under Secretary of Defense for Policy,      75
  Department of Defense.
Robinson, General Lori J., USAF, Commander, United States            79
  Northern Command and Commander, North American Aerospace 
  Defense Command.
Greaves, Lieutenant General Samuel A., USAF, Director, Missile       84
  Defense Agency, Department of Defense.
Dickinson, Lieutenant General James H., USA, Commanding General,    101
  United States Army Space and Missile Defense Command/Army 
  Forces Strategic Command and Joint Functional Component Command 
  for Integrated Missile Defense.

Questions for the Record.........................................   127

                             April 11, 2018

                                                                   Page

United States Nuclear Weapons Policy, Programs, and Strategy.....   131

Roberts, Honorable Guy B., Assistant Secretary of Defense for       133
  Nuclear, Chemical, and Biological Defense Programs.
Soofer, Robert M., Ph.D., Deputy Assistant Secretary of Defense     139
  for Nuclear and Missile Defense Policy.
Rand, General Robin, USAF, Commander, Air Force Global Strike       146
  Command.
Benedict, Vice Admiral Terry J., USN, Director, Strategic Systems   156
  Programs.

Questions for the Record.........................................   174

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 14, 2018

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

   DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE ACTIVITIES AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Deb 
Fischer (chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Fischer, Cotton, 
Donnelly, Reed, Warren, and Peters.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. The hearing will come to order.
    The subcommittee meets today to receive testimony on the 
Department of Energy's atomic energy defense activities.
    Thank you to the witnesses for appearing before us today 
and for your service to this country. We appreciate it.
    We are very pleased today to be joined by the ranking 
member of the full committee, Senator Reed from Rhode Island, 
and I would ask Senator Reed if he has comments to make at this 
time.
    Senator Reed. I do not have an opening statement. Thank 
you, Madam Chairman.
    Senator Fischer. Thank you.
    Today's hearing marks the subcommittee's first meeting in 
open session since the release of the administration's 2018 
Nuclear Posture Review, which makes several key points that 
will be relevant to our discussion today. Where the NPR 
[Nuclear Posture Review] affirms the need for a modern and 
responsive nuclear infrastructure, it acknowledges that this 
has been a goal of all previous NPRs and that we have failed to 
make sufficient progress towards achieving this objective.
    As a result, it clearly states that there is no margin for 
further delay, a point you echoed in your prepared testimony, 
Secretary Gordon-Hagerty, and that, ``Significant and sustained 
investments will be required over the coming decade to ensure 
that NNSA [National Nuclear Security Administration] will be 
able to deliver the nuclear weapons at the needed rate to 
support nuclear deterrence in the 2030s and beyond.''
    Secretary, we look forward to hearing from you about the 
steps NNSA will be taking to confront this challenge and how 
the fiscal year 2019 budget request supports your needs with 
respect to sustaining the current stockpile and fulfilling 
NNSA's other missions.
    I also appreciated our discussion on Tuesday and your view 
that we must make a decision on the plutonium strategy and 
proceed aggressively so that we can meet the requirement to 
produce 80 pits per year by 2030. This committee looks forward 
to the conclusion of NNSA's engineering analysis and working 
with you to address this critical issue.
    Mr. Owendoff, we look forward to hearing an update from you 
on the Department of Energy's environmental management 
portfolio and Mr. Trimble's assessment of EM's [Office of 
Environmental Management] efforts.
    And, Admiral Caldwell, as always it is good to see you 
again and hear about Naval Reactors' contribution to our 
national security.
    With that, our ranking member has not arrived yet. I will 
ask for his opening statement when he does come, but I would 
like to begin with the Secretary, if you have an opening 
statement.

STATEMENT OF HONORABLE LISA E. GORDON-HAGERTY, UNDER SECRETARY 
           FOR NUCLEAR SECURITY, DEPARTMENT OF ENERGY

    Secretary Gordon-Hagerty. Thank you very much, Chairman 
Fischer, Senator Reed, and the distinguished soon-to-join-us 
members of the subcommittee. Thank you for the opportunity to 
present the President's fiscal year 2019 budget request for the 
Department of Energy's National Nuclear Security 
Administration.
    I would also like to thank you both for your support during 
my recent confirmation. It is a privilege to sit here before 
you today representing the extraordinary men and women of the 
DOE [Deparment of Energy] NNSA and the vital roles we play in 
executing our Nation's nuclear security mission.
    Chairman Fischer, a written statement has been provided to 
the subcommittee, and I respectfully request that it be 
submitted for the record.
    Senator Fischer. Without objection.
    Secretary Gordon-Hagerty. Thank you.
    Since being sworn in 3 weeks ago, I have had the 
opportunity to learn in depth about many of NNSA's programs and 
projects, and I still have a great deal more to learn. But what 
I have seen so far is impressive. From steady progress towards 
infrastructure modernization to flight qualification tests of 
the B-61-12, removals of highly enriched uranium from Ghana and 
the Republic of Kazakhstan to the commissioning to a new class 
of nuclear-powered aircraft carriers, NNSA has lent its world-
class expertise to keeping our Nation safe and secure with the 
support of this subcommittee and Congress. But there is much 
more to be done to meet the challenges posed by the current 
geopolitical environment.
    The President's fiscal year 2019 budget request for NNSA is 
$15.1 billion, providing the resources required to help ensure 
we are able to protect our Nation and keep our allies safe. And 
this request also moves us toward a deterrent that is modern, 
robust, flexible, resilient, ready, and appropriately tailored 
as outlined in the 2018 Nuclear Posture Review.
    The fiscal year 2019 budget request clearly demonstrates 
the administration's strong support of the NNSA and its three 
enduring missions: maintaining the safety, security, 
reliability, and effectiveness of the U.S. nuclear weapons 
stockpile; reducing the threat of nuclear proliferation and 
nuclear terrorism around the world; and providing nuclear 
propulsion for the U.S. Navy's fleet of aircraft carriers and 
submarines.
    NNSA's fiscal year 2019 budget request for weapons 
activities account is $11 billion, an increase of 7.6 percent 
over the fiscal year 2018 request to ensure we are able to 
achieve and maintain necessary capabilities. This funding 
supports the Nation's current and future defense posture, 
including infrastructure across the nuclear security 
enterprise. This budget request supports our three life 
extension programs and major alteration and advances 
recapitalization and modernization of our Cold War-era 
infrastructure.
    The fiscal year 2019 budget request also includes $1.9 
billion for defense nuclear nonproliferation account, a 3.9 
percent increase above the fiscal year 2018 request. This 
funding continues NNSA's far-reaching activities around the 
world to prevent proliferation of nuclear weapons, counter the 
threat of nuclear terrorism, and respond to nuclear or 
radiological incidents.
    The budget request for naval reactors is $1.8 billion, a 
20.9 percent increase above the fiscal year 2018 request. In 
addition to supporting today's operational fleet, this request 
sustains Naval Reactors' ability to deliver tomorrow's fleet. 
It consists of three key projects: developing the Columbia-
class reactor plant, refueling a research and training reactor 
in New York, and building a new spent fuel handling facility in 
Idaho.
    But paramount to all of our endeavors is our modernization 
effort. There is no longer margin for delay in modernizing 
NNSA's scientific, technical, and engineering capabilities and 
recapitalizing the infrastructure needed to produce strategic 
materials and components for U.S. nuclear weapons. NNSA's 
talented cadre of federal employees and partners at our 
laboratories, plants, and sites need these tools to overcome 
the complex challenges facing our nuclear security mission.
    The budget request for federal salaries and expenses is 
$422.5 million. This request provides funding for 1,715 full-
time equivalents, for effective program management and 
appropriate oversight of the nuclear security enterprise. Of 
note, since 2010, NNSA's program funding has increased 50 
percent while our staffing has decreased by 10 percent.
    NNSA's fiscal year 2019 budget request is the result of a 
disciplined process to prioritize funding for validated 
requirements as designated by the administration and it sets 
the foundation to implement policies from the Nuclear Posture 
Review and the National Security Strategy.
    Thank you for your strong support of this subcommittee and 
the opportunity to testify before you today. I stand ready to 
answer any questions you may have. Thank you.
    [The prepared statement of Secretary Gordon-Hagerty 
follows:]

         Prepared Statement by Secretary Lisa E. Gordon-Hagerty
    Chairman Fischer, Ranking Member Donnelly, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year (FY) 2019 budget request for the Department of Energy's 
(DOE) National Nuclear Security Administration (NNSA). NNSA deeply 
appreciates the Committee's strong support for the nuclear security 
mission and for the extraordinary people and organizations that are 
responsible for its execution.
    The President's fiscal year 2019 budget request for NNSA is $15.1 
billion, an increase of $1.2 billion or 8.3 percent over the fiscal 
year 2018 request. The request represents approximately 50 percent of 
DOE's total budget. This budget request demonstrates the 
Administration's strong support for NNSA and reinforces the recently 
released Nuclear Posture Review (NPR) and National Security Strategy 
(NSS). We will continue to work with the Department of Defense (DOD) to 
determine the resources, time, and funding required to address policies 
laid out in the NPR, including the potential low yield ballistic 
missile warhead, sea launched cruise missile, and B83-1 gravity bomb. 
We live in an evolving international security environment that is more 
complex and demanding than any since the end of the Cold War, which 
necessitates a national commitment to maintain modern and effective 
nuclear forces and infrastructure. To remain effective, however, 
recapitalizing our Cold War legacy nuclear forces is critical.
    NNSA's enduring missions remain vital to the national security of 
the United States: maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile; reducing the threat of 
nuclear proliferation and nuclear terrorism around the world; and 
providing nuclear propulsion for the U.S. Navy's fleet of aircraft 
carriers and submarines. The President's fiscal year 2019 budget 
request is reflective of this Administration's strong support for NNSA 
and ensures that U.S. nuclear forces are modern, robust, flexible, 
resilient, ready, and appropriately tailored to deter 21st-century 
threats and reassure America's allies.
    Attracting, training, and retaining a skilled and experienced 
workforce is critical to NNSA's ability to accomplish its diverse 
missions. NNSA's dedicated and highly talented cadre of Federal 
employees and Management and Operating (M&O) contract partners must be 
supported with the tools necessary to support the complex and 
challenging responsibilities found only within NNSA's nuclear security 
enterprise. NNSA's infrastructure is in a brittle state that requires 
significant and sustained investments over the coming decade to 
correct. There is no margin for further delay in modernizing NNSA's 
scientific, technical, and engineering capabilities, and recapitalizing 
our infrastructure needed to produce strategic materials and components 
for U.S. nuclear weapons.
    The fiscal year 2019 budget request also reflects the close 
partnerships between NNSA and other federal departments and agencies. 
NNSA collaborates with DOD to meet military requirements, support the 
Nation's nuclear deterrent, and modernize the nuclear security 
enterprise. NNSA also partners with a range of federal agencies, to 
prevent, counter, and respond to nuclear proliferation and nuclear 
terrorism.
    NNSA is mindful of its obligation to be responsible stewards of the 
resources entrusted by Congress and the American taxpayers. Our fiscal 
year 2019 budget request is the result of a disciplined process to 
prioritize funding for validated requirements as designated by the 
Administration and sets the foundation to implement policies from the 
NPR and NSS.
                    weapons activities appropriation
    The fiscal year 2019 budget request for the Weapons Activities 
account is $11.0 billion, an increase of $777.7 million or 7.6 percent 
over fiscal year 2018 request levels. Nuclear deterrence remains the 
bedrock of America's national security. Given the criticality of 
effective U.S. nuclear deterrence to the safety of the American people, 
allies, and partners, there is no doubt that NNSA's sustainment and 
replacement program should be regarded as both necessary and 
affordable. The programs funded in this account support the Nation's 
current and future defense posture and the associated nationwide 
infrastructure of science, technology, and engineering capabilities.
    The Weapons Activities account supports the maintenance and 
refurbishment of nuclear weapons to maintain safety, security, and 
reliability; investments in scientific, engineering, and manufacturing 
capabilities to certify the enduring nuclear weapons stockpile; and the 
fabrication of nuclear weapon components. This account also includes 
investments in enterprise-wide infrastructure sustainment activities, 
physical and cybersecurity activities, and the secure transportation of 
nuclear materials.
Maintaining the Stockpile
    This year, the work of the science-based Stockpile Stewardship 
Program again supported the Secretaries of Energy and Defense in 
certifying to the President for the 22nd consecutive year, that the 
U.S. nuclear weapons stockpile remains safe, secure, and reliable 
without the need for nuclear explosive testing. This remarkable 
scientific achievement is made possible through the work accomplished 
by NNSA's world-class scientists, engineers, and technicians, and 
through investments in state-of-the-art diagnostic tools, high 
performance computing platforms, and modern facilities.
    For Directed Stockpile Work (DSW), the fiscal year 2019 budget 
request is $4.7 billion, an increase of $689.0 million or 17.3 percent 
over the fiscal year 2018 request. Included within this request is 
funding to support the life extension programs (LEPs) for the W76, B61, 
and W80, and a major alteration of the W88; and advance the ground 
based strategic deterrent, by one year to 2019, and investigate 
feasibility of interoperable aspects for other types of warheads. These 
LEPs are aligned with the needs outlined in the NPR and with the 
approved Nuclear Weapons Council strategic plan.
    <bullet>  W76-1 LEP: The $113.9 million requested for the W76-1 LEP 
directly supports the sea-based leg of the nuclear triad by extending 
the service life of the original W76-0 warhead. With continued funding, 
the W76-1 LEP will remain on schedule and on budget to complete 
production in fiscal year 2019.
    <bullet>  B61-12 LEP: NNSA continues to make progress on the B61-12 
LEP that will consolidate four variants of the B61 gravity bomb. This 
LEP will meet military requirements for reliability, service-life, 
field maintenance, safety, and use control while also addressing 
multiple components nearing end of life in this oldest nuclear weapon 
in the stockpile. With the $794.0 million requested, NNSA will remain 
on schedule to deliver the First Production Unit (FPU) of the B61-12 in 
fiscal year 2020. NNSA is responsible for refurbishing the nuclear 
explosives package and updating the electronics for this weapon. The 
Air Force will provide the tail kit assembly under a separate 
acquisition program. When fielded, the B61-12 gravity bomb will support 
both Air Force long-range nuclear-capable bombers and dual-capable 
fighter aircraft and bolster central deterrence for the United States 
while also providing extended deterrence to America's allies and 
partners.
    <bullet>  W88 Alteration 370 Program: Currently in the Production 
Engineering Phase (Phase 6.4), the W88 Alt 370 is on schedule, with FPU 
planned in December 2019. The budget request for this program, which 
also supports the sea-based leg of the nuclear triad, is $304.3 million 
in fiscal year 2019.
    <bullet>  W80-4 LEP: The current air-launched cruise missile 
delivers a W80 warhead first deployed in 1982. Both the missile and the 
warhead are well past planned end of life and are exhibiting aging 
issues. To maintain this vital deterrent capability, NNSA requests 
$654.8 million in fiscal year 2019, an increase of $255.7 million or 
64.1 percent over the fiscal year 2018 request to extend the W80 
warhead, through the W80-4 LEP, for use in the Air Force's Long Range 
Stand-Off (LRSO) cruise missile. This funding supports a significant 
increase in program activity through the Design Definition and Cost 
Study Phase on a timeline consistent with the DOD's LRSO missile 
platform modernization schedule.
    <bullet>  Interoperable Warhead 1 (IW1): The IW1 program will 
replace one of the oldest warheads in the stockpile, and provide 
improved warhead security, safety, and use control. To replace the Air 
Force employed W78 warhead, NNSA is requesting $53.0 million to support 
the scheduled restart of the feasibility study and design options work 
suspended in 2014. Technology development efforts are focused on 
supporting the W78 warhead replacement and investigate the feasibility 
of interoperable aspects for other types of warheads. To reduce risk, 
investments will initially be made against technologies that are less 
than technology readiness level 5.
    Within DSW, the fiscal year 2019 budget request includes $619.5 
million for Stockpile Systems. This program sustains the stockpile in 
accordance with the Nuclear Weapon Stockpile Plan by producing and 
replacing limited-life components such as neutron generators and gas 
transfer systems; conducting maintenance, surveillance, and evaluations 
to assess weapon reliability; detecting and anticipating potential 
weapon issues; and compiling and analyzing information during the 
Annual Assessment process.
    The DSW also requests $1.1 billion for Stockpile Services to 
support the modernization of capabilities to improve efficiency of 
manufacturing operations to meet future requirements. The Stockpile 
Services request supports all DSW operations by funding programmatic 
and infrastructure management, and maintaining the core competencies 
and technologies essential for reliable and operable stewardship 
capabilities.
    Strategic Materials are key for the safety, security, and 
effectiveness of the Nation's nuclear deterrent and are used for 
addressing national security concerns such as nuclear nonproliferation 
and counterterrorism missions. The requested funding is necessary to 
maintain NNSA's ability to produce the nuclear and other strategic 
materials associated with nuclear weapons as well as refurbish and 
manufacture components made from these materials. The program includes 
Uranium Sustainment, Plutonium Sustainment, Tritium Sustainment, 
Domestic Uranium Enrichment (DUE), and other strategic materials, such 
as lithium.
    <bullet>  Strategic Materials Sustainment: The $218.8 million for 
the Strategic Materials Sustainment program will develop and implement 
strategies to maintain the technical base for strategic materials in 
support of NNSA's nuclear weapons, non-proliferation, and naval 
reactors activities at NNSA's eight sites.
    <bullet>  Uranium Sustainment: Funding for Uranium Sustainment 
supports the program to maintain existing enriched uranium capabilities 
through enhanced equipment maintenance while preparing to phase out 
mission dependency on Building 9212, a Manhattan Project-era production 
facility at the Y-12 National Security Complex (Y-12) in Oak Ridge, 
Tennessee. The funding request of $87.2 million will assist NNSA in 
sustaining uranium manufacturing capabilities while accelerating 
planning and execution of the Building 9212 Exit Strategy to reduce 
risks associated with transitioning enriched uranium capabilities to 
the Uranium Processing Facility (UPF) that is under construction.
    <bullet>  Plutonium Sustainment: The $361.3 million requested for 
Plutonium Sustainment supports continued progress to meet pit 
production requirements. The requested funding increase would support 
efforts to begin the long term plan to develop a capability to produce 
no fewer than 80 W87-like war reserve pits per year by 2030, as 
directed in the NPR.
    <bullet>  Tritium Sustainment: The fiscal year 2019 budget request 
of $205.3 million will support the Nation's capacity to provide the 
tritium necessary for national security requirements. Tritium will be 
produced by irradiating Tritium Producing Burnable Absorber Rods in 
designated Tennessee Valley Authority nuclear power plants and by 
recovering and recycling tritium from gas transfer systems returned 
from the stockpile at the SRS Tritium Extraction Facility.
    <bullet>  Lithium Sustainment: The fiscal year 2019 budget request 
establishes a separate Lithium Sustainment Program of $29.1 million 
that supports a Lithium Bridging Strategy to maintain the production of 
the nation's enriched lithium supply in support of the nuclear security 
mission, DOE's Office of Science, and DHS.
    <bullet>  Domestic Uranium Enrichment: The DUE program, with a 
request of $100.7 million in fiscal year 2019, will continue efforts to 
make available when needed the necessary supplies of enriched uranium 
for a variety of national security needs.
    For Research, Development, Test, and Evaluation (RDT&E), the fiscal 
year 2019 budget request is $2.0 billion, a decrease of $33.0 million 
or 1.6 percent below the fiscal year 2018 request.
    Increases for the Science Program ($564.9 million) provide 
additional funding to support subcritical experiments for pit reuse and 
advanced diagnostics for subcritical hydrodynamic integrated weapons 
experiments that produce key data for stockpile certifications.
    The Engineering Program ($211.4 million) sustains NNSA's capability 
for creating and maturing advanced toolsets and technologies to improve 
weapon surety and support annual stockpile assessments.
    The Inertial Confinement Fusion Ignition and High Yield Program in 
fiscal year 2019 ($418.9 million) will continue to build upon prior 
accomplishments. These efforts continue to provide key data to reduce 
uncertainty in calculations of nuclear weapons performance and improve 
the predictive capability of science and engineering models in high-
pressure, high-energy, high-density regimes.
    The RDT&E request for fiscal year 2019 includes $703.4 million for 
the Advanced Simulation and Computing (ASC) Program, and continues 
NNSA's program of collaboration with DOE's Office of Science to 
implement DOE's Exascale Computing Initiative. NNSA's ASC Program will 
support stockpile stewardship by developing and deploying predictive 
simulation capabilities for nuclear weapons systems. NNSA is taking 
major steps in high-performance computing by deploying increasingly 
powerful computational capabilities at both Los Alamos National 
Laboratory (LANL) and Lawrence Livermore National Laboratory.
    The Secure Transportation Asset (STA) program provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DOD, and other customer requirements. 
The Office of Secure Transportation has an elite workforce performing 
sensitive and demanding work; agents are among the most highly trained 
and dedicated national security personnel operating within the United 
States. The fiscal year 2019 budget request of $278.6 million continues 
our efforts to modernize and replace the existing fleet of transporters 
and efforts to hire and train an additional 40 agents. The fiscal year 
2019 funding also supports the Safeguards Transporter (SGT) risk 
reduction initiatives to extend the life of the SGT to meet the STA 
mission capacity.
    NNSA's Office of Defense Programs also maintains the vitality of 
the broader nuclear security enterprise that supports other agencies' 
nuclear missions. An important aspect of this effort is investment in 
Laboratory, Site and Plant Directed Research and Development. As 
confirmed by independent reviews, this type of defense research and 
development investment provides basic research funding to foster 
innovation and to attract and retain scientific and technical talent 
and is critical to the long-term sustainment of our national 
laboratories.
Improving Safety, Operations, and Infrastructure
    NNSA's diverse national security missions are dependent upon the 
safety and reliability of its infrastructure. More than half of NNSA's 
facilities are over 40 years old, and roughly 30 percent date back to 
the Manhattan Project era. If left unaddressed, the condition and age 
of NNSA's infrastructure will put NNSA's missions, the safety of its 
workforce, the public, and the environment at risk. As reaffirmed in 
the NPR, ``An effective, responsive, and resilient nuclear weapons 
infrastructure is essential to the U.S. capacity to adapt flexibly to 
shifting requirements. Such an infrastructure offers tangible evidence 
to both allies and potential adversaries of U.S. nuclear weapons 
capabilities and can help to deter, assure, hedge against adverse 
developments, and discourage adversary interest in arms competition.'' 
The fiscal year 2019 budget request for Infrastructure and Operations 
is $3.0 billion, an increase of $199.6 million or 7.1 percent above the 
fiscal year 2018 request. The Fiscal Year 2018 National Defense 
Authorization Act provided NNSA and its M&O partners with additional 
flexibility to address the challenges of modernizing the enterprise by 
increasing the minor construction threshold to $20 million. This reform 
supports efforts to address deferred maintenance through 
recapitalization projects that improve the condition and extend the 
design life of structures, capabilities, and systems to meet NNSA's 
nuclear weapons and nonproliferation program needs.
    The fiscal year 2019 budget request for Infrastructure and 
Operations includes $1.1 billion for Line Item Construction projects. 
The requested amount provides the remaining funding of $48.0 million 
for the Albuquerque Facility, supports UPF at Y-12 ($703.0 million), 
and continues the Chemistry and Metallurgy Research Replacement project 
at LANL ($235.1 million). The fiscal year 2019 budget also includes 
$19.0 million in funding to begin the first steps toward the 
construction of a new lithium production facility and $6 million for 
the 138kV Power Transmission System Replacement project to replace and 
upgrade the current power transmission system for the Mission Corridor 
at NNSS. Delivering these projects on budget and schedule is contingent 
upon stable and predictable funding profiles, and the President's 
budget request being supported.
    Many of NNSA's excess process-contaminated facilities will 
ultimately be transferred to DOE's Office of Environmental Management 
for disposition. In the interim, NNSA is focusing on reducing risks 
where possible. For example, NNSA has made critical investments to 
stabilize high-risk process contaminated facilities until ultimate 
disposition, including at Y-12's Alpha 5 and Beta 4 facilities. NNSA 
also remains committed to reducing the risk of non-process contaminated 
facilities by dispositioning facilities where possible. In late 2017, 
NNSA, with the support of Congress, completed the transfer to a private 
developer of over 200 acres of the aging Bannister Federal Complex in 
Kansas City, Missouri, eliminating $300 million of repair needs.
    Later this spring, completion of the Pantex Drummond Office 
Building (formerly known as the Administrative Support Complex) at the 
Pantex Plant outside of Amarillo, Texas will allow NNSA to move nearly 
1,000 employees into a modern, energy efficient workspace. After 
completion of the Pantex Drummond Office building NNSA will also be 
able to dispose of dilapidated, 1950s-era buildings and eliminate 
approximately $20 million in deferred maintenance.
    Defense Nuclear Security's (DNS) fiscal year 2019 budget request is 
$690.6 million, an increase of $3.7 million or 0.5 percent over the 
fiscal year 2018 request. To execute its enterprise security program, 
DNS provides funding to the sites for: protective forces, physical 
security systems, information security and technical security, 
personnel security, nuclear material control and accountability, and 
security program operations and planning. The request manages risk 
among important, competing demands of the physical security 
infrastructure and includes planning and conceptual design funds for a 
series of future projects to sustain and recapitalize the Perimeter 
Intrusion Detection and Assessment Systems at the Pantex Plant and Y-
12. Preliminary estimates are included within the recently completed 
10-year Physical Security Systems Refresh Plan. Future budget requests 
will reflect refined and detailed funding requirements.
    Information Technology and Cybersecurity enable every element of 
NNSA's missions. The fiscal year 2019 budget request is $221.2 million, 
an increase of $34.4 million, or 18.4 percent over the fiscal year 2018 
request. The cybersecurity program continuously monitors enterprise 
wireless and security technologies to meet a wide range of security 
challenges. The requested funding increase will be used to continue 
working toward a comprehensive information technology and cybersecurity 
program to deliver secure crucial information assets. The funding will 
continue to mature the cybersecurity infrastructure, comprising almost 
100 sensors and over 70 data acquisition servers located across the 
Nation.
             defense nuclear nonproliferation appropriation
    The fiscal year 2019 budget request for the Defense Nuclear 
Nonproliferation account is $1.9 billion, an increase of $69.5 million 
or 3.9 percent above the fiscal year 2018 request. Defense Nuclear 
Nonproliferation account activities address the entire nuclear threat 
spectrum by helping to prevent the proliferation of nuclear weapons, 
counter the threat of nuclear terrorism, and respond to nuclear and 
radiological incidents around the world. The fiscal year 2019 budget 
request funds two program mission areas under the Defense Nuclear 
Nonproliferation account: the Defense Nuclear Nonproliferation (DNN) 
Program and the Nuclear Counterterrorism and Incident Response (NCTIR) 
Program.
Nonproliferation Efforts
    The Office of Defense Nuclear Nonproliferation works with 
international partners to remove or eliminate vulnerable nuclear 
material; improve global nuclear security through multilateral and 
bilateral technical exchanges and training workshops; help prevent the 
illicit trafficking of nuclear and radioactive materials; secure 
domestic and international civilian buildings containing high-priority 
radioactive material; provide technical reviews of U.S. export license 
applications; conduct export control training sessions for U.S. 
enforcement agencies and international partners; strengthen the 
International Atomic Energy Agency's ability to detect and deter 
nuclear proliferation; advance U.S. capabilities to monitor arms 
control treaties and detect foreign nuclear programs; and maintain 
organizational readiness to respond to and mitigate radiological or 
nuclear incidents worldwide.
    The Material Management and Minimization (M3) program provides an 
integrated approach to addressing the risk posed by nuclear materials. 
The fiscal year 2019 budget request is $332.1 million. The request 
supports the conversion or shut-down of research reactors and isotope 
production facilities that use highly enriched uranium (HEU) and 
acceleration of new, non HEU-based molybdenum-99 production facilities 
in the United States, which recently contributed to the approval of the 
first Food and Drug Administration-approved U.S.-origin technology to 
produce the medical isotope. Additionally, the request for M3 supports 
the removal and disposal of weapons usable nuclear material and 
continues the transition to the dilute and dispose strategy for surplus 
plutonium disposition, including the completion of the independent 
validation of lifecycle cost estimate and schedule for the dilute and 
dispose strategy.
    The Global Material Security program works with partner nations to 
increase the security of vulnerable nuclear and radioactive materials 
and improve ability to deter, detect, and investigate illicit 
trafficking of these materials. The fiscal year 2019 budget request for 
this program is $337.1 million and includes efforts to secure the most 
at-risk radioactive material in U.S. high-threat urban areas by 2020.
    The Nonproliferation and Arms Control program develops and 
implements programs to strengthen international nuclear safeguards; 
control the spread of nuclear and dual-use material, equipment, 
technology and expertise; verify nuclear reductions and compliance with 
nonproliferation and arms control treaties and agreements; and address 
enduring and emerging proliferation challenges requiring the 
development of innovative policies and approached. The fiscal year 2019 
budget request for this program is $129.7 million. This increase serves 
to improve the deployment readiness of U.S. nuclear disablement and 
dismantlement verification teams and to enhance export control dual-use 
license and interdiction technical reviews.
    The Defense Nuclear Nonproliferation Research and Development 
program supports innovative unilateral and multilateral technical 
capabilities to detect, identify, and characterize foreign nuclear 
weapons programs, illicit diversion of special nuclear material, and 
nuclear detonations worldwide. The fiscal year 2019 budget request for 
this program is $456.1 million.
    Nonproliferation Construction consolidates construction costs for 
DNN projects. The fiscal year 2019 budget request is $279.0 million. As 
in fiscal year 2018, the Administration proposes termination activities 
for the Mixed Oxide (MOX) Fuel Fabrication Facility project and 
continuing to pursue the dilute and dispose option to fulfill the 
United States' commitment to dispose of 34 metric tons of plutonium. 
The $220.0 million for the MOX Facility will be used to continue 
terminating the project and to achieve an orderly and safe closure. The 
scope and costs will be refined in subsequent budget requests when the 
termination plan for the MOX project is approved. The request also 
includes $59.0 million for the Surplus Plutonium Disposition project to 
support the dilute and dispose strategy.
Nuclear Counterterrorism and Incident Response (NCTIR)
    The fiscal year 2019 budget request for NCTIR is $319.2 million, an 
increase of $41.8 million or 15.1 percent over the fiscal year 2018 
request. NNSA's Counterterrorism and Counterproliferation (CTCP) 
program is part of broader U.S. Government efforts to assess the threat 
of nuclear terrorism and develop technical countermeasures. The 
scientific knowledge generated by this program underpins the technical 
expertise for disabling potential nuclear threat devices, including 
improvised nuclear devices, supports and informs U.S. nuclear security 
policy, and guides nuclear counterterrorism and counterproliferation 
efforts, including interagency nuclear forensics and contingency 
planning.
    The Counterterrorism and Counterproliferation program provides a 
flexible, efficient, and effective response capability for any nuclear/
radiological incident in the United States or abroad by applying the 
unique technical expertise across NNSA's nuclear security enterprise. 
Appropriately trained personnel and specialized technical equipment are 
ready to deploy to provide an integrated response for radiological 
search, render safe, and consequence management for nuclear/
radiological emergencies, national exercises, and security operations 
for large National Security Special Events.
    The CTCP program maintains an operational nuclear forensics 
capability for pre-detonation device disassembly and examination, 
provides operational support for post-detonation assessment, and 
coordinates the analysis of special nuclear materials. Readiness is 
maintained to deploy device disposition and device assessment teams, 
conduct laboratory operations in support of analysis of bulk actinide 
forensics, and to deploy subject matter expertise and operational 
capabilities in support of ground sample collections that contribute to 
conclusions in support of attribution.
    NNSA's Aerial Measuring System (AMS) provides airborne remote 
sensing in the event of a nuclear or radiological accident or incident 
within the continental United States, as well as in support of high-
visibility national security events.
    The AMS fleet consists of three B200 fixed-wing aircraft with an 
average age of 33 years and two Bell 412 helicopters with an average 
age of 24 years. The age of the current aircraft leads to unscheduled 
downtime resulting in reduced mission availability. A recently 
concluded Analysis of Alternatives on the AMS aircraft determined that 
recapitalization of the aging aircraft fleet is necessary to continue 
to provide Federal, state, and local officials with rapid radiological 
information following an accident or incident. The fiscal year 2019 
budget requests $32.5 million as part of a two-year replacement process 
for the five aircraft.
    The equipment used by NNSA's emergency response teams is aging, 
resulting in increasing maintenance costs and increasing risks to the 
emergency response mission. This budget includes funding for 
incremental recapitalization of incident response equipment consistent 
with lifecycle planning to maintain operational readiness. This budget 
also includes funding for state-of-the-art, secure, deployable 
communications systems that are interoperable with the Federal Bureau 
of Investigation and DOD mission partners that will help provide 
decision makers with real-time technical recommendations to mitigate 
nuclear terrorist threats.
    The Emergency Operations program's fiscal year 2019 budget request 
includes $36 million under NCTIR to support NNSA's Office of Emergency 
Operations. This funding will support NNSA's all hazard emergency 
response capabilities, such as providing incident management training 
and exercise planning, and managing the Emergency Communications 
Network capability for the Department.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    Nuclear propulsion for the U.S. Navy's nuclear-powered fleet is 
critical to the security of the United States and its allies as well as 
the security of global sea lanes. NNSA's Naval Reactors Program remains 
at the forefront of technological developments in naval nuclear 
propulsion by advancing new technologies and improvements in naval 
reactor performance. This preeminence provides the U.S. Navy with a 
commanding edge in naval war fighting capabilities.
    The Naval Reactors fiscal year 2019 budget request is $1.8 billion, 
an increase of $308.9 million or 20.9 percent above the fiscal year 
2018 request. In addition to supporting today's operational fleet, the 
requested funding is the foundation for Naval Reactors to deliver 
tomorrow's fleet and recruit and retain a highly-skilled workforce. One 
of Naval Reactors' three national priority projects, continuing design 
and development of the reactor plant for the Columbia-class submarine, 
featuring a life-of-ship core and electric drive, will replace the 
current Ohio-class fleet and provide required deterrence capabilities 
for decades. The project to refuel a Research and Training Reactor in 
New York will facilitate Columbia-class reactor development efforts to 
provide 20 more years of live reactor-based training for fleet 
operators. Funding will also be used to support construction of a new 
spent fuel handling facility in Idaho that will facilitate long term, 
reliable processing and packaging of spent nuclear fuel from aircraft 
carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2019 to support 
these projects and fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at Bettis Atomic Power Laboratory in 
Pittsburgh, Knolls Atomic Power Laboratory and Kesselring Site in 
greater Albany, and the spent nuclear fuel facilities in Idaho can 
perform the research and development, analysis, engineering, and 
testing needed to support today's fleet at sea and develop future 
nuclear-powered warships. The laboratories also perform the technical 
evaluations that enable Naval Reactors to thoroughly assess emergent 
issues and deliver timely responses to provide nuclear safety and 
maximize operational flexibility.
            nnsa federal salaries and expenses appropriation
    The NNSA Federal Salaries and Expenses fiscal year 2019 budget 
request is $422.5 million, an increase of $3.9 million or 0.9 percent 
over the fiscal year 2018 request. The fiscal year 2019 budget request 
provides funding for 1,715 full-time equivalents for the effective 
program and project management and appropriate oversight of the nuclear 
security enterprise. Since 2010, NNSA's program funding has increased 
50 percent, while staffing has decreased 10 percent. NNSA has partnered 
with the Office of Personnel Management to develop a staffing analysis, 
now in its second phase, of a Human Capital Management Plan that 
assesses current personnel levels compared to mission needs. The 
results of the staffing analysis will be used to inform future 
recommendations on appropriate staff size and provide the type and 
number of scientists, engineers, project managers, foreign affairs 
specialists, and support staff needed to accomplish the mission. Part 
of the evaluation includes a review of current staff skill sets and 
areas where skills are needed for project and program management, 
applicable oversight, and day to day operations of the nuclear security 
enterprise.
    Thanks to the support of Congress, NNSA received a 10-year 
extension to continue to use the Demonstration Project personnel 
system. The pay for performance personnel system provides an important 
tool to retain and attract top talent for NNSA's national security 
missions. With the pay to perform personnel system, we are able to 
compete for personnel with other highly technical federal and private 
organizations, motivate and retain high-performing employees, and deal 
with poor performers. NNSA uses the Demonstration Project in 
conjunction with the Excepted Service hiring authorities to hire key 
personnel for the current and next generation workforce with critical 
nuclear security expertise.
                        management & performance
    Since 2011, NNSA has delivered approximately $1.4 billion in 
projects, a significant portion of NNSAs total project portfolio, 8 
percent under original budget. This past February, the High Explosive 
Pressing Facility at Pantex achieved CD-4 and was completed $25 million 
under the approved baseline. We are committed to encouraging 
competition and increasing the universe of qualified contractors by 
streamlining major acquisition processes. NNSA will continue to focus 
on delivering timely, best-value acquisition solutions for all programs 
and projects, by using a tailored approach to contract structures and 
incentives that is appropriate for the special missions and risks at 
each site. The Office of Acquisition and Project Management continues 
to lead improvements in contract and project management practices; 
provide clear lines of authority and accountability for program and 
project managers; improve cost and schedule performance; and ensure 
Federal Project Directors and Contracting Officers with the appropriate 
skill mix and professional certifications are managing NNSA's work.
                               conclusion
    NNSA's diverse and enduring national security missions are crucial 
to the security of the United States, the defense of its allies and 
partners, and global stability. The U.S. nuclear deterrent has and will 
continue to remain the cornerstone of America's national security, and 
NNSA has unique responsibilities to maintain and certify the continued 
safety, security, reliability, and effectiveness of that nuclear 
deterrent.
    Nuclear nonproliferation and nuclear counterterrorism activities 
are essential to promoting the peaceful use of nuclear energy and 
preventing malicious use of nuclear and radiological materials and 
technology around the world. Providing naval nuclear propulsion to the 
U.S. Navy is crucial to the United States to defend interests abroad 
and protect the world's commercial shipping lanes. Each of these 
critical missions depends upon NNSA's capabilities, facilities, 
infrastructure, and world-class workforce.

    Senator Fischer. Thank you, Madam Secretary.
    With that, I will recognize Senator Donnelly, the ranking 
member, for opening comments.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Madam Chair.
    I want to start by thanking Senator Fischer for holding 
today's hearing. This subcommittee has a strong history of 
bipartisan support for modernization of our nuclear deterrent 
in which the National Nuclear Security Administration plays a 
central role.
    Let me also thank today's witnesses for joining us to 
testify on the fiscal year 2019 budget request for defense 
programs at Department of Energy. Today's hearing is wide-
ranging from supporting the DOD [Department of Defense] and our 
nuclear deterrent to detecting smuggled nuclear materials 
around the world to cleaning up former defense production 
sites. In all of these, the key issue is effective use of the 
taxpayers' dollar.
    Administrator Gordon-Hagerty, congratulations on your 
confirmation and welcome to the subcommittee.
    The NNSA's stockpile program is experiencing the highest 
demand since the mid-1980s. They are now up to six major 
programs, all concurrent with each other. The credibility of 
the NNSA to meet the Department of Defense requirements is on 
the line, and you and your team have a big challenge to rise up 
to and we must meet that.
    Admiral Caldwell, it is good to see you again. I look 
forward to hearing from you about progress on the Columbia-
class submarine and ongoing infrastructure modernization across 
the Naval Reactors complex.
    Mr. Owendoff, over the 20 years, your program has cleaned 
up 91 of the 107 sites. But now we have the most challenging, 
especially at Hanford with its 55 million gallons of liquid 
waste. Your total liability continues to grow, which the GAO 
[Government Accountability Office] estimates at $383 billion. 
Half of that liability is at Hanford and Savannah River. Time 
is your enemy for this liability, and we must try to get these 
sites done as quickly and safely as possible.
    Mr. Trimble, as always we are grateful for you and your 
staff on the excellent work your team undertakes for this 
subcommittee. You play a critical role in oversight of the work 
underway at the Department of Energy. I look forward to your 
testimony.
    I want to thank Ranking Member Reed for being here with us 
today as well. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Donnelly.
    Mr. Owendoff, if you would give us an update on 
Environmental Management in your opening comments please.

STATEMENT OF JAMES M. OWENDOFF, ACTING ASSISTANT SECRETARY FOR 
         ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Owendoff. Good afternoon, Chairman Fischer, Ranking 
Member Donnelly, Senator Peters, Senator Reed, and members of 
the subcommittee. I am pleased to be here today to represent 
the Department of Energy's Office of Environmental Management 
and to discuss what we plan to accomplish under the President's 
fiscal year 2019 budget request.
    The total fiscal year 2019 budget request for the EM 
program is $6.6 billion. Of that, $5.6 billion is defense 
environmental cleanup activities. This request is the highest 
for the EM program in a decade and is an increase of $93 
million from the fiscal year 2018 request, which was also 
record request. The fiscal year 2019 request demonstrates the 
administration's continued commitment to the vital mission of 
EM to address the environmental legacy of nuclear weapons 
production and government-sponsored nuclear energy research.
    DOE and EM are committed to ensuring the safety of our 
workforce, the public, and the environment. Safety is the top 
priority for the Office of Environmental Management and its 
field sites. It is valued above production, budget, and 
schedule. We are also strongly committed to a workplace where 
all workers, federal and contractor, are free to speak out, 
voice concerns, or lodge complaints without fear of 
retaliation.
    To continue and further build upon our momentum of 
progress, we have focused on a greater sense of urgency to EM's 
decision-making process. This approach means more emphasis on 
engaging with regulators, stakeholders, and communities in 
making timely decisions which will enhance safety, shorten 
schedules, increase transparency, and reduce costs. This will 
enable us to achieve the best value for all taxpayers while at 
the same time protecting our workers, members of the public in 
the communities surrounding our sites and the environment.
    Going forward, our fiscal year 2019 request will enable us 
to continue making progress on those capabilities necessary to 
tackle some of our longer-term challenges while also enabling 
us to realize concrete accomplishments across the EM program.
    At Savannah River, the request will enable DOE to 
significantly increase processing of radioactive waste and 
closure of underground tanks. As a result, the site will be 
able to significantly build on its record to date of 
successfully emptying and closing those tanks.
    The WIPP [Waste Isolation Pilot Plant] request will have 
benefits across the EM program with the planned infrastructure 
improvements intended to enable increased true waste shipments 
from other EM sites.
    We will continue to enhance those portions of the Hanford 
Waste Treatment and Immobilization Plant necessary to initiate 
tank waste treatment through the direct feed, low-activity 
waste approach and complete design and launch site preparations 
for the Oak Ridge Mercury Treatment Facility, which will help 
address the mercury contamination at the site and aid in the 
eventual D&D [Dilute and Dispose] of deteriorating facilities 
at the Y-12 National Security Complex.
    We will also complete targeted, buried waste exhumation at 
the Idaho site and continue implementation of an interim 
measure to address chromium groundwater contamination at the 
Los Alamos National Laboratory, among other projects.
    In closing, I am honored to be here today representing the 
more than 20,000 men and women that carry out the Office of 
Environmental Management mission. Ensuring a safe environment 
at all of our sites is our highest priority. We are committed 
to achieving our mission in a safe, effective, and cost 
efficient manner to serve as good stewards of taxpayer 
resources.
    Thank you again for the opportunity to appear before you 
today, and I look forward to your questions.
    [The prepared statement of Mr. Owendoff follows:]

                  Prepared Statement by James Owendoff
    Thank you for the opportunity to appear before you today to 
represent the Department of Energy's (DOE) Office of Environmental 
Management (EM). I would like to provide you with an overview of the EM 
program, key accomplishments during the past year and what we plan to 
accomplish under the President's $6,601,366,000 fiscal year (FY) 2019 
budget request, which includes $5,630,217,000 in Defense Environmental 
Cleanup. This request demonstrates the Administration's continued 
commitment to the vital mission of EM to address the environmental 
legacy of nuclear weapons production and government-sponsored nuclear 
energy research.
                       overview of the em mission
    The Federal Government's nuclear weapons production programs have 
made significant contributions to our Nation's defense for decades--
helping end World War II and the Cold War. In addition, government-
sponsored nuclear energy research also made significant contributions 
to domestic energy growth and prosperity. The legacy of these programs 
is a massive amount of radioactive and chemical waste and contaminated 
facilities at sites across the country. It is the mission of DOE's 
Office of Environmental Management to clean up or remediate this legacy 
waste.
    This legacy includes 90 million of gallons of radioactive liquid 
waste stored in aging underground tanks. That's enough to completely 
fill the Capitol Rotunda nearly 10 times.
    This legacy also includes five thousand contaminated facilities, 
700,000 tons of depleted uranium, millions of cubic meters of 
contaminated soil, billions of gallons of contaminated water, used 
nuclear fuel and other nuclear materials.
    EM must execute its mission as safely, efficiently and cost-
effectively as possible. This involves constructing new infrastructure 
like waste storage facilities and waste treatment plants. This mission 
also involves the management and retrieval of liquid tank waste as well 
as the decommissioning and demolition of deteriorating facilities that 
ultimately reduce maintenance and monitoring costs.
    The nature and length of the EM mission, coupled with the sheer 
technological complexity of cleanup means that we will always face 
challenges--some anticipated and others unexpected. These obstacles 
certainly warrant our careful attention, but EM also has a proven 
ability to achieve tangible results.
    When the program began in 1989, EM was responsible for a total of 
107 sites covering 3,100 square miles. That's an area larger than Rhode 
Island and Delaware combined. During early years, work focused on 
characterizing waste. Since then, EM's accomplishments have included 1) 
cleanup and closure of major sites in Colorado, Ohio, Missouri and 
Florida; 2) decommissioning of a gaseous diffusion enrichment plant in 
Tennessee; 3) vitrification of more than 4,000 canisters of high-level 
waste in South Carolina; and ) removal of all the plutonium metal and 
oxides from Washington state.
    Today, EM has 16 sites remaining, with an active cleanup footprint 
of less than 300 square miles. These 16 sites are home to some of our 
toughest and most complex challenges.
    The best value does not mean taking short cuts and it does not 
always mean choosing the cheapest option. It means getting the job done 
as safely, efficiently and cost-effectively as possible. It requires a 
sustainable, risk-informed approach centered on reducing the greatest 
amount of risk with the resources available, while maximizing 
opportunities to shorten schedules and lower lifecycle costs.
    That is why we have focused on a greater sense of urgency to EM's 
decision-making process. This approach means more emphasis on engaging 
with regulators, stakeholders, and communities in making timely 
decisions which will enhance safety, shorten schedules, increase 
transparency, and reduce costs--achieving the best value for all 
taxpayers, while at the same time, protecting our workers, members of 
the public in the communities surrounding our sites, and the 
environment.
    EM's first priority is worker safety, as well as protection of the 
public health and the environment. These are essential components of 
our cleanup objectives. EM will continue to discharge its 
responsibilities by conducting cleanup within a ``Safe Performance of 
Work'' culture that integrates protection of the environmental, safety, 
and protection of worker and public health into all work activities.
    The December spread of contamination that occurred during 
demolition activities at the Plutonium Finishing Plant at the Hanford 
site demonstrate the continued need to ensure a safe working 
environment at all of our sites. We will continue to engage with the 
workforce at Hanford and our other EM sites to solicit their input and 
ideas to further strengthen our safety performance.
                  em cleanup objectives and priorities
    Taking many variables into account, such as risk reduction and 
compliance agreements, EM has the following priorities:
    <bullet>  Radioactive tank waste stabilization, treatment, and 
disposal;
    <bullet>  Used nuclear fuel receipt, storage, and disposition;
    <bullet>  Special nuclear material consolidation, stabilization, 
and disposition;
    <bullet>  Transuranic and mixed/low-level waste treatment and 
disposal;
    <bullet>  Soil and groundwater remediation; and,
    <bullet>  Excess facilities deactivation and decommissioning.

    In particular, the fiscal year 2019 budget request will allow EM 
to:
    <bullet>  Ramp up efforts to address the largest environmental risk 
at the Savannah River Site---radioactive tank waste.
    <bullet>  Implement key infrastructure improvements at the Waste 
Isolation Pilot Plant (WIPP), integral to the cleanup activities at a 
number of EM sites.
    <bullet>  Complete design and begin site preparations for the Oak 
Ridge Mercury Treatment Facility, which will help address mercury 
contamination at the site and aid in the eventual deactivation and 
decommissioning (D&D) of aging facilities at the Y-12 National Security 
Complex.
                       key recent accomplishments
    While some cleanup projects will extend decades, stable steady 
progress is being made right now. In 2017, the EM workforce achieved 
the resumption of transuranic waste shipments to WIPP, enabling 
continued cleanup progress at several sites across the country.
    At Savannah River, workers successfully completed construction of 
the latest Saltstone Disposal Unit, which is integral to the tank waste 
cleanup mission, ahead of schedule and under budget. We also completed 
cleanup activities at Hanford's 618-10 burial ground; demolition of one 
of the last remaining buildings at the Separations Process Research 
Unit in New York state; and the safe treatment of remediated nitrate 
salt drums at the Los Alamos National Laboratory. At the Portsmouth 
site, we are continuing work to deactivate the former enrichment 
plant's massive process buildings to prepare them for eventual 
demolition. And at the Paducah site, we have optimized a system to 
control and mitigate the migration of groundwater contamination on the 
east side of the site ahead of schedule and under budget.
    Our successes have been recognized by the Project Management 
Institute (PMI). Our work to complete waste retrieval activities at the 
AY-102 double-shell tank at Hanford was awarded PMI's Project of the 
Year award. In addition, PMI also issued awards for efforts to upgrade 
a ventilation system at one of Hanford's tank farms and for work to 
close one of the underground waste tanks at the Savannah River Site. We 
are proud that the PMI chose to recognize the important work underway 
to address one of our largest environmental challenges--radioactive 
tank waste. These awards are a recognition of the dedicated and 
talented workforce we have at the Hanford and Savannah River sites, and 
across the entire EM program, and illustrate how the EM program is 
working to serve as a good steward of taxpayer resources. We are 
committed to building upon this cleanup momentum.
           highlights of the fiscal year 2019 budget request
    The fiscal year 2019 budget request for EM is $6,601,366,000, which 
includes $5,630,217,000 for defense environmental cleanup activities, 
$218,400,000 for non-defense environmental cleanup activities, and 
$752,749,000 for Uranium Enrichment Decontamination and Decommissioning 
Fund cleanup activities. This request is the highest for the EM program 
in a decade, and is an increase of $93,031,000 from the fiscal year 
2018 request, which was also a record request.
    EM's fiscal year 2019 request provides resources to make progress 
on cleanup activities across the complex, including tackling the 
largest environmental challenge at the Savannah River Site--radioactive 
tank waste; and executing key infrastructure improvements at WIPP, 
integral to the cleanup activities at a number of EM sites.
    At Savannah River, the request will enable DOE to significantly 
increase production of canisters of vitrified high-level waste at the 
Defense Waste Processing Facility, as well as support planned operation 
rates for the Salt Waste Processing Facility, and continued 
construction progress for Saltstone Disposal Units. As a result, 
Savannah River will be able to significantly build on its record of 
successfully emptying and closing underground waste tanks. The WIPP 
request will have wide-ranging benefits across the EM program, with the 
planned infrastructure improvements at WIPP intended to enable 
increased transuranic (TRU) waste shipments from other EM sites.
    We will continue to advance those portions of the Hanford Waste 
Treatment and Immobilization Plant necessary to initiate tank waste 
treatment through the Direct Feed Low Activity Waste (DFLAW) approach; 
and complete design and launch site preparations for the Oak Ridge 
Mercury Treatment Facility, which will help address mercury 
contamination at the site and aid in the eventual D&D of deteriorating 
facilities at the Y-12 National Security Complex. We also will complete 
targeted buried waste exhumation at the Idaho site and continue with 
preparations to transfer cesium and strontium capsules at Hanford from 
wet storage to a safer dry storage configuration; and implement of an 
interim measure to address chromium groundwater contamination at the 
Los Alamos National Laboratory.
          budget authority and planned accomplishments by site

                 Office of River Protection, Washington
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                        $1,504,311                           $1,438,513
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Continue construction, startup and commissioning 
activities for the Low Activity Waste (LAW) Facility, Analytical 
Laboratory, Effluent Management Facility, and Balance of Facilities to 
complete hot commissioning of the LAW Facility by December 31, 2023, 
per the 2016 Amended Consent Decree;
    <bullet>  Continue design activities for the Low Activity Waste 
Pretreatment System (LAWPS);
    <bullet>  Pursue a complementary pretreatment capability using 
tank-side cesium removal equipment to provide initial feed by December 
2023 per the 2016 Amended Consent Decree; and
    <bullet>  Continue retrieval of single-shell tanks in A/AX Farm.


                 Richland Operations Office, Washington
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                          $800,422                             $747,097
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Continue cesium and strontium capsules activities to move 
capsules currently stored at the Waste Storage Encapsulation Facility 
to dry storage;
    <bullet>  Continue waste site remediation and groundwater 
treatment; and
    <bullet>  Continue focus on canyon and waste site risk mitigation.

                   Savannah River Site, South Carolina
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                        $1,447,591                           $1,656,180
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Package 135 to 175 canisters of vitrified high-level 
waste at the Defense Waste Processing Facility;
    <bullet>  Support start-up activities for the Salt Waste Processing 
Facility;
    <bullet>  Continue construction of Saltstone Disposal Unit #7, #8, 
#9;
    <bullet>  Operate Actinide Removal Process and Modular Caustic Side 
Solvent Extraction Unit and Tank Closure Cesium Removal system to 
process 200,000 gallons of salt solution;
    <bullet>  Complete D Area Ash Project including closure of the 488-
1D Ash Basin and the Coal Pile Runoff Basin;
    <bullet>  Continue to receive foreign research reactor and domestic 
research reactor used nuclear fuel for safe storage and management; and
    <bullet>  Disposition used nuclear fuel in H-Canyon by processing.

                    Idaho National Laboratory, Idaho
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                          $359,226                             $359,226
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Continue commissioning and startup of the Integrated 
Waste Treatment Unit;
    <bullet>  Characterize, repackage and certify contact-handled 
transuranic waste for shipment to the Waste Isolation Pilot Plant;
    <bullet>  Complete exhumation of targeted buried waste at the ninth 
and final retrieval area; and
    <bullet>  Transfer Experimental Breeder Reactor-II and Advanced 
Test Reactor used (used) nuclear fuel from wet to dry storage.

                        Oak Ridge Site, Tennessee
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                          $390,205                             $408,526
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Complete design and begins site preparation of the 
Outfall 200 Mercury Treatment Facility;
    <bullet>  Continue demolition of remaining facilities at East 
Tennessee Technology Park;
    <bullet>  Continue modifications to Building 2026 to support 
processing of U-233 material; and
    <bullet>  Initiate design for a new On-Site Waste Disposal 
Facility.


                    Carlsbad Field Office, New Mexico
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                          $323,041                             $403,487
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Continue waste emplacement activities, increasing 
transuranic waste shipments to ten per week ;
    <bullet>  Address major repair or replacement of critical 
infrastructure; and
    <bullet>  Continue work on the Safety Significant Confinement 
Ventilation System.


               Los Alamos National Laboratory, New Mexico
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                          $191,629                             $191,629
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Continue execution of New Mexico Environment Department 
approved ground water remedies for the high explosives (RDx) plume in 
Canon de Valle; and
    <bullet>  Continue activities for chromium plume investigation 
through modeling, hydrology studies, installation of extraction and 
injection wells, and interim measure activities progressing towards an 
approved corrective measure evaluation.


                  Nevada National Security Site, Nevada
                         (dollars in thousands)
------------------------------------------------------------------------
      Fiscal Year 2018 Request             Fiscal Year 2019 Request
------------------------------------------------------------------------
                           $60,136                              $60,136
------------------------------------------------------------------------

Key Accomplishments Planned for Fiscal Year 2019
    <bullet>  Continue soil and groundwater remediation activities; and
    <bullet>  Continue safe disposal operations for low-level and mixed 
low-level radioactive waste.
                               conclusion
  I am honored to be here today representing the more than 20,000 men 
and women that carry out our Office of Environmental Management 
mission. Ensuring a safe work environment at all of our sites is our 
highest priority. We are committed to achieving our mission in a safe, 
effective and cost-efficient manner to serve as good stewards of 
taxpayer resources.
  At the end of the day, EM progress means safer, cleaner sites in the 
communities that hosted defense nuclear activities for decades. This 
kind of progress is not possible without our workforce, Members of 
Congress, regulators, cleanup community leaders and other partners. 
Thank you again for the opportunity to appear before you today and I 
look forward to your questions.

    [The prepared statement of Admiral Caldwell follows:]
            Prepared Statement by Admiral James F. Caldwell
    Chairman Fischer, Ranking Member Donnelly, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year (FY) 2019 budget request for Naval Reactors. In 1955, the 
United States experienced a step-change in naval dominance when USS 
Nautilus (SSN 571) reported ``Underway on nuclear power''. Since 
Nautilus, follow-on classes of ever more capable U.S. nuclear-powered 
submarines and aircraft carriers have ensured our warfighting edge over 
potential adversaries. Forward deployed fast attack submarines exert 
influence throughout the world, safeguarding vital commercial sea-
lanes, protecting aircraft carrier and expeditionary strike groups, and 
operating virtually undetected in all the world's oceans, even under 
the Arctic ice. Our Navy's ballistic missile submarines provide 
strategic deterrence capability to our country and have done so for six 
decades. Virtually undetectable when submerged, these ballistic missile 
submarines form the most survivable component of the nuclear triad. Our 
nuclear aircraft carriers provide the nation highly mobile, 
sustainable, sovereign territory from which to project flexible, rapid, 
visible, and credible U.S. Military power to keep the peace, deter 
conflict, and protect American interests around the world. Nuclear 
propulsion enables these warships to conduct missions vital to national 
security by providing unique tactical mobility and flexibility, 
responsiveness, and sustainability--these key attributes ensure our 
nuclear fleet can meet the demands of forward presence and crisis 
response world-wide. Today, over 45 percent of the Navy's major 
combatants are nuclear powered (11 aircraft carriers, 14 ballistic 
missile submarines, 53 attack submarines, and 4 guided missile 
submarines) capitalizing on the mobility, flexibility, and endurance of 
nuclear power that enables the Navy to meet its global mission.
    Over the past year, with Naval Reactors support, the Navy deployed 
39 submarines and conducted 33 strategic deterrent patrols. At any 
given time, there were at least 49 of 71 submarines deployed or ready 
to deploy within days. Our carriers, USS Nimitz (CVN 68), USS Dwight D. 
Eisenhower (CVN 69), USS Ronald Reagan (CVN 76), USS Theodore Roosevelt 
(CVN 71), USS Carl Vinson (CVN 70), and USS George H.W. Bush (CVN 77) 
successfully conducted deployments, and this past November, Reagan, 
Roosevelt, and Nimitz conducted the first tri-carrier operations in a 
decade off the Korean Peninsula.
    In nuclear shipbuilding, this past year also saw the keel laid for 
the attack submarines Pre Commissioning Unit (PCU) Oregon (SSN 793), 
the christening of PCU Indiana (SSN 789) and PCU South Dakota (SSN 
790), the delivery of PCU Colorado (SSN 788) and finally, the 
commissioning of USS Washington (SSN 787)--the fourteenth Virginia-
class fast attack submarine to join the fleet. In addition, 
construction of the aircraft carrier John F. Kennedy is well underway 
and the third carrier of the Ford-class, Enterprise, starts 
construction activities this year.
    Another recent accomplishment was commissioning USS Gerald R. Ford 
(CVN 78) last July. I personally participated in the sea-trials of this 
incredible ship which has the first new design aircraft carrier 
propulsion plant in 40 years. Ford matches the high speed of our 
Nimitz-class ships while delivering 25 percent more energy and three 
times the electrical operating capacity, reduces maintenance by 30 
percent, and reduces propulsion plant manpower by 50 percent. This 
historic milestone represents the culmination of almost 20 years of 
dedicated and sustained effort by Naval Reactors and its field 
activities, our Department of Energy (DOE) laboratories, nuclear 
industrial base suppliers, the Navy design team, and the nuclear 
shipbuilders.
    In addition to supporting the operational nuclear fleet, we 
continue to safely maintain and operate two nuclear powered land-based 
prototypes--both over 40 years old--to conduct research, development, 
and training. We also continue to safely maintain and operate two 
Moored Training Ships to train our nuclear operators--these are both 
over 54 years old and are the oldest operating pressurized water 
reactors in the world. These four platforms allow us to train 2800 
students per year and provide highly qualified operators to the nuclear 
fleet.
    The strong support of this subcommittee enabled safe operation of 
the nuclear fleet, progress on our key projects, and our oversight and 
regulation on all areas across the Naval Nuclear Propulsion Program. 
Naval Reactors' budget request for fiscal year 2019 is $1.79 billion, 
an increase of $309 million, or 21 percent, over the fiscal year 2018 
requested level and is consistent with the plan of record provided in 
previous budget requests for major projects we have underway. This 
year's request represents our peak budget year in the Future Years 
Nuclear Security Plan. The overall increase to the budget request is 
primarily driven by the planned funding ramp for two national priority 
projects--the refueling overhaul of a research and training reactor in 
New York, and the construction of the new Naval Spent Fuel Handling 
Facility in Idaho. The increase also allows research and development 
efforts for advanced reactor plant components and improved reactor 
cores for installation on future Virginia-class submarines. This 
reactor plant technology development will also underpin the demanding 
and critical design requirements of future classes of nuclear powered 
warships.
                             major projects
    This past year marked the peak in our design efforts for the 
Columbia-class strategic ballistic missile submarine propulsion plant. 
Delivering the life-of-ship reactor core and electric drive propulsion 
system remains a top priority. The Columbia-class is the Navy's number 
one acquisition priority and we are on track to start reactor plant 
component procurement in fiscal year 2019 to support the start of ship 
construction in fiscal year 2021. Fiscal year 2019 funding of $138 
million will provide for propulsion plant component design, 
development, and testing to support fiscal year 2019 long-lead 
component contract placement in addition to supporting reactor plant 
testing and safety analysis.
    Fiscal year 2019 marks the start of the land-based prototype 
refueling overhaul. The $250 million request in this year's budget will 
support the refueling overhaul which is vital to the nuclear propulsion 
program, enabling 20 additional years of Naval Reactors' commitment to 
research, development, and training in New York. As part of this 
refueling activity, we will insert newly manufactured Columbia-class 
type fuel modules with the prototype refueling reactor core, enabling 
testing and demonstration of core manufacturability necessary for 
production and delivery of the Columbia-class reactor.
    Naval Reactors fiscal year 2019 budget request includes $287 
million in construction funding to continue the Spent Fuel Handling 
Recapitalization Project. The project broke ground last year, and we 
are conducting site preparation. Full support from Congress has enabled 
us to keep this project on track and on budget. The total estimated 
cost for this project remains unchanged. Continued Congressional 
support will ensure the facility is ready to receive spent nuclear fuel 
from aircraft carriers in fiscal year 2024 and be fully operational by 
2025.
                              base funding
    In addition to our three priority projects, Naval Reactors 
maintains a high-performing technical base to: 1) execute nuclear 
reactor technology research and development that supports today's fleet 
and ensures our Navy remains technologically ahead of adversaries and, 
2) provide the necessary equipment, construction, maintenance, and 
modernization of critical infrastructure and facilities. The funding 
required for this base also supports the lean federal workforce that 
provides the regulatory oversight necessary to carry out this important 
technical work safely and efficiently. By employing an effective 
technical base, the teams of talented and dedicated people at our four 
Program sites--the Bettis Atomic Power Laboratory in Pittsburgh, the 
Knolls Atomic Power Laboratory and Kesselring Site in greater Albany, 
the Naval Reactors Facility in Idaho, and our Washington, DC 
headquarters--can perform the research and development, analysis, 
engineering, and testing needed to support today's fleet at sea and 
develop more capable nuclear-powered warships for tomorrow's fleet. Our 
labs perform the technical evaluations that enable Naval Reactors to 
thoroughly assess approximately 4,000 emergent issues annually and 
deliver timely responses that ensure nuclear safety and maximize 
operational flexibility.
    In the past, I have spoken to the importance of the technical base 
regarding its support of the nuclear fleet and our essential work on 
new technologies. This year's budget demonstrates this synergy by 
developing new technologies that will modify our current Virginia-class 
reactor plant design to advance reactor plant components and deliver 
improved capabilities for next generation submarines. Investing in 
these core technologies alone will result in an estimated $50 million 
per ship savings on future warships relative to current technology.
    Additionally, there are two other distinct areas of the base that 
are essential to the Program. First, we will be increasing our efforts 
in decontamination and decommissioning (D&D) older facilities that have 
been in existence since the start of the Program in the early 1950's. 
We have an estimated $7.4 billion in environmental liabilities 
requiring D&D efforts--about half of these facilities are no longer in 
use. The Program's positive track record on environmental safety is of 
the utmost importance to me, and is a core part of the Program's 
mission. This year's funding request will enable us to reduce these 
outstanding liabilities and ultimately reduce our caretaking burden. 
The second focus area is recapitalizing our Naval Nuclear Laboratory 
facilities and infrastructure systems, many of which have supported the 
Program since its inception over 60 years ago. Maintaining these 
laboratory facilities directly support nuclear fleet operations and 
advanced research and development efforts that make our nuclear navy 
the finest in the world.
    I want to assure the committee that the planning efforts we execute 
in budgeting for current and future projects are done with extreme 
rigor. Our budget profile never deviates far from projections in 
earlier Future Years Nuclear Security Plan submissions. Investments we 
make today in research and development efforts not only advance 
capabilities, but will result in cost savings far into the future. In 
developing our request, I worked closely with the leadership of the 
National Nuclear Security Administration (NNSA), the DOE, Office of 
Management and Budget, and the Department of Defense (DOD). This budget 
not only reflects my priorities for Naval Reactors but also integrates 
them with the other important work of my colleagues at NNSA and DOD. 
There is clear recognition of the valuable capabilities Naval Reactors 
provides and our history in effectively meeting our obligations. I 
understand the difficult budget environment in which Congress must 
craft legislation and I respectfully urge your support for aligning 
allocations with the fiscal year 2019 budget request.

    Senator Fischer. Thank you.
    Mr. Trimble will give a statement on behalf of GAO. 
Welcome.

STATEMENT OF DAVID C. TRIMBLE, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. Thank you, Chairman Fischer, Ranking Member 
Donnelly, and members of the subcommittee.
    The critical missions of the Department of Energy depend on 
the extraordinary capabilities found at the Department and its 
networks of laboratories and production facilities across the 
country. These capabilities serve all of DOE missions, 
including weapons cleanup, nonproliferation, energy, and 
science.
    To successfully execute these missions, DOE must maintain, 
rebuild, and renew both its physical and human capital. DOE's 
efforts, however, are hindered by longstanding management 
challenges that have been well documented in reports by 
Augustine-Mies, Krenold, the Academies, the DOE IG [Department 
of Energy Inspector General], and GAO. Given the growing fiscal 
and budgetary pressures facing the government, DOE can no 
longer afford to poorly manage these billion dollar programs.
    My testimony today will highlight some of the challenges 
facing DOE, including the affordability of NNSA's nuclear 
modernization programs, the growing cost of DOE's environmental 
liabilities, management challenges in the nonproliferation 
program, and DOE's efforts to improve its management of 
programs, projects, and contracts.
    Regarding weapons, NNSA faces challenges with the 
affordability and execution of its nuclear modernization 
programs, which include ongoing and planned LEPs [Life 
Extension Programs], as well as major modernization projects. 
Our review of the fiscal year 2017 SSMP [Stockpile Stewardship 
and Management Plan] found misalignment between NNSA's plans 
and projected budgetary resources which could make it difficult 
for NNSA to afford its planned portfolio of modernization 
programs. We found that NNSA's estimates of program costs 
exceeded the projected budgetary resources included in the 
President's planned near- and long-term modernization budgets. 
As NNSA updates its requirements and plans to respond to the 
new Nuclear Posture Review, NNSA will need to ensure that its 
updated modernization plans are aligned with its potential 
future budgets.
    In addition, it is important to remember that the nuclear 
security enterprise is an interdependent system, and changes in 
one area can resonate throughout the enterprise. As you may 
recall, the 2014 Augustine-Mies report found that the lack of a 
stable, executable plan for modernization was a fundamental 
weakness for NNSA.
    Regarding environmental cleanup, DOE's growing 
environmental liabilities demonstrate the need for DOE to 
improve its oversight and management of its cleanup mission. In 
2017, we added the Federal Government's environmental 
liabilities to our high risk list. DOE is responsible for about 
$384 billion of the $465 billion, and DOE's total cleanup 
liability has been growing. Over a recent 6-year period, EM 
spent $35 billion on cleanup while its liabilities grew by $90 
billion. I should also note that these liability estimates do 
not include all of DOE's future cleanup responsibilities.
    Our recent work has identified opportunities where DOE may 
be able to save tens of billions of dollars such as by taking a 
risk-informed approach to treating a portion of the low-
activity waste at the Hanford site.
    Regarding nonproliferation, DNN [Defense Nuclear Non-
proliferation] has not consistently used program management 
leading practices. We found that DNN's policy did not require 
programs to establish life cycle estimates or measure 
performance against schedule and cost baselines. In addition, 
we have found that DNN's R&D [Research and Development] results 
were not being tracked consistently to help evaluate the 
success of that program.
    To successfully meet the challenges facing it, DOE needs to 
improve its management of programs, projects, and contracts, 
areas that have been on GAO's high risk list for almost 3 
decades. In recent years, DOE has taken some important steps, 
including requiring the development of cost estimates in 
accordance with industry best practices, creating new oversight 
structures, and ensuring that major projects, designs, and 
technologies are sufficiently mature before construction.
    However, significant challenges remain.
    First, DOE still lacks reliable enterprise-wide cost 
information. Without this information, meaningful cost analyses 
across programs, contractors, and sites are not possible. 
Reliable detailed data are also needed for DOE to manage its 
risk of fraud.
    Second, DOE has not always followed its own requirements. 
In 2018, we found that NNSA's analysis of alternatives to 
address its need for enriched uranium showed a bias for one 
option, building a new enrichment facility. We have found a 
similar problem with what the AOA [Analysis of Alternatives] 
has done in other projects such as the low-activity waste 
pretreatment system at Hanford.
    Third, regarding program management, we found in 2017 that 
the defense programs within NNSA had established program 
management requirements. However, for strategic commodities 
like uranium, plutonium, and tritium, these requirements are 
not always being met due to staff shortages. We also noted that 
DOE does not have a unified program management policy.
    In closing, let me note that we have several ongoing 
engagements for this committee examining these management 
challenges, and we strongly support the oversight efforts of 
this committee.
    Thank you. I would be happy to answer any questions you 
have.
    [The prepared statement of Mr. Trimble follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Fischer. Thank you, Mr. Trimble.
    We are very pleased to have Senator Reed, the ranking 
member, with us today, and I would ask if you would like to 
begin our first round of questions, sir.
    Senator Reed. Thank you very much, Madam Chairwoman. I 
thank you not only for your gracious hospitality but for your 
outstanding leadership along with Senator Donnelly. So thank 
you again.
    Madam Secretary, I would like to talk about pit production. 
This has been a saga going on for almost a decade now, and I 
have been involved with it in the committee. We started off 
with a big box concept at Los Alamos and Oak Ridge and 
discovered that was too expensive. We shifted to a modular 
approach. That modular approach was agreed to by DOD, NNSA, and 
Congress in the 2014 National Defense Authorization Act. And 
yet, it seems to have resurfaced again as not a settled issue 
but one that is subject to debate. Senator McCain and I wrote a 
letter to the Secretary, both Secretary Perry and Secretary 
Mattis, about this issue.
    I assume you are aware of all of this, the fact that we 
have assumed in the 2014 NDAA [National Defense Authorization 
Act] this was settled. You are aware of all of this I am sure.
    Secretary Gordon-Hagerty. Yes. I am generally aware of 
everything that you have cited.
    Senator Reed. Thank you.
    You have just, because of this reopening of the issue, 
performed an analysis of alternatives. Your office has. Now, 
that analysis is being reviewed by an engineering contractor. 
Are you going to have this new analysis independently reviewed 
outside of NNSA since we will get a definitive answer we hope?
    Secretary Gordon-Hagerty. So the engineering analysis that 
is currently underway is in its final stages of preparation. 
And currently we have members from Los Alamos, Livermore, 
Savannah River, and also members of the former Rocky Flats 
Plant participating in this entire review. The assessment is 
the final draft data are available, and they are going to be 
reviewing the final draft data in the next week or so, at which 
point I have invited Under Secretary Lord from DOD over. When I 
receive the final draft briefing, we will take a look at it and 
then I will make my recommendation to the Deputy Secretary of 
Energy. We are trying to meet the NDAA guidelines direction of 
11 May.
    Senator Reed. Since this is shaping up to be a battle of 
analysis, I would urge you to get an outside review also. And 
if you could commit to that, I would appreciate it. Please 
consider that.
    Secretary Gordon-Hagerty. I will consider that. Thank you.
    Senator Reed. According to the fiscal year 2018 National 
Defense Authorization Act, it requires NNSA to forward its 
recommendation to DOE, and they in turn must certify it meets 
their need. And you are a member of the Nuclear Weapons 
Council. Can you tell us and update what you said previously 
about the status of this review?
    Secretary Gordon-Hagerty. Yes. So in fact, I attended my 
first Nuclear Weapons Council meeting--I am a member of that 
august group--on my day 3 of my tenure. I found it to be very 
engaging and very enlightening.
    With regard to the plutonium analysis of alternatives and 
the engineering analysis that is currently ongoing, we are 
required, as I mentioned, to have the results to the committee 
through the NDAA requirement by 11 May. And that is why we are 
working so quickly on making sure that the engineering analysis 
that was done by an independent architecture and engineering 
firm is providing us with those data. And we are doing a 
rigorous analysis, again, with Livermore, Los Alamos, and 
Savannah River site personnel, as well as our federal 
employees.
    Senator Reed. Thank you very much, Madam Secretary.
    And gentlemen, thank you for your service.
    Admiral Caldwell, good luck at Groton with the Colorado.
    Admiral Caldwell. Yes, sir. Thank you.
    Senator Reed. We are putting a new attack submarine in the 
water. He is, not me.
    [Laughter.]
    Senator Reed. Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Madam Secretary, as I mentioned in my opening statement, 
the Nuclear Posture Review repeatedly makes the point that we 
have not made sufficient progress towards a responsive nuclear 
infrastructure. When discussing NNSA's production of strategic 
materials, particularly plutonium and tritium, the NPR states 
that programs are planned but not yet fully funded to ease 
these critical production shortfalls.
    I understand NNSA's fiscal year 2019 budget was written 
prior to the NPR's release. But does NNSA have a good 
understanding of the costs that are not reflected in the out-
year projections submitted with this budget?
    Secretary Gordon-Hagerty. With regard to the fiscal year 
2019 submission and related to the NPR, in near term we are 
leaning as far forward as we possibly can and to ensure, 
working closely with OMB [Office of Management and Budget] and 
DOD, that we have the priorities correct and that, again, with 
some congressional authorization that is needed for NNSA to 
move forward, we obtain that authorization so we can move as 
quickly as possible. In terms of out-years, we are going to be 
working on those budget requirements shortly.
    Senator Fischer. In terms of the out-years, can you give us 
some idea of the scale of investment that we are looking at 
here?
    Secretary Gordon-Hagerty. This is going to be a sustained, 
prolonged, and significant investment in our nuclear security 
enterprise. Significant. And the numbers I have heard are up to 
6.5 percent of the DOD budget to support our initiatives long-
term.
    Senator Fischer. Thank you.
    As you know, the NPR declares the administration's intent 
to rapidly pursue Stockpile Responsiveness Program established 
by Congress, and this is something that I am very supportive 
of. When can we expect to see that program implemented?
    Secretary Gordon-Hagerty. We are already undertaking that 
program. We have some requests for that program in the fiscal 
year 2019 budget submission. And we will be taking that on. And 
I can provide you with a fuller explanation for the record.
    [The information follows:]

    Secretary Gordon-Hagerty. The National Nuclear Security 
Administrations (NNSA) is already undertaking the Stockpile 
Responsiveness Program (SRP). The program is designed to provide a 
greater breadth of opportunities to exercise key capabilities and 
skills, the primary benefit of which is the preservation and transfer 
of knowledge across the workforce. It will take some time to develop 
the program and evaluate its proper size and scope in balance with our 
other programs.
    NNSA's Fiscal Year 2019 budget requests for SRP address gaps that 
have been identified in exercising design capabilities to maintain 
resilience in the face of evolving threats and requirements identified 
in the Nuclear Posture Review. The budget request reflects a balance 
between maintaining readiness for future threats and the tempo required 
to execute those life extension programs that are going forward to meet 
known present requirements.
    While we are looking at ways to improve NNSA's response time to 
meeting national needs, recommendations are made collaboratively with 
the Department of Defense through the Nuclear Weapons Council.

    Senator Fischer. And do you have in place a process so that 
you can evaluate the proposals that come from that?
    Secretary Gordon-Hagerty. Absolutely.
    Senator Fischer. Can you let us know, are you working with 
labs in order to establish that program? Can you give us a 
little more detail on it?
    Secretary Gordon-Hagerty. Sure. One of the things that I am 
committed to do, Madam Chairman, is absolutely working as a 
team. This is not a federal directive coming down to the labs' 
plants and sites. We are going to do whatever we can to 
communicate with, work with, and ensure that the laboratories 
and plants and sites that have to execute these missions are 
fully engaged with and have the opportunity to provide the 
input that is necessary for us to maintain a fulsome program. 
And it is impossible for us to do so from Washington.
    So I have already had my first tri-lab meeting with the lab 
directors. I have already spoken with all my field office 
managers, all of the plants and site directors, and they 
understand that my commitments to them will be open 
communications, and it must be two-way so we can ensure that 
all of the requirements necessary to effect or to execute our 
missions are made with an engagement strategy of everyone from 
headquarters to the field.
    Senator Fischer. Thank you. I hope you will continue to 
keep Congress informed on that to make sure we are meeting the 
objectives that were laid out by Congress.
    Secretary Gordon-Hagerty. I will. Thank you.
    Senator Fischer. And as you note in your opening statement, 
more than half of NNSA's infrastructure is over 40 years old, 
and roughly 30 percent dates back to the Manhattan Project. 
Last year, the Congress directed NNSA to establish the 
infrastructure modernization initiative in order to reduce the 
backlog of deferred maintenance at least by 30 percent by 2025, 
and that is a detailed road map.
    I understand that you are currently formulating a plan for 
how to execute this initiative. And when do you expect that 
plan to be completed so that you can brief Congress?
    Secretary Gordon-Hagerty. I was just briefed on that plan 
yesterday. And they are putting together the plan right now. I 
believe that we can probably have that plan to you by the end 
of this year.
    Senator Fischer. And have you established any kind of 
guidance or criteria for project consideration on that?
    Secretary Gordon-Hagerty. I understand that there is, but I 
am happy to get back to you with that response.
    [The information follows:]

    Secretary Gordon-Hagerty. To prioritize projects within available 
resources, standardized processes have been implemented to rank annual 
recapitalization, disposition, and maintenance activities across the 
enterprise.
    For example, NNSA uses a prioritization methodology that ranks 
investments to optimize risk reduction per dollar by evaluating key 
criteria for Recapitalization projects. Criteria evaluated include 
program requirements and risk reduction, safety risk reduction, 
increases in operational efficiency and/or productivity, and deferred 
maintenance reduction. Similarly, NNSA ranks excess facility 
disposition projects by evaluating risk reduction, cost effectiveness, 
and cost savings.
    Currently, funding for Maintenance and Repair of Facilities is 
prioritized within an enterprise risk management framework based on 
mission needs, probability of failure of a system or a component, and 
risk determination with regard to safety, security, and environmental 
requirements. Investments focus on structures, systems, and components 
that are considered essential to NNSA's national security missions. 
NNSA is transitioning to the BUILDER Sustainment Management System 
(which was developed by the U.S. Army Corps of Engineers) to capture 
and predict the physical condition of infrastructure over time. When 
fully implemented, BUILDER's standards and policies prioritization 
capabilities will be used to inform maintenance decisions across the 
NNSA enterprise. These BUILDER capabilities will allow NNSA to take 
less risk maintaining critical building systems (e.g., fire protection) 
and facilities than other less critical systems and facilities. 
BUILDER's standards and policies will be used to assist NNSA in 
assigning maintenance and replacement priorities to specific facilities 
and specific systems in those facilities as very high, high, medium, 
low, or no repair.
    Additional information will be provided in NNSA's Infrastructure 
Modernization Initiative Implementation Plan, which will be available 
later this year.

    Senator Fischer. Thank you.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    And thank you to the witnesses for being here.
    Secretary Gordon-Hagerty, if we include the low-yield 
warhead, we have upward of six major programs, all occurring at 
the same time, and this does not include modernizing your 
infrastructure. My understanding is they all merge at the 
Kansas City plant and at Pantex in Amarillo, Texas. What are 
you doing to address this?
    Secretary Gordon-Hagerty. Senator Donnelly, as I had 
mentioned, one of my priorities will be to ensure that we have 
active and open communications with not only the headquarters 
and federal field elements but, obviously, the teams that have 
to execute these missions. So in order to ensure that we have 
the capabilities, the infrastructure, the technical personnel, 
as well as the technicians and the support staff in order to be 
able to execute all of these missions on time, on budget, and 
within the parameters set forth by the Nuclear Weapons Council 
to ensure that our customer, the Department of Defense, has the 
needs and has the capabilities that they require for our 
nuclear deterrent, I am making sure that all of those teams 
will come together. I am certain that they have in the past, 
but there is a new administrator and she is going to ensure 
that that kind of robust organizational framework is put in 
place.
    Senator Donnelly. It is an awful lot of moving parts all at 
the same time --
    Secretary Gordon-Hagerty. I agree.
    Senator Donnelly.--all kind of coming to the same place at 
the same time as well. And so we just have to make sure we are 
on top of that.
    Mr. Owendoff, what are you doing to begin removing the 
Hanford low-activity waste from the tanks, and when will you 
begin, and when do you hope to finish?
    Mr. Owendoff. Thank you, Senator Donnelly.
    We have a contract goal, and the Secretary is very 
committed to be able to start making glass by the end of 
December 2021. We have a consent decree milestone that says we 
need to have started by December of 2023. So we have some time. 
But we are working on the December 2021 date for low-activity.
    We have felt, sir, that we need to start the first process 
building. There are three. We need to get the first one in 
place and running, and then work the next two, the high-level 
waste and the pretreatment facilities. Those other two 
facilities have a consent decree date of 2033 and 2035 to be 
operational.
    Senator Donnelly. Thank you.
    Admiral Caldwell, how much do you expect it will cost to 
complete the fuel examination facility at Idaho, and does that 
include the hot cells to handle the fuel?
    Admiral Caldwell. Yes, sir. Thanks for the question. And I 
would like to say up front, Chairman Fischer and Ranking Member 
Senator Donnelly, thanks for the support of this subcommittee. 
It has been very important to my program and my ability to 
deliver safe, reliable, and effective nuclear propulsion to the 
Navy.
    Sir, regarding your question, there are multiple aspects 
and phases that I need to just walk you through quickly.
    The first is the facility that we have in Idaho does three 
things for us. It receives spent fuel, allows us to handle it 
safely, and package it. We are capitalizing that capability 
with the spent fuel handling facility, which this subcommittee 
has supported. That facility will come on line initially in 
2024 and then be fully operationally capable in 2025.
    The second component that occurs out at the expended core 
facility is the examination of naval spent fuel. That is 
important because it allows us to assess how that fuel 
performed over life and then to make modifications to our 
future fuel systems, and the process that that has enabled us 
to deliver the life of the ship or be prepared to deliver the 
life of the ship core for Columbia.
    That examination's recapitalization is one that I just 
defined the mission need for last year. And so we are coming 
our progression of alternatives and study to determine exactly 
what the requirements are and what the costs will be. And that 
will be reflected in future FYNSPs [Future Year Nuclear 
Security Plan]. Right now, I think the cost is going to be 
somewhere on the order of over $500 million to maybe slightly 
over $1 billion, but it is not defined yet, sir, and I have 
work to do to do that.
    The last piece is the capability to create specimens and 
transport those to the advanced test reactor that allows us to 
determine how fuel and how materials will react in future 
cores. That is important for future design. That is the third 
component that we still have to do more study with our partners 
in DOE who run the advanced test reactor. As they think about 
their future requirements and infrastructure that they are 
going to develop, we want to do that in partnership with them 
to make sure that our needs are met, as well as to understand 
what we need to invest in specifically for naval reactors.
    Senator Donnelly. Thank you, Admiral.
    Thank you, Madam Chair.
    Senator Fischer. Thank you.
    Senator Warren?
    Senator Warren. Thank you, Madam Chair, and thank you, 
Ranking Member, for having this hearing.
    And thank you to the witnesses for being here.
    The administration's Nuclear Posture Review calls for two 
new low-yield variants to our existing nuclear arsenal, a low-
yield submarine-launched ballistic missile, or SLBM, in the 
near term, followed by a low-yield sea-launched cruise missile. 
And I would like to focus, if I can, on the SLBM for now.
    Ms. Gordon-Hagerty, I understand that NNSA plans to modify, 
quote, a small number, closed quote, of existing W76 warheads 
on our Trident missiles so that they are configured for a low-
yield primary only explosion.
    Now, I know the W76 is already going through life extension 
programs. So I would like to ask you some questions just about 
how that is going to work in practice. I just want to try to 
understand this. Can you say how many W76 warheads NNSA intends 
to modify in this way?
    Secretary Gordon-Hagerty. Senator, that number is 
classified. I am not able to provide that to you. But I would 
be happy to do that in closed session.
    Senator Warren. Okay.
    Let me ask another question then related to this. As I 
understand it, the current W76 life extension program is due to 
be completed by the end of fiscal year 2019. So how long will 
it take NNSA to modify the desired number, whatever that is, of 
warheads to detonate at a lower yield? Let me just ask related 
to that, do you anticipate that you can complete the low-yield 
modifications before the life extension production line closes 
at the end of this year?
    Secretary Gordon-Hagerty. Senator, we are looking into that 
right now, and based on the program of record administered by 
the Nuclear Weapons Council and approved by Congress, we are in 
the process, as you rightly state, of nearing the completion of 
our life extension program for our 76-1. We are leaning as far 
forward as possible, putting schedules together, plans, and the 
things that we are authorized to do in anticipation of 
receiving congressional authorization to proceed with the low-
yield ballistic missile warhead.
    Senator Warren. So you cannot give me an answer right now 
on how long it will take to do this?
    Secretary Gordon-Hagerty. We are putting those plans 
together right now, as we speak, because as you rightly state, 
we have several life extension programs ongoing right now. This 
should not be a significant--this should not have a significant 
effect because we are, as you said, undertaking the LEP, life 
extension program, right now with the 76-1.
    Senator Warren. But you do anticipate that you will be able 
to complete before the life extension programs are completed.
    Secretary Gordon-Hagerty. It is dependent certainly on DOD 
requirements and when they will require to have the 
modifications.
    Senator Warren. So you are not certain on that yet. I just 
want to understand.
    Secretary Gordon-Hagerty. No. We are working with the NWC, 
Nuclear Weapons Council, de-action officer level to ensure we 
can support the scheduling.
    Senator Warren. So your budget request does not appear to 
specify any additional funding for the SLBM modifications 
called for by the Nuclear Posture Review. Are funds included 
for this purpose in the fiscal year 2019 request, and if so, 
how much?
    Secretary Gordon-Hagerty. No, there are no funds related 
specifically to this activity. However, we are working closely 
with OMB and with DOD to ensure that any requirements necessary 
to be put forward for budget requirements for this process--we 
will be working with OMB on that.
    Senator Warren. But do you anticipate submitting a 
reprogramming or supplemental request, or do you expect to be 
using 2018 funds?
    Secretary Gordon-Hagerty. At this time, I cannot tell you 
how that would be submitted if necessary, but we are getting a 
good idea about what the costs would be associated with this 
modification.
    Senator Warren. And one last question. What kind of testing 
will you need to conduct to ensure that whatever modifications 
are made will not impact the safety, security, and 
effectiveness of the warhead?
    Secretary Gordon-Hagerty. Because this is a modification to 
an existing warhead, the science-based stockpile stewardship 
and all of the data that we have collected thus far should be 
adequate to meet the needs of the modification to the 76.
    Senator Warren. So you are not anticipating any additional 
testing?
    Secretary Gordon-Hagerty. Additional testing?
    Senator Warren. To ensure that the modifications have not 
--
    Secretary Gordon-Hagerty. Well, because of the science-
based stockpile stewardship, the high performance computing, 
all of the other science and engineering practices will be 
applied to this as well.
    Senator Warren. You know, I am just concerned here. Thank 
you.
    Your predecessor, retired Admiral Frank Klotz, recently 
gave an interview in which he said that NNSA is already, quote, 
working pretty much at full capacity. Given the number of life 
extension programs that NNSA is already overseeing and the 
demands of the stockpile stewardship program, I just have real 
concerns about your agency's capacity to take on additional 
work. And I think that maintaining our existing arsenal and our 
current program of record has to be our priority here.
    Thank you, Madam Chair. Thank you.
    Senator Fischer. Thank you, Senator.
    We are letting Senator Cotton collect his thoughts here 
before we call on him.
    But, Admiral, if I could ask you a question. In 2017, the 
Navy acknowledged the discovery of a manufacturing defect in 
the prototype electric-driven propulsion system for the 
Columbia-class reactor. And can you please update us on the 
progress that you are having in addressing this issue?
    Admiral Caldwell. Yes, ma'am, gladly. And you are speaking 
specifically about the electric drive or the integrated power 
system for the Columbia-class submarine. And again, I should 
note that this is funded on the Navy side not on the DOE side.
    We did have a manufacturing defect last year, and 
specifically what happened was that some of the components for 
a pre-production motor were not properly insulated. And what we 
discovered was that the sub-tier vendor did not properly flow 
down requirements to the manufacturer. And so as we were 
putting together this prototype motor, we learned of this 
deficiency, and it required us to go back and have another 
motor built, which the sub-tier vendor is executing. And that 
is going to delay our testing program.
    Our testing program comes together for full integration 
testing at a facility up in Philadelphia with life-sized, real-
sized components, pre-production, and they will test the entire 
system end to end. And then we will take what we learned from 
that and roll that into the final design that will go into the 
first ship.
    So while we have lost some time on the pre-production 
motor, we still have been able, with shortening some test spans 
and doing some work in parallel, to preserve the required 9-
months margin that I have specified to the required in-yard 
date for construction of the ship.
    The bottom line is we are still on track to support 
construction of the Columbia starting in 2021.
    Senator Fischer. So there really was not a negative impact 
to the larger schedule by this.
    Admiral Caldwell. It certainly put some pressure on it, 
ma'am, and it has required a significant amount of oversight to 
be able to execute it. And because we have had to overlap some 
portions of the test program, I think it inserts a little more 
risk than we would have originally preferred.
    But we are managing that extremely tightly, and I get 
frequent reports on it. And in fact, we are starting to test 
with the components that we have in hand already up at the 
facility in Philadelphia. So we are making progress and I will 
continue to keep you informed on that.
    Senator Fischer. Good.
    Have there been any other challenges in some of the new 
technology that is associated with the Columbia-class?
    Admiral Caldwell. The other big challenge that we have in 
Columbia-class is the manufacturing of the life of the ship 
core. It will be a pretty big step for us. It is going to be 
based on our experience with developing and building cores for 
many decades. And we knew this was going to be a challenge 
because to get to the over 40-year life of the core for 
Columbia was going to require the use of new materials.
    So in 2010, we decided that we needed to go prove out the 
design and the ability to manufacture using these materials by 
building a special core to go into a reactor prototype and 
training site in New York. We call that core the technology 
demonstration core. And that has allowed us to prove that we 
can manufacture on a large scale and that we can meet our 
design requirements.
    That core is nearly complete and it will be completed next 
year, and we will go to the Ballston Spa Kesselring site where 
it will refuel the S8G prototype, and that will help us prove 
out all the work that we have done to prepare for Columbia.
    So we are on track, and I expect to start building the core 
for Columbia next year, thanks to the money and the support 
that we have gotten from this subcommittee. So, again, it is 
not without challenge but we are overcoming those challenges as 
we encounter them, and we are on track to support the required 
in-yard date for the Columbia-class submarine.
    Senator Fischer. Thank you, sir.
    Senator Cotton?
    Senator Cotton. Thank you. I apologize for my tardiness. I 
was presiding over the Senate. It was fascinating.
    I want to thank you all first for the jobs you do and very 
important work. And it is always not work that is in the 
headlines, and I think we should all be thankful for that given 
the nature of your work, that it is not frequently in the 
headlines.
    Secretary Gordon-Hagerty, let me just ask at a high level 
because I know you have addressed some of the specific programs 
in terms of the life extension and the modernization programs 
for our warheads. Is everything on track as of today?
    Secretary Gordon-Hagerty. As of today, everything is on 
track and on budget.
    Senator Cotton. If that were to change in the future, what 
would be the main causes for that change? What are the risk 
factors that you see in the future to any of those programs?
    Secretary Gordon-Hagerty. There are some scheduling issues 
certainly with the W80-4. We need to continue to be in 
alignment with the Department of Defense on that. And also 
continuing sustained funding, predictable funding, is what is 
really going to be the cause if any of those schedules slip.
    Senator Cotton. And that is it?
    Secretary Gordon-Hagerty. At the present time.
    Senator Cotton. Thank you.
    Admiral Caldwell, let us turn to you. I know this is not 
exactly in your lane today, but I suspect you have worked on it 
some in the past. There is obviously a lot of debate in 
Congress about the National Defense Strategy and the Nuclear 
Posture Review and the return of some low-yield weapons to our 
arsenal. I know there is lots of sophisticated game theory type 
arguments you could make. Is the simplest argument to make is 
that Russia has them and we do not?
    Admiral Caldwell. I think the best argument to make, sir--
first off, I support the Nuclear Posture Review. I support a 
strong nuclear deterrent. And I think the best argument to make 
is no matter who the potential adversary, that our nuclear 
deterrent must be strong, capable, and ready and must be ready 
to respond across a range of future scenarios.
    The important thing to note is deterrence--what really 
matters is what is in the mind of the adversary. If they do not 
think we have a capability to respond in a variety of scenarios 
or that we are not ready or that it is not credible, then 
deterrence fails. So I believe that the plans and the intent of 
the Nuclear Posture Review is exactly where we need to go for a 
strong United States.
    Senator Cotton. In terms of that flexible, ready response 
across a range of scenarios, so one of the threats there is 
that if the enemy possesses low-yield warheads, say, in the 
single digit kiloton range, yet it perceives us only to have 
high-yield, city-killing types in the dozens, hundreds of 
kiloton or even megaton range, they think they might be able to 
get away with detonating a low-yield weapon because we would 
not respond with a high-yield weapon.
    Admiral Caldwell. That is correct, sir. We do not want an 
adversary to think that we are self-deterred.
    Senator Cotton. Thank you.
    Let us get back a little bit more into your current lane. 
Do you anticipate any problems in supplying additional reactors 
if the decision is made to increase the number of ballistic 
missile submarines?
    Admiral Caldwell. Sir, as of now, I am not aware of any 
plans to increase the number of ballistic missile submarines.
    Senator Cotton. Maybe they will be coming one day.
    Admiral Caldwell. But certainly we will always welcome more 
submarines.
    What I would tell you is we are in close dialogue with our 
nuclear industrial base, frequent. And we know their business 
well. We are good partners with them. We have had dialogues on 
the range of future options in terms of additional ships, 
including carrier build rates. And as long as the nuclear 
industrial base has sufficient warning, they can make the 
proper investments in people, equipment, and facilities to 
deliver what the Nation needs.
    Senator Cotton. On that topic, we used to have surface 
ships besides aircraft carriers that were nuclear-powered. We 
no longer have those. Why is that?
    Admiral Caldwell. We had those cruisers, and then as they 
reached end of life, there was no intent to recapitalize them. 
And with every new ship class that comes into existence, we 
examine what the propulsion system should be and we assess the 
mission, the patrol cycles, the deployment cycles, the crew 
cycles. And we also assess the cost, and part of that is the 
cost of fuel and how the ship will be used. And in the analysis 
of alternatives, if it makes sense to use nuclear propulsion, 
we would. But to date, since the retiring of those nuclear-
powered cruisers, the ships that have been manufactured and use 
nuclear propulsion are all carriers and all submarines, and I 
think that is a good thing. I know that in future scenarios, as 
we continue to decide what future classes we need, that we will 
continue to pursue these analyses of alternatives and make a 
decision based on cost and what the mission needs are.
    Senator Cotton. Thank you.
    Senator Fischer. Thank you, Senator.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Mr. Trimble, where do you see the greatest bottlenecks for 
the NNSA as we begin all of these designing production 
programs?
    Mr. Trimble. Thank you for the question.
    I think that is a difficult one to answer simply because as 
you lay out, the complex is working at levels not seen since 
the Cold War, and you are operating with a very tight schedule 
across all the LEPs, while simultaneously doing physical 
modernization for the core facilities for uranium, plutonium, 
et cetera. So it is a very complex system that needs to be 
tightly managed, tightly orchestrated. So the potential for 
things to go off the rails anywhere is there.
    By the way, if I had to pick one area, I think as you 
mentioned, Kansas City jumps to mind. I know we have some 
ongoing work looking at Kansas City for this committee. They, I 
believe, make roughly 80 percent of the non-nuclear components 
for the weapons. They are already planning to go to or already 
at two and three shifts. And over the next 5 years, we have 
been told they are looking to hire about 1,000 people. So that 
is quite a daunting undertaking and it is sort a fulcrum for 
all of our efforts.
    Throwing another challenge at Kansas City in terms of the 
hiring, there is another GAO high risk area dealing with 
security clearances. So the ability to hire those people who 
all need Q clearances is also going to run up into sort of the 
mess that is the clearance process currently in the Federal 
Government.
    Senator Donnelly. Thank you.
    Admiral Caldwell, a life of core fuel is your current 
milestone for the Ohio-replacement program. If we go to life of 
core fuels for the fleet, what fuel forms of the future are you 
looking at?
    Admiral Caldwell. Sir, thanks for the question.
    We currently manufacture life of ship fuel for all of the 
submarines, and for the carriers, it is a once in their life 
refueling at roughly the 25-year point. With Columbia, again, 
life of the ship core enables us to avoid refuelings, taking 
the ship off line, saves money, saves force structure.
    What is next? Well, the Navy has a need for more power as 
we decide to put more capabilities on ships going forward. They 
need greater flexibility. Certainly the Navy would maybe like, 
in our submarine force, to have more speed. So these things 
require us to put more energy in the core if we can also make 
future cores more affordable because cost savings is something 
that we are focused on, as well as meeting the requirements for 
strong, stable, reliable nuclear propulsion.
    So what is next is that we plan to do, given the money 
requested in the presidential budget, is to take that Virginia 
core and see how we can make some modifications to it. And our 
plans right now are to make some of those modifications for 
installation on a late model Virginia and then be ready for a 
future SSN [Submersible Ship Nuclear-Powered]. And we believe 
we can put some more energy in there and make it more 
affordable, to the tune of perhaps maybe a $50 million 
reduction per ship. So that is substantial.
    What is after that would have to be pretty much a 
revolutionary change or a step change in core design using a 
completely different system. And we are working on that. We are 
making pace on that. But the next step is to take this 
Virginia-class core and take it to the next level using sort of 
the current model.
    Senator Donnelly. Thank you.
    Secretary Gordon-Hagerty, my understanding is that in 
developing the fiscal year 2019 budget, we reduced the funds to 
the laser fusion efforts which underpin a lot of the science 
programs. In particular, we have proposed to phase out laser 
fusion at Rochester, which is the seed corn of future 
scientists for the weapons programs in many ways.
    Have you assessed what impacts this will cause in the short 
and long term?
    Secretary Gordon-Hagerty. Senator Donnelly, I recently 
learned about this, and I have looked into it personally. We 
have near-term and long-term priorities in our science-based 
stockpile stewardship programs. And it so happens that part of 
the inertial confinement fusion program, of which NIF-Z 
[National Ignition Facility] at Sandia and NIF at--National 
Ignition Facility at Livermore, Z at Sandia, and the LLE 
[Laboratory for Laser Energetics] at University of Rochester, 
the Omega program, are part and parcel of those programs. 
However, because of near-term priorities in our science-based 
stockpile stewardship and our requirements, we have decided 
that it is best for us to ramp down the activities at 
University of Rochester. While I recognize that, yes, it is a 
source oftentimes of future scientists and engineers because 
they get some training there, we are looking at what it takes 
to ensure that we are supporting our science-based stockpile 
stewardship and management program. And therefore, we have 
determined that we are going to be putting it on a 3-year ramp-
down.
    Senator Donnelly. Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Donnelly.
    I would like to thank the witnesses for being here today. 
If we do have some questions for the record and we get those 
submitted to you, I would hope that you could respond to us 
within a couple weeks with your answers.
    Senator Fischer. And with that, I thank Senator Donnelly, 
and the meeting is adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Kirsten Gillibrand
               inertial confinement fusion (icf) program
    1. Senator Gillibrand. Secretary Gordon-Hagerty, the ICF program 
supports critical experimental platforms that complement and validate 
computer modeling to maintain the Nation's nuclear stockpile without 
underground nuclear weapons testing. We have worked very hard to ensure 
a stable program that allows the Department, its national laboratories, 
and its university and industry partners to plan and execute the 
experimental work necessary to ensure the safety and reliability of our 
nuclear stockpile. However, the Administration's fiscal year 2019 
budget request would cut experiments at the National Ignition Facility, 
propose the shutdown of the OMEGA Laser Facility at the University of 
Rochester in New York, and terminate all university programs. The work 
of hundreds of scientists and researchers would end and efforts to 
achieve ignition, which would have tremendous benefits for the Nation's 
nuclear stockpile stewardship, would be considerably slowed if not 
abandoned. This fiscal year 2019 budget request will lead to the loss 
of U.S. leadership in these critical national security areas. Please 
provide an explanation for these proposed program cuts and explain how 
these proposals will not weaken the stockpile stewardship program.
    Secretary Gordon-Hagerty. The proposed budget for Fiscal Year (FY) 
2019 redirects resources to the most immediate stockpile stewardship 
needs, reflecting difficult choices that balance priorities between 
meeting near-term and long-term needs for the nuclear stockpile. The 
Inertial Confinement Fusion Ignition and High Yield (ICF) Program will 
continue to provide essential data and supporting expertise required 
for the ongoing assessment and certification of the nuclear weapon 
stockpile at the proposed $419 million funding level for fiscal year 
2019. This level of funding not only preserves the core of the most 
critical experimental capabilities supported through the ICF program, 
ensuring that there will be no impact to experiments supporting ongoing 
life extension programs, but also advances experimental platform 
development for weapon outputs and effects studies. In the long-term, 
achieving laboratory ignition remains a goal for the Stockpile 
Stewardship Program, as does the reconstitution of the academic 
alliances and university partnerships in a way that complements NNSA's 
Research & Development (Science) and Advanced Simulation & Computing 
Programs.

    2. Senator Gillibrand. Secretary Gordon-Hagerty, I was pleased to 
hear during your Senate confirmation hearing that recruiting and 
maintaining the ``best and the brightest'' is a priority for you and 
NNSA. The OMEGA Laser Facility at the University of Rochester's (UR) 
Laboratory for Laser Energetics (LLE) is one of the three leading 
facilities for NNSA's Inertial Confinement Fusion program. As the DOE's 
and NNSA's largest university-based research center, the LLE is the 
only major facility that trains graduate students and also supports 
over 400 users from 55 universities and over 35 centers and national 
laboratories. More than 330 UR students alone have completed their 
Ph.D. degrees with LLE's support and 100 students are currently 
conducting research there. Given that LLE clearly serves as a vital 
pipeline to educate and train future talent, a priority you have 
identified for NNSA, I was disappointed to see the budget request would 
propose a 50 percent cut to the LLE in fiscal year 2019 and shut it 
down completely in three years. How do you reconcile your testimony and 
prioritization of talent with the President's request? How can we 
ensure that LLE continues to train the future workforce to help meet 
our national security needs?
    Secretary Gordon-Hagerty. The role that LLE has played in educating 
and developing a trained workforce in the high energy density (HED) 
area is valued, and NNSA has recommended continued support for a 
University of Rochester-based research center focusing specifically on 
fundamental HED science and education, continuing their rich history of 
workforce development for the weapons program.
    The proposed budget for Fiscal Year 2019 reflects difficult choices 
that balanced priorities between meeting near-term and long-term needs 
for the nuclear stockpile including workforce development and training. 
The ability to recruit and retain the best and brightest is a priority 
for NNSA, and we will continue to strive to meet this challenge across 
all of the scientific, engineering, and manufacturing disciplines 
required to meet our mission.
                               __________
              Questions Submitted by Senator Joe Donnelly
                      waste isolation pilot plant
    3. Senator Donnelly. Mr. Owendoff, your budget includes major 
increases for the Waste Isolation Pilot Plant (WIPP) to get it back up 
and running. The Department has proposed to terminate the MOX program 
and send the plutonium to WIPP. What will the impact be on WIPP with 
its re-start and back logged waste from other defense sites--and is 
there enough room for it?
    Mr. Owendoff. Independent of the plutonium disposition program, DOE 
is taking actions to ensure adequate capacity at the Waste Isolation 
Pilot Plant (WIPP) pursuant to its mission to accept transuranic waste 
streams resulting from atomic energy defense activities across the DOE 
complex.
    The Department is pursuing a change to the method of calculating 
the Volume of Record consistent with the WIPP Land Withdrawal Act (LWA) 
capacity limit for transuranic waste of 6.2 million cubic feet 
(approximately 176,000 cubic meters). DOE submitted a permit 
modification request in January 2018 to the New Mexico Environment 
Department; the request is under review.
    DOE is mining additional panels and pursuing the Volume of Record 
change whether or not additional surplus plutonium is designated for 
disposal at WIPP.
                              hanford site
    4. Senator Donnelly. Mr. Trimble, you looked at grouting as an 
alternative to turning the other 60 percent of the low activity waste 
at Hanford into glass. How much will that save and where could it be 
disposed of?
    Mr. Trimble. DOE may be able to reduce certain risks and save tens 
of billions of dollars by adopting alternative approaches to treat a 
portion of Hanford's low-activity waste (LAW).
    In May 2017, we reported on DOE's efforts to treat the low-activity 
portion of the tank waste at the Hanford Site. DOE currently plans to 
treat up to one-half of the low-activity waste (LAW) at Hanford with a 
process called vitrification, which immobilizes the waste in glass. 
This is because the Waste Treatment Plant--DOE's current planned 
approach to treating Hanford's tank waste--is currently designed to 
treat only one-third to one-half of Hanford's LAW, meaning that DOE 
will have to modify the WTP or build another facility to treat the 
supplemental LAW, whether or not vitrification is chosen as the 
treatment method. DOE currently plans to dispose of Hanford's vitrified 
LAW in an on-site landfill called the Integrated Disposal Facility. 
However, at the Savannah River Site, DOE is grouting the site's LAW; 
grout is a process that immobilizes waste in a concrete-like mixture. 
We found that the best available information indicates that DOE's 
estimated costs to grout LAW at the Savannah River Site are 
substantially lower than its estimated costs to vitrify LAW at Hanford, 
and DOE may be able to save tens of billions of dollars by 
reconsidering its waste treatment approach for a portion of the LAW at 
Hanford.
    We also reported that, according a few of the 21 experts that 
attended GAO's meeting convened by the National Academies of Sciences, 
Engineering, and Medicine, Hanford's LAW could be treated and disposed 
of at an alternate location. DOE is currently conducting a 
demonstration project that would grout some of Hanford's LAW and 
transport it to the Waste Control Specialists' site in Texas for 
permanent disposal. According to DOE officials, disposal of grouted 
Hanford LAW at the Waste Control Specialists' site has the potential to 
save significant costs associated with the construction and operation 
of an additional vitrification facility. According to an estimate 
conducted by Waste Control Specialists, disposal of Hanford's LAW at 
the site in Texas could save DOE up to $16.5 billion when compared with 
the costs of constructing and operating a second vitrification facility 
for the treatment of supplemental LAW.

    5. Senator Donnelly. Mr. Owendoff, what is the status of the 
Hanford high level waste pretreatment project and are you keeping 
engineering capability alive while you concentrate of turning the low 
activity waste into glass?
    Mr. Owendoff. Work on the Hanford Waste Treatment and 
Immobilization Plant's Pretreatment (PT) Facility has been suspended 
since 2012 because of the need to address technical issues. We are 
making steady progress on addressing the remaining three identified 
technical issues at the PT Facility including: pulse jet mixer 
controls, erosion/corrosion in piping and vessels and black cell 
equipment structural integrity.
    DOE expects its contractors to effectively manage human capital to 
ensure the right expertise is brought to bear where and when needed.
               naval reactors decommissioning and cleanup
    6. Senator Donnelly. ADM Caldwell, I understand you are working 
with DOE Environmental Management to have them perform some cleanup 
operations. To what extent will DOE Environmental Management perform 
this mission and on what facilities--will it extend to the current fuel 
pond at Idaho when the new one is built?
    ADM Caldwell. Naval Reactors (NR) has pursued a collaboration 
effort with DOE-EM to capitalize on their expertise and processes to 
increase our rate in reducing environmental liabilities. Naval Reactors 
and DOE-EM are currently developing the strategic framework necessary 
to lay out a prioritized plan across the Future Years Nuclear Security 
Plan, identify the project management processes to control funding 
transfers and project execution, and establish appropriate memorandums 
of agreement to define the nature of the partnership.
    The plan and budget profile for NR D&D activities over the next 5 
years is required to meet current mission needs and is based on using 
our current NR D&D processes and subcontractor (Babcock & Wilcox Shaw 
Remediation [BWSR]). Naval Reactors' contract with BWSR extends through 
fiscal year 2019 with an option year in fiscal year 2020. BWSR will 
continue to perform D&D activities under the scope of this contract.
    In fiscal year 2019, Naval Reactors and DOE-EM will accomplish the 
necessary planning and scoping activities to enable a transition to 
utilize DOE-EM to perform D&D work. Our goal is to be in a position to 
execute initial pilot projects in fiscal year 2020 and expand to other 
projects in future budget years. The specific pilot projects have not 
yet been determined.
    Under this new arrangement, DOE-EM would perform large-scale D&D 
projects, and Naval Reactors would continue to perform unique, smaller-
scale efforts (such as high-curie work within an active building) using 
in-house personnel or via subcontract based on the nature of the work 
and the most efficient use of resources.
    Naval Reactors would oversee the work and establish program 
management checkpoints where DOE-EM must obtain approval to proceed, to 
be specified in a Memorandum of Agreement under development. Naval 
Reactors and DOE-EM would utilize the principles of DOE Order 413.3B to 
define and control this program of work. The work would be performed by 
DOE-EM contractors to DOE-EM requirements, under a DOE-EM managed 
contract. Naval Reactors would provide annual transfers to DOE-EM based 
on the approved scope.
    The earliest that D&D work could commence on the Expended Core 
Facility at the Naval Reactors Facility in Idaho is estimated to be in 
the 2040s. Therefore, determination of DOE-EM involvement in the D&D of 
this facility will be made at a later date.

    7. Senator Donnelly. ADM Caldwell, at one point I understand you 
were looking at commercial sites to dispose of the decommissioned 
reactor vessels. What is the status of that effort?
    ADM Caldwell. Naval Reactors is preparing to conduct an 
Environmental Impact Statement (EIS) for CVN 65 (the first 
decommissioned nuclear aircraft carrier) to assess: 1) commercial 
recycling of the non-nuclear portions of the ship followed by reactor 
compartment packaging at Puget Sound Naval Shipyard (PSNS); and 2) 
commercial dismantlement and disposal of the reactor plants and 
recycling of the remainder of the ship. The EIS process will allow us 
to obtain input from stakeholders including the public on options for 
disposal. The EIS process is expected to start in the Fall of 2018 and 
span approximately three years.
    In 2012, the Navy issued an Environmental Assessment (EA) and 
Finding of No Significant Impact (FONSI) for disposal of the CVN 65 
reactor plants at PSNS, where submarine and cruiser reactor plant 
disposal has traditionally been done. The eight reactor compartments 
would be removed from the ship as it is dismantled and individually 
sealed in high-integrity packages for transport to the Department of 
Energy's Hanford site.
    However, as the technical details to actually perform the work 
outlined in the 2012 EA and FONSI developed, PSNS estimates for the 
overall cost as well as the time in drydock grew to where there was 
substantial doubt that the plan outlined in the EA and FONSI could be 
executed without additional cost and impact on active ship work. This 
cost and schedule growth, in part, led to a reexamination of additional 
alternatives. One such alternative is packaging the eight individual 
reactor compartments from CVN 65 as four pairs, which reduces the 
shipyard's efforts relative to the work outlined in the 2012 EA/FONSI. 
However, the larger and heavier reactor compartment disposal packages 
could require modification to the transportation route from Bremerton, 
Washington to the Hanford site.
    Separately, within the last decade, the cost to commercially 
recycle non-nuclear Navy ships declined to almost zero, and the idea of 
partial commercial dismantlement was developed. The number of large 
commercial nuclear power plants being dismantled in the commercial 
industry also increased. Given that both the commercial nuclear 
dismantlement industry as well as the commercial shipbreaking industry 
offered the potential for substantially reduced cost with proven 
results, without impacting Navy facilities, it seemed prudent for the 
Navy to evaluate this alternative.
    At this time, Naval Reactors does not have a preferred choice for 
CVN 65 disposal. The objective is to recommend an approach that is 
executable, environmentally responsible, and effective in the 
utilization of Navy resources.
                          savannah river site
    8. Senator Donnelly. Secretary Gordon-Hagerty, you are looking at 
using the existing MOX building and its 400,000 square feet of un-
finished space to machine plutonium, yet your own analysis says you 
need only about 100,000 square feet of that space. What are you going 
to do with the rest of it since this facility was custom built for 
making MOX fuel with 3 foot thick walls?
    Secretary Gordon-Hagerty. While no mission other than pit 
production has been identified for the MOX facility, it is a viable 
asset that can be repurposed for other high hazard missions in addition 
to its use as a pit production facility.
                             y-12 facility
    9. Senator Donnelly. Mr. Owendoff, my understanding is that you 
cannot tear down many Manhattan era buildings at the Y-12 plant in TN 
until you remediate the mercury in the ground water. How long will that 
take and how much will it cost?
    Mr. Owendoff. Several of the Manhattan Project-era buildings at Y-
12 are contaminated with mercury. Before we can initiate large-scale 
demolition of these facilities, the Environmental Management (EM) 
program must construct a mercury treatment facility capable of 
controlling mercury releases that could occur once demolition of these 
deteriorating structures begins.
    Work is already underway on the mercury treatment facility, which 
will be operational in 2024, prior to our scheduled start of building 
demolition. Early estimates for the mercury treatment facility range 
from $120-$244 million, but those estimates will be refined as the 
project progresses.
    In addition, in order to cost-effectively demolish these excess 
shut-down facilities, the current perimeter intrusion, detection and 
assessment system (PIDAS) will need to be relocated prior to the start 
of demolition activities. The NNSA is funding a project to move the 
PIDAS, and their schedule for completing the relocation aligns with 
EM's schedule for demolition.
                          nnsa cost estimation
    10. Senator Donnelly. Mr. Trimble, what is you assessment of the 
cost estimation effort at the NNSA and why is it important?
    Mr. Trimble. Understanding the cost of programs and activities is 
essential to building credible budget and future spending plans. Our 
recent work shows that DOE and NNSA, with some exceptions, have made 
progress in improving the quality of its cost estimating for specific 
major projects and programs. For example, we found in September 2017 
that DOE's revised cost estimate for completing construction of the 
Mixed-Oxide (MOX) Fuel Fabrication Facility substantially met best 
practices and can be considered reliable as it substantially met all 
four characteristics of a high-quality cost estimate: comprehensive, 
well-documented, accurate, and credible. Likewise, in May 2018, we 
found that NNSA substantially incorporated most of the cost estimating 
best practices identified by our past work when it developed the 
program cost estimate for the B61-12 LEP. In addition, we believe that 
NNSA's cost estimating capability has been enhanced by the 
establishment of its Office of Cost Estimating and Program Evaluation 
which advises the NNSA administrator on policies and procedures for 
cost analysis and estimation and conducts independent cost estimates 
for projects and programs among other activities. We note that that 
this office was established under the National Defense Authorization 
Act for Fiscal Year 2014. (Pub. L.No. 113-66, Sec.  3112, 127 Stat. 
672, 1050 (2013) (codified as amended at 50 U.S.C. Sec. 2411(a) 
(2018)).
    Even with improved cost estimates for individual projects and 
programs, we have found problems with NNSA's overall long-term 
planning, programming, and budgeting for modernizing the nuclear 
weapons stockpile over the coming decades. For example, NNSA's fiscal 
year 2017 budget materials show that NNSA's modernization budget 
estimates for fiscal years 2022 through 2026 may require significant 
funding increases, raising affordability concerns. Moreover, in April 
2017, we concluded that NNSA had not addressed a projected ``bow wave'' 
of future funding needs--that is, an impending and significant increase 
in requirements for additional funds--or the mismatch between potential 
funding needs and potential funding available. We recommended that NNSA 
include an assessment of the affordability of NNSA's portfolio of 
modernization programs in future versions of the Stockpile Stewardship 
and Management Plan--for example, by presenting options NNSA could 
consider to bring its estimates of modernization funding needs into 
alignment with potential future budgets. NNSA did not explicitly agree 
or disagree with our recommendation, but we are continuing to monitor 
any actions NNSA takes in response to the recommendation. We believe 
this recommendation may be particularly important as NNSA considers the 
additional program scope included in the January 2018 Nuclear Posture 
review is translated into program and budgetary requirements.
                      nnsa dnn program management
    11. Senator Donnelly. Mr. Trimble, what is your assessment of the 
program management at the NNSA Office Defense Nuclear Nonproliferation?
    Mr. Trimble. Program management involves aligning multiple 
components to achieve the program's goals and allows for optimized or 
integrated cost, schedule, and effort. The Project Management Institute 
(PMI) and GAO have established standards and guides that are generally 
recognized as leading practices for program management. When 
organizations apply leading program management practices they may be 
able to enhance their chances of achieving success across a range of 
programs. NNSA's Office of Defense Nuclear Nonproliferation (DNN) has 
issued its own program management policy, which it revised in 2017.
    However, in a September 2017 report, we found limitations DNN's 
revised policy--including that it does not address leading practices on 
establishing schedule estimates, estimating life-cycle costs, and 
measuring against such baselines--and that DNN management does not 
require the programs to establish schedules and cost estimates that 
cover their life cycles, or conduct baseline measurements. As a 
consequence, we found that none of the 4 selected DNN subprograms we 
reviewed had schedule and cost estimates covering their planned life 
cycles and none measured performance against schedule and cost 
baselines. We recommended that NNSA revise the DNN program management 
policy to include requirements for DNN programs on development of 
schedule and cost estimates, and use of schedule and cost baselines to 
measure performance. These changes could help ensure that NNSA managers 
and Congress have better information on how much DNN programs and 
subprograms may cost and subprograms may cost, the time they may need 
to achieve their goals, and how effectively they are being executed 
compared to plans.
    In its written comments, NNSA neither agreed nor disagreed with our 
recommendation. However, NNSA stated that it plans to take action in 
response to the recommendation. Specifically, NNSA stated that DNN will 
update its program management policy to formally document current 
practice and clarify expectations for addressing uncertainty. NNSA said 
it will update the policy to: (1) reflect that life-cycle cost and 
schedule management should be applied at the project or subprogram 
level where appropriate, considering the extent of uncertainty 
impacting scope, potential timelines, and executability; (2) define the 
methodologies to (a) account for uncertainties where applying these 
techniques would result in a reasonable range of estimates that would 
be useful for planning and scheduling purposes or (b) document risk and 
track actions to reduce uncertainty where applicable; (3) address 
expectations for assessing cost and schedule performance, commensurate 
with the level of certainty present at baselining; and (4) address 
requirements for documenting program management plans. In March 2018, 
NNSA indicated that DNN had developed a proposal to revise the DNN 
policy and it was under internal review with an estimated completion by 
December 31, 2018.
                         low-yield slbm warhead
    12. Senator Donnelly. Secretary Gordon-Hagerty, is there a budget 
proposal yet for the low yield SLBM warhead and how much will it cost 
for fiscal year 2019?
    Secretary Gordon-Hagerty. As submitted in the amended Fiscal Year 
(FY) 2019 budget request, $65 million is requested in fiscal year 2019 
for the low yield submarine-launched ballistic missile, which is now 
referred to as the W76-2 warhead.
                               __________
             Questions Submitted by Senator Martin Heinrich
              visit to new mexico's national laboratories
    13. Senator Heinrich. Secretary Gordon-Hagerty, congratulations on 
your confirmation as administrator; I look forward to working with you 
in support of the department's national security programs. I recognize 
you have taken on a very challenging job and already have a lot on your 
plate. However, I urge you to visit the NNSA's national laboratories 
soon to learn firsthand about their important work and the outstanding 
scientists and engineers that help maintain the Nation's nuclear 
stockpile. Will you make plans to come to New Mexico in the near future 
to visit both Los Alamos and Sandia National Laboratories?
    Secretary Gordon-Hagerty. Thank you for your support, and I look 
forward to working with you during my tenure. Since being sworn in, I 
have made it a priority to visit all of the laboratories, plants, and 
sites that comprise the National Nuclear Security Administration's 
(NNSA) nuclear security enterprise. I visited the Los Alamos National 
Laboratory in April 2018 and Sandia National Laboratories in June 2018 
as well as the Lawrence Livermore National Laboratory in Livermore, 
California in May 2018. From ensuring the nuclear stockpile is safe, 
secure, and effective; to developing nuclear nonproliferation tools; 
and providing counter-proliferation expertise--the work done at these 
laboratories is central to NNSA's national security missions.
                           plutonium strategy
    14. Senator Heinrich. Secretary Gordon-Hagerty, at your 
confirmation hearing last month you indicated the plutonium strategy 
would be a top priority. Your testimony made reference to the pending 
deadline Congress set in section 3141(d) of this year's NDAA for a 
final decision. This process has taken far longer that it should have. 
An AOA was completed in October 2017, but failed to consider the 
modular approach at LANL or produce a practical recommendation. Then, 
an engineering analysis was undertaken in December to inform the 
selection of an alternative and to support conceptual design of a 
preferred alternative. The engineering analysis has not been completed.
    Did the engineering analysis fully evaluate the modular approach at 
Los Alamos National Laboratory (LANL)?
    Secretary Gordon-Hagerty. Yes. The engineering assessment includes 
an evaluation of the technical and functional feasibility of four 
different options for additional high-hazard, high-security footprint 
for the production of 50 war reserve pits per year. Three of these 
options are at Los Alamos National Laboratory (LANL) and one is at 
Savannah River Site. One of the three options evaluated at LANL is 
their proposed ``modular approach.'' NNSA also conducted a workforce 
and staffing analysis to assess the common staffing requirements and 
enable valid comparisons between the preferred alternatives. The 
analysis of alternatives, engineering assessment, and workforce 
analysis will be used to further refine budget requests and inform a 
conceptual design to support Critical Decision-1 in Fiscal Year 2020.

    15. Senator Heinrich. Secretary Gordon-Hagerty, can you assure me 
that key stakeholders, including the subject matter experts at LANL, 
will review the engineering analysis and that your decision will be 
based on the best data available and sound cost estimates?
    Secretary Gordon-Hagerty. The engineering assessment (EA) and 
workforce analysis do not recommend an alternative, but are intended to 
provide additional information to senior NNSA decision-makers. Subject 
matter experts (SMEs) from Los Alamos National Laboratory (LANL), 
Lawrence Livermore National Laboratory (LLNL), and the Savannah River 
Site (SRS) were an integral part of the EA, and an SME from each site 
provided their plutonium expertise and input to the EA throughout the 
document's development. In addition, NNSA provided a review period for 
additional subject matter experts from LANL, LLNL, and SRS to review 
the EA for factual accuracy. The EA provides additional analysis 
related to cost, schedule, risk, and feasibility for four options at 
the two alternative locations identified by the analysis of 
alternatives.

    16. Senator Heinrich. Secretary Gordon-Hagerty, will NNSA's Office 
of Cost Estimating and Program Evaluation (CEPE) fully review and 
report to you and the congressional defense committees on the 
engineering analysis?
    Secretary Gordon-Hagerty. The National Nuclear Security 
Administration's (NNSA) Office of Cost Estimating and Program 
Evaluation was part of the review process of the engineering analysis 
and part of the NNSA team that briefed the congressional defense 
committees.

    17. Senator Heinrich. Secretary Gordon-Hagerty, are you aware that 
the Los Alamos County Council recently passed a resolution strongly 
supporting LANL's role as the Nation's center of excellence for 
plutonium R&D and expansion of the lab's pit production capabilities?
    Secretary Gordon-Hagerty. Yes, I am aware of the Los Alamos County 
Council's resolution. The National Nuclear Security Administration 
(NNSA) greatly appreciates the vital role our partners in Los Alamos 
play in our national security missions. NNSA is committed to an 
enduring plutonium mission at Los Alamos. The Los Alamos National 
Laboratory is and will remain the center of excellence for plutonium 
R&D.

    18. Senator Heinrich. Secretary Gordon-Hagerty, working with the 
Nuclear Weapons Council, will you be able to propose a path forward by 
the 150-day deadline as directed in section 3141(d) of the fiscal year 
2018 NDAA?
    Secretary Gordon-Hagerty. Per section 3141(d) of the National 
Defense Authorization Act for Fiscal Year 2018, I endorsed a path 
forward on May 10, 2018.

    19. Senator Heinrich. Secretary Gordon-Hagerty, you testified that 
there is no margin for further delay in modernizing NNSA's production 
capabilities. In light of the delay in completing the AOA, do you 
expect NNSA will still meet the DOD and statutory capacity requirements 
for pit production in 2030 enacted over three years ago in 50 USC 2538a 
and reconfirmed in the NPR?
    Secretary Gordon-Hagerty. Yes. NNSA remains committed to supporting 
an enduring 30 pit per year production capability in 2026, and an 80 
pit per year capability in 2030.
       trusted rad-hard strategic microelectronics at sandia labs
    20. Senator Heinrich. Secretary Gordon-Hagerty, the recent Nuclear 
Posture Review reaffirmed the need to maintain a robust capability for 
both research and a dedicated source of trusted radiation-hardened 
micro-electronics systems. The MESA facility at Sandia Labs is aging 
and needs to be upgraded to meet future national security requirements 
after 2025. What is the status and timeline to upgrade MESA to maintain 
the advanced R&D and production capacity of rad-hard micro-electronics 
to meet the needs of both NNSA as well as other strategic partners?
    Secretary Gordon-Hagerty. The Silicon Fabrication (SiFab) foundry 
at Sandia National Laboratories (SNL) produces radiation-hardened 
microelectronics for U.S. nuclear warheads. DOE/NNSA is working to 
extend this capability at SiFab beyond 2025. The SNL SiFab 
Recapitalization (SSiFR) project was initiated in 2012 to procure 
upgraded equipment over a 7-year period (ending in Fiscal Year 2019). 
As planned, this effort is nearing completion and the installation of 
the new, 8-inch equipment is scheduled. Real property upgrades to 
extend SiFab are in the planning process.
    As a strategic partner, SiFab is also accredited as a trusted 
supplier by the Defense Microelectronics Activity, which manages the 
Department of Defense's (DOD) Trusted Foundry Program. DOE/NNSA 
continues to collaborate with the DOD as the DOD develops a 
comprehensive national strategy for government access to 
microelectronics.
              laboratory-directed research and development
    21. Senator Heinrich. Secretary Gordon-Hagerty, you testified that 
attracting and retaining a skilled workforce is critical to NNSA's 
mission. To that end, I continue to be a strong supporter of a modest 
set-aside of funding for Laboratory-Directed Research and Development 
(LDRD). The LDRD investment in high-risk, high-payoff activities 
supports the national security mission while allowing the labs' 
scientists to pursue innovative solutions to some of the Nation's most 
challenging energy and national security problems. I am pleased that 
you testified that LDRD funding fosters innovation and helps attract 
and retain the workforce critical to our national laboratories.
    Do you also support maintaining the NNSA lab directors' discretion 
to set aside up to 6 percent of funding for LDRD?
    Secretary Gordon-Hagerty. The National Nuclear Security 
Administration is supportive of a robust Laboratory Directed Research 
and Development (LDRD) program. LDRD is a vital asset in recruitment of 
a world-class scientific workforce and is critical to the maintenance 
and development of scientific capabilities that serve energy and 
national security missions. The LDRD program provides a basis for 
continually engaging laboratory research staff in cutting-edge and 
challenging work, as well as providing education and training for the 
next generation of scientists.
                   nnsa's albuquerque office complex
    22. Senator Heinrich. Secretary Gordon-Hagerty, I had the 
opportunity to tour NNSA's Albuquerque Complex in 2017. There are about 
1200 federal workers housed in increasingly decrepit office buildings 
that date from the 1940s and 50s. The buildings do not meet even basic 
safety requirements. I strongly support plans to replace these 
inadequate facilities with a new LEED Gold building and am pleased the 
NNSA included funding in both the fiscal year 2018 and fiscal year 2019 
budgets to fully fund the project. A groundbreaking will likely be 
scheduled soon and I hope you will plan to attend.
    What is the status of the Albuquerque Complex project and when 
might construction begin?
    Secretary Gordon-Hagerty. On Friday, April 20, the National Nuclear 
Security Administration's (NNSA) Project Management Executive approved 
the start of construction for the Albuquerque Complex Project. The 
United States Army Corps of Engineers awarded a construction contract 
to Caddell Construction Company on April 24, 2018. NNSA broke ground on 
this new state-of-the-art facility in July 2018 and expects to complete 
construction by the end of 2020.
               increase in cap for general plant projects
    23. Senator Heinrich. Secretary Gordon-Hagerty, I worked last year 
with your office on legislation in the fiscal year 2018 NDAA to 
increase the statutory cap from $10 million to $20 million for general 
plant projects at NNSA labs and facilities. What is the status of 
NNSA's implementation of the increased cap for GPPs as authorized by 
section 3119 of NDAA18?
    Secretary Gordon-Hagerty. The increase in NNSA's General Plant 
Project (GPP)/Minor Construction threshold from $10 million to $20 
million allows NNSA to address high-risk infrastructure deficiencies 
faster and more efficiently. As a result of additional funding provided 
in fiscal year 2018, some projects have been accelerated. The current 
plan is noted below. NNSA has moved to implement this new authority 
quickly, and per the notification provided in NNSA's fiscal year 2019 
budget request, NNSA is planning the following 11 projects between $10 
million and $20 million for execution beginning in fiscal year 2018 or 
fiscal year 2019:

    <bullet>  Three of the 11 projects are fully-funded in fiscal year 
2018:
        o  Pantex--New Gas Analysis Laboratory
        o  Lawrence Livermore National Laboratory--New AME Polymers and 
Engineering Facility
        o  Los Alamos National Laboratory--TA-16-0303 Crystal Lab 
Refurbishment Portfolio

    <bullet>  Two of the 11 projects fund design in fiscal year 2018 
and construction in fiscal year 2019:
        o  Pantex--Building 12-37 Secondary Electrical Feed 
Installation
        o  Sandia National Laboratories/CA--New Data Center Replacement 
Facility

    <bullet>  One of the 11 projects funds design in fiscal year 2018 
and construction in fiscal year 2020:
        o  Lawrence Livermore National Laboratory--Building 235 and 
Ancillary Synthesis Chemistry Laboratories Refurbishment with Fume Hood 
Upgrades

    <bullet>  Two of the 11 projects request full funding in fiscal 
year 2019:
        o  Los Alamos National Laboratory--Dual Axis Radiographic 
Hydrodynamic Test Facility Weather Enclosure Addition
        o  Lawrence Livermore National Laboratory--Building 341 AME 
Mechanical Test Capability Consolidation Refurbishment

    <bullet>  Three of the 11 projects request design funding in fiscal 
year 2019 and construction in fiscal year 2020:
        o  Nevada National Security Site--Mercury Modernization New 
Building 23-461
        o  Lawrence Livermore National Laboratory--Building 151 High 
Level Radiochemistry Laboratories Refurbishment
        o  Lawrence Livermore National Laboratory--New AME Joining 
Capabilities and Vapor Deposition Facility
                  domestic production of molybdenum-99
    24. Senator Heinrich. Secretary Gordon-Hagerty, NNSA currently 
provides funding to re-establish a domestic commercial supply of the 
radioactive isotope molybdenum-99 used for medical diagnostic 
procedures. What is your fiscal year 2019 budget request for support of 
this important program?
    Secretary Gordon-Hagerty. Our fiscal year 2019 request includes $10 
million for laboratory support to develop domestic Mo-99 production 
technologies and implement cooperative agreements.

    25. Senator Heinrich. Secretary Gordon-Hagerty, do you have a 
forecast of what NNSA plans to spend over the following two years?
    Secretary Gordon-Hagerty. The fiscal year (FY) 2019 request 
includes a forecast of $10 million for both fiscal year 2020 and fiscal 
year 2021 for continued laboratory support.
                       wipp budget and operations
    26. Senator Heinrich. Mr. Owendoff, you testified the fiscal year 
2019 request for WIPP is intended to enable increased transuranic waste 
shipments from other EM sites. However, I believe maintenance of WIPP 
must be a top priority. I continue to be concerned about the growing 
backlog in maintenance and repairs required to keep WIPP operating 
safely and efficiently. What is the current cost estimate of the 
accumulated maintenance backlog needed to properly maintain key 
infrastructure and facilities at WIPP?
    Mr. Owendoff. The 2019 Budget proposes $47 million for repair and 
replacement of critical facility structures, systems, and components.

    27. Senator Heinrich. Mr. Owendoff, how much of the $403.5 million 
in the fiscal year 2019 request for WIPP is set aside specifically to 
address the maintenance backlog of critical infrastructure?
    Mr. Owendoff. The 2019 Budget proposes $47 million for repair and 
replacement of critical facility structures, systems, and components.

    28. Senator Heinrich. Mr. Owendoff, it has been over a year since 
WIPP operations restarted. What are the remaining key milestones and 
the likely timeline to restore full operations at WIPP?
    Mr. Owendoff. While DOE completed the recovery effort with the 
resumption of waste emplacement, the Waste Isolation Pilot Plant will 
operate at acceptance rate of approximately 8-10 shipments per week 
until critical facility structures, systems, and components are 
repaired or replaced and construction of the new safety significant 
confinement ventilation system is completed. These actions support 
operation at 17 shipments per week and are necessary to increase the 
Waste Isolation Pilot Plant emplacement capability, to ensure mining of 
new repository space is completed in time to ensure continuity of waste 
emplacement, and to sustain mining and waste emplacement operations. 
These key activities are expected to be completed in the 2021 
timeframe.

    29. Senator Heinrich. Mr. Owendoff, how many requests for permit 
modifications for WIPP are currently pending, what is the class of each 
of the pending modifications and what is the likely schedule and 
timeline to complete each of these requests?
    Mr. Owendoff. The following permit modification requests are now 
pending with the New Mexico Environment Department; associated class 
and target decision dates are shown:

 
----------------------------------------------------------------------------------------------------------------
                      Action                            Class                       Target Date
----------------------------------------------------------------------------------------------------------------
Volume of Record..................................            3                                     Summer 2018
Panel Closure Plan................................            3                                     Summer 2018
New Utility/Access Shaft..........................          2/3                                     Summer 2018
Excluded Waste Provision..........................            3                                     Spring 2019
Above Ground Storage..............................            3                                     Summer 2020
----------------------------------------------------------------------------------------------------------------

 new lanl legacy cleanup contract, section h, human resource management
    30. Senator Heinrich. Mr. Owendoff, in December, DOE/EM awarded a 
new contract to N3B to manage cleanup at Los Alamos National 
Laboratory; the transition to the new contractor is scheduled to be 
complete in late April. Maintaining good relations with the existing 
workforce and community are vital to assuring a smooth transition. 
There are several important requirements of the new contractor related 
to the incumbent employees, including plans for workforce and benefits 
transition and for employee hiring preferences.
    What is the status of the new contractor's required workforce 
transition plans?
    Mr. Owendoff. N3B submitted its workforce and benefits transition 
plans, met the contract requirements, and hired many of the workers 
formerly employed by Los Alamos National Security. Transition to the 
Los Alamos Legacy Cleanup Contract was completed successfully on April 
29, 2018.

    31. Senator Heinrich. Mr. Owendoff, will you hold the new 
contractor strictly accountable for complying with all human resource 
requirements of the contract for current employees, including the right 
of first refusal?
    Mr. Owendoff. N3B has been and will continue to be held accountable 
for complying with the human resource requirements of the Los Alamos 
Legacy Cleanup Contract. A total of 354 right-of-first-refusal letters 
were sent to Los Alamos National Security employees who worked on the 
Environmental Management Legacy Cleanup contract.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 22, 2018

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Deb 
Fischer
presiding.
    Members present: Senators Fischer, Cotton, Sullivan, and
Donnelly.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. The hearing will come to order.
    The Strategic Forces Subcommittee meets today to review the 
administration's fiscal year 2019 budget request for missile 
defense spending and to discuss related policies with our 
witnesses.
    This is an incredibly important and timely discussion given 
the increasing missile threats facing our Nation. Over the past 
year, we have witnessed dangerous advances in North Korea's 
ballistic missile capabilities. Kim Jong-un conducted a record 
number of ballistic missile tests, including tests of two new 
systems that appear to have a range sufficient to hold the 
United States at risk.
    The administration has responded to this growing threat. In 
September, the Department of Defense submitted a request to 
reprogram about $400 million in fiscal year 2017 funds towards 
urgent missile defense requirements. Additionally, in November, 
the Administration amended its fiscal year 2018 budget request 
to include almost $4 billion in additional funds for missile 
defense and defeat activities, including the expansion of our 
Ground-Based Midcourse Defense system by an additional 20 
interceptors by 2023. This robust support for missile defense 
continues in the fiscal year 2019 request, which includes 
almost a 25 percent increase in the Missile Defense Agency's 
budget.
    While I strongly support these increases, it is this 
subcommittee's responsibility to ensure they meet the war-
fighter's needs today and invest in advanced technology to stay 
ahead of tomorrow's threats. Furthermore, while North Korea 
ballistic missiles remain the principal threat against which 
our Homeland missile defenses are arrayed, it represents only a 
portion of the broader missile threat. A report released last 
year by the National Air and Space Intelligence Center noted 
that Russia retains the largest force of strategic ballistic 
missiles, while China has the most active and diverse ballistic 
missile development program in the world, and both Nations 
continue to invest in hypersonic and cruise missiles designed 
to strike forward-deployed U.S. forces and in some cases the 
Homeland.
    Testifying on these issues before us today is a 
distinguished panel. We have John Rood, Undersecretary of 
Defense For Policy; and General Lori Robinson, Commander of 
U.S. Northern Command and NORAD [North Atlantic Aerospace 
Defense Command].
    General Robinson, as this is likely the last time, we will 
hear from you in anticipation of your retirement, I also want 
to thank you for your 36 years of distinguished service to this 
country. Thank you, ma'am. I think I speak for all of us when I 
say it has been a pleasure to work with you, and we wish you 
the best of luck.
    We are also joined by Lieutenant General Sam Greaves, 
Director of the Missile Defense Agency; and Lieutenant General 
James Dickinson, who holds the title of Commanding General, 
United States Army Space and Missile Defense Command, among 
many others.
    Thank you all for being with us today. We look forward to 
your comments.
    I would now like to recognize our Ranking Member, Senator 
Donnelly, for any opening remarks he would like to make.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Madam Chair.
    I would like to thank all the witnesses; and, General 
Robinson, congratulations. Thank you for all your service to 
our country, for all the amazing things you have done for our 
Nation to make it stronger.
    I want to thank Senator Fischer for holding this hearing.
    Let me also thank today's witnesses for testifying. We very 
much appreciate your time and the work you do every day in the 
service of our Nation.
    Protecting our country, our forward-deployed troops, and 
our allies around the world is of the utmost importance, and 
the threats have not stood still since this subcommittee last 
met on this subject.
    For just one example, as General Greaves and I discussed 
yesterday, North Korea has made rapid progress on its 
intercontinental ballistic missile capability. As we await the 
release of the Missile Defense Review, it's important we take 
this opportunity to review the fiscal year 2019 budget request 
to ensure it provides sufficient resources to continue the work 
of getting our missile defense systems to perform reliably and 
effectively.
    We also need to continue improving our sensor and 
discrimination capabilities so we have a better picture of the 
threats, and we need to continue to conduct smart simulation 
and testing before we commit to buying new technologies.
    While we continue to improve the Homeland defense systems, 
we should not take our eyes off the ball when it comes to 
protecting our deployed troops and reassuring our allies and 
partners. The demand from our combatant commanders for Aegis, 
THAAD [Theatre High Altitude Area Defense], and Patriot 
batteries remains high. We need to consider how we can best 
allocate these systems and effectively train the war fighters 
who will operate them to provide the protection that is needed 
in today's demanding environment.
    Again, thank you for coming today. We look forward to the 
dialogue and to your testimony.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Donnelly.
    Secretary Rood, I'd like to welcome you. If you would like 
to make comments to the committee?

STATEMENT OF HONORABLE JOHN C. ROOD, UNDER SECRETARY OF DEFENSE 
               FOR POLICY, DEPARTMENT OF DEFENSE

    Secretary Rood. Thank you, Madam Chairwoman, Ranking Member 
Donnelly, distinguished members of the committee. Thank you for 
the opportunity to testify today on behalf of the 
administration's fiscal year 2019 budget request.
    With regard to the security environment, today the United 
States faces an increasingly complex security environment in 
which the central challenge to our prosperity and security is 
the reemergence of long-term strategic competition driven by 
revisionist powers in China and Russia. Although they pose 
separate challenges with unique attributes, both China and 
Russia seek to reshape the world order and change territorial 
borders. Consequently, they pose increasing security threats to 
the United States and our allies and partners.
    Long-term competition with China and Russia requires 
increased United States and allied and partner military 
investment because of the magnitude of the threats they pose 
today and the potential that such threats will increase in the 
future. We also must simultaneously strengthen our efforts to 
deter and counter the clear and present danger posed by rogue 
regimes such as North Korea and Iran.
    The U.S. military remains the strongest in the world. 
However, our advantages are eroding as potential adversaries 
modernize and build up their conventional and nuclear forces. 
In particular, they are fielding a broad and expanding arsenal 
of new and more advanced missiles capable of threatening the 
U.S., our forces abroad, and our allies and partners.
    Although this picture is unsettling and not what we desire, 
as Secretary of Defense Mattis has pointed out, and I quote, 
``We must look reality in the eye and see the world as it is, 
not as we wish it to be.''
    The Administration has heeded this admonition in recent 
strategic reviews, in the National Security Strategy, the 
National Defense Strategy, as well as the Nuclear Posture 
Review. They reflect a consistent and pragmatic assessment of 
the threats and uncertainties we face in the future security 
environment.
    Our task at DOD [Department of Defense] is to ensure that 
U.S. military advantages endure and, in combination with other 
elements of national power, that we are fully able to meet the 
increasing challenges to our national security.
    With this as the strategic context, let me turn to a 
discussion of the fiscal year 2019 budget request for missile 
defense and the policies, programs, and capabilities it 
supports. The Department's budget request supports the 
President's direction set out in the National Security Strategy 
to deploy a layered missile defense system to protect the 
American Homeland from North Korean and Iranian missile 
threats. The request also supports regional missile defenses to 
protect our deployed forces, allies, and partners. Our missile 
defense system not only protects the United States, it 
strengthens the deterrence of war and the assurance of allies 
and partners.
    Today the GMD, or Ground-Based Midcourse Defense system, 
provides protection for the Nation. General Greaves and others 
will discuss some of its attributes. But as noted by you, 
Senator Fischer, in September of last year, DOD requested the 
reprogramming of 2017 funding of more than $400 million to 
counter the North Korean missile threat. We appreciate the 
support that we received from Congress for this request.
    A portion of these funds supports the important Homeland 
defense activities, including initiating work on the 
procurement of 20 additional ground-based interceptors in 
Alaska as early as 2023, which will bring the total to 64 
fielded interceptors. This reprogramming also funded a service 
life extension to the COBRA DANE radar in Alaska, and software 
upgrades to the Sea-Based X-Band radar, which are both 
essential elements of our Homeland defense. Last November, the 
President submitted an amendment to the fiscal year 2018 budget 
request for $4 billion of additional funding for missile 
defense, which includes construction of a new missile field at 
Fort Greely, Alaska, and additional procurement funding 
necessary for the 20 GBIs [Ground-Based Interceptors].
    The fiscal year 2019 budget request includes $9.9 billion 
for the Missile Defense Agency and $3 billion for air and 
missile defense programs in the Services. This budget funds a 
more capable ground-based interceptor with the Redesigned Kill 
Vehicle; the deployment of new missile tracking and 
discrimination sensors in Alaska, Hawaii, and the Pacific 
region; and a new space-based kill assessment capability. These 
near-term investments will enable us to obtain substantially 
more performance and efficiency out of the GMD systems 
necessary to meet the evolving threat.
    We are also moving forward to bolster Homeland defenses 
against air and cruise missile threats. In 2018, we will 
complete the first part of a two-phase effort to provide 
effective surveillance against missile threats to the National 
Capital Region. Doing so will enhance our ability to detect, 
track, and investigate suspicious aircraft, as well as cruise 
missiles and, when necessary, cue our missile defense systems 
against the full spectrum of air threats. We are on track to 
begin the second phase of this effort in fiscal year 2019. We 
are also looking into technologies and concepts that could be 
used to provide scalable and deployable options for expanding 
this capability.
    The Department's fiscal year 2019 budget request also 
continues deployment of regional missile defenses tailored to 
meet missile threats to United States forces abroad and allies 
and partners in Europe, the Middle East, and the Indo-Pacific 
region. The budget enhances our regional missile defense 
capacity through additional Patriot missiles as well as THAAD, 
SM-3 Block IB, and SM-3 Block IIA interceptors. Our focus is on 
developing and fielding capabilities that are mobile and re-
locatable, which allows us flexibility to respond to a crisis 
or conflict wherever it emerges.
    We are also encouraging our allies and partners in Europe, 
the Middle East, and in Asia to acquire MD [Missile Defense] 
capabilities and strengthen missile defense cooperation in 
order to move towards a more interoperable and integrated 
missile defense architecture.
    Looking forward, it's clear potential adversaries are 
modernizing and expanding their missile capabilities. We must 
ensure that our missile defense investment and strategy enable 
us to meet the most dangerous missile threats today, while 
enabling us to counter future missile threats as they expand. 
Areas for work on advanced technology include improved 
discrimination in our sensor architecture, lasers to intercept 
offensive missiles during their most vulnerable boost phase of 
flight, evaluating space-based sensor concepts, and the multi-
object kill vehicle.
    Let me conclude by saying that in an increasingly complex 
and threatening security environment, DOD must sustain the 
capabilities needed to deter and defend against attacks on our 
Homeland, U.S. forces deployed abroad, allies and partners. We 
must make the investments needed to address the ongoing erosion 
of our operational advantages and remain the preeminent 
military power in the world.
    Thank you again for the opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Secretary Rood follows:]

               Prepared Statement by Secretary John Rood
    Chairwoman Fischer, Ranking Member Donnelly, and distinguished 
Members of the Committee. Thank you for the opportunity to testify on 
the President's Fiscal Year 2019 Budget Request in support of the 
Department's efforts to improve our missile defense capabilities so 
that we remain ahead of the evolving threat while providing effective, 
integrated and interoperable regional missile defenses in support of 
our global defense strategy.
             security environment and strategic priorities
    Today, the United States faces an increasingly complex security 
environment, in which the central challenge to our prosperity and 
security is the reemergence of long-term strategic competition by 
revisionist powers in China and Russia.
    Although they pose separate challenges with unique attributes, both 
China and Russia seek to reshape the world order and change territorial 
borders. Consequently, they pose increasing security threats to the 
United States, and our allies and partners.
    Long-term competition with China and Russia requires increased U.S 
and allied and partner military investment because of the magnitude of 
the threats they pose today, and the potential that such threats will 
increase in the future. We also must simultaneously strengthen our 
efforts to deter and counter the clear and present dangers posed by 
rogue regimes such as North Korea and Iran.
    The U.S. military remains the strongest in the world. However, our 
advantages are eroding as potential adversaries modernize and build-up 
their conventional and nuclear forces. In particular, they are fielding 
a broad and expanding arsenal of new and more advanced missiles capable 
of threatening the United States, its forces abroad and its allies and 
partners.
    Although this picture is unsettling and clearly not what we desire, 
as Secretary of Defense Mattis has pointed out, ``We must look reality 
in the eye and see the world as it is, not as we wish it to be.''
    The Administration has heeded this admonition in recent strategic 
reviews--the National Security Strategy, the National Defense Strategy, 
and the Nuclear Posture Review. They reflect a consistent and pragmatic 
assessment of the threats and uncertainties we face regarding the 
future security environment.
    Our task at the Defense Department is to ensure that U.S. military 
advantages endure and, in combination with other elements of national 
power, we are fully able to meet the increasing challenges to our 
national security.
    Strengthening our alliances and attracting new partners are a 
critical element of retaining our advantages. As the National Defense 
Strategy points out; ``Mutually beneficial alliances and partnerships 
are crucial to our strategy, providing a durable, asymmetric advantage 
that no competitor or rival can match. This approach has served the 
United States well, in peace and war.''
                   missile defense policy and posture
    With this as the strategic context, let me turn to a discussion of 
the fiscal year 2019 Budget Request for missile defense and the 
policies, programs and capabilities it supports. The Department's 
budget request supports the President's direction set out in the 
National Security Strategy to deploy a layered missile defense system 
to protect the American Homeland from North Korean and Iranian missile 
threats. The request also supports regional missile defenses to protect 
our deployed forces, allies, and partners. Our missile defense system 
not only protects the United States, it strengthens the deterrence of 
war and the assurance of allies and partners.
    Today, the Ground-Based Midcourse Defense (GMD) system provides 
protection for the Nation. It consists of 44 Ground-Based Interceptors 
(GBI) deployed in Alaska and California; land-, sea-, and space-based 
sensors; and a command and control system operated 24/7 by trained 
servicemembers. We are strengthening this system and investing in 
technologies to ensure that we can continue to counter rogue state 
missile threats to our Homeland.
    In September 2017, DOD requested the reprogramming of fiscal year 
2017 funding of more than $400 million to counter the North Korean 
missile threat. Congress approved this request. A portion of these 
funds supports important Homeland defense activities, including 
initiating work on the procurement of 20 additional GBIs in Alaska as 
early as 2023, which will bring the total to 64 fielded interceptors. 
The reprogramming also funded a service life extension to the Cobra 
Dane radar in Alaska and software upgrades to the Sea-Based X-Band 
(SBX) radar--both essential elements of our Homeland defense. In 
November 2017, the President submitted an amendment to his fiscal year 
2018 budget request for $4.0 billion for missile defense which includes 
construction of a new missile field at Fort Greely, Alaska, and 
additional procurement funding necessary for the 20 new GBIs.
    The fiscal year 2019 budget request includes $9.9 billion for the 
Missile Defense Agency and $3 billion for air and missile defense 
activities in the Military Departments. This budget funds: a more 
capable GBI with the Redesigned Kill Vehicle; the deployment of new 
missile tracking and discrimination sensors in Alaska, Hawaii, and the 
Pacific region; and a new Space-Based Kill Assessment capability. These 
near term investments will enable us to obtain substantially more 
performance and efficiency out of the GMD systems necessary to meet the 
evolving threat.
    We are also moving forward to bolster Homeland defenses against air 
and cruise missile threats. In 2018, we will complete the first part of 
a two-phase effort to provide effective surveillance against these 
missile threats to the National Capital Region (NCR). Doing so will 
enhance our ability to detect, track, and investigate suspicious 
aircraft, as well as cruise missiles, and when necessary, cue our 
missile defense systems against the full spectrum of air threats. We 
are on track to begin the second phase of this effort in fiscal year 
2019, which will expand our capability to detect, ID and take defensive 
action before air threats can strike potential targets within the NCR. 
We are also looking into technologies and concepts that could be used 
to provide scalable and deployable options for expanding this defensive 
capability.
    The Department's fiscal year 2019 budget request also continues 
deployment of regional missile defenses tailored to meet missile 
threats to U.S. forces abroad and allies and partners in Europe, the 
Middle East, and the Indo-Pacific region. The budget enhances our 
regional missile defense capacity through additional Patriot missiles 
as well as Terminal High Altitude Defense (THAAD), SM-3 Block IB, and 
SM-3 Block IIA interceptors. Our focus is on developing and fielding 
missile defense capabilities that are mobile and relocatable, which 
allows us flexibility to respond to a crisis or conflict wherever it 
emerges. Because systems such as Patriot, THAAD, and our Aegis BMD 
capable ships can be surged when and where required, they make it 
possible to deploy layered missile defense capabilities that are 
responsive to regional missile threats as they arise.
    We are also encouraging our allies and partners in Europe, the 
Middle East and Near East Asia to acquire missile defense capabilities, 
and to strengthen missile defense cooperation in order to move towards 
a more interoperable and integrated missile defense architecture 
against hostile ballistic and cruise missile threats.
    Looking forward, it's clear potential adversaries are modernizing 
and expanding their missile capabilities. We must ensure that our 
missile defense investment strategy and priorities enable us to meet 
the most dangerous missile threats today, while also enabling us to 
counter future missile threats as they expand. Areas for work on 
advanced technology include improved discrimination in our missile 
defense system sensor architecture, lasers to intercept offensive 
missiles during their most vulnerable boost phase of flight, evaluating 
new space-based sensor concepts, and the multi-object kill vehicle.
                               conclusion
    Mr. Chairman, let me conclude by stating that in an increasingly 
complex and threatening security environment, DOD must sustain the 
capabilities needed to deter and defend against attacks on our 
Homeland, U.S. forces deployed abroad, allies and partners. We must 
make the investments needed to address the ongoing erosion of our 
operational advantages and remain the preeminent military power in the 
world.
    Thank you again for the opportunity to testify. I look forward to 
your questions.

    Senator Fischer. Thank you, Mr. Secretary.
    Your full statements will be included in the record.
    General Robinson?

STATEMENT OF GENERAL LORI J. ROBINSON, USAF, COMMANDER, UNITED 
                  STATES NORTHERN COMMAND AND
      COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE COMMAND

    General Robinson. Ma'am, first of all, thank you very much. 
I am certainly honored to be sitting here and testifying with 
this committee, especially along with my brothers. It's an 
honor for me.
    What has been mentioned is the strategic environment and 
threats facing our Nation continue to evolve, as you have both 
mentioned. Our adversaries are taking deliberate steps to 
extend their operational reach and are developing new 
capabilities to range targets in North America, in the United 
States and Canada.
    At U.S. Northern Command and NORAD, we understand the 
urgency of keeping pace with these evolving threats. We also 
recognize that North Korea represents the most immediate threat 
to our Homeland and therefore remains NORTHCOM's highest 
priority.
    I'm confident that the Ground-Based Midcourse Defense 
system can defeat the threat today, and I've testified in front 
of every committee and have said so, and I remain confident. I 
strongly support the continued improvements to the ballistic 
missile defense enterprise in order to maintain our advantage. 
We continue to work with the Missile Defense Agency, the 
intelligence community, and other combatant commands as part of 
our collaborative effort to out-pace the threat.
    I'm grateful, quite frankly, for the committee's approval 
of the fiscal year 2017 above-threshold reprogramming and 
support the budget amendment, and this will increase the 
systems capability and capacity.
    Under my NORAD responsibility, advanced cruise missiles 
with a low-rate arc cross-section represent a challenge to our 
air defense systems. Russia continues to modernize its delivery 
systems, long-range bombers, and strategic submarines capable 
of launching from distances not previously seen, reducing the 
indication and warnings we are likely to receive from a combat 
launch. To defend against these advanced cruise missiles, we 
must make prudent investments, as you both have talked about, 
and we appreciate in advance sensors and defensive weapon 
systems to protect our Nation's vital assets.
    The men, the women, the warriors of U.S. Northern Command 
and NORAD stand united in a common purpose, ready to face the 
threats to the United States and Canada today, and we are 
evolving to face the threats of tomorrow. Ladies and gentlemen, 
you need to know, we have the watch.
    Ma'am, sir, as you both have indicated, I'm getting to have 
the privilege to retire. I have to tell you both that after 36 
years of serving my Nation, and after these last two years of 
having this sacred responsibility of defending our Nation, I 
want you both to know, I want all of you to understand my 
gratitude and my heartfelt appreciation for what you do to 
support NORAD and U.S. Northern Command every day to our 
Nation's Armed Forces--soldiers, sailors, airmen, marines, 
civilians, and in my NORAD hat, the Canadians. What you do each 
and every day--you know, people say to me, hey, thank you for 
what you do, but I know I can't do what I do if you don't do 
what you and your back-benchers do each and every day.
    So, thank you very much. I welcome your questions.
    [Applause.]
    [The prepared statement of General Robinson follows:]

             Prepared Statement by General Lori J. Robinson
                              introduction
    Chairman Fischer, Ranking Member Donnelly, and distinguished 
members of the Committee, thank you for the opportunity to appear 
before you today as the Commander of United States Northern Command 
(USNORTHCOM) and North American Aerospace Defense Command (NORAD). As 
the Commander of two unique but complementary commands, I am honored to 
lead a truly remarkable team of professionals and patriots committed to 
defending our Nations against an ever-expanding array of threats. I am 
also deeply grateful for this Committee's support, especially in light 
of the wide range of threats and challenges addressed by USNORTHCOM and 
NORAD.
    As USNORTHCOM and NORAD look to the future, it is increasingly 
necessary to assess the potential for seemingly far-flung events to 
unfold in ways that have a direct effect on our Homeland defense 
missions. Adversaries such as North Korea continue to field advanced 
weapons systems, often at an unexpectedly rapid pace of development, 
while China and Russia have expanded their military presence into areas 
outside their traditional areas of operations. The long-term 
consequences of these developments remain to be seen, but in an 
environment in which the only constant is change, it is certain that 
defending our Homelands increasingly relies on a modern, ready, and 
well-trained force, along with innovative thinking and close 
collaboration across borders, agencies, and boundaries.
                         strategic environment
    The threats our Nations face continue to evolve. An increasing 
number of foreign states are developing new ways to hold our Homeland 
at risk in an effort to offset Western military advantages and limit 
our options in a crisis.
                              north korea
    Over the last year, Kim Jong-un's pace of weapons testing, defiance 
of international norms, and deliberate efforts to reduce our 
indications and warning have established North Korea as the most 
immediate strategic threat to the United States. I testified last year 
I was concerned Kim Jong-un's willingness to fail in public would 
eventually enable him to develop a viable weapon system that could 
threaten the continental United States. That development has continued 
at an extraordinarily rapid pace, and in 2017, North Korea successfully 
flight tested such an intercontinental ballistic missile on three 
occasions, demonstrating for the first time a credible capability to 
hold the United States at risk.
    Kim Jong-un's possession of a viable intercontinental ballistic 
missile represents an obvious threat to the United States, and close 
collaboration with the intelligence community, the Missile Defense 
Agency, and fellow combatant commands remains essential to outpace 
North Korea's technological development and deception programs. I am 
grateful to the members of this Committee for your continued investment 
in the technology and capabilities necessary to defend the United 
States against a North Korean threat that is only increasing with time. 
Adding to the capabilities that provide advanced indications and 
warning of missile launches will continue to be a priority for 
USNORTHCOM as North Korea adds capability and capacity and improves its 
denial and deception programs.
                                 russia
    With a full suite of delivery platforms and weapons systems capable 
of ranging targets throughout the United States and Canada, Russia 
remains the only existential air domain threat our two nations face. 
Russian leaders regularly exercise conflict with the United States and 
are investing heavily to modernize their forces and develop novel 
weapons to ensure their ability to hold the United States and Canada at 
perpetual risk.
    Russian out-of-area flight activity has declined since the record 
levels we observed during the 2014 Ukraine crisis, but Russian heavy 
bombers continue to fly off our coastlines on a periodic basis, 
including the series of patrols that NORAD fighters intercepted near 
Alaska last April and May. Russia has also been cycling its aging 
bombers through a modernization program that enables them to carry a 
new generation of advanced cruise missiles that have been proven in 
combat against targets in Syria.
    Russia also launched next-generation cruise missiles against 
targets in Syria from ships and submarines in 2016 and 2017 and is 
fielding stealthy new naval platforms, including the Severodvinsk-class 
guided missile submarine and new Dolgorukiy-class ballistic missile 
subs. Together, these advancements represent a significant investment 
by the Russian Government in their strategic fleets that are likely to 
hold targets at risk in the United States and Canada for years to come.
                                 china
    China is pursuing a comprehensive military modernization program 
that includes a rapid expansion of its strategic forces intended to 
deter an attack from the United States by holding our Homeland at risk. 
Over the last decade, China has supplemented its modest silo-based 
ballistic missile force with dozens of road-mobile intercontinental 
ballistic missiles and operationalized its first class of ballistic 
missile submarines. As part of an effort to demonstrate global reach 
and influence, China's navy has developed a pattern of sending ships to 
``distant oceans,'' and in July of this year, we saw the first Chinese 
intelligence collection ship operate near the United States. This 
followed the transit of a small group of Chinese ships through the 
Aleutian Islands in September 2015, the first-ever instance of Chinese 
naval vessels operating in the Bering Sea.
                                  iran
    Iran is not yet able to strike the United States with strategic 
weapons. Nonetheless, Tehran has expended significant resources on its 
ballistic missile, space launch, and civil nuclear capabilities and 
could develop an intercontinental ballistic missile relatively quickly 
if its leaders chose to do so. Currently, Iran retains the ability to 
conduct attacks in our Homeland via covert operations and terrorist 
proxies.
                          usnorthcom and norad
    USNORTHCOM and NORAD are separate commands with common purpose, as 
USNORTHCOM defends the United States against land- and sea-based 
threats and intercontinental ballistic missiles, while NORAD defends 
the United States and Canada against threats in the air domain.
    Established in the aftermath of the 9/11 attacks, USNORTHCOM is the 
U.S. geographic combatant command responsible for operations in North 
America, to include The Bahamas. For over 15 years, USNORTHCOM has 
defended the United States through the execution of no-fail missions 
such as intercontinental ballistic missile defense and defense support 
of civil authorities.
    NORAD is the bi-national United States and Canadian command 
responsible for aerospace warning, aerospace control, and maritime 
warning in the United States and Canada. In May of this year, we will 
celebrate the 60th anniversary of NORAD's establishment and honor the 
proud legacy of a unique organization that has drawn its strength from 
the unbreakable bond between our nations. United States and Canadian 
personnel work side-by-side in the combined USNORTHCOM and NORAD 
headquarters and in each of the NORAD regions in the United States and 
Canada.
    NORAD represents the gold standard for military collaboration, and 
its mission continues to be of vital importance to the defense of the 
United States and Canada as our adversaries continue to modernize their 
arsenals and develop advanced weapons systems, to include upgraded 
bombers and advance cruise missiles capable of holding the United 
States and Canada at risk.
                            homeland defense
Ballistic Missile Defense
    In light of the strategic threat presented by North Korea, 
defending the United States against intercontinental ballistic missiles 
remains USNORTHCOM's highest priority mission. The rapid advancement of 
the North Korean intercontinental ballistic missile is my primary 
focus, although I also continually monitor Iranian technology programs 
that could present a threat in the future.
    I am confident the Ground-Based Midcourse Defense System can 
currently defend the United States from the threats posed by North 
Korea, but we must take prudent steps to remain in a position of 
relative technological advantage. I support the Department of Defense's 
efforts to improve the ballistic missile defense enterprise, and I 
continue to prioritize improvements to the intercontinental ballistic 
missile defense sensor architecture to enhance system resiliency and 
target discrimination, followed by improvements to interceptor 
reliability and lethality, along with continued reassessment of our 
interceptor capacity.
    As our adversaries develop and field more sophisticated 
intercontinental ballistic missiles, improved target discrimination 
will improve the likelihood of a successful engagement. Upgrades to our 
ability to distinguish re-entry vehicles from non-lethal missile 
components will significantly improve engagement efficiency while 
maintaining required effectiveness.
    Improved discrimination capability will increase the likelihood of 
a successful intercept, and the Missile Defense Agency is developing 
additional radars such as the Long Range Discrimination Radar in Alaska 
and a persistent radar on Hawaii, both of which will provide improved 
target discrimination and a more survivable sensor network. In 
November, the Missile Defense Agency emplaced the last of the 44 
ground-based interceptors in our inventory, while continuing their 
important efforts to improve interceptor reliability in the fielded 
fleet while developing new variants for future deployment.
    In light of the mounting challenges of defending the United States 
against intercontinental ballistic missile attack, I am grateful to the 
defense committees for approving the Department's fiscal year 2017 
above-threshold reprogramming and supporting the budget amendment that 
will increase the Ground-Based Midcourse Defense system's capacity and 
capability. That investment in improved target discrimination and more 
reliable kill vehicles will improve our ability to defend the Homeland. 
I will continue to work with my mission partners in the Missile Defense 
Agency, the intelligence community, and fellow combatant commands to 
identify and prioritize additional initiatives that will keep us on or 
ahead of the threat.
    As part of that effort, USNORTHCOM supported the Office of the 
Secretary of Defense in updating the Missile Defense Review. This 
foundational review will provide overarching policy direction for the 
missile defense enterprise, and I support its near- and long-term 
initiatives to ensure we remain ahead of our adversaries. As the 
warfighter responsible for the defense of the United States, USNORTHCOM 
will continue to work with our fellow combatant commands to integrate 
offensive and defensive capabilities as part of a coherent strategy to 
defeat the missile threats facing our Nation.
Aerospace Warning and Aerospace Control
    Since its establishment in May of 1958, NORAD has defended Canadian 
and United States airspace against an ever-evolving range of threats. 
Originally focused on preventing Soviet bombers from reaching targets 
inside the United States and Canada with nuclear gravity bombs, this 
unique bi-national command has kept our airspace secure and monitored 
our maritime approaches while constantly looking to the future in order 
to adapt to new technologies and outpace emerging threats. From the 
Cold War, through the aftermath of 9/11, and into the modern era, 
Canadians and Americans have stood shoulder-to-shoulder in defense of 
our skies, our cities, and our citizens.
    NORAD's original mission remains as important as ever, as seen on 
20 April 2017, when United States F-22 Raptors and Canadian CF-18 
Hornets conducted a textbook intercept of two Russian TU-95 BEAR-H 
bombers that had penetrated the North American Air Defense 
Identification Zone and the Canadian Air Defense Identification Zone. 
That safe and professional intercept was the direct result of constant 
planning, coordination, and training between various NORAD commands 
over the course of many years.
    The ability to deter and defeat threats to our citizens, vital 
infrastructure, and national institutions starts with successfully 
detecting, tracking, and positively identifying targets of interest 
approaching and within U.S. and Canadian airspace. As part of an 
ongoing effort to defend the United States and Canada against a wide 
range of airborne threats--from modern strike aircraft and advanced 
air- and submarine-launched cruise missiles to small drones--NORAD 
planners continue to develop a modern three-phase Homeland Defense 
Design that links advanced sensors capable of detecting and tracking 
potential threats with weapons systems capable of neutralizing targets 
identified as hostile.
Low Radar Cross Section Threats
    This Homeland Defense Design will play an ever-more important role 
in defending the Homelands against modern cruise missiles and other 
unmanned aerial systems. Small commercial drones, light aircraft, and 
advanced cruise missiles each present challenges to our air defense 
systems due to their low radar cross sections and corresponding ability 
to evade detection by legacy radars. Whether those technologies are 
purpose-built or are unintentionally exploitable by bad actors, the 
potential threat from airborne platforms with small radar signatures 
will become commonplace in the coming years as advanced missile 
technology proliferates and commercial unmanned systems become ever 
more readily available. From a threat-assessment perspective, low radar 
cross section systems are of particular concern as they have the 
potential to hold our vital institutions and infrastructure at risk due 
to their ability to evade detection, tracking, identification, and, if 
necessary, engage targets identified as hostile.
Cruise Missile Defense
    Russia has prioritized the development of advanced cruise missiles 
capable of holding targets within North America at risk from distances 
not previously seen. These systems present an increasing threat to 
North America due to their long range, low radar cross section, and the 
limited indications and warnings likely to be seen prior to a combat 
launch. While the likelihood of a Russian kinetic strike against the 
United States and Canada is currently low, it is prudent to invest in 
advanced sensors and defensive weapons systems to protect our Nations' 
vital assets.
    I have confidence in the layered approach provided by overlapping 
air defense systems. However, I am concerned about the potential for 
those advanced cruise missiles, which can be launched from bombers or 
submarines at much greater ranges than legacy systems, to penetrate our 
air defense network due to their expanded range, low visibility, and 
limited radar cross section. The significantly improved range of these 
missiles has reduced the indications and warnings we are likely to 
receive prior to a combat launch, and their low radar cross section has 
required NORAD to adapt new tactics, techniques, and procedures to 
counter them.
    We must continue to invest and innovate to stay ahead of this 
emerging threat, and we have made significant advancements as part of 
those ongoing efforts. To that end, I would like to thank the defense 
committees for fully funding the Department's request for funding the 
procurement of Active Electronically Scanned Array radars to 
significantly improve the ability of our fighter aircraft to detect and 
engage advanced cruise missiles. Active Electronically Scanned Array 
radars and the network of ground-based sensors integrated under the 
Homeland Defense Design will provide important improvements to our 
ability to counter an expanding set of airborne threats.
Canada
    The United States and Canada share the longest undefended 
international border in the world, and our collaborative relationship 
is one of the closest and most extensive in history. This relationship 
reflects a unique friendship, underpinned by common values, that has 
evolved over the course of the last century.
    In May 2018, NORAD celebrates its 60th birthday defending the 
United States and Canada in the air domain. We continue to evolve this 
venerable relationship to keep pace with evolving threats to ensure our 
bi-national defense can deter, and if necessary, defeat potential 
future attacks. NORAD prioritizes interoperability and command and 
control through regular operations, combined training and exercises, 
combined planning, information and intelligence sharing, and personnel 
exchanges to ensure we are capable of conducting operations together, 
across the spectrum of conflict.
    A critical component of our operational defense framework is the 
tri-command relationship between USNORTHCOM, NORAD, and the Canadian 
Joint Operations Command. Together, we are working to further integrate 
our operational framework into an adaptive continental defense 
arrangement that can function across multiple domains to defend the 
United States and Canada that preserves each nation's ability to 
conduct unilateral national missions such as disaster response.
                               conclusion
    Above all, I am proud to serve alongside the remarkable men and 
women of USNORTHCOM and NORAD as they stand guard over our Homelands 
against a rapidly evolving and increasingly complex set of threats. 
Their proud histories and future successes are deeply rooted in a 
shared, unshakable commitment to protecting our citizens and defending 
our common values. Together with our allies and partners, I am 
confident we will continue to adapt, innovate, and fulfill the sacred 
responsibility of defending our great Nations.

    ``We have the watch''

    Senator Fischer. Thank you, General.
    General Greaves?

   STATEMENT OF LIEUTENANT GENERAL SAMUEL A. GREAVES, USAF, 
    DIRECTOR, MISSILE DEFENSE AGENCY, DEPARTMENT OF DEFENSE

    Lieutenant General Greaves. Chairman Fischer, Ranking 
Member Donnelly, distinguished members of the subcommittee, 
thank you for this opportunity to testify on the Missile 
Defense Agency's budget request for fiscal year 2019.
    I would first like to express our appreciation to this 
committee for its support of the Department's above-threshold 
reprogramming request in September 2017 and the fiscal year 
2018 budget amendment, which provided reprogramming approval 
and emergency funding to enhance the Nation's missile defeat 
and defense capabilities.
    I'm also pleased to report that we are executing those 
funds with the utmost urgency.
    I would also like to take a second to thank the thousands 
of men and women across government and industry who work 
tirelessly every single day across the globe in support of our 
Nation's ballistic missile defense system. They remain our 
asymmetric advantage.
    Over the past year we have been given a clear and 
unambiguous message from the President that we are committed to 
expanding and improving a state-of-the-art missile defense 
system. So in my mind, the time for delays and more studies and 
more objections is over. As I say it, the threat has voted and 
continues to visibly vote through a demonstration of 
capabilities.
    Last summer I laid out three Missile Defense Agency 
priorities to help guide our actions, our behavior, and program 
planning. First, we will continue to focus on increasing the 
system reliability to build more fighter confidence. Second, we 
will increase engagement capability and capacity. Third, we 
will address the advance threat.
    I can tell you that the current ballistic missile defense 
system meets today's threat. However, as the threat increases 
in both number and lethality, we need to ensure that our 
systems will remain reliable, remain secure from cyber security 
threats, and that the Nation's ballistic missile defense 
capability and capacity keep pace with that threat.
    We currently have 44 emplaced ground-based interceptors for 
Homeland defense. We plan to expand the fleet to 64 by 2023. In 
addition, improvements in sensor coverage to include the long-
range discriminating radar in Alaska, the addition of a 
Homeland defense radar in Hawaii, if it is approved, and 
planning for a Homeland defense radar in the Pacific, as well 
as advanced discrimination improvements will enable the United 
States to improve protection of the Homeland.
    The agency will also continue its Redesign Kill Vehicle 
development efforts, enhance the stockpile reliability program, 
and expand the ground-based interceptor battle space.
    Integrated space and terrestrial sensors for cueing, 
tracking, discrimination, and targeting ballistic missile 
threats are critical to improving missile defense architecture 
robustness. This budget will continue to fund the space-based 
kill assessment demonstration program to deliver a capability 
to confirm intercepts for improved defense of the Homeland.
    We are also continuing concept definition studies for 
space-based missile defense tracking sensors. If pursued, space 
sensors will be able to detect and track traditional and 
emerging threats as part of the BMDS [Ballistic Missile Defense 
System] architecture.
    We will continue to install the Aegis ballistic missile 
defense weapon system on Aegis ships and deliver Standard 
Missile-3 Block IB interceptors. We're also supporting the 
European phase adaptive approach, providing coverage and 
protection of NATO [North Atlantic Treaty Organization] 
European territory populations and our deployed forces against 
the increasing ballistic missile threat from the Middle East.
    Our request will support continued integration of the SM-3 
Block IIA missile, a co-development effort with Japan into the 
Aegis ballistic missile defense weapon system, and the pre-
production of all up-rounds to support the initial deployment 
for EPAA [European Phased Adaptive Approach] Phase 3.
    Currently, there is an operational Aegis to shore site 
located in Romania, and while we have experienced delays in the 
military construction portion of the Aegis to shore effort in 
Poland, we remain steadfastly committed to delivery of that 
capability in support of EPAA Phase 3.
    Finally, this budget request will continue the exploration 
of breakthrough technologies for integration into the BMDS, 
including discrimination improvements, multi-object kill 
vehicle technology, hypersonic defense technology, space-based 
interceptor technology, and exploring higher-power lasers and 
interceptors that have potential use against threat missiles in 
a boost phase of flight.
    As we evaluate the elements of the missile defense system, 
we will actively pursue developing elements that have multi-
mission and Department-wide utility and leverage those systems 
once such activity with the F-35 that may have residual 
capability for missile defense.
    Madam Chairman and members of the subcommittee, I look 
forward to answering your questions. Thank you.
    [The prepared statement of General Greaves follows:]
    [The information referred to follows:]

       Prepared Statement by Lieutenant General Samuel A. Greaves
    Good afternoon, Chairman Fischer, Ranking Member Donnelly, 
distinguished Members of the subcommittee. I appreciate this 
opportunity to testify before you today on one of the President's 
highest defense priorities for fiscal year (FY) 2019.
    As I say it, the ballistic missile threat has voted and continues 
to vote today. Given this reality, the Administration has stated that 
we must take steps to respond quickly to counter the ballistic missile 
and nuclear weapons developed by our adversaries that are intended to 
kill Americans, and our allies and friends. To meet this pressing 
requirement, the President signed into law emergency appropriations 
requested in the Fiscal Year 2018 Budget Amendment that provided 
emergency funding to enhance the Nation's missile defense and defeat 
capabilities. I want to express my appreciation to the Congress for its 
support in this process. I am pleased to report that the Missile 
Defense Agency (MDA) is executing these funds with the utmost urgency. 
The President and the Department of Defense leadership have been very 
clear in outlining their priorities.
    President Donald J. Trump stated on August 23, 2017: ``We are 
committed to expanding and improving a state of the art missile defense 
system to shoot down missiles in flight. And we are getting better and 
better at it. It's actually incredible what's taking place. We will 
develop better surveillance and long-strike capabilities to prevent our 
enemies from launching them in the first place.''
    Secretary of Defense James Mattis, on September 20, 2017, warned 
the Department that '' . . . if we fail to adapt at the speed of 
relevance, ourforces will lose . . .
    The Chairman of the Joint Chiefs of Staff, General Joseph Dunford, 
Jr., USMC, on October 3, 2017 elaborated on the proximity and extent of 
the threat facing the United States when he stated: ``Based on the 
current capacity of the North Korean threat, both the type and the 
amount of missiles that they possess, we can protect Hawaii today 
against an ICBM. We can protect the continental United States against 
an ICBM . . . As the capacity of the threat increases--that is the 
size, not just the lethality, of missiles that they may possess--we 
need to be concerned about ensuring that our ballistic missile defense 
capability keeps pace with that threat. We do think an increase is 
warranted.''
    And Ms. Ellen Lord, the Under Secretary of Defense for Acquisition 
and Sustainment, emphasized the importance of moving quickly through 
our processes to get the best and most advanced capabilities out into 
the field in a timely manner when she stated:  ``It's all about 
velocity.  We are trying to get stuff downrange quickly.''
    The MDA mission is ``to develop and deploy a layered Ballistic 
Missile Defense System to defend the United States, its deployed 
forces, allies, and friends from ballistic missile attacks of all 
ranges and in all phases of flight.'' The MDA budget request of $9.9 
billion for fiscal year 2019 will continue the development, rigorous 
testing and fielding of reliable, increasingly capable, and state-of-
the-art defenses for the United States, our deployed forces, and the 
forces and territories of our allies and partners against current and 
projected missile threats. This request will maintain current Homeland 
and regional missile defense assets and increase capability and 
capacity to keep pace with advancing threats. We will continue to 
collaborate closely with the warfighter and support the current and 
future needs of the combatant commanders with the development, testing, 
deployment, and integration of interceptors, sensors, and the command, 
control, battle management and communications (C2BMC) system into a 
multi-domain battle management and command and control system for the 
Ballistic Missile Defense System (BMDS).
    MDA's fiscal year 2019 program plan aligns with the December 2017 
National Security Strategy \1\ and the 2018 National Defense Strategy 
\2\ as well as the fiscal year 2017, fiscal year 2018 and fiscal year 
2019 President's Budgets that lay out the path forward we are taking 
for missile defense. Last summer, I laid out three Agency priorities, 
support the Department's defense strategy, and guide the execution of 
missile defense program activities.
---------------------------------------------------------------------------
    \1\ ``The United States is deploying a layered missile defense 
system focused on North Korea and Iran to defend our Homeland against 
missile attacks.'' National Security Strategy of the United States of 
America, December 2017, p. 8.
    \2\ ``Investments will focus on layered missile defenses and 
disruptive capabilities for both theater missile threats and North 
Korean ballistic missile threats.'' Summary of the 2018 National 
Defense Strategy of the United States of America: Sharpening the 
American Military's Competitive Edge, p. 6.
---------------------------------------------------------------------------
    <bullet>  First, we will continue to focus on increasing system 
reliability to build warfighter confidence by upgrading, improving, and 
sustaining deployed systems and executing a rigorous and continuous 
test and evaluation approach with strong modeling and simulations to 
mature technologies and validate deployed capabilities.
    <bullet>  Second, we will increase engagement capability and 
capacity by increasing the number of fielded interceptors, building out 
the sensor architecture with the aim of capturing ``birth-to-death'' 
tracking, improving system discrimination and integration, leveraging 
international partnerships for affordability and interoperability, and 
working closely with the Combatant Commands to provide integration 
support and capabilities to meet emergent operational needs.
    <bullet>  Third, we will address the advanced threat by working 
with Combatant Commands and Services to address emerging threats, to 
include the growing and highly challenging hypersonic glide vehicle and 
cruise missile threats and by pursuing advanced technologies, such as 
directed energy, and making prudent and affordable investments in 
potentially game-changing capabilities.
    I can tell you today that the current BMDS meets today's threat, 
but we require additional capacity and advanced capability to stay 
ahead of the evolving threat, as is requested in the Fiscal Year 2019 
President's Budget.
                             missile threat
    Nearly all of our adversaries are concerned with U.S. missile 
defenses and have devised various means to complicate missile defense 
operations. Missile defense countermeasures continue to be developed 
and fielded. Future supersonic/hypersonic powered cruise missiles may 
be launched by large rocket boosters that have traditionally been 
associated with ballistic missiles. Hypersonic glide vehicles are being 
developed as a new type of ballistic missile payload. The combination 
of high speed, maneuverability, and relatively low altitude makes them 
challenging targets for missile defense systems.
    North Korea is committed to developing a long-range, nuclear-armed 
missile that is capable of posing a direct threat to the United States. 
In 2016 and 2017, North Korea conducted over 40 launches of short, 
medium, intermediate, submarine-launched, and intercontinental-range 
systems. This past February, North Korea paraded five ballistic missile 
systems: four of these received their first test launch in 2017. North 
Korea flight-tested two Hwasong-14 intercontinental ballistic missiles 
(ICBMs) in July. In their tested configuration, these missiles are 
capable of reaching North America. In late November 2017, North Korea 
launched what it described as a new ICBM-the Hwasong-15-which also 
demonstrated a capability to reach the United States. Pyongyang flew 
two Hwasong-12 intermediate-range missiles over Japan last year, 
placing our allies at potential risk from missile debris. The second of 
these tests demonstrated a capability to reach over 3,700 kilometers, 
which can range beyond Guam. The North twice flight-tested a solid-
propellant medium-range missile capable of reaching Japan. Based on 
North Korea's developmental submarine-launched ballistic missile, this 
system-the Pukguksong-2 is the North's longest-range solid-propellant 
missile. This advancement is significant because solid-propellant 
missiles can be prepared for launch more rapidly than liquid-propellant 
systems. Additional missile launches out of North Korea--from short-
range to intercontinental-range--are a near certainty. In addition to 
further strategic-weapon testing, North Korea has announced that it 
will focus on producing and deploying nuclear weapons and ballistic 
missiles in 2018.
    Iran has ambitious ballistic missile and space launch development 
programs and continues to attempt to increase the lethality of its 
ballistic missile force. Iran is fielding increased numbers of theater 
ballistic missiles and improving its existing inventory. Its progress 
on space launch vehicles could shorten a pathway to an ICBM. Iran's 
ballistic missiles are capable of striking targets throughout the 
region, ranging as far as southeastern Europe. It has used these 
missiles in the region, conducting retaliatory strikes on ISIS targets 
in Syria. Iran has steadily increased its ballistic missile force, 
deploying next-generation short- and medium-range ballistic missiles 
(SRBMs and MRBMs) with increasing accuracy and new submunition 
payloads. Iran is developing, and has publicized the testing of, SRBMs 
with anti-ship payloads. Iran also continues to proliferate ballistic 
missiles to states and non-state groups.
       increasing system reliability through testing, warfighter 
                    collaboration, and cybersecurity
    We continue to enhance the reliability and functionality of current 
missile defense systems, especially the Ground Based Interceptors and 
Aegis BMD Weapon System/Standard Missile (SM)-3 performance, build the 
confidence of warfighters in the BMDS, and work to reduce the number of 
interceptors needed to defeat in-flight ballistic missile threats. To 
increase system reliability and improve warfighter confidence in the 
system, MDA executes a fully integrated test program that synchronizes 
the system with the warfighters trained to operate the system under 
varying wartime conditions against current and emerging threats. This 
ensures BMDS capabilities are credibly demonstrated and validated prior 
to delivery to the warfighter.
    MDA executes a continuous program to improve system reliability and 
manage service life of our BMDS components. An example is the Ground-
Based Midcourse Defense (GMD) weapon system. A cornerstone of this 
effort is our stockpile reliability program (SRP) for Ground Based 
Interceptors (GBIs). Two GBIs have been removed from the fleet this 
past year, inspected, and tested to gain understanding of how the GBIs 
age in the silos. Another GBI will be removed this year for the SRP. 
From testing to date, we have been able to extend the service life of 
the Cl and C2 boosters. Another key effort is our Service Life 
Extension program. This program performs lifetime testing on key 
components in the kill chain enabling MDA to extend the service life 
beyond the manufacturer's estimate. This testing allows us to avoid 
unnecessary maintenance actions and control operations and support 
costs. MDA also pursues reliability improvements through our 
development activities. We measure availability and reliability data in 
the field and target improvements in the GBIs and GMD ground system 
development programs. A key delivery this year was Ground System 7A, 
which removed obsolete equipment from the kill chain, eliminated cyber 
defense vulnerabilities, and improved redundancy for the warfighter. 
Key future reliability improvements include delivering the Redesigned 
Kill Vehicle and upgrading the GMD Communications Network, launch 
support equipment, and the IFICS Data Terminal High Power Amplifier.
    We continue to work closely with independent testers within the 
Department--the Director, Operational Test and Evaluation (DOT&E); 
Deputy Assistant Secretary of Defense, Developmental Test & Evaluation; 
Service Operational Test Agencies; Combatant Commands, and the Joint 
Forces Component Command for Integrated Missile Defense--to develop an 
Integrated Master Test Plan (IMTP) and execute a robust, cost-effective 
test program. The IMTP provides a flight- and ground-test program, to 
include rigorous modeling and simulation, systems engineering and 
validation, verification and analysis necessary to demonstrate and 
deliver proven integrated capabilities against the evolving threat.
    MDA focuses on BMDS flight and ground testing that rigorously 
verifies, validates, and accredits models and simulations (M&S) to 
ensure confidence in the data used to make performance assessments. We 
use M&S in a robust integrated and distributed ground-test program. In 
2018 MDA began the development of a high-fidelity, all-digital, 
integrated, BMDS-level simulation. This effort will combine the best 
performance assessment models from across all BMDS elements into an 
integrated simulation. The all-digital simulation will be able to model 
full BMDS architectures and excursions that cannot be easily explored 
in ground tests or flight tests for a more thorough exploration of the 
BMDS performance space. In fiscal year 2017, MDA successfully 
demonstrated a prototype of this digital simulation capability.
    Our system ground-tests are the primary source for system 
performance data, and they test our capability across a wide range of 
threats and environments that cannot be replicated affordably in flight 
tests. The BMDS Operational Test Agency, which provides an independent 
operational assessment of the BMDS, relies heavily on the MDA ground-
test program to assess independently MDA's operational capability. The 
ground-tests allow analysts to characterize BMDS performance under 
varying conditions, with unconstrained red and blue force limitations, 
and without the safety, fiscal, and hardware availability limitations 
of flight-testing. Additionally, with warfighters on console, they are 
able to use ground-tests to refine Tactics, Techniques, and Procedures. 
All of the data from ground tests are used to inform DOT&E assessments 
of BMDS capability.
    In addition to 14 element-level ground-tests, we conducted eight 
developmental and operational system-level ground-tests from October 
2016 to present. There are two more system-level ground-tests scheduled 
for this fiscal year and five more planned for fiscal year 2019. Last 
year, we also conducted or participated in more than 20 multi-event 
exercises and wargames, which are critical to the Combatant Commands 
and the intensive engineering efforts across the Agency.
    Flight-testing uses operational realism to provide data for M&S and 
demonstrates the performance functions of the system that ground-
testing cannot address. One of the key attributes of each flight-test 
is combining the system under test with the soldiers, sailors, airmen, 
and marines that plan to operate the system in wartime under 
operationally realistic conditions. We also work closely with our 
allies to prove BMD capabilities are integrated and interoperable 
before they are fielded. From October 2016 to present, we have executed 
22 flight-tests. For the remainder of fiscal year 2018, we will conduct 
seven more flight-tests, and in fiscal year 2019, 12 flight-tests, 
including the operational test of European Phased Adaptive Approach 
(EPAA) Phase 3 capabilities and the first salvo test using the Ground-
Based Midcourse Defense (GMD) system. The Agency also is conducting 
detailed planning to conduct an Aegis BMD test against a long-range 
ballistic missile target and adding an IRBM target to GM CTV-03+ as 
risk reduction for the Homeland defense Redesigned Kill Vehicle (RKV) 
program. Both tests are planned for fiscal year 2020.
    The warfighter is integrated into our requirements, engineering 
design/review and test efforts and processes. The Unified Command Plan 
assigns responsibility to the U.S. Strategic Command (USSTRATCOM) 
Commander to synchronize planning for global missile defense in 
coordination with other Combatant Commands, the Services, and 
appropriate U.S. Government agencies. USSTRATCOM, the central 
integrator for our requirements, defines the Integrated Air and Missile 
Defense (IAMD) Warfighter Involvement Process (WIP), which outlines the 
roles and responsibilities for all participants and establishes the 
structure for collaboration and advocacy for desired missile defense 
capabilities and characteristics on behalf of the warfighter. 
USSTRATCOM leads the WIP, advocates for the Combatant Commanders' 
desired IAMD characteristics and capabilities, and provides a 
Prioritized Capabilities List (PCL) of joint military capability needs 
to MDA and other appropriate acquisition authorities. The PCL informs 
MDA's President's Budget Request.
    The Capabilities Document for Homeland Ballistic Missile Defense, 
accepted by the Joint Requirements Oversight Council (JROC) in 2014, 
baselined the current concept and prioritized future capabilities 
within the Homeland defense BMD system based on previously approved 
warfighter requirements, acquisition decisions, and current long-term 
investment strategy. This review included rigorous warfighter 
coordination and provided the opportunity to the warfighter to shape 
the document, which resulted in the JROC accepting the framework and 
Required Operational Attributes in the document. The Agency now uses 
those Required Operational Attributes as the requirements that guide 
capability development and future program capabilities necessary to 
make the system effective against threats in the future.
    The objective of any development program is to provide effective 
warfighting capability to the hands of the warfighter as soon as it is 
technically and operationally feasible. Ultimately, the Services and 
Combatant Commands will operate and employ these capabilities as 
required. Upgraded Early Warning Radars, COBRA DANE, and Patriot are 
examples of systems or components that have successfully transitioned. 
Transitioning operations and sustainment to Services allows development 
agencies to re-focus RDT&E activities to address evolving threats. 
Terminal High Altitude Area Defense (THAAD) and AN/TPY-2 radar 
transition is in work with the Army and we are developing an agreement 
on the conditions and terms of transfer. Additionally, we are 
developing a plan for transition of Standard Missiles to the Navy, as 
is requested in the Fiscal Year 2019 President's Budget. MDA will 
continue to work within the Department on decisions to transfer 
capability to the Services. As transition is the end goal, each element 
and component will be evaluated against criteria such as its multi-
mission potential; technical maturity; requirements and technical 
volatility; and interoperability with the overall system to determine 
the pace at which we will pursue transition.
    MDA will also continue to provide the warfighter operational 
support by performing the routine mission essential functions of BMDS 
configuration control, asset management, and operational readiness 
reporting, providing an operational-level interface to United States 
Strategic Command, Northern Command, European Command, Central Command, 
and Pacific Command, and facilitating increased warfighter 
participation in development of future missile defense capabilities. 
MDA will continue to provide support for systems like the globally 
deployed Aegis BMD/Standard Missile (SM)-3 system, AN/TPY-2 radar 
(Terminal and Forward-Based Modes), THAAD, and Command and Control, 
Battle Management and Communications (C2BMC). MDA also will continue to 
lead the integration of evolving MDA, Service, and COCOM command and 
control capabilities through systems engineering analysis and 
development of technical integration requirements and interface control 
documents to address the fielding of air, missile, and rocket 
capabilities by U.S. adversaries.
    Getting work on contract and delivering capability as quickly as 
possible using the unique and broad set of authorities, 
responsibilities and accountability assigned to the Agency with 
balanced oversight from the Under Secretary (Research and Engineering) 
and Under Secretary (Acquisition & Sustainment) are critical to our 
ability to support the warfighter and accelerate program decisions and 
contract actions necessary to counter the rapidly evolving threat. As 
an example, MDA program offices are expediting activity to put new 
content on contract to deliver new capability to the warfighter after 
receiving $250 million in fiscal year 2017 reprogrammed funds and over 
$2.0 billion in emergency appropriations requested in the Fiscal Year 
2018 Budget Amendment to support the Missile Defeat and Defense 
Enhancements (MDDE) initiative. Additionally, our centralized decision 
authority for program development and contract updates enabled more 
rapid incorporation of mandatory cybersecurity contract actions. New 
contract and program strategies, to include the proposed strategy for 
the Homeland Defense Radar--Hawaii (HDR-H), also are quickly approved 
and implemented.
    Finally, the Missile Defense Agency is cognizant of the growing 
cyber threat and we continue to work aggressively to ensure the 
Nation's missile defenses are resilient and able to operate in a highly 
contested cyber threat environment. We are progressively improving the 
cyber hygiene of our missile defense capabilities by ensuring the 
cybersecurity infrastructure has the latest security upgrades. MDA 
remains focused on supporting the DOD Cybersecurity Campaign through 
implementation of the DOD Cybersecurity Discipline Implementation 
Plan--Four Lines of Effort for: Strong Authentication, Hardening of 
Systems, Reducing the DOD Attack Surface, and Alignment to 
Cybersecurity / Computer Network Defense Service Providers across all 
networks. These four lines of effort are critical to the defense of the 
MDA networks.
    In addition to the four lines of effort, MDA has determined that 
protection of the Nation's BMDS unclassified data requires additional 
safeguards and enhanced vigilance. As part of these safeguards, MDA has 
engaged with our defense industrial base corporate partners to ensure 
cybersecurity is prioritized, addressed and enforced at all levels of 
the supply chain. The National Institute of Standards and Technology 
(NIST) has developed a Framework for Improving Critical Infrastructure 
Cybersecurity. This is a set of industry standards and best practices 
to help organizations manage cybersecurity risks. Measures include NIST 
control compliance, industry cybersecurity best practices as well as 
techniques for providing only the need-to-know unclassified BMD system 
data to each level of the supply chain. We continue to address industry 
compliance with applicable DFARs clauses associated with the protection 
of critical MDA controlled unclassified information and critical data.
    Not only are we focused on external threats to our enterprise, but 
MDA acknowledges the reality of the insider threat as one of the more 
pervasive threats to be addressed, and we have established and 
implemented an aggressive Agency Insider Threat Program. This allows us 
to monitor both internal and external data movement to ensure all 
unclassified and classified data is handled in accordance with 
applicable guidance and is also afforded the highest level of 
protection. We are constantly evaluating our attack data and updating 
the MDA Emergency Response Team procedures. Abnormalities or violations 
are quickly identified and thoroughly investigated by both MDA and DOD 
Insider Threat and Counter Intelligence.
    Finally, MDA is actively integrating cybersecurity requirements 
early into the acquisition life cycle to increase security and reduce 
overall cost. For example, we are upgrading C2BMC and the GMD ground 
systems software and hardware to enable enhanced cybersecurity 
protection capabilities. To better support our Combatant Commanders, 
this year we successfully executed the first DOT&E Cybersecurity 
Vulnerability & Penetration Assessment on BMDS platform systems 
culminating in a system-level assessment during Ground Test 
Distributed-07a. This is a significant step in understanding the 
cybersecurity posture of the BMDS and the ability to defend against 
emerging threats. We continue to develop a culture of cybersecurity 
knowledge and accountability across the Agency, which fosters awareness 
down to the user level to anticipate, detect, and respond to cyber 
issues before they can have an impact.
    The MDA office of the Chief Information Officer, which conducts 
cybersecurity testing involving all the systems to include BMD 
elements, development labs, test systems to ensure the entire MDA 
Enterprise is secure, executes several testing efforts across MDA 
systems on an annual basis: 46 cybersecurity controls validation tests, 
50 vulnerability assessments, and 110 software assurance code reviews, 
for a total of 1,030 test across the Future Years Defense Program 
(FYDP). MDA also executes BMDS element and system level tests that 
support fielding of new capability to be included in the Operations 
Capacity Baseline. Per section 1647 of the fiscal year 2016 NDAA, MDA 
is also responsible for MDA weapon system cyber testing and risk 
mitigation for the congressional report scheduled to be delivered first 
quarter fiscal year 2020. Over the FYDP there are over 211 cyber tests 
planned, including developmental and operational Cooperative 
Vulnerability and Penetration Assessments (CVPA) and Adversarial 
Assessments.
    We have had a comprehensive ongoing effort since 2010 that I 
believe will go a long way in providing insight and proof of MDA's 
commitment to cyber protection and testing as a way of being responsive 
to DOT&E and working with them on the way-ahead. For example, as the 
cybersecurity threat has matured, the Terminal High Altitude Area 
Defense (THAAD) program identified the need to take a proactive 
approach to cybersecurity. The likelihood and consequence of the cyber-
threat was increasing at a pace that necessitated programmatic change. 
After careful consideration, we created a comprehensive cyber program 
structure called the THAAD Security and Networking Division. This 
organizational structure is the foundation of THAAD's cyber security 
model and acts as the enabler for THAAD execution in all areas of 
cybersecurity. Cybersecurity includes compliance, security engineering, 
design, development, test, physical security and program security. The 
key to executing these roles is the understanding of the linkage that 
cybersecurity has with system engineering and the acquisition 
processes. By locating cybersecurity into THAAD's system engineering 
directorate, this aligns cybersecurity functions to the following other 
functions: software, modeling and simulation, future concepts, 
requirements, and system integration. This alignment not only ensures 
cybersecurity is inherit in the system engineering and development life 
cycles, it is the catalyst to increase THAAD's chances of survival in a 
cyber-contested environment. We believe this is a proven model that 
should be considered a best practice.
             increasing engagement capability and capacity
    This budget request maintains operational missile defense 
capabilities for existing operational Homeland and regional defense 
forces and will continue to increase interceptor inventory capacity and 
use existing technologies to improve sensors, battle management, fire 
control, and kill vehicle capabilities to address evolving threats.
Homeland Defense
    MDA remains committed to operating, sustaining, and expanding our 
Nation's Homeland missile defenses and requests $2.2 billion in fiscal 
year 2019 for the Ground-Based Midcourse Defense (GMD) program. We 
currently have emplaced 44 operational GBIs and, in accordance with the 
Fiscal Year 2017 Above Threshold Reprogramming and Fiscal Year 2018 
Budget Amendment, plan to expand the fielded GBI fleet to 64 as early 
as 2023. This increase to GBI capacity is a response by the National 
Command Authority to the rapidly advancing North Korean threat and has 
been designated as an ``emergency requirement'' by the President in the 
Fiscal Year 2018 President's Budget Amendment.
    The Agency will continue to demonstrate improved performance 
through flight- and system-ground testing of Homeland defenses, 
integrate additional capabilities provided by the Long Range 
Discrimination Radar (LRDR), BMDS system track, and Homeland Defense 
RadarHawaii (HDR-H), plan for a Homeland Defense Radar--Pacific (HDR-
P), continue Redesigned Kill Vehicle (RKV) development, enhance the 
Stockpile Reliability Program, and expand the GBI battle space. We will 
continue improving our sensors, C2BMC, GMD ground systems hardware/
software upgrades, GMD Fire Control (GFC), and kill vehicle software to 
improve discrimination capabilities and overall system performance. We 
also will continue to improve confidence in our reliability through 
increased testing and analysis.
    At the same time, MDA is evaluating the technical feasibility of 
the capability of the SM3 Block IIA missile, currently under 
development, against an ICBM-class target in accordance with 
Congressional legislation. If proven to be effective against an ICBM, 
this missile could add a layer of protection, augmenting the currently 
deployed GMD system. As directed by the fiscal year 2018 NDAA language, 
we will conduct this demonstration no later than December 31, 2020.
  Increasing GBI Capacity
    In 2013, the Secretary of Defense directed MDA to expand the GBI 
fleet from 30 to 44 by the end of 2017, in response to provocations 
from North Korea. The GBI is the Nation's primary defense against long-
range and intercontinental ballistic missiles. In November 2017, MDA 
emplaced the 44th GBI at Fort Greely, Alaska (FGA). Achieving this 
objective required MDA to purchase and field 14 additional GBIs. It 
also required refurbishment of Missile Field-1 to remediate obsolete 
hardware, update silo interface equipment, install a hardened 
mechanical electrical building, and upgrade related mission support 
systems infrastructure. To support the 44 GBIs within the existing 
system, MDA also upgraded GFC and ground systems.
    Leading up to the fielding of 44 GBIs, MDA conducted three 
successful flight tests. Flight Test Ground-Based Midcourse Defense 
(FTG)-06b, conducted in June 2014, demonstrated long interceptor time-
of-flight and Capability Enhancement (CE)-II Exo-atmospheric Kill 
Vehicle (EKV) capability to discriminate targets and intercept lethal 
objects from a representative target scene with countermeasures. A 
controlled test vehicle flight test, GM CTV-02+, conducted in January 
2016, evaluated CE-II EKV performance with the newly designed Alternate 
Divert Thrusters in a non-intercept flight environment while allowing 
data collection to evaluate system enhancements, advanced 
discrimination algorithms, and salvo intercept time spacing.
    FTG-15, conducted in May 2017, demonstrated viability of the new 3-
Stage Configuration 2 (C2) booster and CE-II Block I EKV GBI. This was 
the first ever intercept of an ICBM-class target. The FTG-15 flight 
test successfully demonstrated our Homeland defenses GMD's systems 
functioned as predicted against a realistic threat ICBM-range target. 
The upgraded CE-II Block 1 EKV launched on a C2 booster successfully 
intercepted and destroyed a target designed to emulate a projected 
North Korean threat. FTG-15 proved effective engineering and 
manufacturing of the new GBI as well as improved discrimination 
algorithms, missile defense architecture and warfighter command and 
control.
    MDA is developing the capability to provide the warfighter the 
option of either flying GBIs using all three booster stages or not 
igniting the third stage, providing performance similar to a 2-stage 
boost vehicle. This approach will provide additional Homeland defense 
battle-space capability through shorter engagement times without the 
expense of a separate 2-stage boost vehicle development program. This 
capability is planned to be tested in calendar year (CY) 2019, after 
which it will be fielded on all boost vehicle configurations.
  Redesigned Kill Vehicle
    The Redesigned Kill Vehicle (RKV) will improve reliability and make 
Homeland defenses more robust. The RKV will help address the evolving 
threat, enhance kill vehicle reliability, improve in-flight 
communications to better utilize off-board sensor data, and heighten 
Combatant Commanders' situational awareness via hit/kill assessment 
messages. The program leverages the SM-3 Block IIA kinetic warhead 
electronic and seeker to provide commonality among Agency interceptors, 
which is expected to lower costs, reduce risks and increase the speed 
of technology development and fielding of the RKV. The program schedule 
will conduct its first controlled test vehicle flight test of the RKV 
in fiscal year 2020 (GM CTV-03+). The first intercept flight test (FTG-
17) is planned for fiscal year 2021 with a second intercept flight test 
(FTG-18) in fiscal year 2022. We anticipate deploying the RKV beginning 
in the fiscal year 2022 timeframe.
    In 2018 MDA is initiating the GMD portion of MDDE, which will field 
an additional 20 RKV-equipped GBIs at FGA. MDA will accelerate the RKV 
production deliveries, construct a new missile field (Missile Field 4) 
at Fort Greely, install 20 silos, and deliver an additional 20 GBIs 
tipped with RKVs. We will complete the GMD portion of the MDDE as early 
as 2023. In addition, MDA will initiate a plan to ensure that no less 
than 64 GBIs are available to the warfighter at all times. To 
accomplish this, MDA will add two silos to MF-1 at FGA and purchase six 
additional GBI boosters. The additional silos and boosters will enable 
MDA to deliver an RKV-equipped GBI prior to removing a GBI as we 
replace the CE-I Kill Vehicles currently in the fleet.
  Ground System Upgrades
    MDA is continuing with capability upgrades and technology 
modernization of key ground support and fire control systems components 
such as the GFC equipment, the GMD Launch Support System, 
Communications Network, and the In-Flight Interceptor Communication 
System Data Terminal. The capability upgrades include: GFC-Warfighter 
interface and logic improvements, 2-/3-stage selectable GBI battle 
management, discrimination improvements, enhancements to the kill 
vehicle Target Object Map, and On-Demand Communications for the RKV. 
Ground system modernization will continue to mitigate obsolescence 
issues, improve cybersecurity resilience, increase GFC capacity for 
emerging threat complexity and raid size, reduce life-cycle cost, 
increase system reliability and operational availability, and simplify 
the insertion of future technologies.
  Defense Sensors
    We are investing in radars and developing advanced electro-optical 
sensors to achieve a diverse sensor architecture that will provide 
highly accurate midcourse tracking, discrimination and battle damage 
assessment. We are also leveraging Services' sensors to support the BMD 
architecture, for example, the Navy's new solid state SPY-6 radar on 
their Flight III destroyers, the Air Force F-35 Distributed Aperture 
System, and future Department of Defense and Intelligence Community 
space sensors. In this year's budget submission we highlight the 
continued development of the Long Range Discrimination Radar (LRDR) and 
Spacebased Kill Assessment (SKA) programs, which will improve system 
target discrimination and assessment capabilities. Improved sensor 
coverage and interceptor capabilities will help the warfighter expand 
the battle space to reengage threats as needed.
    We request $176.1 million to sustain Cobra Dane, the Upgraded Early 
Warning Radars (UEWR), and the Army Navy/Transportable Radar 
Surveillance and Control Model-2 (AN/TPY-2) radars. The Services and 
Combatant Commands, with logistical support from the MDA, operate a 
fleet of five AN/TPY-2 (Forward Based Mode) radars in Japan, Israel, 
Turkey, and United States Central Command in support of Homeland and 
regional defense.
    We request $220.9 million to continue the development of advanced 
discrimination algorithms for the AN/TPY-2, Sea-Based X-Band (SBX) 
radar, and the UEWRs to counter evolving threats. The discrimination 
improvements will develop and field integrated capabilities to improve 
the BMDS ability to identify lethal and non-lethal objects. Beginning 
in fiscal year 2018, MDA will complete transition to production design 
activities for next generation Gallium Nitride Transmit/Receive 
Integrated Multichannel Modules to support the AN/TPY-2 obsolescence 
and sparing strategy and set the condition for enhanced performance in 
the future. MDA requests $81.0 million for Ballistic Missile Defense 
(BMD) Sensors testing activities for planning, analysis, and execution 
of BMDS flight test events, including pre- and post-test efforts, such 
as Digital and Hardware-in-the-Loop Pre-Mission Tests, and Post-Flight 
Reconstruction.
    MDA requests $149.7 million for the SBX radar. The SBX is an 
advanced mobile radar that provides precision midcourse tracking and 
discrimination capabilities. The SBX participates in flight tests to 
demonstrate discrimination and debris mitigation improvements. To 
address the continued missile test activity of North Korea, our budget 
request includes funds to extend time at sea and conduct contingency 
operations for defense of the Homeland in the United States Pacific 
Command and United States Northern Command areas of responsibility.
    We request $164.6 million to continue development of the LRDR. The 
LRDR is a midcourse sensor that will provide persistent long-range 
midcourse discrimination, precision tracking, and hit assessment and 
improve BMDS target discrimination capability while supporting a more 
efficient utilization of the GMD interceptor inventory. LRDR also will 
support additional mission areas, including Space Situational 
Awareness. The LRDR site will be constructed as two separate military 
construction projects. For fiscal year 2017, Congress fully funded 
Phase 1 of the LRDR project by providing $155 million for a Shielded 
Mission Control Facility and Radar Foundation. MDA began military 
construction of Phase 1 in fiscal year 2017. Phase 2 in fiscal year 
2019 will address the shielded Power Plant that includes fuel storage, 
a maintenance facility, and associated site support. Initial fielding 
of the LRDR is on schedule for first quarter calendar year 2020. We are 
on-schedule for the Technical Capability Declaration in late third 
quarter or early fourth quarter fiscal year 2021, leading to Warfighter 
Operational Readiness Acceptance in fiscal year 2022.
    The Sensors Analysis of Alternatives (AOA), conducted by the 
Department to assess the most cost-effective options for enhanced 
sensor capability to increase Ground Based Interceptor effectiveness 
against future, complex threats, highlighted the operational value of 
placing additional discrimination radars in the Pacific. Based on the 
Sensor AOA finding, MDA completed site surveys for the Homeland Defense 
Radar-Hawaii (HDR-H) in fiscal year 2017. We requested $21 million in 
fiscal year 2018 for the HDR-H to conduct source selection activities 
and award this radar as the first delivery order on a fixed-price 
indefinite delivery/indefinite quantity (IDIQ) contract. MDA is 
requesting $62.2 million in fiscal year 2019 for the HDR-H. In 
addition, MDA plans to complete site surveys in fiscal year 2018 and 
competitively award the Homeland Defense Radar-Pacific (HDR-P) by the 
end of fiscal year 2019 as the second delivery order on the IDIQ 
contract. MDA is requesting $33.5 million in fiscal year 2019 for the 
HDR-P. Both radars will close coverage gaps in the Pacific architecture 
and provide persistent long-range acquisition and midcourse 
discrimination, precision tracking, and hit assessment to support the 
defense of the Homeland against long-range missile threats.
    Space provides the critical vantage point necessary to address 
rapidly advancing threats across multiple regions of interest and the 
only vantage point for global persistence to address warfighter 
requirements. A space-based sensor layer would enable the United States 
to use interceptor inventory more efficiently and effectively to 
counter a broad array of threats. Integrated space and terrestrial 
sensors for tracking, discriminating, cueing and targeting ballistic 
missile threats can improve missile defense architecture robustness.
    We are requesting $16.5 million for the Spacebased Kill Assessment 
(SKA) program. Using fast frame, infrared sensors, SKA will deliver a 
kill assessment capability for GMD defense of the Homeland as part of 
an integrated post intercept assessment solution requested in the 
Fiscal Year 2014 NDAA. SKA is MDA's pathfinder program to deliver a 
resilient sensor network in a rapid and affordable manner. Ground 
segment participation in BMDS flight tests occurred last year; on-orbit 
deployment of the sensors occurs this year; and we are looking at steps 
to add SKA to the operational BMDS when SKA proves itself during flight 
testing next year.
    Also, we request $37.0 million for continued operation of the Space 
Tracking and Surveillance System (STSS) and the Missile Defense Space 
Center (MDSC) in fiscal year 2019. STSS satellites, which were launched 
in 2007, have exceeded their life expectancy and have proven to be a 
good investment. These satellites operate in low earth orbit and 
continue to collect valuable test data. The STSS program and the MDSC 
support concept development activities for future space sensor 
architecture studies and analyses to address advanced threats.
    MDA is currently conducting trade studies and prototype concept 
design for a potential space-based missile tracking sensor/system. MDA 
envisions a space-based sensor architecture designed to detect and 
track traditional and emerging threats using persistent infrared 
sensing. If pursued, space sensors could be a key element of an 
integrated and layered BMDS Sensor Architecture. MDA could partner with 
the U.S. Air Force on requirements definition. MDA also envisions 
partnering opportunities with the Air Force on ground services, 
integration, launch, and operations. MDA will leverage the Enterprise 
Capabilities developed collaboratively between other DOD and federal 
agencies.
Regional Defenses
    There are hundreds of ballistic missiles within range of U.S. 
forces and allies worldwide. Our fiscal year 2019 budget request 
continues to resource and build integrated regional missile defenses 
that are interoperable with systems deployed by international partners 
to protect deployed forces, allies and international partners against 
SRBMs, MRBMs, and IRBMs.
  Terminal High Altitude Area Defense
    Terminal High Altitude Area Defense (THAAD) is a transportable, 
ground-based missile defense system that defends against short- , 
medium-, and intermediate-range ballistic missiles in the terminal 
phase of flight. THAAD provides Combatant Commanders a rapidly 
deployable capability to deepen, extend, and complement BMDS Homeland 
and regional defenses. THAAD is now 15 for 15 in flight testing. MDA is 
conducting New Equipment Training for the 7th Battery, which will be 
ready for operational support to the Army later this calendar year. MDA 
also continues to deliver interceptors for the U.S. inventory. We have 
successfully fielded two THAAD batteries for a Foreign Military Sales 
case with the United Arab Emirates (UAE), and continue to deliver 
interceptors for the UAE inventory and provide maintenance and 
sustainment support.
    Continued provocations demonstrate the serious threat North Korea 
poses to the Republic of Korea (ROK), the Asia-Pacific region, and 
United States forward-deployed forces. MDA continues to provide 
maintenance and supply support of the THAAD battery (including the 
Terminal Mode AN/TPY-2 radar) stationed in Guam. MDA is strengthening 
the capability of this regional BMDS presence in response to a United 
States Forces Korea Joint Emergent Operational Need (JEON) to increase 
integrated missile defense system interoperability and expand the 
defended area. This requirement is supported by USSTRATCOM and approved 
by the Chairman of the Joint Chiefs of Staff (CJCS).
    U.S. Pacific Command initiated the deployment of the THAAD system 
to the ROK on March 6, 2017, implementing the United States-ROK 
Alliance's July 2016 decision to bring the defense capability to the 
peninsula. In coordination with the Army's Lower Tier Program Office, 
MDA began a concerted effort in May 2017 to develop an integrated, 
phased approach to incrementally field capability, delivering improved 
BMDS capability to the Korean Peninsula, including integration of 
existing BMD assets to improve engagement options and coverage. The 
deployment of THAAD contributes to a layered missile defense system and 
enhances the United States-ROK Alliance's defense against North Korean 
missile threats.
    At OSD direction, the Army and MDA developed a draft Memorandum of 
Agreement (MoA) for the transfer of the THAAD and AN/TPY-2 programs 
from MDA to the Army. The draft MoA stipulates that when THAAD 
transfers to the Army, production operations and sustainment program 
and funding for THAAD and AN/TPY-2 systems would transfer to the Army, 
and Research and Development program funding of THAAD and AN/TPY-2 
radars would remain in MDA. The MDA was approved by MDA and is 
currently being reviewed by the Army.
    MDA requested $214.2 million in fiscal year 2019 for THAAD 
development efforts. We will continue development of THAAD software 
upgrades to address threat packages and defense planning as well as 
improved capability to engage SRBM, MRBM, and limited IRBM threats. 
THAAD development and integration will provide enhanced debris 
mitigation capability, improved interoperability with other BMDS 
elements, and expanded defended area footprints via remote operation of 
THAAD Launchers, as well as complete developmental efforts to upgrade 
and ensure the integrity and availability of positioning, navigation, 
and timing data for the THAAD weapon system. Finally, we will continue 
development efforts associated with USFK JEON that provide enhanced 
THAAD capability against specific USFK threats, improved radar energy 
allocation, improved THAAD performance against debris and in complex 
environments, and an accelerated initial capability to remote launchers 
and increase defended area.
    Flight Test THAAD-18 (FTT-18) was conducted in Kodiak, Alaska on 
July 11, 2017. This test demonstrated THAAD's intercept of an IRBM-
class target and THAAD's ability to fire from two launchers. Flight 
Experiment THAAD-01 (FET-01) was conducted in Kodiak, Alaska on July 
30, 2017, which collected critical performance data related to 
countermeasures. Additionally, THAAD successfully achieved an intercept 
against the target in that countermeasure environment.
    MDA requests $874.1 million to continue procurement of THAAD 
equipment, including 82 THAAD Interceptors in fiscal year 2019. By the 
end of fiscal year 2019, MDA will deliver 60 additional THAAD 
Interceptors to the U.S. Army, for a total of 276 interceptors 
delivered. MDA requests $61.0 million for Terminal Defense Testing in 
fiscal year 2019. We also request $92.6 million of Operations and 
Maintenance funding to support the maintenance and upkeep of all BMDS-
unique items of the fielded THAAD batteries and for all THAAD training 
devices. In fiscal year 2018 MDA will provide support to seven THAAD 
batteries, including the two forward batteries stationed in the U.S. 
Pacific Command's area of responsibility and is prepared to support the 
U.S. Army in any future deployment around the world.
  Aegis Ballistic Missile Defense
    Aegis BMD continues to be a key component of the Nation's regional 
defense for our deployed forces, allies, partners and friends, and 
directly supports and expands our Homeland defenses with long range 
surveillance and track capability. The fiscal year 2019 budget request 
of $767.5 million supports continued advancement of the system to 
counter the growing threats.
    In fiscal year 2017 we completed one Aegis BMD Weapon System 
installation on an Aegis ship: Aegis BMD 3.6 to Aegis Baseline (BL) 
9.C1 (BMD 5.0CU) upgrade. We also initiated two Aegis BMD Weapon System 
installations on Aegis ships: one Aegis BMD 3.6 to Aegis BL 9.C1 (BMD 
5.OCU) upgrade and one non-BMD capable ship to Aegis BL 9.C1 (BMD 
5.0CU) upgrade. In fiscal year 2018 we began an additional eight Aegis 
BMD Weapons Systems installations on Aegis ships: six Aegis BMD 3.6 to 
4.X, and two non-BMD capable ships to Aegis BL 9C.2 (BMD 5.1). We also 
retired the BMD 4.0.2 baseline in fiscal year 2017. We will retire BMD 
4.0.3 through upgrades to BMD 4.1 in fiscal year 2019. In fiscal year 
2017, we delivered 55 Standard Missile -3 (SM-3) Block IB missiles. 
Additionally, in fiscal year 2018, we plan to deliver 35 SM-3 Block IB 
production rounds to the Fleet.
    In fiscal year 2019, as part of our overall Aegis BMD request we 
are requesting $232.92 million for the SM-3 Block IIA Program. This 
includes the continued integration of the SM-3 Block IIA into the BMD 
Weapon Systems, as well as pre-production All-Up-Rounds to support the 
initial deployment for EPAA Phase 3. In February 2017, we completed 
SFTM-0I, a successful developmental flight test, to demonstrate an 
organic intercept of a MRBM-class target with an SM-3 Block IIA missile 
from an Aegis Baseline 9.C1 Ship. This was the first intercept flight 
test of the SM-3 Block IIA missile, which is a cooperative development 
program with Japan, and supports the initial production decision for 
the SM-3 Block IIA and the Aegis BL 9.C2 (BMD 5.1) certification 
effort, which will certify in 2018. In June 2017, with the execution of 
SM-3 Block IIA Cooperative Development (SCD) Flight Test Mission 
(SFTM)-02, we conducted a second SM-3 Block IIA missile flight test 
using an Aegis Baseline 9.C2 ship. Although this second test did not 
result in an intercept of the MRBM target, significant accomplishments 
were still achieved. A Failure Review Board (FRB) determined that an 
operator's actions at a console resulted in early termination of the 
SM-3 Block IIA missile in flight.
    In January 2018, FTM-29 was conducted with a primary objective to 
intercept an air-launched IRBM-class target with an SM-3 Block IIA 
missile. While an intercept was not achieved, FTM-29 successfully 
demonstrated the ability of the Aegis Weapon System to receive and 
process remote link track via Command, Control Battle Management, and 
Communications (C2BMC) from the AN-TPY 2 radar, confirming Engage on 
Remote functionality. It also resulted in the first launch of a SM-3 
Block IIA missile from the Aegis Ashore Missile Defense Test Complex 
(AAMDTC) at PMRF in Hawaii, which is important for EPAA Phase 3 Aegis 
Ashore sites in Romania and Poland as well as the potential procurement 
of Aegis Ashore by the Government of Japan. An FRB is investigating the 
cause of the failure and unmet objectives will be addressed in future 
flight testing.
    In October 2017, Formidable Shield (FS)-17 was conducted with our 
NATO allies. This exercise included a successful intercept test of an 
SM-3 Block IB Threat Upgrade (TU) missile against an MRBM-class target, 
fired from an Aegis BMD destroyer at the United Kingdom Ministry of 
Defence Hebrides Range in Scotland, which resulted in the successful 
transition to full rate production for the SM-3 Block IB TU. This test 
was a mandatory prerequisite to the full production decision for the 
SM-3 Block IB Program, which was approved in December 2017. As a result 
of the full production decision, MDA is requesting 5-year Multi-Year 
Procurement (MYP) authority for the SM-3 Block IB interceptor for 
fiscal year 2019 to fiscal year 2023.
    In fiscal year 2019, we will conduct Flight Test Operation-03 Event 
1 (FTO-03 E1), where two SM-3 Block IIA missiles will simultaneously 
engage two IRBM-class targets, with one fired from Aegis Ashore Missile 
Defense Test Center (AAMDTC) at PMRF and the other from a U.S. Navy 
destroyer. This will demonstrate operational realism in an Engage on 
Remote (EoR) test scenario for ship launched missiles as well as those 
launched from operational Aegis Ashore sites in Romania and Poland.
    We are strongly committed to further enhancing capability of the 
Aegis BMD system and continuing to improve the Aegis Weapon System in 
alignment with Navy requirements. In August 2017, we certified the 
Aegis BMD 4.1 computer program, delivering BMD 5.0CU capability with 
Sea Based Terminal defense with the SM-6 missile. We conducted CTV-03 
following FS-17 on the Hebrides range, firing a SM-6 Dual I using Aegis 
BMD 4.1, providing the proper Objective Quality Evidence to certify 
firing this missile with this computer program. In fiscal year 2018, we 
will certify Aegis BL 9.C2 (BMD 5.1), that incorporates the SM-3 Block 
IIA missile and an EoR capability to meet European Phased Adaptive 
Approach (EPAA) Phase 3 requirements. In fiscal year 2018 we also plan 
to procure 34 SM-3 Block IBS and 20 SM-3 Block IIAs (16 SM-3 Block IIAs 
were requested in the fiscal year 2018 Missile Defeat and Defense 
Enhancement Budget Amendment and four SM-3 Block IIAs from the fiscal 
year 2018 President's Budget (PB) submission), and continue efforts on 
the installation of the Aegis Ashore Deckhouse and equipment in Poland.
    In fiscal year 2019, we will continue our commitment to develop, 
test, and deliver global naval capability to the warfighter and support 
defense of our deployed forces and European NATO allies through 
delivery of EPAA Phase 3 missile defenses. MDA requests a total of 
$805.8 million in procurement for Aegis BMD, which plays a critical 
role in both Homeland and regional defense. As part of the overall 
Aegis BMD procurement request, MDA is requesting $411.68 million to 
procure 37 Aegis SM-3 Block IB missiles and $181.81 million to procure 
6 SM-3 Block IIAs, along with associated hardware and support costs. By 
the end of fiscal year 2019, we plan to have 203 SM-3 Block IBS and 12 
SM-3 Block IIAs in inventory. As the part of the procurement budget 
also requests $97.1 million for Aegis BMD Weapon Systems equipment. 
Also part of the request, we are asking for $115.21 million for advance 
procurement for economic order quantities and request permission to 
enter into a 5-year SM-3 Block IB Multi-Year Procurement (MYP) contract 
for fiscal year 2019 to fiscal year 2023. MDA will continue to deliver 
to the Navy SM-3 Block IBS and SM-3 Block IIAs once production has 
begun, for deployment on land at the Aegis Ashore site in Romania and 
at sea on multi-mission Aegis ships with BMD capability. In 
coordination with the U.S. Navy, we continue to expand the Fleet, and 
by the end of fiscal year 2018 we anticipate having 38 ships (41 by the 
end of fiscal year 2019) equipped with the Aegis BMD weapon system.
    The Navy is working with MDA to integrate the multi-mission Aegis 
BL 5.3 with Aegis BMD 4.1 into a single computer program. We are 
actively working with Navy to certify this capability in fiscal year 
2020. MDA also continues collaboration efforts with the U.S. Navy on 
AN/SPY-1 radar antenna improvements that, when coupled with Aegis BL 
5.4, increase radar detection sensitivity. We will continue to align 
ourselves with the Navy to develop and deliver a comprehensive 
Integrated Air and Missile Defense capability for the Arleigh Burke 
Flight III Destroyers, working towards a 2024 Initial Operational 
Capability. This Computer Upgrade will integrate BMD capability with 
the advanced Air and Missile Defense Radar (AMDR), also known as the 
AN/SPY-6, for remote engagements and increased raid capacity with 
simultaneous multi-mission capabilities.
    Adding an additional layer to the Aegis BMD weapon system, we are 
using an incremental development approach integrated within the Navy's 
Baseline 9 architecture to develop and deliver a Sea Based Terminal 
(SBT) capability. By expanding the capability of the SM-6 missile and 
BMD 5 series weapon systems, we are delivering capability to maritime 
forces to protect against anti-ship ballistic missiles and provide 
layered defense for forces ashore.
    We executed a non-intercept flight test, Flight Test Experimental 
(FTX)-21 in May 2016 involving the Aegis Sea Based Terminal defense of 
the fleet capability against an advanced threat representative target. 
The target, launched from PMRF in Hawaii, was the first flight of the 
MRBM-class Type 3 Phase 2 target. A U.S. Navy destroyer, an Aegis 
Baseline 9.Cl (BMD 5.0 CU) configured Arleigh Burke Destroyer, detected 
and tracked the target. This was a very important step in ensuring the 
safety of the fleet and demonstrating the Sea Based Terminal 
capability.
    In December 2016, we conducted a detection, tracking, and intercept 
test (FTM-27) to further assess the capability of Sea Based Terminal 
Increment 1 in the Aegis Baseline 9.C1 (BMD 5.0CU) Weapon System. 
During this test we fired a salvo of two SM-6 Dual I missiles against 
the MRBM-class target launched out of PMRF. In this no-notice test, the 
sailors on the consoles aboard a U.S. Navy destroyer demonstrated the 
ability to conduct a critical terminal defense engagement in a ship-
defense role. This was the first intercept test of this kind and it 
gave us greater confidence in the reliability and performance of our 
Sea Based Terminal defense capabilities. We conducted an additional 
test of the Sea Based Terminal Increment 1 capability in April 2017 
(FTM-27 Event 2). During this test we fired a salvo of two SM-6 Dual I 
missiles against the MRBM target launched out of PMRF. In this no-
notice test, the sailors on the consoles aboard a U.S. Navy destroyer 
again demonstrated the ability to conduct a critical terminal defense 
engagement in a ship-defense role. This test demonstrated improved SM-6 
Dual I performance and further increased fleet confidence in the 
deployed SBT capability.
    Sea Based Terminal Increment 2, which further improves our endo-
atmospheric defensive capabilities, is on schedule to be certified and 
operational in the 2018-2019 timeframe. We conducted a successful 
Critical Design Review for ship defense in April 2017 for the SM-6 Dual 
II Sea-Based Terminal defense interceptor and conducted missile and 
weapon system integration testing in 2017. The first intercept flight 
test supporting Sea-Based Terminal Increment 2 is planned for first 
quarter of fiscal year 2019.
    We continue to support the European Phased Adaptive Approach as a 
United States contribution to NATO BMD, providing coverage and 
protection of NATO European territory, populations, and forces against 
the increasing threat of ballistic missile proliferation in the Middle 
East. Currently, there is an operational Aegis Ashore site located in 
Romania. NATO's BMD architecture also includes the United States 
contributions of a forward-based AN/TPY-2 in Turkey, four BMD-capable 
Aegis destroyers homeported in Rota, Spain, SM-3 interceptors, and a 
command-and-control node at Ramstein Air Base, Germany.
    In fiscal year 2018, we will continue our commitment to develop, 
test, and deliver global Naval capability to the warfighter and support 
defense of our deployed forces and European NATO allies through 
supporting the operational readiness of EPAA Phase 2 and efforts to 
deliver Phase 3 to improve defensive coverage against medium- and 
intermediate-range threats, which includes delivery of the Aegis Ashore 
site in Poland. Aegis Ashore site construction in Poland began in 
fiscal year 2016. That site will be equipped with the upgraded Aegis 
Baseline 9 weapon system with BMD 5.1 and a capability to launch SM-3 
Block IIAs. This new SM-3 variant will support the EPAA Phase 3 
technical capability declaration. The Aegis Weapon System upgrades are 
further enhanced by spiral upgrades to C2BMC and AN/TPY-2 sensors, 
enabling Engage on Remote capability and extended defensive coverage 
for NATO Europe.
    Military construction (MILCON) delays due to an unsatisfactory rate 
of construction progress at the Aegis Ashore site in Poland will push 
the EPAA Phase 3 Technical Capability Declaration from December 2018 to 
CY 2020. Efforts by the Missile Defense Agency and the Army Corps of 
Engineers to mitigate the MILCON delays included creation of an onsite 
Poland Integrated Project Office to administer the MILCON contract and 
facilitate continuous and real-time assessment of the construction 
contractor's performance. Efforts also included the U.S. Government 
continuing to provide supplemental program leadership, subject matter 
experts and additional quality assurance personnel to Poland; proactive 
use of contractual incentives, establishment of joint weekly program 
updates with the MDA Director and Army Corps' North Atlantic Commanding 
General; and quarterly Flag and General Officer reviews onsite. Despite 
these efforts, by December 6, 2017, it became evident that it was no 
longer possible to mitigate MILCON delays through compression of, and 
concurrency between, the non-MILCON elements of the project. At that 
time, the government decided to rebaseline the project schedule given 
the likelihood of continued schedule erosion and the consumption of all 
margin. The rebaseline effort is on-going.
    MDA fiscal year 2019 budget request includes $15.0 million in 
Defense Wide Procurement and $27.7 million in Research, Development, 
Test & Evaluation (RDT&E) funds to address the multiple actions 
required to field Aegis Ashore in Poland and continued operations of 
other Aegis Ashore sites. Given the MILCON delays and the requirement 
to be on-site for at least another year, MDA's fiscal year 2019 budget 
request includes funding to complete combat system adaptation, 
integration, installation, and testing to ensure delivery of EPAA Phase 
3 capability to the warfighter. This capability ensures our ability to 
defend United States assets in Europe and meet EPAA Phase 3 commitment 
to our NATO allies. Given the successful efforts of controlling 
military construction costs, MDA does not anticipate a need to increase 
our MILCON budget in support of Aegis Ashore Poland.
  Command and Control, Battle Management, and Communications and 
        Regional Sensors
    We request $475.2 million in fiscal year 2019 for the C2BMC. C2BMC 
provides persistent acquisition, tracking, cueing, discrimination, and 
fire-control quality data to Aegis BMD, GMD, THAAD, Patriot, and 
coalition partners to support Homeland and regional defense. We 
continue to support warfighter command, control and battle management 
needs across the globe by providing the Combatant Commander with the 
BMD planner, situational awareness tools, and battle management 
capability to support global BMD situational awareness, coalition 
operations, weapons release authority for Homeland defense, and control 
and tasking of forward-based AN/TPY-2 radars and the LRDR radar. C2BMC 
operators and maintainers deploy forward in some of the world's hottest 
threat spots and continue to provide around-the-clock support to the 
local commanders.
    In fiscal year 2019, we will complete testing and deployment of 
C2BMC Spiral 8.2-3 and BMDS Overhead Persistent Infra-Red Architecture 
(BOA) 6.1, in support of EPAA Phase 3 / Aegis BMD Engage-on-Remote 
functionality. Initial deployments will be to U.S. Central Command and 
U.S. European Command followed by U.S. Northern Command and U.S. 
Pacific Command providing enhanced tracking capabilities to the 
warfighter. C2BMC also will initiate integration of a sea-based mobile 
sensor in the S8.2-3 timeframe that will provide enhanced tracking for 
emerging threats. We will continue development of C2BMC Spiral 8.2-5, 
which provides system level discrimination data, BOA 7.0 to provide 
advance threat warning capability, and threat characterization 
solutions and support command and control integration of the LRDR into 
the BMDS by 2021 to support a Robust Homeland Defense capability. C2BMC 
will initiate Increment 7 development tasks for command and control of 
the HDR-H radar and Robust Post Intercept Assessment supporting our 
Homeland defense focus.
    We continue supporting incremental improvements to the BMDS to keep 
pace with emerging threats worldwide by investing in the development, 
integration and testing of advanced algorithms to improve track and 
discrimination capabilities and enhance the use of space-based sensor 
data from sources such as the Space Based Infra-Red System (SBIRS), 
using the BMDS OPIR architecture. C2BMC will update hardware/software 
to increase cybersecurity through implementation of the DOD 
Cybersecurity Discipline Implementation Plan--Four Lines of Effort. We 
are conducting over 63 cyber-focused C2BMC tests and assessments 
involving multiple agencies over the FYDP to ensure the system is 
cyber-secure.
    Finally, MDA continues to support the AN/TPY-2 (Terminal Mode) 
radars as part of a forward-deployed Terminal High Altitude Area 
Defense (THAAD) batteries in Guam and the Republic of Korea.
International Cooperation
    The fiscal year 2019 budget request includes funding for regional 
missile defense capabilities to protect deployed U.S. forces, reassure 
allies and partners, and build cooperative regional security 
architectures. MDA has engagements with over twenty countries and 
international organizations and is committed to expanding work with our 
international partners through joint analyses, partner missile defense 
acquisition decisions, cooperative research and development projects, 
deployment of BMD assets, Foreign Military Sales (FMS), and co-
production efforts.
    MDA continues to emphasize allied and partner investments in their 
own missile defense capabilities, which create more effective regional 
security architectures that complement U.S. regional missile defense 
capabilities. We continue to execute an FMS case with the United Arab 
Emirates for two THAAD batteries, including launchers, radars, and 
interceptors. Both batteries have been delivered to the UAE and have 
achieved Initial Operational Capability (IOC). MDA is actively engaged 
with several nations, particularly those in the Arabian Gulf region, to 
provide program information and cost data that may inform future 
decisions to procure THAAD and other missile defense systems. In 2016, 
MDA completed a regional Ballistic Missile Early Warning System 
architecture study for the Gulf Cooperation Council (GCC), analyzing 
sensor and C41 options for defense of the region. We are continuing to 
discuss the study's findings with the GCC nations. Additionally, MDA 
received a Letter of Request from the Kingdom of Saudi Arabia for seven 
THAAD batteries in April 2017. MDA is working with the Saudis to 
finalize the Letter of Offer and Acceptance.
    MDA has a strong cooperative missile defense partnership with 
Israel through our continued work with the Israeli Missile Defense 
Organization. MDA's fiscal year 2019 request is consistent with the 
funding Memorandum of Understanding that the United States and Israel 
signed in 2016. This budget continues MDA's longstanding support of 
United States-Israeli Cooperative BMD Programs, to include the co-
development and co-production of the David's Sling Weapon System and 
Upper Tier Interceptor, and improvements to the Arrow Weapon System. 
The Department continues to support co-production efforts for the Iron 
Dome program to provide critical defense against short-range rockets 
and artillery.
    We continue to make progress with our Japanese counterparts on the 
Standard Missile-3 Block IIA (SM-3 Block IIA), our largest co-
development effort, which supports extended deterrence and establishes 
an important vehicle for closer defense cooperation ties. The 
development work remain on track for first delivery of the missile in 
the 2018 timeframe. The United States will deploy the SM-3 Block IIA to 
the fleet and at Aegis Ashore sites to improve and expand defenses 
against MRBM and IRBM threats. We are committed to delivering the SM-3 
Block IIA to meet global threat requirements and support EPAA Phase 3.
    Our fiscal year 2019 budget request also supports Allied 
participation in tests, exercises, and wargames.
                     addressing the advanced threat
    We must make investments in advanced technology today to prepare 
for tomorrow's threats by improving system performance and 
effectiveness. This budget request will continue the development of 
breakthrough technologies for integration into the BMDS, including 
discrimination improvements, Multi-Object Kill Vehicle technology, 
hypersonic defense technology, and high-powered lasers that have 
potential use against threat missiles in the boost phase of flight. We 
need to investigate solutions that reduce reliance on expensive kinetic 
interceptors. Scalable, efficient, and compact high-energy lasers could 
change future, missile defense architectures. By improving reliability, 
enhancing discrimination, and expanding battle space, I believe we can 
reduce the cost per kill. MDA is developing technology to address gaps 
in the BMDS and dramatically drive down the cost of defending the 
Homeland.
    MDA requested $148.8 million for Technology Maturation Initiatives 
to conduct ground and airborne demonstrations of advanced sensor 
systems and refine directed energy technologies for missile defense. 
MDA is committed to developing and demonstrating directed energy and 
laser technologies that could be integrated into the BMDS, and we are 
actively testing a broad range of potential concepts, including both 
tracking and defensive lasers that could be deployed on a variety of 
platforms. Once we mature the required power, one potential concept the 
Agency is exploring is an Unmanned Aerial Vehicle-mounted laser that 
could destroy ICBMs in the boost phase at long standoff ranges. This 
concept requires precision tracking and a highly stable, lightweight, 
accurately pointed laser beam. We are currently testing a number of 
technologies to determine if this is a viable concept.
    We are operating MQ-9 aircraft outfitted with passive sensors to 
help us understand boost-phase intercept tracking and how an airborne 
layer could augment our existing sensor network. In 2019, we will add 
tracking lasers to these aircraft to increase precision and range and 
determine how these compact lasers could further influence sensor 
design. In addition, we are developing advanced sensors and testing 
them from ground sites to improve discrimination accuracy and validate 
performance against targets of opportunity. What we learn from these 
ground and airborne tests could influence future space-based sensor 
systems.
    We will complete three industry preliminary designs in 2018 of a 
multi-kilowatt class electric laser on a high-altitude airborne 
platform to demonstrate beam stabilization technology. In 2019 we will 
finish the design and begin fabrication of this first-of-a-kind system.
    We continue to advance the state of the art for scaling electric 
laser power in efficient packaging. Both Diode Pumped Alkali Laser and 
Fiber Combing Laser technology have the potential to meet missile 
defense requirements. In 2019, we will concentrate on compact component 
development at the national laboratories and work with Industry and the 
Services to investigate other promising laser technologies. Based on 
the results of these and other tests, we will work closely with the 
Department to determine the best way to integrate directed energy and 
laser sensing into the missile defense system.
    MDA requests $189.8 million for the Multi-Object Kill Vehicle 
(MOKV) effort to establish the technology foundation for killing 
multiple lethal objects from a single interceptor. The more kill 
vehicles we can put on an interceptor, the greater the raid capacity of 
our Ground-based Midcourse Defense system. MOKV has the potential to 
significantly enhance Homeland defense capabilities at a lower cost per 
engagement against the threat. MDA competitively awarded contracts to 
three major prime contractors in 2017 to reduce the technical risk for 
MOKV product development. The MOKV Technology Risk Reduction effort 
will culminate with demonstrations of hardware-in-the-loop prototypes. 
Our current plan is for an MOKV demonstrated capability in the 2027 
timeframe.
    We request $120.4 million in fiscal year 2019 for the Hypersonic 
Defense effort to execute the systems engineering process, identify and 
mature full kill chain technology, provide analysis and assessment of 
target of opportunity events, and execute near term space sensor 
technology and multi-domain command and control capability upgrades to 
address defense from hypersonic threats. This effort will execute the 
Defense Science Board's recommendations to develop and deliver a set of 
material solutions to address and defeat hypersonic threats informed by 
a set of near-term technology demonstrations. An integrated set of 
enhancements will provide incremental capability measured by progress 
and knowledge points in the following areas: establishment of systems 
engineering needs and requirements to identify alternative material 
solutions; execution of a series of sensor technology demonstrations; 
modification of existing BMDS sensors and the C2BMC element for 
hypersonic threats; and definition of weapon concepts and investments 
in key technologies to enable a broad set of solutions, including 
kinetic and non-kinetic means.
    MDA requests $20.4 million for the Advanced Research Program to 
continue capitalizing on the creativity and innovation of the Nation's 
small business community and academia to enhance the Ballistic Missile 
Defense System. Advanced Research conducted research and material 
solution analysis to identify initiatives and technology to include 
missiles, sensors, and command and control components in the defense 
against current and future threats. We are fostering cutting edge 
research between U.S. and foreign universities of allied nations 
through international cooperative technology development projects.
    We request $13.0 million for the Advanced Concepts & Performance 
Assessment effort, which centralizes advanced technology concept 
modeling, simulation, and performance analysis and delivers independent 
assessments of government, university, and industry technology concepts 
that, along with systems engineering requirements, support acquisition 
strategy decisions and define our technology focus areas.
    We also will continue to support trade studies, systems 
engineering, modeling and simulation, and prototype design for a 
potential space-based missile defense-architecture.
                               conclusion
    Mr. Chairman and Members of the Subcommittee, in closing, our 
fiscal year 2019 budget funds comprehensive missile defense development 
efforts, including several critical capabilities required by the 
warfighter. We will continue to increase the reliability as well as the 
capability and capacity of fielded Homeland and regional missile 
defense systems and make measured investments in advanced technology to 
counter the adversary missile threat.
    Based on the current capacity of the North Korean threat, both the 
type and the amount of missiles that they possess, we can protect the 
continental United States and Hawaii today against an ICBM. However, as 
the threat increases in size and lethality, we need to ensure that our 
systems are reliable and our ballistic missile defense capability and 
capacity keep pace with that threat. With its fiscal year 2019 
President's Budget request, MDA will support the National Defense 
Strategy with the continued development and deployment of an 
integrated, layered missile defense system to defeat current and 
projected missile threats, allowing the Nation to compete, deter, and 
win.
    We must evolve our missile defense capabilities to outpace growing 
and increasingly complex threats. The addition of another Fort Greely 
Missile Field and twenty GBIs to the operational inventory will address 
the increasing numbers of threat missiles we may have to counter 
against the Homeland. Sixty-four GBIs and urgent improvements in sensor 
coverage, to include the addition of a Medium Range Discrimination 
Radar and advanced discrimination improvements, will enable the United 
States to improve protection of the country. This budget request also 
will help grow the number of THAAD and SM-3 Block IB interceptors 
available to the warfighter to improve regional missile defenses.
    Continuing the approach employed by my predecessors, I am 
completely committed to MDA's audit process to demonstrate our careful 
stewardship of the resources provided us. I am equally committed to 
MDA's full transparency in our engagements with the congressional 
defense committees, the Government Accountability Office, and 
Department's Inspector General.
    I also would like to recognize the brave men and women who serve in 
our Armed Forces at home and abroad and who operate the BMDS. Our 
Nation is fortunate to have such a capable fighting force.
    I appreciate your continued support for MDA and this critical 
mission, and I look forward to answering the committee's questions. 
Thank you.

    Senator Fischer. Thank you, General.
    General Dickinson?

   STATEMENT OF LIEUTENANT GENERAL JAMES H. DICKINSON, USA, 
   COMMANDING GENERAL, UNITED STATES ARMY SPACE AND MISSILE 
    DEFENSE COMMAND/ARMY FORCES STRATEGIC COMMAND AND JOINT 
  FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE DEFENSE

    Lieutenant General Dickinson. Chairman Fischer, Ranking 
Member Donnelly, and other distinguished members of the 
subcommittee, thank you for your continued support of our 
soldiers, civilians, and their families. I'm honored today to 
testify before you to emphasize the importance of air and 
missile defense to our Nation, deployed forces, allies and 
partners.
    Air and missile defense threats continue to increase both 
in quantity and offensive capability. With this in mind, I 
appreciate your continued support for the Nation's air and 
missile defense forces as we fulfill our role in securing the 
Nation today and developing future forces and capabilities to 
counter tomorrow's threats.
    I'd like to briefly summarize the missions of the 
organizations I command.
    First, United States Army Space and Missile Defense 
Command, Army Forces Strategic Command, SMDC/ARSTRAT, serves as 
a force provider in support of our combatant commanders. Our 
six priorities are to protect our Homeland; provide combat-
ready forces and capabilities; plan and conduct synchronized 
global operations; prepare or adapt leap-ahead concepts and 
technologies; preserve and account for the Nation's critical 
resources; and promote and foster a positive command climate.
    We provide not only air and missile defense forces but also 
Army space forces. The Army has more than 4,000 military and 
civilian space cadre providing continuous space-based 
capabilities and support to the warfighter around the world, 
from satellite communications to missile warning. SMDC/
ARSTRAT's future warfare center and technical center develop 
space and missile defense concepts, requirements, and doctrine. 
We provide training to the Army space cadre and missile defense 
operators, and execute space and missile defense research and 
development.
    Within SMDC/ARSTRAT, we are collaborating closely with the 
Army's air and missile defense cross-functional team. This 
effort is key to rapidly developing requirements and ensuring 
these future capabilities transition quickly from concept to 
prototyping to fielding. We are focusing on capabilities that 
include mobile short-range air defense and directed energy.
    I also have the honor and the privilege to command the 
Joint Functional Component Command for Integrated Missile 
Defense, or JFCCIMD, which supports United States Strategic 
Command by integrating and synchronizing global missile defense 
operations.
    In support of USSTRATCOM, JFCCIMD executes these five 
essential mission defense tasks: synchronizing operational-
level planning; supporting ongoing operations; integrating 
training exercises and test activities globally; providing 
recommendations on the allocation of low-density, high-demand 
missile defense resources; and also advocating for future 
capabilities.
    To accomplish this, we maintain close collaborative 
relationships with the geographic combatant commands, the 
Missile Defense Agency, the Office of the Secretary of Defense, 
the Joint Staff, and our allies and partners.
    Lastly, it's important to highlight that the challenges 
that we face cannot be overcome without the dedication of our 
most precious asset, our people. The servicemembers, civilians 
and contractors, along with their families, stationed at home 
and globally deployed, provide support to the Army and joint 
warfighter each and every day. We are committed to providing 
trained and ready soldiers and civilians and developing 
effective space and missile defense capabilities to counter the 
threats of today and tomorrow.
    I appreciate the committee's continued support of missile 
defense operations, and especially your support of the men and 
women who deploy, develop, and operate these complicated 
systems. I have addressed in detail the full range of these 
missions and how we are executing them today in my written 
statement which, as you said, will be submitted for the record. 
I look forward to addressing your questions. Thank you.
    [The prepared statement of Lieutenant General Dickinson 
follows:]
      Prepared Statement by Lieutenant General James H. Dickinson
                              introduction
    Madam Chairman Fischer, Ranking Member Donnelly, and distinguished 
Members of the Subcommittee, thank you for your continued support of 
our servicemembers, civilians, and families. Let me express my 
appreciation to this Subcommittee for its continued support of the 
Army, the U.S. Strategic Command, the Department of Defense, and the 
missile defense community. I am honored to testify before this 
Subcommittee along with these distinguished witnesses who provide and 
utilize missile defense capabilities in defense of our Nation, forward 
deployed forces, partners, and allies.
    I appear before you today bringing both a joint and Army 
perspective on effective missile defense capabilities. Within the Army 
and joint community, my responsibilities encompass several mission 
areas.
    As the commander of the U.S. Army Space and Missile Defense Command 
and Army Forces Strategic Command (USASMDC/ARSTRAT) I have title 10 
responsibilities to organize, train, and equip Army space and global 
ballistic missile defense forces. I serve as the Army's force 
modernization proponent for space, global ballistic missile defense, 
and high altitude forces and capabilities. Further, I am the Army 
Service Component Commander (ASCC) to U.S. Strategic Command 
(USSTRATCOM). I am responsible for planning, integrating, coordinating, 
and providing Army space and missile defense forces and capabilities in 
support of USSTRATCOM missions.
    I also serve as the Army's Air and Missile Defense (AMD) Enterprise 
Integrator. My responsibility in this role is to synchronize the 
balanced execution of the Army's AMD strategy across the functions of 
force planning and sourcing requirements, combat and materiel 
development, AMD acquisition, and life cycle management. I coordinate 
with the AMD community of interest to balance priorities, inform 
resourcing decisions, and pursue innovative approaches in order to 
enhance our strategic flexibility.
    Finally, as the Commander of USSTRATCOM's Joint Functional 
Component Command for Integrated Missile Defense (JFCC IMD), I am 
responsible for coordinating global missile defense planning, 
conducting missile defense operations support, recommending allocation 
of missile defense assets, and advocating for missile defense 
capabilities on behalf of the Combatant Commanders.
    My first, second, and third major tasks within these roles can be 
summarized as providing forces and capabilities for current operations; 
preparing forces and capabilities for the future fight; and, research 
and development of Army technologies that will provide future 
advancements in air and missile defense capabilities. To achieve this, 
the organizations I command align their activities to these priorities:
    <bullet>  Protect our Homeland
    <bullet>  Provide combat-ready forces and capabilities
    <bullet>  Plan and conduct synchronized global operations
    <bullet>  Prepare or adopt leap-ahead concepts and technologies
    <bullet>  Preserve and account for the Nation's critical resources
    <bullet>  Promote and foster a positive command climate
    My intent today is to highlight the dedicated people who serve in 
the diverse and geographically dispersed organizations under my 
command; to briefly outline the strategic environment; to emphasize 
USASMDC/ARSTRAT's missile defense force provider responsibilities with 
respect to the Army and the geographic Combatant Commanders (GCCs); to 
outline JFCC IMD's role as a warfighter advocate and supporting 
USSTRATCOM's coordinating authority for global missile defense 
planning; and finally, to summarize a few key Army AMD developments in 
the context of a comprehensive approach to addressing the evolving air 
and missile threat.
The Workforce-Our Foundation
    USASMDC/ARSTRAT and JFCC IMD cannot carry out our wide-ranging 
national security missions without the dedication of our greatest 
asset--our people. One of my most important messages to you today is 
that your continued support is critical to our ability to develop and 
retain a highly qualified and mission ready workforce. The recent long-
term budget uncertainty impacted our warfighters executing today's 
missions, as well as our ability to posture for the future. The 
servicemembers, civilians, and contractors who make up these commands 
support the Army and joint warfighter each and every day, in the 
Homeland and deployed across the globe. The budget agreement and the 
associated increase to the Department's top line budget is very helpful 
and will ensure we continue to provide trained and ready servicemembers 
and civilians to operate and pursue advancements in space and missile 
defense capabilities for our Nation. The extra resources will provide 
additional interceptor inventory capacity, modernize essential 
infrastructure, and enhance discrimination and assessment capabilities.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
  Soldiers, Civilians, and Contractors Working
 Together Across 11 Time Zones in 23 Locations to
 Protect Our Nation, Allies, and Deployed Forces
------------------------------------------------------------------------

The Increasingly Complex Threat Environment
    Current global trends indicate ballistic and cruise missiles are 
becoming more capable, due in part to the proliferation of advanced 
technologies, resulting in systems with global reach, increasing speed, 
and greater accuracy. Additionally, many foreign ballistic and cruise 
missile systems are progressively incorporating advanced 
countermeasures including maneuverable reentry vehicles, multiple 
independent reentry vehicles, and electromagnetic jamming, all intended 
to defeat our missile defense capabilities. Moreover, numbers of 
ballistic and cruise missile platforms are increasing. Many of these 
systems are mobile, which increases the difficulty in detecting, 
tracking, and engaging these weapons prior to launch.
    Numerous countries are developing ground-, sea-, and air-launched 
land-attack cruise missiles (LACM) using a variety of unconventional 
and inexpensive launch platforms. Today, nearly 30 countries possess 
ballistic missile capability and some are actively pursuing hypersonic 
weapons. There are over 35 different variants of ballistic missiles in 
service across the globe today and a number of new intermediate-range 
and intercontinental ballistic missiles (IRBM and ICBM) are under 
development. North Korea has demonstrated rapid advances in range and 
overall missile performance. Since 2016, it has tested a submarine-
launched ballistic missile, a new solid-fueled MRBM from a mobile 
launcher, a new IRBM, and its first ICBMs.
    In the future, our missile defense systems will encounter more 
complex electronic and cyber-attacks, as well as directed energy 
threats that could significantly degrade U.S. missile defense 
operations. We expect cyber and electronic attacks will be increasingly 
relied upon in potential adversaries' anti-access/area-denial (A2/AD) 
strategies. Our ability to successfully counter these continuously 
advancing threats will rely heavily on our increased use of space and 
space-enabled capabilities. Space sensors could expand our capacity to 
track, discriminate, and successfully engage ballistic, cruise, and 
hypersonic threats.
    In summary, adversary air and missile threats are proliferating in 
number and advancing in complexity. Our evolution of capability 
advancements requires a holistic approach that effectively integrates 
alternative capabilities to defeat air and missile threats. The 
strategic missile defense environment is becoming more challenging. 
Implementing technological advances in a time of fiscal constraints 
requires more cost effective methods to integrate our current and 
future capabilities. We continue to prioritize integrated AMD resources 
to optimize our support of the warfighter and to partner with the 
Missile Defense Agency (MDA), Combatant Commands, and the Services in 
pursuit of fiscally responsible methods to address evolving threats.
Strategic Positioning to Counter the Threat
    To counter the threat and meet the objectives of the 2018 National 
Defense Strategy, USSTRATCOM and the U.S. Army continue to provide and 
enhance Homeland and regional missile defenses. We continue to work 
with our allies and partners in Europe, the Asia Pacific region, and 
the Middle East to increase integration and interoperability of missile 
defense systems and operations.
    Integrated missile defense planning, force management, and 
operations emphasize global coordination with regional execution so 
that for any threat, we match the best interceptor with the best 
sensors. A holistic approach that integrates offense and defense will 
move the U.S. toward a more robust and flexible crisis response 
capability.
    Over the last year, basing a Terminal High Altitude Area Defense 
(THAAD) battery in the Republic of Korea bolstered our regional defense 
capabilities to improve protection of U.S., allied forces, and critical 
infrastructure on the Peninsula. Additionally, during 2017, MDA 
completed the emplacement of 14 additional Ground-Based Interceptors 
(GBIs) at Fort Greely, Alaska to provide improved capacity to defend 
the Nation against an ICBM attack from North Korea, and potentially 
Iran in the future. The Nation now has a total of 44 GBIs and planning 
is underway to emplace an additional 20 GBIs in a new missile field at 
Fort Greely, Alaska as is reflected in the Fiscal Year 2019 President's 
Budget Request.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
  ``I am confident the Ground-Based Midcourse Defense system can currently
 defend the United States from the threats posted by North Korea, but we must
 take prudent steps to remain in a position of relative technological
 advantage.''
 
  --USNORTHCOM SASC Posture Statement
                              February 2018
----------------------------------------------------------------------------------------------------------------


    The 2018 National Defense Strategy prioritizes a strong commitment 
to security and stability in the lndo Pacific region, Europe, and the 
Middle East. In conjunction with our allies and partners, the 
Department of Defense maintains forward-committed Patriot, THAAD, and 
counter rocket, artillery and mortar (C-RAM) forces to enhance our AMD 
posture, sending a deterrence message to potential adversaries and 
assurance to our friends. We continue to work with regional partners 
and allies to increase information and data sharing and we are 
developing a more robust global AMD force posture that leverages 
partner nations' growing capabilities. This will result in reducing the 
strain on our forces while enabling more timely modernization of our 
AMD assets.
    The Army AMD Enterprise is developing a new AMD strategy based on 
the National Security Strategy, National Defense Strategy, the pending 
Missile Defense Review, Army Operating Concept, the changing 
operational and threat environments, and the rapid pace of 
technological advancement. This new strategy, to be published later 
this year will focus on the 2018-2028 timeframe and align with current 
Department and Army doctrine. The updated strategy will address our 
ability to balance today's operational requirements while shaping the 
force and modernization efforts to counter future challenges. In 
addition, the Army's Modernization Strategy will enable us to deliver 
advanced air and missile defense capabilities to our warfighters on a 
substantially decreased timeline. The Air and Missile Defense Cross 
Functional Team is key to rapidly developing requirements and ensuring 
these future capabilities transition quickly from concept, to 
prototyping, to fielding. We are focusing on capabilities that include 
Mobile Short-Range Air Defense, directed energy, and advanced 
energetics.
Providing and Enhancing Missile Defense Capabilities
    USASMDC/ARSTRAT's first major task is carrying out its title 10 
responsibilities as a force provider of missile defense capabilities. 
This command is manned by multi component soldiers, civilians, and 
contractors, who contribute to operations, planning, integration, 
control, and coordination of Army forces and capabilities in support of 
USSTRATCOM's missile defense mission. Other commands around the world, 
including all GCCs, also leverage the capabilities we provide.
    Our operational function in today's fight is to provide trained and 
ready missile defense forces and capabilities to the GCCs and the 
warfighter. For example, USASMDC/ARSTRAT soldiers serving in the 
Homeland and in remote and austere forward-deployed locations operate 
the Ground-Based Midcourse Defense (GMD) system and the Army-Navy/
Transportable Radar Surveillance Forward-Based Mode (AN/TPY-2 FBM) 
radars. Highlights of the capabilities provided to current operations 
and readiness by our missile defense professionals include:
    Support to Global Ballistic Missile Defense: Soldiers from the 
100th Missile Defense Brigade, headquartered in Colorado Springs, 
Colorado, and the 49th Missile Defense Battalion, headquartered at Fort 
Greely, Alaska, are ready to defend our Nation and its territories from 
an ICBM attack. In support of U.S. Northern Command (USNORTHCOM), Army 
National Guard and Active component soldiers operate the Ground-Based 
Midcourse Defense Fire Control Systems located at the Fire Direction 
Center in Alaska, the Missile Defense Element in Colorado, and the GMD 
Detachment at Vandenberg Air Force Base, California. These soldiers, in 
conjunction with USNORTHCOM, also oversee maintenance of GMD 
interceptors and ground system components. At the Missile Defense 
Complex at Fort Greely, a remote site with limited community support 
amenities, 49th Missile Defense Battalion military police secure the 
interceptors and command and control facilities from physical threats. 
Given their strategic mission in this remote location, the harsh 
environment and 20-hours per day of winter darkness, we must 
continuously review and enhance the Fort Greely Garrison services and 
support to these soldiers, civilians, contractors, and their families. 
With the continued support of Congress, we have already realized 
substantial quality of life improvements for these remotely-stationed 
personnel and their families.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
  `` . . . develop a state-of-the-art missile defense system to protect
 against missile-based attacks . . .''
 
                        --POTUS Statement
           Making Our Military Strong Again
                               January 2017
----------------------------------------------------------------------------------------------------------------

    Support to GMD System Test and Development: Soldiers from the 100th 
Missile Defense Brigade participate in GMD test activities and work 
with MDA developers on future improvements to the GMD system. MDA's 
testing regime, conducted through a series of ground-based and 
operational flight tests, and rigorously verified, validated, and 
accredited models and simulations, emphasizes operational realism 
during test design and execution. This realism enables soldiers of the 
100th Missile Defense Brigade to gain tremendous training value and 
validate operational employment of the system. This contributes to 
readiness, by executing their actual operational tasks while providing 
warfighters with confidence the system will perform as designed.
    Support to Regional Capabilities: The 100th Missile Defense Brigade 
also provides GCCs with trained and certified AN/TPY-2 Forward Based 
Mode (FBM) missile defense batteries (MDBs). These operational 
capabilities exist today at five strategic locations around the globe 
where they contribute to the early warning, cueing, tracking, and 
discrimination of threats to our allies and partners. These forward-
based radars also represent a tangible contribution to both Homeland 
and regional defense. Soldiers manning these radars, deployed to remote 
and austere locations across the globe, persistently demonstrate our 
Nation's commitment to defend deployed forces, allies, and partners 
from ballistic missile attacks. MDA is the materiel developer for the 
AN/TPY-2 radars and, in accordance with the 2018 National Defense 
Authorization Act, is developing plans to transfer the program of 
record to the Army for continued operational sustainment.
    Space Support to Ballistic Missile Early Warning: Space-enabled 
capabilities are essential for missile defense operations, providing 
and enabling communications, positioning, navigation, timing, 
intelligence, surveillance, reconnaissance, and early warning. We 
routinely coordinate and collaborate with USSTRATCOM's National Space 
Defense Center to ensure that the space assets are poised to support 
missile defense capabilities.
    In support of the joint force commander, USASMDC/ARSTRAT continues 
to provide ballistic missile early warning within the U.S. European 
Command (USEUCOM), U.S. Central Command (USCENTCOM), and U.S. Pacific 
Command (USPACOM) theaters of operations. The 1st Space Brigade's Joint 
Tactical Ground Station (JTAGS) Detachments, which support the Joint 
Force Space Component Command (JFSCC), are operated by USASMDC/ARSTRAT 
space-professional soldiers who monitor launch activity and other 
infrared events. They provide essential information to members of the 
air, missile defense, and operational communities. Our JTAGS 
Detachments are forward deployed around the globe, providing 
continuous, dedicated, assured missile warning to USSTRATCOM and GCCs 
in support of deployed and forward-based forces. We continue to 
optimize this capability, and this year we gained support from the 
Government of Italy to relocate the JTAGS in Europe to Sigonella Naval 
Air Station. This will increase operational missile warning capability.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
  Space_The Ultimate High Ground
------------------------------------------------------------------------

    USASMDC/ARSTRAT's second major task is to build and mature future 
missile defense forces and capabilities. A major component of this 
function is providing relevant and updated training for our global 
missile defense systems. During the past fiscal year, USASMDC/ARSTRAT 
trained approximately 200 soldiers who execute the missile defense 
mission of the Homeland and our missile defense training courses earned 
USASMDC/ARSTRAT recertification as an Army Learning Institution of 
Excellence.
    USASMDC/ARSTRAT, as a recognized Army Center for Analysis, also 
conducts studies to determine how to best meet the Army's assigned 
missile defense responsibilities. Our analyses support the established 
and emerging processes the Army uses to document its missile defense 
needs and pursue joint and Army validation of its requirements. With 
insights from these studies, we develop and operationalize the 
Doctrine, Organization, Training, Materiel, Leadership and Education, 
Personnel, Facilities, and Policy (DOTMLPF-P) requirements to address 
evolving threats and potential vulnerabilities to the GMD and AN/TPY-2 
FBM missile defense systems. This disciplined approach ensures limited 
resources are applied to achieve maximum operational utility.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
  Provide Combat Ready Forces and Capabilities
------------------------------------------------------------------------

    USASMDC/ARSTRAT's third major task is to provide critical 
technologies to address future needs that will enhance warfighter 
effectiveness. Our technology development function is primarily focused 
on the space and high altitude domains. Additionally, although MDA is 
the principal materiel developer for missile defense capabilities, 
USASMDC/ARSTRAT carries out supporting missile defense-related materiel 
development efforts, to include supporting research, development, and 
testing of an Office of the Secretary of Defense (OSD) sponsored 
conventional prompt strike capability. In addition to offensive 
capability development, we are also supporting MDA's concept 
development for defense against hypersonic threats. These technical 
capabilities are at the forefront of developing holistic, cost-
effective approaches to address the broadening missile defense 
challenge. The following are brief summaries of two of our research and 
development efforts, as well as an overview of the capabilities of an 
essential Army testing range.
    High Energy Laser Technology Development and Demonstration: The 
Army's high energy laser science and technology effort aims to develop 
ruggedized laser system components and subsystems, integrate them onto 
an Army vehicle, conduct demonstrations to characterize performance, 
and transition the technology to a Program Executive Office. A solid-
state laser weapon system has the potential to be a low-cost and 
effective complement to kinetic capabilities in countering rockets, 
artillery, and mortars (RAM), unmanned aerial systems (UAS), and other 
threats. The effort builds upon earlier pathfinder demonstrations of a 
10-kilowatt (kW) laser system by continuing to develop, integrate, and 
mature the technology at higher laser power outputs. The Robust 
Electric Laser Initiative (RELI) fiber laser was delivered to the Army 
in early 2017 and is being integrated into the High Energy Laser Mobile 
Test Truck (HELMTT) for a 50-kW laser demonstration against RAM and UAS 
threats later this year. This demonstration will be a key knowledge 
point for the next major phase of high energy laser technology 
development, the High Energy Laser Tactical Vehicle Demonstrator (HEL 
TVD). The HEL TVD supports the Army's Indirect Fire Protection 
Capability Increment 2-lntercept (IFPC Inc 2-I) program, discussed 
later in this document. It is on schedule to conduct a C-RAM 100-kW 
demonstration in late 2022 to validate system performance against IFPC 
Inc 2-I requirements.
    USASMDC/ARSTRAT is also starting work this fiscal year on the 
Multi-Mission High Energy Laser (MMHEL) as an Army Technology 
Maturation Initiative (TMI). The TMI will integrate a 50-kW laser 
system on a Stryker platform and culminate in an operational 
demonstration that informs Maneuver-Short Range Air Defense (M-SHORAD) 
requirements. Supporting this effort is the Mobile Experimental High 
Energy Laser (MEHEL), a 5-kW laser on a Stryker. Over the past few 
years, MEHEL has participated in Maneuver Fires Integration Experiments 
and recently participated in a Joint Warfighting Assessment in Germany. 
MEHEL is helping warfighters develop tactics, techniques, and 
procedures, as well as concepts of operations for future high energy 
laser weapons.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
  Adapt Leap
  Ahead Concepts
  and Technologies
------------------------------------------------------------------------

    Low-Cost Target Development: The Army is engaged in a technology 
effort to develop a suite of threat-representative targets for lower 
tier missile defense testing at a substantially reduced cost. Over the 
past year, we completed three detailed target designs and successfully 
demonstrated two of the configurations, which leverage excess solid 
rocket motors. The first Sabre target was successfully launched and 
intercepted in June 2017, meeting all performance objectives. The 
second Sabre target was launched and successfully intercepted in 
November 2017. These missions were critical operational tests of the 
new Patriot interceptor. Development of a two-stage ballistic missile 
target, known as Black Dagger, continues with a risk reduction launch 
scheduled for mid-2018. The Black Dagger target is meant to mimic a 
broader range of short-range ballistic missile threats by achieving 
longer range, higher altitude, and increased velocity. The Zombie suite 
of targets has missions planned for Patriot and Integrated Air and 
Missile Defense (IAMD) over the next few years. The goal remains to 
reduce DOD's overall test execution costs.
    Missile Defense Testing Range: USASMDC/ARSTRAT operates the Ronald 
Reagan Ballistic Missile Defense Test Site (RTS). RTS, located on the 
U.S. Army Garrison--Kwajalein Atoll in the Republic of the Marshall 
Islands provides critical testing support to both offensive and 
defensive missile testing requirements for programs such as GMD and 
U.S. Air Force strategic ballistic missile systems. RTS retains 
preeminent ballistic missile testing capabilities used in validating 
the Nation's ability to sustain a strong, credible ballistic missile 
deterrent as a key element of national security and the security of 
U.S. allies and partners.
    RTS supported 10 missile defense developmental flight tests in 
2017. The Army conducted three of those tests with the Patriot system. 
MDA and the Army conducted two THAAD flight tests; MDA and the Navy 
conducted four test flights of the Standard Missile (SM-3 and SM-6); 
and MDA conducted one test of the Ground-Based Interceptor (GBI). 
Homeland and regional defense tests have grown ever more challenging 
and complex, providing a means to replicate missile defense 
architectures superimposed over this Pacific test site.
    RTS also supports offensive ballistic missile testing for Air Force 
Global Strike Command. During fiscal year 2017, RTS supported four 
Minuteman III test launches to successfully validate and verify the 
effectiveness, readiness, and accuracy of the weapon system.
    In concert with its testing mission, RTS conducts continuous deep 
space surveillance and space object identification operations to 
increase national capabilities and reduce expenditures for both mission 
sets. During the past year, the U.S. Air Force began construction of 
their most advanced surveillance system--Space Fence. In a few years, 
this improved surveillance capability will enable proactive space 
situational awareness while complementing existing systems at the RTS.
    army contributions to the nation's missile defense capabilities
    AMD is an enduring Army core function. AMD units serve as a key 
strategic enabler-an essential component of the Army mission to provide 
wide area security and support to joint campaigns. In addition to 
defense against ballistic missiles, the Army's current AMD strategy 
seeks to develop a more comprehensive portfolio of Integrated Air and 
Missile Defense (IAMD) capabilities. AMD is one of six Army 
modernization priorities and, as such, recent Army investments in 
missile defense have significantly increased. The Program Executive 
Office for Missiles and Space (PEO MS) is the Army's materiel developer 
for these capabilities and works closely with the other Services, the 
Joint Staff, and MDA toward joint IAMD capabilities. To ensure the 
mission of providing trained and ready Army AMD forces, we are engaged 
in developing an updated Army AMD strategy. A summary of the Army's AMD 
strategic direction and major programs follows:
    Air and Missile Defense Readiness: Readiness is the Army's top 
priority, and the challenge to sustain the readiness of the total Army 
AMD force requires constant vigilance and senior leader focus. The 
operational demand to meet the requirements of joint warfighters 
continues to stress the Army AMD force, impacting both current and 
future readiness, as well as modernization initiatives. With over 50 
percent of the AMD force either forward stationed or deployed, the Army 
continues to take action to mitigate this stress to the force and 
restore strategic flexibility. An Army Campaign Plan strategic effort 
to implement a Sustainable Readiness Model supports characterization of 
the challenge. A recent study on striking a balance between operational 
demand and modernization led to the activation of an AMD test 
detachment in fiscal year 2018. This study also supports normalization 
of AMD rotations to a 9-month cycle rather than the current 12-month 
cycle; we expect to achieve the shorter rotation cycle in the near 
future.
    Mission Command: Closely linked to the challenge of sustaining AMD 
readiness is the ability to provide low density/high demand AMD mission 
command elements. The mission command elements are especially critical 
to support the integration of Army AMD forces into joint command and 
control architectures. Operationally, the Army recently activated a 
third National Guard air defense brigade headquarters assigned to the 
South Carolina Army National Guard to support mission command rotations 
for the National Capital Region integrated air defense mission. The 
Army completed the development and procurement of five Dismounted 
Patriot Information Coordination Centrals (DPICC) for the Army Air and 
Missile Defense Commands (AAMDC), which mitigates the requirement to 
deploy a Patriot Battalion Headquarters element with each one- or two-
battery deployment.
    Army Integrated Air and Missile Defense (A/AMD): In addition to 
providing defense against ballistic missiles, the current AMD strategy 
continues to develop a more comprehensive portfolio of AIAMD 
capabilities to provide protection against other adversary threat 
systems and capabilities. The Integrated Air and Missile Defense (IAMD) 
Battle Command System (IBCS) integrates current and future AMD 
components into an Integrated Fire Control (IFC) system, provides a 
single integrated air picture, increases defended area, and provides 
flexibility in deployment. IBCS, the foundation for Army AMD 
modernization, is an Army priority. The program will field a common IFC 
system for Army AMD forces to defend against cruise missiles, manned 
and unmanned aircraft, air-to-ground missiles, tactical ballistic 
missiles, and RAM attacks. The IBCS network will operate with air 
surveillance and fire control capabilities across Services, and with 
coalition partners that provide joint warfighters with more decision 
space and lethality. When fielded, IBCS will enhance the lethality of 
the AMD force, breaking the current system-centric control paradigm, 
which will dramatically increase capability and also facilitate open 
industry competition in support of the AMD community. Additional 
efforts are currently underway to integrate the Army's IBCS and MDA's 
BMD System Command, Control, Battle Management, and Communications 
(C2BMC) to fully support IAMD interoperability with the ballistic 
missile defense system (BMDS).
    As noted, the IBCS and indirect fire protection efforts will 
provide the future force with a capability to defend against a wide 
range of threats. Recent conflicts highlight the growing threat of UAS 
in support of tactical operations. They pose an increasing risk to the 
Army's combined arms team who are operating where the strategic and 
operational advantage of highly technical stand-off weapons have 
limited utility. Efforts are underway to close the risk gap to protect 
our maneuver forces with short range defense capability.
    Patriot/Patriot Advanced Capability-3 (PAC-3) Missile Segment 
Enhancement (MSE): The Army Patriot force remains the cornerstone of 
AMD protection for our deployed forces, friends, and allies. GCCs' 
increasing AMD requirements drive the operational tempo and stress on 
the Patriot force. To meet requirements, reduce stress, and avoid 
adversary overmatch, the Army is improving Patriot capability against 
the near-term evolving threat while we move toward the IBCS 
architecture including the IFPC Inc 2-1 and a new Lower Tier Air and 
Missile Defense Sensor (LTAMDS).
    Lower Tier Air and Missile Defense Sensor (LTAMDS): The LTAMDS 
program will provide sensing capabilities in the lower tier portion of 
the ballistic missile defense battlespace. LTAMDS will expand MSE 
battlespace, serve as a sensor node on the IAMD battle command system 
network, address capability gaps, modernize technology, reduce 
operations and sustainment cost, mitigate obsolescence, and increase 
reliability and maintainability. To enable the development of LTAMDS, 
the Army is leveraging the competitive nature of the Other Transaction 
Authority (OTA) to mature and integrate technologies, reduce risk, and 
to manufacture the LTAMDS.
    Patriot must continually modernize through software and hardware 
upgrades to avoid obsolescence and to take advantage of the expanded 
battlespace afforded by the PAC-3 MSE interceptor. To counter the near-
term threat, the Army is in the process of delivering the next Patriot 
software build, Post Deployment Build--8 (PDB-8). PDB-8 software 
provides combat identification enhancements, addresses upper tier 
debris mitigation, improves performance of the PAC-3 Missile Segment 
Enhancement (MSE) interceptor, and enhances Patriot and THAAD 
interoperability. To accelerate the modernization upgrades of the 35th 
Air Defense Artillery Brigade, the PBD-8 Urgent Materiel Release (UMR) 
was approved in July 2016. Initial Operational Test & Evaluation 
(IOT&E) was completed in September 2017, and the PDB-8 Full Materiel 
Release is planned for later this year.
    Terminal High Altitude Area Defense System (THAAD): THAAD, a key 
component of the BMDS architecture, is designed for area defense of 
deployed and allied forces, population centers, and critical 
infrastructure against short-, medium-, and intermediate-range 
ballistic missiles. THAAD is a mobile and globally transportable, low 
density/high demand asset. A fully operational THAAD battery consists 
of 95 soldiers, an AN/TPY-2 radar, six launchers, a fire control and 
communications element, a battery support center, and a support 
element. THAAD has a unique endo- and exo-atmospheric intercept 
capability using proven hit-to-kill technology. There are now six 
available THAAD batteries, and a seventh will be operational by the end 
of 2018. As noted earlier, THAAD batteries are deployed to Guam and the 
Republic of Korea in response to the North Korean nuclear and missile 
threat.
    Indirect Fire Protection Capability Increment 2--Intercept Block 1 
(IFPC Inc 2-I): As the end of the operational lifecycle approaches for 
short-range AMD capabilities such as Avenger, the Army is developing 
new capabilities to defeat air threats. The IFPC Inc 2-I, currently 
under development, is a mobile, ground-based AMD weapon system designed 
to provide 360-degree protection against cruise missiles and UAS 
threats for fixed and semi-fixed sites, with the capability to launch 
multiple missile types. A block acquisition approach is being used to 
provide this essential capability. The Block 1 baseline system, 
consists of a new Multi-Mission Launcher (MML), an existing Sentinel A3 
radar, and multiple missile types, integrated with IBCS. An engineering 
demonstration of the IFPC system was successfully completed in March 
2016, which effectively used four different interceptors. The Block 1 
baseline system, providing counter-UAS/cruise missile capability, is 
slated to begin fielding in fiscal year 2021. A second missile will be 
added to provide an initial C-RAM capability beginning in fiscal year 
2023. The Block 2 System will provide a full C-RAM capability. This 
capability could be achieved by fiscal year 2028 for a kinetic energy 
solution and by fiscal year 2032 for a directed energy weapon.
    Army Low-Cost Portable Surveillance (ALPS): The ALPS passive sensor 
will integrate into the IBCS network and provide continuous, 360-
degree, long-range surveillance against fixed and rotary wing aircraft, 
UAS, and cruise missile threats.
    Maneuver-Short Range Air Defense (M-SHORAD): The Army is increasing 
capabilities to address increasing short-range air threats to our 
deployed forces and allies. Plans are in execution to expand M-SHORAD 
capabilities, not only with additional forces but also with new 
equipment, especially in the European theater. Per Army Chief of Staff 
direction, we have fielded Stinger teams to protect maneuver forces and 
are on schedule to deliver two Avenger battalion equipment sets to 
USEUCOM this year in support of the European Deterrence Initiative. The 
equipment will be followed by personnel and infrastructure resulting in 
an Active component Avenger Battalion next year. We are also exploring 
the feasibility of procuring an interim M-SHORAD capability. Fielding 
of four M-SHORAD battalions is slated to occur over fiscal years 2021 
and 2022. While the current M-SHORAD systems, Avenger and Stinger 
missiles, provide capabilities today, we must develop and field more 
advanced systems to outpace the threat. In addition to IFPC, continued 
R&D investments in lasers, high power microwaves, and electronic 
warfare are essential to increase M-SHORAD capabilities in support of 
the maneuver force.
joint functional component command for integrated missile defense (jfcc 
          imd)--lntegrating and synchronizing missile defense
    JFCC IMD is one of the geographically dispersed elements for which 
I serve as commander. It is USSTRATCOM's missile defense integrating 
element, formed to execute Strategic Command's Unified Command Plan 
(UCP) assigned missile defense mission and enable the headquarters to 
focus on integration and advocacy. Headquartered at Schriever Air Force 
Base in Colorado Springs, Colorado, JFCC IMD is manned by a cohesive 
team of Army, Navy, Air Force, Marine Corps, government civilians, and 
contractor personnel.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
  ``This request supports
  additional efforts to detect,
  defeat, and defend against
  any North Korean use of
  ballistic missiles . . . ''
 
     --POTUS Fiscal Year 2018
       DOD Budget Amendment
                November 2017
------------------------------------------------------------------------

    As the Secretary of Defense and various Combatant Commanders have 
previously testified, warfighters remain confident in our ability to 
protect the Nation against missile attacks. However, as the global 
missile threat continues to evolve, we must invest in holistic 
approaches to defeat adversary missiles before launch or while in 
flight, as well as implement mitigations should an attack succeed in 
penetrating our defenses. JFCC IMD's principal mission is to coordinate 
with and operationally support the joint warfighters at the GCCs, and 
advocate for their requirements with the materiel developers at MDA and 
the Services. On behalf of the GCCs and USSTRATCOM, JFCC IMD champions 
warfighter priorities and capability needs, including continued 
development of a robust sensor network, integrated discrimination 
capabilities, resilient command and control networks with enhanced 
cybersecurity defenses, and improved interceptors for both Homeland and 
regional missile defenses.
    Through JFCC IMD, we work across DOD and alongside key allies and 
partners to improve integration of existing capabilities, maximizing 
efficiency and effectiveness in global missile defense missions. The 
essential force multiplier is integration-a critically important 
mission enabler that JFCC IMD directly supports. As a functional 
component command of USSTRATCOM, JFCC IMD executes support to 
designated UCP responsibilities along four lines of effort:
    <bullet>  Synchronizing global missile defense planning, global 
force management and missile defense security cooperation activities.
    <bullet>  Conducting global missile defense operations support, to 
include: asset management, alternate execution authority, federated 
intelligence support, and network monitoring and protection.
    <bullet>  Executing above element joint and combined global missile 
defense training, exercises, and experimentation.
    <bullet>  Advocating for and recommending acceptance of global 
missile defense capabilities, conducting analysis and assessments of 
current and future capabilities, and supporting ground & flight tests.
    To accomplish these efforts, we maintain close collaborative 
relationships with the GCCs, MDA, the Services, OSD, the Joint Staff, 
and our allies and partners. We continually seek to enhance our 
deployed forces' capabilities while gaining operational experience and 
confidence in our collective ability to defend the Nation, deployed 
forces, partners, and allies. Some of our key efforts to enhance 
missile defense planning and capabilities for both the Homeland and 
regional architectures follow:
    Expansion and Integration of the Missile Defense Architecture: In 
response to the evolving strategic environment, we continue to bolster 
Homeland and regional missile defense capabilities. In development of 
the global missile defense mission, we are supporting the advancement 
of the new capabilities such as Aegis Ashore in Poland; the Standard 
Missile 3 Block IIA under co-development with Japan; Long Range 
Discrimination Radar at Clear Air Force Station, Alaska; 20 additional 
GBIs in a new missile field at Fort Greely, Alaska; Homeland Defense 
Radar-Hawaii; Homeland Defense Radar-Pacific; Space-based Kill 
Assessment, and various other capabilities. Given the many challenges 
associated with implementation of these architectures, JFCC IMD, in 
support of USSTRATCOM's coordinating role for global missile defense, 
collaborates with the GCCs to assess and address cross-regional gaps in 
the areas of planning, policy, capabilities, and operations.
    Multi-Regional Missile Defense Asset Management: JFCC IMD, in 
coordination with USSTRATCOM and the GCCs, manages the availability of 
missile defense assets to balance operational readiness posture, 
coordinates the scheduling of missile defense system maintenance 
activities, and supports MDA and Service test requirements. The asset 
management process allows us to continually assess our readiness to 
defend against missile attacks and to recommend adjustments to optimize 
the overall MD architecture.
    Cybersecurity of the Ballistic Missile Defense System: JFCC IMD, in 
coordination with USSTRATCOM and MDA, conducts the Cybersecurity 
Service Provider (CSSP) mission for the BMDS to ensure cyber defenses 
and operations are planned and executed across the globe. JFCC IMD 
works with key stakeholders to enhance the cyber defense posture of our 
missile defense operational architecture against malicious activity. We 
are collaborating with our mission partners to incorporate realistic 
cybersecurity testing in support of the warfighter capability 
acceptance process. JFCC IMD also works closely with the Joint Staff, 
Combatant Commanders, and MDA to educate, train, and exercise 
cybersecurity protocols to ensure the highest levels of readiness.
    Global Planning and Assessment: As regional and global missile 
threats continue to increase in number and complexity, JFCC IMD works 
with the missile defense community to refine processes designed to 
synchronize trans-regional, global missile defense planning and 
operations. Codified in periodic revisions to the Global Missile 
Defense Concept of Operations, these processes ensure unity of effort 
and mitigate potential seams and gaps across geographic areas of 
responsibility. Consistent with the Department's transition to planning 
based on adversary problem sets, we have continued to refine our 
process for adversary-centric plans assessment, and completed further 
objective analysis of missile defense risks across multiple GCC plans. 
This assessment methodology identifies systemic risk, informs 
recommendations for shortfall mitigation, and increases effectiveness 
in future missile defense planning efforts. The output of this analysis 
will inform our biennial Global Integrated Air and Missile Defense 
Assessment (GIAMDA) which shapes recommendations for global force 
management and future capability advocacy efforts. Looking forward, we 
will focus our efforts with the warfighter community to establish 
approaches and processes necessary to enable increased integration and 
a more holistic approach to missile defense.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
  Plan and Conduct
  Synchronized
  Global Operations
------------------------------------------------------------------------

    Global Force Management: USSTRATCOM, as the designated Joint 
Functional Manager for missile defense, relies upon JFCC IMD to 
evaluate and recommend to the Joint Staff sourcing of missile defense 
requirements based on assessed risk. Due to the low density/high demand 
nature of missile defense assets, all sourcing decisions have a direct 
and significant impact on other Combatant Commanders' campaign and 
contingency plans. We continue to refine our approach to prioritize 
steady-state global missile defense requirements. This Global 
Prioritized Defended Asset List (Global PDAL) categorizes the GCCs' 
critical assets based on global risk. It informs our recommendations in 
the Global Force Management process, enabling senior leaders to make 
informed decisions on allocation of low density missile defense forces.
    Allied and Partner Missile Defense Integration: Given that we will 
never have enough active defense capacity, integrating allies into a 
common and mutually supportive architecture is a critical warfighter 
priority. In support of those efforts, our Global Missile Defense 
CONOPS includes an International Engagement Framework which provides a 
common approach to identify potential partners, a model to identify a 
level of maturation, and an assessment mechanism. This approach formed 
the analytical basis for the Department's 2017 Report to Congress on 
Allied Integration. Another venue aimed at promoting increased 
cooperation is the Nimble Titan campaign, a biennial series of 
multinational missile defense experiments. Nimble Titan brings together 
policy and military subject matter experts from allies and partner 
nations to explore collaborative missile defense, synchronize policy 
and military initiatives, and identify potential future concepts. 
Today, ministries of foreign affairs and defense representatives from 
24 nations, NATO, three additional multinational organizations, as well 
as DOD, OSD, Joint Staff, Combatant Commands, and MDA convene quarterly 
to exchange views and insights, experimenting collectively with policy 
and operational concepts. The Nimble Titan campaign provides a unique 
forum to advance U.S. missile defense policies and Combatant 
Commanders' regional security objectives. As the free world's premier 
strategic military and policy focused missile defense event, this 
campaign provides participating nations with critical opportunities for 
multinational and cross-regional discussions. The 28 member nations and 
international organizations work collectively to produce practical 
missile defense concepts and solutions to policy-military challenges; 
many of which influence and inform real-world missile defense policies 
and multinational planning.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
  ``We must strengthen our
  collaboration with our allies
  and explore further integration
  of our collective capabilities
  toward an effective mutual
  defense.''
 
                  --USSTRATCOM
           HASC Posture Statement
                        March 2018
------------------------------------------------------------------------

    The Nimble Titan 2018 campaign culminated in the Capstone Conflict 
Event this March. In September, NATO will host a subsequent senior 
leader forum. This campaign addressed IAMD, deterrence and de-
escalation, left-of-launch actions, passive defense, advanced 
technologies, interoperability, regional defense planning, alliance and 
coalition cohesion, and harmonized strategic messaging--challenges of 
concern to all participants. Nimble Titan has been a gateway for the 
U.S. to establish crucial relationships with allies and partners. It 
also informs the missile defense policies of the participating nations 
and international organizations. Events like Nimble Titan foster 
greater confidence in combined missile defenses and provide a means to 
advance U.S. efforts in collaboration, integration, interoperability, 
and burden sharing with our allies and partners.
    Additionally, we have successfully integrated allies directly into 
the JFCC IMD staff through the Foreign Liaison Officer (FLO) program. 
Our first FLO, a German Air Force officer, has been an integral player 
in Nimble Titan, NATO BMD Training, and allied and partner modeling and 
simulation efforts. We are seeking to add additional Foreign Liaison 
Officers to increase our understanding of allied missile defense 
policies, capabilities, and planning in order to optimize missile 
defense planning and force allocation.
    Joint Missile Defense Training: In coordination with USSTRATCOM, 
the Joint Staff, Combatant Commands, and the Services, we continue to 
develop comprehensive and innovative training programs to close gaps 
between Service, joint, and regional missile defense training and 
education. JFCC IMD's Joint Ballistic Missile Defense Training and 
Education Center, or JBTEC, expanded its curriculum to meet warfighter 
demands. It now offers 15 mission-oriented resident and Mobile Training 
Team (MTT) courses, and online courses to include orientation, staff 
basic, and asset management training. Over the past year, JFCC IMD 
instructors executed 233 courses, training over 4,200 students 
worldwide. Additionally, in keeping with Joint Vision 2020, JFCC IMD 
provided training courses to our allies and partners through military-
to-military and Foreign Military Sales training venues.
    Warfighter Capability Acceptance and Integrated Master Test Plan: 
As missile defense architectures mature, warfighters require a 
credible, comprehensive assessment of new capabilities to inform 
operational acceptance into the global BMDS. The warfighter relies on a 
robust and operationally relevant test campaign to confidently field 
and integrate new capabilities into their existing IAMD architectures. 
As noted previously, warfighters supported the May 2017 FTG-15 GBI test 
which demonstrated the first ever Exo-atmospheric Kill Vehicle (EKV) 
intercept of an ICBM-class target. Also in 2017, JFCC IMD supported a 
successful intercept flight test of the United States and Japanese co-
developed SM-3 Block IIA interceptor for Phase III of the European 
Phased Adaptive Approach (EPAA) architecture. In fiscal year 2019, the 
Department has an Aegis BMD and Aegis Ashore intercept test planned 
that will demonstrate the multiple simultaneous engagement of two IRBMs 
using the same EPAA Phase III architecture. The Navy and MDA will 
demonstrate fleet defense using a salvo of two SM-6 missiles. 
Additionally this year, we plan to demonstrate coordinated THAAD and 
Patriot interceptors in a simulated engagement using a live target.
    In summary, JFCC IMD continues to expand our Nation's global 
missile defense architecture and explores future capabilities to 
maintain operational advantage against current and future threats. 
Competitive edge is maintained through integrated planning and 
operational support, deliberate investments in our capability 
developments by MDA and the Services, investments in our warfighters 
through education and training, and expansion of collaboration with our 
allies and partners.
                               conclusion
    Madam Chairman Fischer and Ranking Member Donnelly, as a member of 
the joint missile defense community, the Army continues to pursue 
enhancements to the Nation's IAMD systems, from the tactical to the 
strategic levels of warfare. As outlined here, USASMDC/ARSTRAT and JFCC 
IMD perform a broad set of critical national security missions. These 
missions include providing professional warfighters and capabilities to 
support current operations, ensuring they are prepared for tomorrow's 
fight, and developing new technologies required to maintain a 
technological advantage against the adversary threat. Our trained and 
ready soldiers, operating GMD elements in Colorado, Alaska, New York, 
California, and from remote, globally deployed locations, remain on 
point to defend the Homeland against an ICBM attack. As a force 
provider to the GCCs, our soldiers provide essential regional sensor 
capabilities, ballistic missile early warning, and satellite 
communications. Our regional forces continue to leverage allied 
collaboration and planning efforts in developing integrated and 
interoperable defenses against the various threat sets. USSTRATCOM, 
through the JFCC IMD, continues to integrate BMDS capabilities to 
counter global missile threats and to protect our Nation, deployed 
forces, allies, and partners.
    While operational, doctrinal, and materiel developments are 
essential, our most important assets are the thousands of soldiers, 
sailors, airmen, marines, civilians, and contractors who deploy and 
operate our IAMD systems. As recognized by Department leadership, the 
strength behind our outstanding workforce is their families. Their 
contributions and sacrifices are foundational to the dedication and 
performance of our workforce--the role and support of our families 
empowers mission accomplishment.
    I appreciate having the opportunity to address missile defense 
matters and look forward to addressing your questions.

    Senator Fischer. Thank you all very much.
    We'll begin our first round of questions.
    General Robinson and General Greaves, you both have talked 
about the defense capabilities that we have currently with the 
most pressing threat that we have, and that's North Korea. But 
in your opinion, does this budget keep us on a path to stay 
ahead of the threat that's posed by North Korea?
    General Robinson. So, ma'am, I'll talk first, and then I'll 
let General Greaves, since he is the smart one.
    Here's what I worry about. As I paid attention, we 
appreciate the ATR [Automatic Target Recognition] that was 
given to us last fall. It allows us to build capacity.
    You and I chatted a couple of times. The fact is when we 
looked at what KJU [Kim Jong-un] was doing last May versus what 
happened through the summertime, this capacity and this 
Redesigned Kill Vehicle will be very good for us in Alaska. But 
at the same time, we're not taking our eye off of having a 
better discriminating radar.
    I would tell you that where we are and what we're doing 
right now keeps us ahead of what's happening. We just can't 
take our eye off the ball.
    And I'll turn it over to General Greaves.
    Lieutenant General Greaves. Chairman Fischer, the answer is 
yes. As I mentioned, the current ballistic missile defense 
system can meet today's threat, and both the fiscal year 2017 
ATR, the fiscal year 2018 budget amendment, and this budget, 
what it does is increase our capability or our capacity, more 
rounds in the ground, whether it's ground-based interceptors or 
THAADs or Aegis 3 IBs, or ultimately the IIAs. So I believe we 
are perfectly positioned to defend against today's threat.
    The other thing the budget does, it helps us keep our eye 
on the advancing threat as North Korea in particular and Iran, 
as they both increase their capability, both in numbers and 
lethality. We must ensure that we look ahead at what capability 
will be required to stay apace of that threat.
    In the area of space sensors or deploying the terrestrial 
architecture to space to supplement and augment what is on the 
ground, keeping track of that capability is quite essential.
    Thank you.
    Senator Fischer. And United States Force Korea, you've 
submitted that request. Can you talk a little bit about the 
request and the importance of receiving funding this year? You 
outlined it a little bit, but what is the priority for it this 
year?
    Lieutenant General Greaves. It's a very high priority. In 
fact, it was sensitized to me during my last visit to Korea 
with General Brooks. We spent over an hour about two to three 
feet away, and he impressed upon me the importance of what's in 
that GEON. What it does, a couple of things. One, it allows us 
to disconnect the fiber tie between the THAAD control center 
and its launchers to increase the battle space by moving the 
launchers out. It allows the Patriot capability to essentially 
use the power of the THAAD radar to expand its battle space. 
And then it does what I believe is extremely important, 
integrates THAAD and Patriot to essentially optimize use of the 
interceptor so you minimize or eliminate wastage. So for 
General Brooks being right there on the front line, that was 
extremely important to him to ensure that we expand the battle 
space and optimize use of those precious assets.
    Senator Fischer. Usually items on the UFR [Unfunded 
Requirements] list are there because they were judged to be of 
lower priority than the items that are included in the basic 
budget request. As I understand it, however, this funding 
appears on the UFR list as a result of timing. Is that correct?
    Lieutenant General Greaves. That's correct. The items you 
see on the----
    Senator Fischer. It's not a reflection of the priority, 
then, in this case?
    Lieutenant General Greaves. Not in my mind.
    Senator Fischer. It was all due to timing.
    Lieutenant General Greaves. Yes, ma'am.
    Senator Fischer. Okay. And, Secretary Rood, when do you 
expect to complete the MDR [Missile Defense Review]?
    Secretary Rood. We're in the process of doing that work now 
as we speak, Senator, and we're looking in the near term here, 
in the spring, to finish that review. There are a number that 
you highlighted in your statement, some of the challenges in 
the threat environment that we face, so we're eager to stay 
ahead of that threat, and we're looking at some competing 
approaches to do that. But I expect we'll have that shortly to 
you.
    Senator Fischer. General Hyten noted some difficult policy 
questions in there, and we heard that boost phase term on an 
opening statement, that that's a big challenge. Is the 
Department formulating policies to fill that gap so that you 
can address those challenges that are associated with the boost 
phase intercept as part of the MDR?
    Secretary Rood. Yes. We're looking at boost phase defense. 
As mentioned, this is a period during the missile's flight when 
it is vulnerable to attack. It's a challenging period to be 
able to execute an effective missile defense during that period 
due to the geographic constraints and other things, but we are 
looking at a variety of ways to try to accomplish that goal.
    Senator Fischer. Including lasers?
    Secretary Rood. Yes.
    Senator Fischer. Thank you.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    I want to thank all of the witnesses again for being here.
    Undersecretary Rood, can you tell me how and why the review 
changed from the ballistic missile defense review to the 
missile defense review?
    Secretary Rood. In terms of the rationale, Senator, the 
ballistic missile defense review was looking, of course, at 
ballistic missile defense, defense of missiles that fly over a 
ballistic trajectory. The thought process was that there are 
other forms of missile attack, cruise missile attack, 
hypersonic glide vehicles and the like that were of a similar 
nature, and their challenge in the integrated air and missile 
defense systems that the Services are pursuing to provide 
defense for our troops in the field, our allies and things of 
that nature, that it was important to see a connection there, 
and that was the rationale. Of course, it predated my arrival 
at the Department to do that, but I support that decision 
because of the integrated security challenge that we face with 
those threats.
    Senator Donnelly. General Greaves, can you tell us how you 
contributed input into the missile defense review?
    Lieutenant General Greaves. Yes, sir. We have key members 
of our staff from the engineering directorate, from our command 
and control battle management directorate, from other parts of 
the organization that have met frequently with other members 
within the Department to help construct the MDR. So we've been 
actively involved.
    Senator Donnelly. General Robinson, can you please tell us 
how you helped contribute input into the missile defense review 
process?
    General Robinson. Absolutely. I think what's important as 
the warfighter and the one defending the United States, I've 
been able to contribute saying that I need to be able to 
detect, identify, track, and when necessary engage to defend 
the United States. So whether it's ballistic missiles, whether 
it's cruise missiles, I've been able to give as the battle 
space owner my opinion and support my brothers here at the 
table.
    Senator Donnelly. General Dickinson, same question.
    Lieutenant General Dickinson. Yes. We've contributed in a 
large part to the effort in terms of JFCCIMD or the role that I 
play as the integrated missile defense element for U.S. 
Strategic Command. So we've been participating throughout the 
process, and what we bring to the process is we bring the 
representation of all the combatant commands along with 
NORTHCOM in terms of providing that expertise and that 
perspective as we help to develop and shape the document.
    Senator Donnelly. General Greaves, I understand you're 
trying to accelerate the development and fielding of the 
Redesigned Kill Vehicle to address the growing threat, and what 
I would like to know is can you describe for us the ways you're 
mitigating the risk in the program and ensuring we have a 
capability that is fully tested before it is deployed?
    Lieutenant General Greaves. Yes, sir. This development will 
be a gated, milestone-driven acquisition in specific decision 
points along the way where the Department, not only the Missile 
Defense Agency, will assess readiness to proceed to the next 
phase. As an example, we completed the preliminary design 
review last May and used that as a decision point to convince 
anyone from the CAPE [Cost Assessment and Program Evaluation], 
the then AT&L [Under Secretary of Defense for Acquisition, 
Technology, and Logistics], Ms. Lord, and others within the 
building that we were ready to proceed with obligating, I think 
it was, $56 million worth of advanced procurement.
    So what we have done is we have taken great care and we 
have heeded the NDAA [National Defense Authorization Act] 
language that addresses fly before you buy, with the specific 
wording that talks about assessing our readiness to make these 
decisions through either adequately assessing through tests or 
some other method before we make these production and 
deployment decisions. So we will make decisions after, as I 
mentioned, the preliminary design review. We have the critical 
design review coming up in December where another subset of 
that funding will be assessed, and we've got a decision to make 
after the first control test vehicle test, which will now 
include not only a fly-out of the interceptor but a target 
where we will maneuver to the target but then maneuver away 
after convincing ourselves that we would have engaged the 
target, and we will use that extra capability to assess how 
well the interceptor does in the combined or expanded battle 
space.
    So the bottom line story, sir, is a gated, milestone-
driven, thoroughly reviewed assessment along the way.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Senator Cotton?
    Senator Cotton. Thank you all for appearing today for your 
testimony.
    General Greaves, let's talk a little bit more about boost 
phase intercept. I will reveal that I am a major proponent of 
this technology at the outset. The boost phase missiles are big 
and they're hot, so easy to detect, and most importantly 
they're over the bad guys' territory, not over ours. But they 
don't come from just anywhere on earth. There's a limited 
number of countries on earth that have this capability, and 
they intend to challenge us, and that boost phase intercept is 
at risk. Two obvious candidates are Russia and China. But is it 
fair to say that boost phase defenses are not really suitable 
against that threat because those countries are so large and 
they can position their missiles so far inland?
    Lieutenant General Greaves. I would say so, yes. There is a 
geographical component of it. Boost phase intercept is, if not 
ideally, well-suited to, say, the Korean Peninsula where, as 
you say, they can't go far back.
    Senator Cotton. Those are the magic words. So since Russia 
and China are not really susceptible to effective boost phase 
missile defense, where is it? North Korea. Maybe Iran as well, 
but North Korea is where it's really suitable.
    We talked about the lasers earlier. I want to come back to 
those in a bit.
    What is the agency doing to explore the feasibility of 
airborne hit to kill defenses, specifically on UAVs [Unmanned 
Aerial Vehicles]? What kind of technology gap do we have today, 
given what we're already capable of doing with a UAV, in air-
to-ground attack that might help neutralize or at least 
mitigate the North Korea threat?
    Lieutenant General Greaves. We are doing technology 
development. That is a phase of acquisition that we're in, 
looking at both directed energy components as well as most 
likely taking advantage of air assets which will already be in 
the theaters in support of other mission sets, executing by the 
COCOM [Combatant Command] to look at those assets, either 
sensors that could be fed into the command and control battle 
management system within our ballistic missile defense system, 
or at shooters. They could be platforms for a new breed of fast 
interceptor weapons that if placed appropriately or closely or 
in the right position would be effective boost phase intercept 
capability.
    Senator Cotton. I'm a big fan of manned aircraft as well, 
but manned aircraft have men and women in them, so they have 
limitations, right? They have to land, they have to eat, they 
have to sleep, so on and so forth. UAVs do not. How high a 
priority is it for the agency to explore the possibility that 
we could put an effective airborne net over the Korean 
Peninsula with UAVs, both sensor platforms and armed platforms 
in international waters, that could potentially prevent North 
Korean missiles from ever getting off of the launching pad?
    Lieutenant General Greaves. It is a high priority within 
the Missile Defense Agency, and the phase that we're in now is 
the technology piece of it. For instance, directed energy. Can 
we get----
    Senator Cotton. Can we get to directed energy for a moment? 
So given what we can do with a UAV and air-to-ground attack 
right now, what is the gap of taking that kind of demonstrated 
and deployed technology and deploying it in that kind of system 
against North Korea? And rather than aiming it at a terrorist's 
home or car, aiming it at a North Korea missile on the launch 
pad?
    Lieutenant General Greaves. The full answer will have to be 
coordinated with the combatant commander. But the gap or 
limitation is numbers and altitude and duration for the 
platforms of interest, and we have been doing some preliminary 
work on that over the past few years. And again, we're not 
talking directed energy, but doing things such as beam 
pointing, stability, duration, and pseudo con ops development 
on it. But the actual placement above, around, in the vicinity 
of the targets, that's a COCOM decision.
    Senator Cotton. Okay. I just think it's an extremely high 
priority, and most people probably underestimate how close we 
are to that kind of solution. I know that's not the long-term 
solution. That's why I want to put directed energy or lasers to 
the end of the conversation. I know that's a little bit longer, 
but that's ultimately the right solution, I think. Once lasers 
get shrunken down so the power source can actually fit on an 
aircraft like that, then I strongly support that as well. But I 
think that we have a real opportunity in the very short term, 
not a matter of months but not a matter of decades either, to 
if not neutralize the North Korean threat with airborne boost 
phase systems, at least severely mitigate it.
    Thank you.
    Senator Fischer. Thank you, Senator.
    Senator Sullivan?
    Senator Sullivan. Thank you, Madam Chair.
    Just to follow up on Senator Cotton's questioning, General 
Greaves, is the technology available right now to do that?
    Lieutenant General Greaves. Sir, I'd say portions of the 
technology are available. For instance, the current suite of 
kinetic weapons that we have that could potentially fulfill 
that role, they may not have the distance, the legs as we call 
it, to execute even if we had the UAV technology flying and 
ready to go. The concept of operations is extremely important 
with respect to how many caps are flying, where those caps are 
located, the resources tail that goes behind it. But those are 
not my areas of responsibility. That's the COCOM. But the 
technology is getting closer.
    Senator Sullivan. Okay. Good. That's good to know.
    General Robinson, thank you. I missed your opening 
statement, but I understand you had an announcement, which 
we're kind of shocked and, wow, you've been an historic figure. 
I want to thank you for your service, the first female 
combatant commander in the history of the United States. Thanks 
for coming up to Alaska so much, we appreciate that. Recently 
at the event that we both were at, it was a great evening, so 
thank you. Thank you for your wonderful service.
    I wanted to talk a little bit, I mentioned to a number of 
you, General Greaves as well--so we made good progress in the 
last year, I think, with regard to a missile defense bill from 
this committee, passes in the NDAA, fully funded in December. I 
was out on a CODE [Congressional Delegation] led by the current 
chairman, acting chairman of the Armed Services, Senator 
Inhofe. We were in Alaska. We went out to Fort Greeley. Part of 
the funding and the new authorization is for a new field out 
there, a lot of excitement. We're on the ground looking at it. 
And then we hear 5 to 6 years, 5 to 6 years, before we get this 
field operational.
    Now, we won World War II in a shorter amount of time. I can 
go through a whole list, and the Chair is very focused on these 
issues, not just in the military but building roads, whatever.
    Why on earth should this take 5 to 6 years? What do you 
need--I've already talked to a number of you--legislatively, 
because I'm sure it would be bipartisan, to say, hey, the 
threat is here, the threat is here right now, we need more 
capacity. A new field at Fort Greeley is more capacity.
    What can we do to help you make this so it's not 5 to 6 
years, a half a decade, to get a new field operational? We 
should try to get that done in a year and a half, in a year.
    So, General Greaves, I know I just pitched this to you the 
other day, but we want to get this in the NDAA to help you, to 
help America defend itself when there's enormous bipartisan 
support to do it. Five to six years, to me, is lunacy. What can 
we do?
    I'll throw this out to any of the witnesses.
    Lieutenant General Greaves. Sir, if I can start, one update 
to our conversation yesterday, the environmental impact 
statement for Fort Greeley was done for the 100 interceptor 
base when the field was first developed.
    Senator Sullivan. Right, right.
    Lieutenant General Greaves. So what we have to do for the 
additional 20 is an environmental assessment, and that work is 
just about done.
    Senator Sullivan. Okay. Good.
    Lieutenant General Greaves. So that's off the table.
    The construction of the missile field itself is an 
approximately 36-month effort, and the limitations involved 
in----
    Senator Sullivan. They built the Alcan Highway in 11 
months.
    Lieutenant General Greaves. Yes, sir.
    Senator Sullivan. I mean, there's a long list of things in 
America we used to build quickly. Even 3 years is pretty darn 
long, right?
    Lieutenant General Greaves. Yes, sir. Those 3 years are 
paced by the standard building timeframe up in Alaska, April 
through October. Now, there are things that could be done----
    Senator Sullivan. We build year-round in Alaska on 
occasion.
    Lieutenant General Greaves. Yes, sir. I was about to say 
there are things that can be done to essentially reduce that 
time, but the pacing item for the additional 20 GBIs in the 
ground are the GBIs themselves and the fact that they were 
being procured as all-up rounds with the Redesigned Kill 
Vehicle on top. And the approach, unlike what was done for the 
initial deployment of the initial interceptors, where we 
essentially have done exactly what you're asking, we are taking 
a series of steps to ensure that what we are designing, 
building, testing, and delivering are more reliable, more 
maintainable, and for the long term more sustainable. And the 
acquisition of that under the current set of guidelines--we 
talked about that a little earlier--is a gated and milestone-
driven decision process.
    There are a number of folks, other entities within the 
Department that are involved, all the way from the operational 
testers to the folks in CAPE to the folks in now A&S, 
acquisition and sustainment, that have to be involved to ensure 
that we are minimizing risk for this deployment. Now, if it was 
stated that there is some national security waiver to get them 
into the ground now and to provide the Missile Defense Agency 
and others with complete authority to do things, then we could, 
of course, move out faster at a higher level of risk.
    But we learned some significant lessons from the deployment 
of the initial set of GBIs where we had to go back and complete 
the systems engineering for those rounds, and it's taken us 
quite a bit of time to do it, and we have now completed that.
    The intent here is, keeping the threat in mind, we already 
accelerated the planned deployment of those GBIs by at least a 
year, to 2023, beginning in 2021, going out to 2023. But to 
accelerate it further brings increased risk. We feel very 
confident we can deliver it per the timeline that we got.
    Senator Sullivan. Well, we want to work with you, all of 
you, on accelerating that.
    Senator Fischer. Thank you, Senator Sullivan.
    Secretary Rood, if I could continue with another issue on 
the missile defense enterprise, we know it struggled with the 
increasing portion of the MDA's [Missile Defense Agency's] 
budget that's going to procurement and taking money away from 
what really is the MDA's chief purpose, and that's research and 
development, and while we all support the significant increase 
in MDA's top line that's included in this year's budget, I 
think it actually exacerbates this issue. MDA's budget grew by 
almost $2 billion compared to the projections in last year's 
budget, and about 45 percent of that increase went to 
procurement.
    Do you expect the MDR to look into this issue?
    Secretary Rood. One of the things that is a challenge 
facing us in the Department is the Missile Defense Agency's 
role, as you said, as a research, development, testing, and 
evaluation organization. They've also played a substantial role 
in operations and sustainment of systems once we have them in 
the field. And one of the organizational issues that we need to 
work through is the transition, at what point and how do we 
transition those capabilities to the services to manage. That's 
been something the Department has struggled with for quite some 
time. For the past decade and a half, that's been a discussion 
item.
    So that is one of the things in the missile defense review 
that we are looking at because we want to make sure that we get 
the balance correct, where MDA's work on near-term production--
that is to say, current systems--and the balance about new 
system development, advanced capabilities. There's always a 
balance about how much do you invest today and how much in 
future technology, and getting that balance correct is one of 
the things we're looking at.
    Senator Fischer. I hope you are able to do that.
    Secretary, for all of Russia's talk about how the United 
States missile defenses jeopardize strategic stability and 
justifies their violation of arms control treaties or pursuit 
of new nuclear weapons--President Putin's speech was the latest 
example of that--isn't it true that Moscow deploys a highly 
capable ballistic missile defense system?
    Secretary Rood. They do. The Russians have maintained and 
indeed, at times when their budgets were most stressed, they 
continued to modernize the Moscow anti-ballistic missile 
defense system. I can say from the time when I previously 
served in government, in the 2001 to 2008 period, having 
routine discussions with the Russians about that, and they're 
very blunt about the fact that that's a high priority for them, 
to defend their capital and their people, where the majority of 
their population lives, against ballistic missile attack. Their 
basic argument is that they don't wish the United States to do 
that.
    I don't accept that argument, and I would note that it's a 
new argument from President Putin. In 2001, when the United 
States announced its withdrawal from the ABM [Anti-Ballistic 
Missile] Treaty, President Putin gave a national address in 
which he stated this posed no threat to Russia's national 
security, and shortly thereafter he agreed to the conclusion of 
the Moscow Treaty, which at that time and to date is the 
largest reduction in strategic nuclear forces that our two 
countries have done.
    So I read very carefully his recent statement, and we 
weren't surprised by what was announced, certainly disappointed 
by the tone in that statement, but it's a new discussion item, 
it's a new characterization I think of what has led to those 
capabilities that we're seeing from President Putin.
    Senator Fischer. Do you have any thoughts that you can 
share with us on why you think President Putin is making this 
new case?
    Secretary Rood. I think it is twofold. One, the context of 
that speech. The vast majority of it dealt with domestic 
issues. It was a bit of a--State of the Union speech wouldn't 
be exactly the right description of it, but it covered a whole 
range of topics, mostly focused on domestic issues. The tail 
end did focus on defense capabilities and those particular 
capabilities.
    Senator Fischer. Was it a political speech do you believe, 
then?
    Secretary Rood. Yes, but it was more than that. It 
certainly was messaging to the rest of the world and the United 
States. So we should see it for both. And it was noteworthy 
that President Putin showed an animation of a missile strike on 
the United States. There is only one other country that has 
done that, North Korea. It was also noteworthy that it was not 
the only time or effort where the Russians have signaled things 
to us in the United States.
    So I think while it was a political speech, it was also a 
message to the United States and the rest of the world about 
how they see us and that security environment and the 
capabilities that Russia is pursuing.
    Senator Fischer. Thank you, Mr. Secretary.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    General Dickinson, DOTE [Director of Operational Test and 
Evaluation] continues to find the Army's training of its 
soldiers to conduct testing of THAAD and Patriot is 
insufficient. In the fiscal year 2017 report, DOTE found that 
flight testing in fiscal year 2017 demonstrated that THAAD 
training and documentation deficiencies worsened in fiscal year 
2017, and Patriot training remained inadequate to prepare 
operators for complex Patriot engagements.
    In your role as Commander of Army Space and Missile Defense 
Command, you have the responsibility to organize, train, and 
equip Army space and global ballistic missile defense forces. 
Do these insufficiencies concern you, and what are we doing to 
improve the training?
    Lieutenant General Dickinson. So, the air and missile 
defenders in the Army in particular that I can speak for go 
through a very rigorous training program from the time that 
they come in to their initial assignments into their units. 
They go through a very detailed and comprehensive training 
strategy that's codified and developed into what we call table 
training, very similar to what you may see in an armor unit 
that has tables 1 through 12 that are very prescriptive and 
descriptive in highlighting the tasks that need to be completed 
as they move along from an individual type of qualification as 
an individual solider operator into a team or into a crew.
    That spans from a Patriot unit to a THAAD unit, even to a 
GM [Ground-Based Missile] unit, and I'm responsible for 
providing trained and ready forces to General Robinson in the 
GMD world in terms of the 100th and the 49th missile defense 
units. But I can assure you that that training development and 
that training proficiency is measured on a very frequent basis 
and is tested frequently on the actual equipment, and we also 
use a host of simulations in order to develop that.
    Senator Donnelly. So, then, is the fiscal year 2017 DOT&E 
report wrong in its conclusions?
    Lieutenant General Dickinson. I wouldn't say it was wrong. 
I would have to look closely at the scenarios in which they 
were evaluating those. I will tell you from my experience as a 
commander on the ground and through the evaluations that I run 
that the training proficiencies, particularly with the GM 
system, are at a very high state, and I don't believe DOT&E was 
evaluating the GM soldiers. I know they were on the THAAD and 
Patriot.
    General Robinson. Senator, if you don't mind, I had the 
privilege to go to Fort Greeley and watch the soldiers, so I 
know from the time that I have to give some authorities that I 
have to the execution that happens on the ground at Fort 
Greeley for me to be able to sit down and talk to the soldiers 
that do this each and every day from a training perspective, I 
was very proud to watch them, and I know that this training 
goes on more than once a day, every crew, both from my command 
center in Colorado Springs down to the soldiers at Fort 
Greeley. So I just wanted to add that as a warfighter.
    Senator Donnelly. General, I have great respect for them, 
too, and appreciate everything they do for our country. So how 
does the report come up with that conclusion?
    General Robinson. I'd have to go back and do like General 
Dickinson said and go see what was the scenario that they 
looked at, to give it a little more context, because of what I 
watched and observed myself. So I owe you my best military 
advice if I go back and re-read what was given.
    Secretary Rood. If I might add also, I'd have to go back, 
as I mentioned earlier, take a look at the report and see what 
the scenario is. If it was a test scenario, for example, 
sometimes they will look at that during one of MDA's tests, 
operational tests, or whether or not they were in the field 
with the soldiers at that time. So the circumstances are very 
important here.
    But I can attest to the fact that at every level within 
their training program, they are trained and certified. It's a 
series of written evaluations, a series of hands-on 
evaluations, and then performance-oriented evaluations 
conducted by, many times, outside agencies. What I mean by that 
is outside their immediate chain of command. And there are 
passes, and there are failures, and we do that routinely both 
in the United States as well as to our deployed forces 
overseas.
    Senator Donnelly. Okay. Well, I am about out of time. 
General Robinson, thank you again. As you head toward 
retirement and travel around, when you go to the Air Force 
Academy Notre Dame football game, I am curious as to who you'll 
be rooting for.
    General Robinson. Well, when your husband is an Academy 
graduate and your brothers are Academy graduates, there's 
really not much that I can say. So, go Air Force.
    [Laughter.]
    Senator Donnelly. Thank you.
    Senator Fischer. Thank you.
    Senator Sullivan?
    Senator Sullivan. Thank you, Madam Chair.
    Mr. Secretary, good to see you again, and I'm glad you're 
in this position. You have a background with a lot of expertise 
in these areas.
    Let me ask on the missile defense review, when are you 
anticipating that being done? And the reason I ask is one of 
the things that we'll be looking at with regard to the NDAA 
this year is building on what we did last year with regard to 
missile defense. We had kind of a breakthrough, I think, 
politically. We had a bill that was included as part of the 
NDAA which was a pretty significant advancement in missile 
defense that was very bipartisan. If you look at the history, 
missile defense has not always been bipartisan. As a matter of 
fact, it's kind of been a partisan issue. But in this case, I 
think we made a breakthrough.
    I'm asking this because we will be looking at kind of a 
missile defense 2.0 component of the NDAA, but we want it to be 
significantly informed by the work that the Pentagon is doing. 
So when do you anticipate that being done, and is there a 
timeline we can hold you to that would be in front of the work 
that we're doing on the NDAA, which you know is kind of already 
starting?
    Secretary Rood. We're at work now on the missile defense 
review. There are a number of real challenges that we're still 
working through how specifically we will address in that 
report. But I am pleased that we've come a long way. So I think 
this spring we firmly plan to complete the report. Right now we 
still have some internal discussions in the Department to work 
through, different opinions, as you'd expect, on certain 
questions. But I think we'll have something soon, and I 
understand your point about wanting to take that into account, 
and the legislation that you sponsored last year was very 
noteworthy in advancing the ball down the field on missile 
defense, and the NDAA markup schedule is certainly something 
that we would want to take into account.
    Senator Sullivan. Great. Do you think sometime in April? I 
mean, I'm going to try to hold you to something here, Mr. 
Secretary.
    Secretary Rood. I wouldn't want to commit to----
    Senator Sullivan. I'm putting your feet to the fire.
    Secretary Rood. I feel the heat already rising around me.
    Senator Sullivan. Good, good.
    [Laughter.]
    Secretary Rood. I wouldn't want to commit to April to get 
it to the committee, but certainly we'll be deeper into our 
discussions by that time. But I think in the next couple of 
months here, that is our intention to finish it.
    Senator Sullivan. Okay, because we don't want to miss--I 
know there's a lot of work, a lot of expertise going into this, 
but we want to keep in mind the vehicle that will move 
legislatively to enact some of these ideas and reforms you have 
in the review is going to be the NDAA. We're going to be 
marking it up late April, early June, so I think it's important 
to keep that in mind.
    One element that we started on in last year's legislation 
but as I talk to the experts, essentially everybody at the 
table and General Hyten, there seems to be, I would say, broad-
based consensus on what we need to do more with regard to the 
next steps is space-based sensors that are integrating both 
kind of theater and Homeland missile defense. Would that be 
something that all of you are in agreement on, the need to 
accelerate and really focus on that unblinking eye being able 
to track? Can I get an answer from each of you, if that's 
something you think is worthy of us to be working with you on 
to pursue as a program on our missile defense systems?
    Lieutenant General Greaves. Senator Sullivan, absolutely. 
That is where we need to start.
    Senator Sullivan. General Robinson, would you agree with 
that?
    General Robinson. I do, but let's not forget what we need 
to make sure is that we can do what we need to do today as we 
look to the future.
    Senator Sullivan. I agree. Great point.
    General Robinson. Okay. That's the only thing that I would 
add to the conversation.
    Senator Sullivan. Thank you.
    Mr. Secretary?
    Secretary Rood. Support in this year's budget, we're going 
to talk about doing some demonstrations on space-based sensor 
capability, as you know, and I think continuing to build on 
that is one of the things that we would like to do. We've got 
to look at that in the context of the other budget challenges 
as we put together the next 5-year budget submission through 
the remainder of the year. But I certainly am supportive of 
continuing to explore that.
    Senator Sullivan. Okay.
    General Dickinson?
    Lieutenant General Dickinson. Absolutely. I think the 
better you see the potential threat, the better we'll be in the 
redundancy and resiliency of having terrestrial-based sensors 
as well as space-based sensors that provide us that capability, 
especially as we look to an increasing, evolving threat. So the 
better information we have, the better opportunity and the 
better ability we'll have to defeat it.
    Senator Sullivan. Madam Chair, do I have time for one more 
question?
    Senator Fischer. Okay.
    Lieutenant General Greaves. If I could add, just really 
quickly, the integration of sensors in space with the 
terrestrial sensors are absolutely critical for the real threat 
that we see in front of us, the hypersonic threat, earth to 
burst tracking, and that's why I said absolutely.
    Senator Sullivan. Okay, great. Thank you.
    Let me ask one final question that goes to the issue of 
testing. Again, what we tried to do in the legislation last 
year was really kind of give cover to all of you, not in terms 
of ``failures'' but to start to make the point not only to 
Congress but the American people that when you are testing, 
even if you're not hitting a target or a successful flight, 
you're learning, you're learning. Our space program, you only 
have to look at that in the 1950s and 1960s. We were 
``failing'' all the time. But we weren't failing. We were 
learning.
    Kim Jong-un, I would never want to use him as an example, 
so I'm not, but the guy is obviously testing, failing, and 
learning. So we are trying to provide you with a sense from the 
Congress that, hey, the next time you do a big test, if it 
doesn't hit the target, it certainly would be my intention not 
to drag all of you up in front of this committee and pound the 
table and look for the TV [television] cameras and try to 
berate the people with stars on their shoulders that you're 
failing, because you're not failing, you're learning.
    So, we started that in last year's NDAA. We're trying to 
accelerate and put you on a schedule to do tests at least 
yearly. But what more can we do to help you in terms of your 
testing, even if you're not always hitting the target? My 
understanding in talking to some of the experts, there will be 
certain tests that we're stretching the envelope, from physics, 
from the activities that we're doing, so much that you almost 
think that you're going to miss the target anyway, and you're 
still going to learn a ton.
    What more can we be doing to help you in the Congress so 
your culture of testing is not so worried about some of us 
calling you up here the next time there's a missed target when 
we're still learning tons?
    Lieutenant General Greaves. Senator, I'd say what you've 
just stated is sufficient, in my mind, in that we're not only 
learning when we don't achieve an intercept, we're also 
delivering capability.
    One example I'll use is the recent SM-3 IIA mission that we 
just executed. We did not achieve an intercept. We believe we 
understand why we did not. But taking a look at what we did 
achieve, we achieved the demonstration of launching the SM-3 
IIA from Aegis ashore, which is absolutely critical for the 
sites in Romania, in Poland, and if the Japanese continue with 
their acquisition of the two Aegis source sites. It's a clear 
demonstration of that capability.
    We also increased the battle space for that weapon system. 
We flew outside the organic radar's capability and demonstrated 
feeding off-site sensor information, engagement-quality 
information to that interceptor as it was in flight.
    We also certified the Aegis weapon system baseline that 
accompanied all that capability.
    So we did not achieve that intercept, but we learned and we 
delivered capability. What you have stated, sir, is sufficient 
in my mind because it lends a level of understanding that we do 
a lot more than just intercepts.
    Senator Sullivan. Yes. Anyone else want to comment on that? 
One thing I've thought is you guys could do a background 
briefing to our wonderful friends in the media who love to look 
for ``failures.'' They don't really understand the issues. And 
if you can background the media on this, that it's not a 
failure, it's a learning opportunity.
    But anything else, Mr. Secretary? General?
    Secretary Rood. I certainly concur with the approach. 
Throughout our history, the things where we've had some 
issues--first of all, we generally have issues at some level in 
virtually every new cutting-edge endeavor. So I wholly concur 
with the thought process that you're taking. And it's not just 
us. I think in some ways when we look at our allies like Israel 
and their test regimen, they're much more willing to go back 
out to the test range, begin a flight test regimen, work 
through their issues, understanding there are going to be bumps 
in the road.
    So I certainly second the approach that you're trying to 
encourage us to take.
    Senator Sullivan. As you probably know, Mr. Secretary, the 
Israelis are actually testing right now in the great state of 
Alaska, in Kodiak, Alaska, so they're learning a lot there as 
well.
    Lieutenant General Dickinson. Senator, if I could, just one 
final comment on that.
    Senator Sullivan. Yes, sir.
    Lieutenant General Dickinson. As General Greaves described 
in terms of learning a lot, first of all I think your approach 
is right on. I think that's what we need.
    But the other piece that goes in, not only on the learning 
piece to the technology under development, but there is a big 
learning piece between the warfighter as well as the material 
developer, in this case MDA. So that's actually a relationship 
that we enjoy on a daily basis between the 100th and the 49th 
and the Missile Defense Agency. That ability to have the 
warfighter working side by side with the material developer in 
a test scenario, for example--and I'll use the FTG-15 a year 
ago, where we actually had a crew out of the 100th that 
actually executed the warfighting piece of that test, launching 
the interceptor for that engagement--is the fact that we learn 
a lot from the warfighter's perspective.
    Then we also are able to inform the material developer on 
the road ahead, are they developing the things that the 
soldiers can use. So I would just offer that.
    Senator Fischer. My thanks to the panel today for your 
testimony and your willingness to give us some pretty blunt 
answers. We appreciate that, and I thank you all for your 
service.
    And thank you again, General Robinson, for your service to 
this Nation, and we wish you all the best.
    General Robinson. Thank you, ma'am.
    Senator Fischer. Thank you.
    The hearing is adjourned.
    [Whereupon, at 3:43 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Deb Fischer
                       radar acquisition strategy
    1. Senator Fischer. Lieutenant General Greaves, do you intend to 
hold separate full and open competitive procurements for the Homeland 
Defense Radar--Hawaii (HDR-H) and Homeland Defense Radar--Pacific (HDR-
P) to ensure the most competitive price and latest technology in each?
    Lieutenant General Greaves. Missile Defense Agency (MDA) 
acquisition strategy includes the use of a full and open competitive 
multi-award indefinite delivery, indefinite quantity (MA IDIQ) fixed 
price incentive firm (FPIF) contract to support the competitive 
procurements for both the HDR-H and HDR-P. MDA plans to award the MA 
IDIQ contract to multiple contractors in October 2018. The HDR-H 
contract will be awarded in December 2018 as delivery order Number 1 on 
the MA IDIQ contract. The HDR-P will be competitively awarded as a 
follow on delivery order in 4QFY2019 timeframe. The MA IDIQ contract 
will include the option for a potential third Homeland Defense Radar 
delivery order. This approach enables MDA to maintain competition to 
ensure the best price, while also ensuring access to cutting-edge 
technology for each of the three potential future radar delivery 
orders.
                             juniper cobra
    2. Senator Fischer. Lieutenant General Dickinson, the United States 
and Israel recently concluded ballistic missile defense drills as part 
of the Juniper Cobra exercise. How do you asses the results of the 
Juniper Cobra exercise and what were some of the highlights related to 
missile defense activities?
    Lieutenant General Dickinson. Juniper Cobra 18 provided an 
unmatched opportunity to exercise our bi-lateral relationship with 
Israeli Defense Forces in a realistic and challenging exercise 
construct while conducting missile defense operations at the 
operational and tactical levels. Working collaterally, United States 
and Israeli soldiers, sailors, airmen, and marines practiced and 
refined tactics, techniques, and procedures critical to the successful 
execution of designated operation plans. Tactical U.S. missile defense 
units validated eleven battle positions and related command and control 
links, executed Joint and Combined United States and Israeli battle 
staff operations, and fought complex and layered simulated air battles 
with multiple missile defense systems. Key outcomes included validated 
confidence in the ability of United States and Israeli missile defense 
forces to successfully conduct Joint and Combined operations, a 
strengthened relationship among United States and Israeli forces, and a 
successful exercise demonstration that included both Patriot and Iron 
Dome.
                                  ifpc
    3. Senator Fischer. Lieutenant General Dickinson, considering the 
Army's current plans for Indirect Fire Protection Capability (IFPC) 
envision reaching initial operational capability (IOC) until the end of 
2023, is the Army evaluating any alternative systems, such as the Iron 
Dome system or NASAMS, that could provide near-term capabilities 
against cruise missile threats, or rocket, artillery, and mortar (RAM) 
threats?
    Lieutenant General Dickinson. The Army's current plan for IFPC is a 
2021 IOC. In the interim, the Army has existing, fielded Cruise Missile 
Defense (CMD) and Counter-RAM (C-RAM) capabilities provided by the 
Patriot Weapon System and the Land-Based Phalanx Weapon System (LPWS). 
The Army has previously considered numerous alternatives including Iron 
Dome and NASAMS but none of the systems meet all current requirements. 
The Army continues to evaluate options to accelerate C-RAM capability 
into IFPC via the competitive Enhanced Mission Area Missile (EMAM) 
effort for the second IFPC missile.
                               __________
             Questions Submitted by Senator Martin Heinrich
                    missile defense--left of launch
    4. Senator Heinrich. Secretary Rood, General Robinson, Lieutenant 
General Greaves, and Lieutenant General Dickinson, I believe there is a 
growing recognition that we are on the wrong side of the cost curve 
when it comes to missile defense. What sort of priority will the 
Missile Defense Review give to left-of-launch capabilities?
    Secretary Rood. The Missile Defense Review takes a comprehensive 
look at U.S. missile defense capabilities. This includes capabilities 
for deterrence, active and passive missile defense, and attack 
operations to destroy offensive missiles and their infrastructure prior 
to launch. Capabilities for attack operations, in particular, increase 
overall missile defense effectiveness, and lighten the burden on active 
and passive missile defense by reducing the number of offensive 
missiles that the adversary can launch. To strengthen U.S. capabilities 
for attack operations the United States will invest in: all-weather 
intelligence, surveillance, and reconnaissance platforms, information 
systems for rapid targeting, and prompt strike capabilities.
    General Robinson. Lieutenant General Greaves and Lieutenant General 
Dickinson, as the Commander of U.S. Northern Command, my focus is on 
right-of-launch capabilities since my ballistic missile mission is 
defensive in nature. We are on the right path to increase the 
capabilities and capacity of the Ballistic Missile Defense System and 
improve engagement efficiency without sacrificing effectiveness. I 
defer assessments of left-of-launch capabilities to those Commanders 
whose mission includes offense.
    Lieutenant General Greaves. The Missile Defense Agency (MDA) defers 
to the Secretary of Defense to set the priority for left-of-launch 
capabilities in the Missile Defense Review.
    Lieutenant General Dickinson. As highlighted in my written 
statement, with the continued advancement of global missile threats, I 
believe it prudent to pursue holistic missile defense approaches, to 
include left-of-launch capabilities. The Missile Defense Review is in 
senior level staffing. I respectfully defer any questions regarding 
priorities to OSD Policy.

    5. Senator Heinrich. Secretary Rood, General Robinson, Lieutenant 
General Greaves, and Lieutenant General Dickinson, given that the 
fiscal year 2019 budget was submitted prior to the MDR release, should 
Congress expect a supplemental budget request to account for any 
increased investment in left-of-launch capabilities?
    Secretary Rood. The Missile Defense Review is nearing completion 
and will be released in a few weeks. As a result, it is premature to 
comment on the need for an fiscal year (FY) 2019 supplement budget 
request at this time. The Department fully supports the fiscal year 
2019 President's Budget request.
    General Robinson. I defer to Secretary Rood and Lt. Gen. Greaves on 
budget sufficiency for left-of-launch capabilities.
    Lieutenant General Greaves. The Missile Defense Agency (MDA) defers 
to the Secretary of Defense with regard to the submission of any fiscal 
year 2019 supplemental budget requests.
    Lieutenant General Dickinson. The Missile Defense Review is in 
senior level staffing. I respectfully defer any questions regarding its 
contents to OSD Policy.
                         boost phase intercept
    6. Senator Heinrich. Lieutenant General Greaves, I am glad to see 
you are looking at directed energy technology to address emerging 
threats like hypersonic vehicles and cruise missiles. I continue to 
believe that directed energy is a potential option to achieve a viable 
boost phase intercept capability. I am particularly interested in the 
Request for Information (RFI) that the Missile Defense Agency put out 
last summer for a high altitude long endurance (HALE) unmanned aircraft 
to carry a high-energy laser system. What were the results of that 
request, what is the status of the RFI, and what is MDA's plan moving 
forward?
    Lieutenant General Greaves. The High Altitude Long Endurance (HALE) 
unmanned aircraft is an essential component for the Missile Defense 
Agency (MDA) to achieve a viable Boost Phase Intercept (BPI) 
capability. Ten contractors responded to the HALE Request for 
Information (RFI) with 26 different concepts varying from near-term 
concepts providing modest performance improvements to far-term 
platforms meeting MDA's objective BPI performance requirements for 
altitude, payload and endurance. The RFI responses provided MDA several 
potential paths forward with varying degrees of cost, schedule and 
technical risk. MDA is using the results to inform both BPI planning 
and laser scaling size, weight and power requirements for mid and far-
term potential capabilities. The next step is for MDA to solicit HALE 
concept designs from industry through a Broad Agency Announcement 
(BAA). The schedule for this effort is under development.
                             laser scaling
    7. Senator Heinrich. Lieutenant General Greaves, the MDA's unfunded 
priorities this year include Laser Scaling in order to continue 
research and development of three separate laser scaling efforts with 
the goal of demonstrating a 500 kilowatt (kW) laser by 2022 and a best 
of breed 1 Megawatt (MW) laser capability by 2024. Can you update the 
committee on the competing laser scaling efforts underway today?
    Lieutenant General Greaves. MDA continues to fund Diode Pumped 
Alkali Laser (DPAL) and Fiber Combining Laser (FCL) technologies at 
Lawrence Livermore National laboratory and MIT Lincoln Laboratory 
respectively. Both technologies have the potential to meet missile 
defense laser power, efficiency, beam quality and weight requirements. 
Both are demonstrating 30 kilowatt-class compact systems with excellent 
beam quality this year. The Agency is also interested in a third 
technology, Distributed Gain Laser (DGL). Initially this DARPA funded, 
General Atomics developed approach is currently operating at higher 
power levels with MDA funding the beam quality improvements.

    8. Senator Heinrich. Lieutenant General Greaves, is there value in 
having three separate laser scaling efforts, or should we be 
concentrating our resources on two competing lines of effort?
    Lieutenant General Greaves. Yes, there is value to funding three 
separate laser scaling efforts. Each laser uses a distinct technology 
approach and each approach has unique benefits and different technical 
risks. The DPAL shorter wavelength benefits missile defense, fiber 
lasers have high intrinsic beam quality and DGL's are ahead on power 
scaling but have beam quality risks. MDA's combination of requirements 
is stressing. Parallel demonstrations, which incrementally increase 
power while demonstrating high efficiency and excellent beam quality, 
increase confidence in reaching the missile defense laser requirements 
because the risks along the three paths are different. Each laser 
scaling demonstration activity could also spin off significant 
technology advances for multiple DOD missions.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                transparency in missile defense testing
    9. Senator Warren. Lieutenant General Greaves, according to an 
article that was published last month, you discussed plans to change 
how you report Missile Defense Agency testing plans to the public. 
According to this article, you previously provided the name of the 
planned test event, the objective of the test, and a three-month window 
during which the test would take place. But last month you told Inside 
Defense that you would no longer release that information because of 
``the need to safeguard critical defense information.''
    What has changed in the threat picture that makes it necessary to 
withhold this information?
    Lieutenant General Greaves. [Deleted.]

    10. Senator Warren. Lieutenant General Greaves, what is the 
military benefit of withholding basic test information--like the high-
level objectives or the season in which a test will take place--from 
independent observers?
    Lieutenant General Greaves. [Deleted.]

    11. Senator Warren. Lieutenant General Greaves, understanding we 
cannot hide these tests because they can be seen from space, isn't 
there some deterrence value in letting our adversaries know that we are 
actively working to improve our missile defense systems? Please explain 
your view.
    Lieutenant General Greaves. [Deleted.]
                     homeland defense radar--hawaii
    12. Senator Warren. Lieutenant General Greaves, in May 2017, the 
Government Accountability Office put out a report on the Missile 
Defense Agency's progress in achieving its acquisition goals and 
objectives. The report praises MDA for using ``best practices'' and ``a 
sound business case'' in developing its next generation of 
capabilities. The report also found that MDA's process ``lacks . . . 
sufficient input from Department of Defense components.'' Specifically, 
GAO said that by not consulting more with the Army, Navy, Air Force and 
Marines, MDA risks investing in ``solutions that are unnecessary, 
insufficient, or not a priority.'' GAO said that multiple DOD officials 
warned that MDA was making ``trade-offs [that] compromise performance 
and reliability, potentially resulting in the warfighter receiving 
capabilities that are insufficient to defeat the threat.''
    How is MDA working with the military services to ensure that we get 
systems that meet their needs, and that we don't end up with multiple 
systems with similar requirements and mission sets?
    Lieutenant General Greaves. MDA works collaboratively with the 
military services to meet their requirements and prevent duplication of 
effort. MDA receives feedback and priorities through the United States 
Strategic Command-Approved Warfighter Involvement Process. In addition, 
MDA leadership coordinates and communicates with the Services through 
the Missile Defense Executive Board and Board of Directors meetings, 
which are held quarterly with the Army, Navy, and Air Force to review 
development activities for new Ballistic Missile Defense System 
systems, including the HDR-H and HDR-P. Both radars were requested by 
United States Pacific Command and United States Northern Command 
leadership to fill capability gaps identified in the Global Sensors 
Analysis of Alternatives, which was completed in 2016. MDA has engaged 
with the Air Force in the early planning stages for both radars, to 
include the ability to support other mission sets such as space 
situational awareness, and is working with the Department to have a 
lead Service designated.

    13. Senator Warren. Lieutenant General Greaves, the MDA is 
currently in the process of acquiring a new discrimination radar for 
Hawaii and Japan, called the Homeland Defense Radar. I recently sent 
you a letter about MDA's acquisition strategy for this radar and others 
in the Pacific. Are you willing to come brief me on your acquisition 
strategy for additional radars in the region?
    Lieutenant General Greaves. Yes. We would welcome the opportunity 
to brief you on the Homeland Defense Radar acquisition strategy.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

          U.S. NUCLEAR WEAPONS POLICY, PROGRAMS, AND STRATEGY

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Deb 
Fischer
presiding.
    Members present: Senators Fischer, Cotton, Sullivan, 
Donnelly, Warren, and Peters.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. The hearing will come to order.
    The subcommittee meets today to receive testimony on United 
States nuclear weapons policy, programs, and strategy in review 
of the Administration's fiscal year 2019 budget request.
    I thank the witnesses for being with us today.
    General Rand and Admiral Benedict, this will likely be the 
final time you appear before this subcommittee. Congratulations 
to you both on your upcoming retirements. We've enjoyed working 
with you and benefitted from your testimony these past years. 
This Nation owes you both a deep debt of gratitude for your 
four decades of military service. Gentlemen, I thank you.
    [Applause.]
    Senator Fischer. Secretary Roberts and Dr. Soofer, thank 
you for joining us today. We look forward to hearing from both 
of you on how the budget supports the policies described in the 
Administration's Nuclear Posture Review, as well as the broader 
actions being taken to implement the NPR [Nuclear Posture 
Review].
    I also want to compliment both of you for your work on the 
NPR. Since its release, critics have made a number of claims 
about its contents ranging from allegations that it lowers the 
threshold for nuclear use by proposing the employment of 
nuclear weapons in response to cyber attacks, to assertions 
that it initiates a new global arms race. Over the hearings and 
classified briefings we have held this year, we have explored 
many of these criticisms and often found that the truth is far 
less dramatic.
    Instead, the 2018 NPR continues many of the policies 
established in previous NPRs and plans put in place by the 
Obama Administration, such as the modernization of our nuclear 
forces. In the areas where it calls for change, such as the 
introduction of two supplemental systems, the NPR makes a clear 
case that the threats to our Nation have changed over the last 
10 years and our Nation's deterrence posture must adapt 
accordingly.
    Dr. Soofer, we look forward to hearing more on this topic 
from you, sir.
    Again, I thank the panel for being with us today. We look 
forward to your comments and to your full statements, and those 
full statements will be made part of the record.
    With that, I would like to recognize the Ranking Member, 
Senator Donnelly, for any opening remarks that he would like to 
make.
    Senator?

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Madam Chair, and thanks for 
holding today's hearing, and to our witnesses for being here.
    Let me start out, as our Chair did, by noting that this 
will be the last time we have testimony from two friends of the 
subcommittee: General Robin Rand, the Commander of Air Force 
Global Strike Command, having served in the Air Force for 44 
years--amazing, thank you so much--and Vice Admiral Terry 
Benedict, the Director of the Navy Strategic Systems Program, 
having served 41 years in the United States Navy. The Admiral 
said 41 years in the Navy is equivalent to 44 years in the Air 
Force.
    [Laughter.]
    Senator Donnelly. That's a joke, for the record.
    Both of you came to your leadership positions when our DOD 
[Department of Defense] nuclear program was undergoing great 
change and attention, and both of you, in my opinion, have been 
an amazing credit to the airmen and seamen who perform our 
nuclear deterrence mission 24/7, 365 days a year. I want to 
thank you for your service and wish you the best.
    Today's hearing is focused on DOD's nuclear weapons policy 
for fiscal year 2019. If we include the full cost of the B-21 
bomber, the Department will be requesting about $22.1 billion 
for nuclear modernization and operations, or, as Dr. Soofer 
likes to say, about 3 percent of the fiscal year 2019 DOD 
budget. We are told in peak years it will rise to about 6 to 7 
percent.
    That 6 to 7 percent deters a threat that is existential to 
our homeland, and our job in Congress is to ensure those 
dollars are well spent. It's in that regard that I'll ask 
questions on programs and operations for fiscal year 2019.
    Also of interest is the 2018 Nuclear Posture Review. It has 
many features similar to the 2010 Nuclear Posture Review and 
retains the same negative use assurance in that we will not use 
nuclear weapons against nations in good standing with the 
Nuclear Nonproliferation Treaty but reserve the right to do so 
under extreme circumstances. It keeps our commitment to the 
Nuclear Nonproliferation Treaty and to nonproliferation in 
general but recognizes the changed threat environment as 
compared to 2010.
    Of interest will be the proposal for two supplemental 
systems, one a low-yield submarine-launched ballistic missile, 
and the other the bringing back of a sea-launched cruise 
missile which was dropped in the 2010 NPR as it was not 
maintained in storage stateside. My understanding is this 
action upset Japan and South Korea, so that additional aspect 
needs to be taken into account when we consider this proposal, 
along with the programmatic and policy, force structure, and 
budget impacts.
    With that, let me thank everyone for coming today, and 
thank you, Madam Chair, for holding this hearing.
    Senator Fischer. Thank you, Senator Donnelly.
    With that, I would ask for opening comments by members of 
the panel. My apologies.
    Secretary Roberts?

 STATEMENT OF HONORABLE GUY B. ROBERTS, ASSISTANT SECRETARY OF 
 DEFENSE FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL DEFENSE PROGRAMS

    Secretary Roberts. Thank you, Chairman Fischer, Ranking 
Member Donnelly. Thank you for this opportunity again to 
testify before you today on the fiscal year 2019 budget request 
for nuclear forces. I'm pleased to join Vice Admiral Terry 
Benedict, General Robin Rand, and Dr. Soofer to discuss one of 
the Department of Defense's highest priorities.
    As the Assistant Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs and the Staff 
Director for the Nuclear Weapons Council, I oversee the 
Department's efforts to ensure the U.S. nuclear deterrent is 
safe, secure, ready, and effective, developing and sustaining 
capabilities to counter weapons of mass destruction threats, 
effects, and proliferation, and ensure DOD compliance with 
nuclear, chemical, and biological treaties and agreements.
    Since the Cold War, the U.S. has reduced its nuclear 
stockpile by over 85 percent and deployed no new nuclear 
capabilities. Meanwhile, our adversaries have modernized their 
weapons systems and developed new capabilities while reducing 
transparency. With the return of Great Power competition and 
emerging nuclear threats, it is important to ensure our 
Nation's nuclear stockpile and infrastructure are prepared to 
provide a credible, flexible, ready, and technologically 
advanced deterrent that is resilient to technical and 
geopolitical change. The ability to effectively deter threats 
to our Nation's security relies on a diverse nuclear force with 
the flexibility to deliver tailored effects quickly and 
credibly. We now face a challenging task to counter and deter a 
wide range of current and emerging threats in an environment of 
increased uncertainty and risk. We must prepare to deploy a 
tailored and flexible nuclear deterrent as we face modern 
challenges and hedge against an uncertain future.
    Over the past several decades, our nuclear weapons 
infrastructure has suffered the ravages of time and a lack of a 
comprehensive investment. Many of the specialized capabilities 
required for stockpile work have atrophied or become obsolete.
    Our effort to reestablish our production capabilities at 
sufficient rates must be a national priority. As an integrated 
enterprise, we are focused on developing and executing a plan 
to meet stockpile needs and establish a path forward to 
manufacturing critical materials and components to meet future 
deterrent requirements.
    While our nuclear triad forms the core of our deterrent, it 
is further strengthened by denying any potential adversary the 
perceived benefits of nuclear use. By ensuring that United 
States Forces and infrastructure are able to survive and 
operate through nuclear attack, we remove the incentive an 
adversary may have to launch such an attack in the first place. 
They demonstrate that aggression of any kind is not a rational 
option.
    Our efforts to counter nuclear threats and respond to post-
detonation scenarios, as well as supporting nuclear 
nonproliferation efforts, allow for improved responsiveness in-
theater and flexibility for U.S. Forces to safeguard our 
weapons systems, delivery platforms, and personnel overseas.
    Our fiscal year 2019 budget request is critically important 
for sustaining and revitalizing the Nation's nuclear deterrent 
in all its forms. It includes funding for sustaining and 
modernizing our nuclear forces and addressing military 
requirements in a complex and changing security environment.
    We ask that you support both the Department of Defense and 
Department of Energy National Nuclear Security Administration's 
budget request as we continue to work closely to deter 
potential adversaries, meet emerging threats, assure our 
allies, and hedge against an uncertain future. I thank you very 
much for the committee's time, support, and leadership. Thank 
you.
    [The prepared statement of Secretary Roberts follows:]

             Prepared Statement by Secretary Guy B. Roberts
    Chairman Fischer, Ranking Member Donnelly, and distinguished 
members of the Subcommittee, thank you for the opportunity to testify 
before you today on the fiscal year (FY) 2019 budget request for 
nuclear forces. I am pleased to join Gen Robin Rand, VADM Terry 
Benedict, and Dr. Robert Soofer to discuss one of the Department of 
Defense's (DOD) highest priorities: ensuring that the Nation has a 
flexible, adaptable, and resilient nuclear deterrent in an increasingly 
complex and demanding security environment.
    As the Assistant Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs and the Staff Director of the Nuclear 
Weapons Council (NWC), I work directly for the Under Secretary of 
Defense for Acquisition and Sustainment (A&S), and advise the 
Department's senior leadership on nuclear matters. The Under Secretary 
leads the Department's efforts to acquire nuclear weapons delivery, and 
command and control systems required to meet the operational needs of 
our Armed Forces. The Under Secretary also chairs the NWC, a DOD and 
Department of Energy (DOE)/National Nuclear Security Administration 
(NNSA) governance body established to facilitate cooperation and 
coordination, reach consensus, and establish agreed-upon priorities as 
the Departments fulfill their shared responsibilities for United States 
nuclear weapons stockpile management. The NWC is deeply involved in 
balancing the need to maintain our existing nuclear weapons stockpile 
while modernizing that stockpile to ensure the long-term credibility 
and effectiveness of the nuclear deterrent, updating aging 
infrastructure, and preserving the human capital that underpins our 
capability to be a nuclear weapons state.
    Global threat conditions have worsened markedly since the 2010 
Nuclear Posture Review (NPR), and the United States and our allies now 
face an unprecedented range of threats, requiring a diverse set of 
nuclear capabilities to maintain a credible deterrent. The 2018 NPR 
tasks DOD and DOE/NNSA with ensuring the Nation is prepared to support 
a tailored and flexible nuclear deterrent to face modern challenges and 
to hedge against an uncertain future.
    Our budget request demonstrates the Department's commitment to 
strengthening and modernizing the nuclear Triad and revitalizing the 
aging infrastructure that supports the nuclear security enterprise. 
Today, I will summarize the DOD perspectives on, and priorities for, 
warhead life extension, nuclear weapon delivery systems modernization 
and replacement, nuclear enterprise infrastructure modernization, 
stockpile sustainment, nuclear command and control, and communications 
(NC3), allied engagements specifically with NATO and in the Asia-
Pacific region, as well as the challenges we face today and tomorrow to 
address emerging threats and ensuring a credible nuclear deterrent. 
While estimates of the cost to sustain and replace United States 
nuclear capabilities vary, according to our analysis, nuclear spending 
will reach a peak of approximately 6.4 percent of the overall DOD 
budget by the late 2020s, which compares favorably to the 10.6 percent 
of the DOD budget required during the 1980s and 17.1 percent in the 
1960s. To ensure the continued credibility and reliability of our 
nuclear deterrent in an increasingly complicated and challenging world, 
it is essential that Congress support the President's fiscal year 2019 
budget request for nuclear deterrence activities.
                     nuclear enterprise challenges
    Since the height of the Cold War, the United States has reduced the 
nuclear stockpile by over 85 percent and deployed no new nuclear 
capabilities. Meanwhile, Russia has modernized its non-strategic and 
strategic systems and developed new capabilities to bolster its nuclear 
Triad while instituting a military doctrine predicated on an ``escalate 
to de-escalate'' strategy. China has pursued new capabilities by 
modernizing and expanding its nuclear forces, developing and deploying 
new ground-based and sea-based nuclear delivery vehicles, all while 
displaying a lack of transparency in its nuclear force posture. 
Finally, North Korea's rapid progress with its nuclear weapons and 
missile programs also poses a significant security challenge.
    With the return of Great Power competition and emerging nuclear 
threats, it is important, now more than ever, to ensure our Nation's 
nuclear stockpile, and infrastructure are prepared to provide a 
credible, flexible, ready, and technologically advanced deterrent for 
United States, allies, and partner security. To this end, the NWC 
regularly convenes to ensure synchronization between the Departments of 
Defense and Energy on the vision, strategy, and execution of nuclear 
programs. Specifically, the Council focuses its attention on nuclear 
enterprise challenges in four vital areas. First, the DOD must address 
the challenges of sustaining and modernizing all parts of our nuclear 
force structure, ensuring that the Nation's nuclear weapons sustainment 
and delivery system modernization programs are funded and aligned. 
Second, we must remain steadfast in our commitment to sustain and 
modernize our aging infrastructure, which provides materials, 
components, and testing facilities essential to our nuclear deterrent. 
Third, we must maintain and strengthen our ability to extend the lives 
of aging warheads, as the majority of today's nuclear weapons and 
delivery systems have surpassed their initial design life. This is 
accomplished through a robust program of science-based stockpile 
stewardship, as well as comprehensive component reuse, refurbishment, 
and replacement, while we ensure alignment with existing and future 
delivery systems. Fourth, we must continuously improve the rigorous 
science and engineering tools required to assess the safety and 
effectiveness of our aging nuclear weapons stockpile.
    One of our significant internal challenges has been our lack of 
development of new capabilities to address the changing threat. We must 
be capable of developing and deploying new capabilities, when 
necessary, to deter adversaries, assure allies, achieve United States 
objectives if deterrence fails, and to hedge against uncertainty. Our 
future stockpile must be flexible, adaptable, and resilient to 
technological and geopolitical change.
                       dod stockpile requirements
    ``The United States will sustain a nuclear force structure that 
meets our current needs and addresses unanticipated risks. The United 
States does not need to match the nuclear arsenals of other powers, but 
we must sustain a stockpile that can deter adversaries, assure allies 
and partners, and achieve U.S. objectives if deterrence fails.''
- (National Security Strategy, page 30)

    Our nuclear deterrent is based on the capability to maintain and 
modernize our nuclear stockpile. To support this and remain consistent 
with past efforts, reflective of the priorities identified in the 2018 
NPR, the NWC aligns warhead plans and infrastructure needs with 
delivery system modernization and replacement efforts.
    We must sustain our current stockpile in order to avoid gaps in 
fulfilling military requirements, while developing the expanded 
capabilities identified in the 2018 NPR. NNSA's science-based Stockpile 
Stewardship Program has ensured confidence in the reliability of the 
current nuclear stockpile without nuclear explosive testing. The 
Stockpile Stewardship Program, composed of research, development, test, 
and evaluation (RDT&E) facilities and personnel, enables the 
surveillance and assessment of the stockpile's condition by identifying 
anomalies, evaluating impacts of anomalies on warhead performance, and 
implementing solutions.
    To address supplemental capabilities, the NWC will coordinate the 
near-term plans to modify a small number of existing submarine-launched 
ballistic missile (SLBM) warheads to provide a prompt low-yield option, 
and in the longer term, to pursue a modern nuclear-armed sea-launched 
cruise missile (SLCM). The low-yield SLBM warhead and SLCM will provide 
additional diversity in platforms, range, and survivability, as well as 
a valuable hedge against future nuclear ``break out'' scenarios, 
without impacting our obligations under bilateral nuclear arms control 
agreements, such as the Intermediate-range Nuclear Forces (INF) and New 
START treaties.
                revitalizing the nuclear infrastructure
    ``Our nuclear deterrent is nearing a crossroads. To date, we have 
preserved this
deterrent by extending the lifespan of legacy nuclear forces and 
infrastructure-in many cases for decades beyond what was originally 
intended. But these systems will not remain viable indefinitely. In 
fact, we are now at a point where we must concurrently modernize the 
entire nuclear triad and the infrastructure that enables its 
effectiveness.''
- Vice Chairman, Joint Chiefs of Staff, General Paul Selva, 2017

    The current global threat environment and an uncertain future now 
necessitate a national commitment to maintain modern and effective 
nuclear forces, as well as the infrastructure needed to support them. 
Over the past several decades, our nuclear weapons infrastructure has 
suffered the ravages of time and a lack of comprehensive investment. 
Our nuclear enterprise infrastructure challenges are two-fold: 1) 
working to achieve an infrastructure more responsive to nuclear 
deterrent requirements, and 2) addressing aged, end-of-life facilities 
maintenance, recapitalization, and replacement. Many of the specialized 
capabilities required for stockpile work have atrophied or become 
obsolete. As a result, the dedicated personnel at our national security 
laboratories and production facilities have not been able to process or 
manufacture many of the required strategic materials and critical 
components in quantities necessary to sustain our stockpile.
    Our effort to re-establish our production capabilities at 
sufficient rates must be a national priority. The NWC is focused 
specifically on plutonium, uranium, lithium, and tritium capabilities, 
as well as radiation-hardened microelectronics manufacturing 
capabilities needed to support the current and future nuclear weapons 
stockpile. The Department of Defense reinforces NNSA's commitment to 
develop a responsive and productive strategic materials plan to meet 
stockpile needs and establish a path forward to manufacturing critical 
materials to meet future deterrent requirements.
    Through the Stockpile Responsiveness Program (SRP), established by 
Congress with bipartisan support, NNSA sustains the nuclear weapons 
design and development skills needed by its workforce to address 
evolving threats and the potential for technological surprise. The SRP 
expands opportunities for scientists and engineers to advance such 
skills, which have not been fully developed or exercised in the current 
programs of warhead assessment, maintenance, and life extension. 
Maintaining these skills is an important element of the U.S. hedging 
strategy in order to provide timely availability of capabilities, if 
needed to meet changes in the security environment.
    A key element in establishing a robust production capability is 
attracting top talent. Talent is being lost to non-defense industries 
due to unacceptable, extended delays in the security clearance process. 
Personnel shortages are contributing to national security risks as 
positions go unfilled and mission performance is comprised. Unfilled 
positions in the nuclear enterprise due to security clearance process 
delays will have an impact on our ability to meet our goals. This is a 
serious national security issue with strategic implications. .
    An assured, reliable, and resilient NC3 system that operates across 
the full spectrum of conflict is essential in today's complex security 
environment. As we modernize our nuclear forces, we must also modernize 
our NC3 systems to enhance deterrence. An effective NC3 architecture 
must support a tailored deterrence strategy for each potential 
adversary, allowing for flexible response options to various 
provocations, and enabling adjustments to our deterrent posture over 
time to face emerging threats. Robust NC3 ensures the United States 
receives indications and warning in a timely manner, and provides 
decision-makers with the necessary time to make informed decisions and 
employ our forces in extreme circumstances.
                    dod delivery system requirements
    The ability to effectively deter threats to our Nation's security 
relies on maintaining a nuclear force with a diverse, flexible range of 
yield and delivery modes that are ready, capable, and credible. While 
the delivery systems underlying our nuclear triad remain effective 
today, the Department is entering a period when all legs of the triad, 
to include delivery platforms, will require significant modernization 
or replacement to sustain these capabilities. Since most of the 
Nation's nuclear deterrence delivery systems were built in the 1980s or 
earlier, they will begin to age out or face decreasing effectiveness by 
the mid-2020s. As the 2018 NPR reaffirms, we must recapitalize our 
legacy nuclear deterrence forces now and continue the modernization 
program initiated during the previous Administration.
    To this end, the fiscal year 2019 budget request funds all critical 
DOD nuclear modernization requirements, ensuring that modern 
replacements will be available before the our legacy systems reach the 
end of their sustainability. DOD continues to pursue a robust plan for 
recapitalizing ballistic missile submarines (SSBNs), submarine-launched 
ballistic missiles (SLBMs), intercontinental ballistic missiles 
(ICBMs), air-launched cruise missiles, and nuclear-capable heavy 
bombers and their associated gravity bombs that comprise our strategic 
nuclear deterrent. Our budget request is consistent with our plans to 
ensure that current nuclear delivery systems will be sustained, and the 
weapons and delivery platforms modernization and replacement programs 
are integrated, executable and on-schedule to avoid capability gaps.
    Modernization and replacement programs will require increased 
investment over current levels for next 15 years or more. We are taking 
steps to control the costs of these efforts, such as ensuring weapon 
system component commonality to a practical extent and close alignment 
between DOD delivery systems and NNSA warhead programs. We will 
continue to monitor the progress of both the weapons and platform 
programs to ensure the long-term viability of the nuclear deterrent.
                ally engagements and extended deterrence
    Effective deterrence is the foundation for effective assurance. Our 
ability to continue assuring allies depends on the credibility of our 
nuclear capability and extended deterrence. As such, we must develop 
the necessary infrastructure, capabilities, and political agreements, 
to address nuclear threats or nuclear use now and in the future.
    In addition to our deterrence and assurance posture in Europe, our 
nuclear forces provide a worldwide deterrent posture. The United States 
will maintain a spectrum of capabilities to ensure that no adversary 
perceives an advantage in nuclear escalation. These capabilities run 
the full spectrum of options to assure our allies in both Europe and 
the Pacific.
    The United States must and will continue to maintain a credible 
forward deployed nuclear deterrent capability. Together with our allies 
in Europe and the Pacific, maintaining a strong, cohesive alliance is 
the most effective way of deterring aggression from potential 
adversaries and promoting peace throughout the world. This posture 
demonstrated that aggression of any kind is not a rational option. 
Essential to these objectives is ensuring that upgrades and 
replacements for our legacy forward-deployed dual capable aircraft 
(DCA) and associated B61 gravity bombs remain capable of convincing our 
adversaries that prospective benefits of aggression are outweighed by 
the consequences.
    As we prepare for the modernization of nuclear weapons that will 
later be deployed within the European theater, we have partnered with 
our allies and with United States European Command to conduct an 
exercise that will ensure both the United States and the host nation 
can respond to high consequence/low probability scenarios. This 
exercise, to be conducted later this year, will guarantee our readiness 
as a joint and interagency emergency response force and will set the 
stage for future ``whole-of-government'' events.
    From a modernization perspective, with the B61-12 life extension 
program on schedule, we are working with our allies in planning the 
upcoming deployment of this enhanced capability. We continue to monitor 
the Air Force's progress on nuclear certification of the F-35 and look 
forward to what this 5th generation fighter will do to solidify our DCA 
capabilities for the United States and NATO.
    At the NATO High Level Group, for which I serve as the Vice 
Chairman for Safety, Security, and Survivability, we've had the 
opportunity to interact with our European counterparts and have 
informed them of the various advancements being made within the nuclear 
security arena. We continue to move with alacrity on our planned 
Weapons Storage and Security System life extension program, which 
furthers our ability to secure our nuclear assets well into the future. 
Although moving cautiously to ensure proper technology maturation, we 
continue to make progress on fielding additional security technologies 
and capabilities with the assistance of NATO, which will allow both 
United States and host nation security forces to keep pace with 
emerging and asymmetric threats. Since 2000, NATO has invested over 
$271 million dollars in security upgrades and another security 
capability package was approved in December 2017.
                      nuclear security and safety
    In additional to modernizing our nuclear deterrence and providing 
assurance to our allies and partners, we continue efforts to create a 
more cooperative and collaborative physical security environment for 
our nuclear facilities at home and overseas. We continuously review our 
policies ensuring our nuclear deterrent remains safe, secure, and 
effective in a changing security environment, while allowing for 
flexibility in the implementation by the Services and DOD components. 
Part of our responsibility is to oversee the Mighty Guardian series of 
physical security exercises designed to test DOD policy against 
evolving threats. These threats can be both foreign and domestic and 
include evaluating new and emerging technologies, such as unmanned 
systems. We recently concluded an exercise overseas and are in the 
final planning phases of executing another exercise here within the 
United States. To date, we have executed 18 exercises, all of which 
have resulted in enhancing our security posture through the years.
    Further, we invest approximately $40 million per year in both 
nuclear and conventional physical security efforts through the Physical 
Security Enterprise and Analysis Group. Our office works with the 
Military Departments and the interagency to identify and eliminate gaps 
in our ability to detect, delay, deny, defeat, and ultimately deter 
threats to our vital assets.
                         nuclear survivability
    While our nuclear triad forms the core of our deterrent, it is 
further strengthened by denying any potential adversary the perceived 
benefits of nuclear use. By ensuring that United States Forces and 
infrastructure are able to survive and operate through nuclear attack, 
we remove the incentive an adversary may have to launch such an attack 
in the first place. To that end, we are working to improve the 
survivability of United States nuclear and conventional systems to 
nuclear effects, including high-altitude electromagnetic pulse (EMP). 
In particular, we are working with Joint Staff to improve how we 
address nuclear survivability beginning early in the acquisition 
process, for example the hardening of the Marine Corps' new 
Presidential helicopter. We are beginning to recapitalize our test and 
evaluation capabilities as hardened systems are developed and fielded. 
In addition, we will support the efforts of the EMP Commission 
established by Congress last year to assess the threat of EMP attacks 
on the United States, and I look forward to its findings and 
recommendations.
                       countering nuclear threats
    While maintaining a credible national and extended deterrent is our 
top priority, we should be mindful not to ignore the importance of 
countering potential threats from non-state actors. Combatting weapons 
of mass destruction (WMD) requires a strategy that leverages a wide 
range of activities and capabilities integrated through a multilayered 
approach. The United States strives to prevent malicious actors from 
obtaining nuclear weapons or weapons-usable materials, technology, and 
expertise; counter non-state actor's efforts to acquire, transfer, or 
employ these assets; and respond to nuclear incidents, by locating and 
disabling a nuclear device or managing the consequences of a nuclear 
detonation both on the battlefield and in a civil setting.
    The fiscal year 2019 budget request for Countering Nuclear Threats 
(CNT) continues to focus on interoperability and survivability, with 
programs to provide the Services with radiation-hardened, common 
equipment, including capabilities for rapid post-detonation deployment. 
These systems support a variety of missions, including recovery of 
material after a nuclear weapons accident, contamination avoidance on 
the nuclear battlefield, decontamination verification both on the 
nuclear battlefield and in support of consequence management missions, 
as well as verification that platforms and materiel meet radiological 
release criteria.
    In addition, the Department of Defense is working with its 
interagency partners (NNSA, FBI, and DHS) and the national security 
laboratories on technical nuclear forensics (TNF) to rapidly collect 
and analyze samples for attribution in a nuclear event. This 
contributes to our deterrent strategy and has application beyond 
responding to a nuclear detonation, as it is invaluable to efforts such 
as treaty monitoring and understanding baseline environmental 
conditions.
    As part of our efforts to deter future nuclear use, the United 
States remains deeply committed to nuclear nonproliferation efforts. 
Early warning of nuclear proliferation is a critical first step in our 
overall strategy. To facilitate this, we support partner nation 
capability building to improve responsiveness in theater and return 
flexibility to United States Forces in order to safeguard our weapons 
systems, delivery platforms, and personnel overseas.
                               conclusion
    As articulated in the 2018 NPR and National Defense Strategy, the 
United States now faces a more diverse and complex nuclear threat 
environment than ever before. In order to build a more lethal, 
resilient, ready, and rapidly innovating force in response to these 
emergent threats, we must continue to field a strong nuclear deterrent 
supported by an agile and responsive infrastructure, including a well-
trained and sufficiently exercised nuclear enterprise workforce, 
undiminished by security clearance delays.
    The President's Fiscal Year 2019 Budget Request supports our 
nuclear force strategy as our program of record evolves. It includes 
funding for sustaining and modernizing our nuclear forces, and 
addressing military requirements in a complex and changing security 
environment to deter potential adversaries and threats, assure allies, 
and hedges against an uncertain future. The Department of Defense 
remains committed to maintaining its close and vital partnerships with 
DOE/NNSA and Congress in meeting the Nation's fundamental security 
needs. In closing, we respectfully ask that you support the President's 
fiscal year 2019 nuclear forces' budget request.

    Senator Fischer. Thank you, Mr. Secretary.
    Dr. Soofer?

    STATEMENT OF ROBERT M. SOOFER, Ph.D., DEPUTY ASSISTANT 
  SECRETARY OF DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY

    Dr. Soofer. Thank you. Madam Chair, Ranking Member 
Donnelly, I thank you for the opportunity to testify today. 
With your permission, I'd like to submit a longer statement for 
the record and make a few opening remarks. Thank you.
    Secretary Mattis, Under Secretary Rood, and General Selva 
have previously briefed the full committee on the 2018 Nuclear 
Posture Review, so I won't go into any great detail today. 
However, I would like to take a moment to summarize a few key 
points based on feedback we received from members of Congress, 
as well as our allies.
    First, the findings and recommendations of the 2018 Nuclear 
Posture Review are well grounded in what has been a traditional 
bipartisan approach to nuclear policy, summarized by Secretary 
Mattis in his public remarks following the February meeting of 
NATO's [North Atlantic Treaty Organization] Nuclear Planning 
Group.
    ``The U.S. approach to nuclear deterrence,'' he said, 
``embraces two co-equal principles: first, ensuring a safe, 
secure, and effective nuclear deterrent; and second, working 
wherever possible for nuclear nonproliferation and arms control 
whenever it advances stability and security for us and our 
allies. Nuclear deterrence and efforts to foreclose 
proliferation and reduce the number of nuclear weapons are not 
mutually exclusive.''
    Second, reflecting the priority afforded nuclear 
deterrence, the fiscal year 2019 budget request includes full 
funding for Department of Defense nuclear programs and is meant 
to maintain the nuclear modernization plans approved by 
Congress over the past years.
    Third, despite what you may have seen in the press, our 
nuclear posture does not increase the circumstances under which 
our Nation would contemplate the use of nuclear weapons, nor do 
we increase reliance on nuclear weapons. Rather, we maintain 
the longstanding policy that ``the United States would employ 
nuclear weapons only in extreme circumstances to defend the 
vital interests of the United States, allies, and partners.'' 
This recognizes the enduring role for nuclear weapons in 
deterring nuclear and conventional aggression and assuring 
allies, while hedging against an unpredictable security 
environment.
    Fourth, the recommendation to pursue two supplemental 
capabilities to the existing nuclear force program of record 
will not increase the likelihood of nuclear war or stimulate an 
arms race. These recommendations include in the near term 
modifying a small number of existing submarine-launched 
ballistic missile warheads to lower their explosive yield, and 
in the mid-to-longer term pursuing a nuclear sea-launched 
cruise missile, a capability that existed in our arsenal until 
it was retired early in the prior administration when the 
security environment seemed more benign. Both these 
capabilities are in response to Russian nuclear doctrine and 
new nuclear capabilities that must be viewed in the broader 
context of the long-term competition between the United States 
and Russia identified in the 2018 National Defense Strategy.
    These capabilities are also applicable to what appears to 
be China's growing nuclear forces that can threaten the United 
States and its allies in the Indo-Pacific region.
    The supplemental capabilities are needed to ensure that 
Russian and Chinese leadership do not mistakenly conclude they 
could achieve some advantage by initiating a limited first use 
of nuclear weapons, potentially including low-yield weapons. 
It's not a radical departure from previous policy. It does not 
signify a shift to nuclear warfighting. Rather, it reinforces 
the imperative expressed by the previous administration to 
retain a range of nuclear capabilities in explosive power and 
methods of delivery to strengthen deterrence in a wide range of 
scenarios, including an adversary's calibrated nuclear 
escalation.
    These two additional capabilities strengthen the 
credibility of our declaratory policy to counter any nuclear 
attack under any circumstance, which in turn raises the nuclear 
threshold and strengthens deterrence by signaling to 
adversaries that they have nothing to gain through limited 
strikes and everything to lose.
    Because these capabilities are consistent with existing 
arms control treaties and do not threaten Russian nuclear 
retaliatory forces, they should not stimulate an arms race. 
Rather, they could provide the means for addressing the growing 
disparity between Russia and the United States in nuclear 
forces not limited by existing nuclear treaties, a disparity 
that has been well recognized by Congress and that will 
continue to grow in the future unless we create some point of 
leverage.
    Fifth, throughout the Nuclear Posture Review we consulted 
extensively with allies and partners, and their reaction to the 
NPR has been positive. Asian and European allies recognize that 
the security environment has changed for the worse and requires 
an emphasis on nuclear deterrence even while we continue to 
pursue, where feasible, a balanced policy that combines 
effective deterrence with a broad-based effort to reduce 
nuclear risks through global nonproliferation initiatives and a 
responsible program of arms control.
    Finally, I would add that, as noted by Secretary Mattis, 
the United States' commitment to arms control and nuclear 
nonproliferation remains strong, but arms control is not an end 
in itself and depends on the security environment and the 
participation of willing partners. Russia's significant non-
compliance with the INF [Intermediate-Range Nuclear Forces] 
Treaty and buildup of nuclear weapons not limited under the New 
START [Strategic Arms Reduction Treaty] Treaty calls into 
question its willingness to be a serious partner in arms 
control. The United States remains committed to strategic 
dialogue when conditions permit.
    I thank the committee for its strong bipartisan support of 
U.S. nuclear policies and modernization programs over the years 
and look forward to answering your questions. Thank you.
    [The prepared statement of Dr. Soofer follows:]

                Prepared Statement by Dr. Robert Soofer
    Chairwoman Fischer, Ranking Member Donnelly, and distinguished 
Members of the Committee, thank you for the opportunity to testify on 
the President's Fiscal Year (FY) 2019 Budget Request for Nuclear Forces 
and Atomic Energy Defense Activities.
                   the changing strategic environment
    Today, the United States faces an increasingly complex global 
security environment, in which the central challenge to our prosperity 
and security is the reemergence of long-term strategic competition by 
revisionist powers in China and Russia. The 2017 National Security 
Strategy observes that Russia and China are asserting their global and 
regional influence and are fielding military capabilities designed to 
deny the United States' ability to project power and defend our allies 
and partners in Europe and Asia respectively.
    Long-term competition with China and Russia requires increased U.S 
and allied military investment because of the magnitude of the threats 
they pose today, and the potential that these threats will increase in 
the future. This is underscored in the 2018 National Defense Strategy, 
which asserts that we must also simultaneously strengthen our efforts 
to deter and counter the clear and present dangers posed by rogue 
regimes such as North Korea and Iran.
    The United States for years worked to reduce the role and number of 
nuclear weapons worldwide, but potential adversaries have done the 
opposite. Over the past decade, they have vigorously pursued the 
modernization of their existing nuclear forces and the development and 
fielding of new nuclear capabilities. In some cases, they deliberately 
elevated and expanded the prominence of nuclear weapons in their 
military strategies. Nuclear weapons are seen as a useful means of 
political coercion and a potential source of military advantage, 
especially when facing an opposing force with far greater potential at 
the conventional level of war. It is no surprise, therefore, that 
Russia, China and North Korea, in particular are modernizing and 
expanding their nuclear arsenals.
                           the nuclear threat
    The 2018 Nuclear Posture Review (NPR) reflects DOD's strategic 
priority to maintain a safe, secure, survivable and effective nuclear 
deterrent. The NPR used a threat-based approach by examining the 
challenges posed by Russia, China, and other states' strategic 
policies, programs, and capabilities, particularly nuclear.
Russia
    Russia is improving and expanding its nuclear capabilities with a 
large, diverse, and modern arsenal of strategic and non-strategic 
weapons. With non-strategic nuclear weapons numbering in the thousands, 
in addition to its strategic nuclear stockpile, Russia is widening the 
quantitative and qualitative gap between its nuclear arsenal and our 
own.
    Russia's nonstrategic nuclear weapons provide a flexible, usable 
adjunct to its conventional forces to prevent battlefield defeat. 
Russia is modernizing an active stockpile of up to 2,000 such weapons 
that can be deployed on ships, bombers and tactical aircraft, and with 
ground forces. This includes short-range ballistic missiles, air-to-
surface missiles, gravity bombs, torpedoes, and depth charges. Russia 
is also deploying a nuclear ground-launched cruise missile in violation 
of the 1987 Intermediate Nuclear Forces (INF) Treaty. By contrast, 
NATO's nonstrategic nuclear posture relies upon a modest number of 
gravity bombs and dual-capable tactical aircraft, capabilities that are 
being modernized but not expanded in size.
    The asymmetry in nonstrategic nuclear weapons has always been a 
source of concern precisely because of the fear that it could 
contribute to regional deterrence instability. This is why we have 
consistently called for extending the bilateral arms control framework 
to include these forces. With equal consistency Russia has refused to 
consider these offers. Now, with its ongoing violation of the INF 
Treaty, Russia is poised to extend this asymmetry with the development, 
production, and fielding of a mobile ground-launched system that can 
quickly and reliably strike deep into NATO territory.
    In support of these capabilities, Russia's military doctrine 
emphasizes the coercive nature and military value of nuclear weapons. 
During its invasion and illegal annexation of Crimea, Russia raised the 
alert of its nuclear forces and issued veiled nuclear threats to warn 
against Western intervention. Russia has repeatedly in recent years 
brandished its nuclear sword against our NATO allies, while Russian 
President Putin issued this past July an edict that ``in conditions of 
a military conflict, demonstration of readiness and determination to 
use force by employment of a non-strategic nuclear weapon is an 
efficient deterrence factor.''
    This past month, NATO's Secretary General Jens Stoltenberg 
expressed, ``Our concern [is] that Moscow has clearly stated in their 
doctrine that they are prepared to use nuclear weapons in regional 
conflicts . . . We see the danger that Russia could gradually move from 
using conventional weapons to nuclear weapons.'' Russian military 
doctrine allows for use of nuclear weapons on a limited scale with the 
goal of protecting Russian strategic and operational gains in a local 
aggression and deterring an effective NATO response. Russian leaders 
might execute such a strategy if they believed that it was their best 
chance to terminate or freeze a conflict on favorable terms--and that 
NATO and the United States would hesitate to respond in kind because 
most available nuclear options carry a high risk of further, unintended 
escalation or could be defeated by Russia's growing anti-access/area 
denial capabilities (e.g., advanced integrated air defenses). This 
approach, of course, is as risky as it is reckless--but Russian leaders 
could conclude the risk is acceptable if the stakes for Russia were 
sufficiently high and that they enjoyed ``escalation advantage'' at the 
nonstrategic nuclear level.
    Our aim is to disabuse Russia of the notion that nuclear warfare is 
a viable option and to reinforce deterrence at all levels. We 
understand that the exact elements of Russia's nuclear doctrine are 
subject to public interpretation and debate--and that we cannot know 
with certainty what would trigger limited nuclear use against NATO. But 
given the stakes, it would not be responsible to base our policy on a 
benign reading of Moscow's intentions and how Russian leaders think 
about the nuclear threshold and the risks of escalation.
China
    China is rapidly modernizing its strategic and non-strategic 
nuclear weapons as part of its efforts to prevent the United States 
from defending its allies and partners in the region. And, China 
continues to expand its nuclear capabilities in both quantity and 
quality. Since 2010, it has announced the development of or fielded new 
road-mobile and MIRV-capable ICBMs, theater-range ballistic missiles, a 
new SLBM, a new ballistic missile submarine, and the H-6K strategic 
bomber.
    China's ICBMs and SLBMs are capable of reaching the United States, 
and nuclear-armed, theater-range ballistic missiles are capable of 
reaching U.S. territory, allies, partners, forces and regional bases. 
China's rapid military modernization, growing and diversifying nuclear 
arsenal, and assertive approach to expanding its geopolitical power at 
the expense of the sovereignty of its neighbors undermine the stability 
of the Indo-Pacific region. Moreover, China's lack of transparency 
regarding the scope and scale of its nuclear modernization leaves the 
international community with concerns about its future intent.
North Korea
    North Korea's continued pursuit of nuclear weapons, combined with 
frequent threats against the United States and our South Korean and 
Japanese allies, are a major challenge to peace and security in 
Northeast Asia and around the world. North Korea has dramatically 
increased its missile flight testing, including recent ICBM tests, and 
has conducted six nuclear tests since 2006. Just as concerning is North 
Korea's history of proliferating nuclear and missile technology.
Iran
    Finally, Iran's continued efforts to destabilize its neighbors and 
support violent extremists undermine stability in the region. Iran's 
destabilizing regional actions, aggressive strategy, and development of 
increasingly longer-range missile capabilities calls into question its 
long-term commitment to foregoing nuclear weapons. Although Iran has 
agreed to constraints on its nuclear program in the Joint Comprehensive 
Plan of Action (JCPOA), it retains the technological capability and 
much of the capacity necessary to develop a nuclear weapon within one 
year of a decision to do so.
                      united states nuclear policy
    The 2018 Nuclear Posture Review reflects the Department of 
Defense's strategic priority to maintain a safe, secure, survivable and 
effective nuclear deterrent. The highest U.S. nuclear policy and 
strategy priority is to deter potential adversaries from nuclear attack 
of any scale against the United States or its allies. However, 
deterring nuclear attack is not the sole purpose of nuclear weapons. 
Given the diverse threats and profound uncertainties of the current and 
future threat environment, U.S. nuclear forces play the following 
critical roles in U.S. national security strategy. They contribute to 
the:
    <bullet>  Deterrence of nuclear and non-nuclear attack
    <bullet>  Assurance of allies and partners
    <bullet>  Achievement of U.S. objectives if deterrence fails
    <bullet>  Capacity to hedge against an uncertain future
    Effective U.S. deterrence of nuclear attack and non-nuclear 
strategic attack requires ensuring that potential adversaries do not 
miscalculate regarding the consequences of nuclear first use, either 
regionally or against the United States itself. They must understand 
that the costs far outweigh any perceived benefits from non-nuclear 
aggression or limited nuclear escalation.
    The requirements for effective deterrence vary given the need to 
address the unique perceptions, goals, interests, strengths, 
strategies, and vulnerabilities of different potential adversaries. The 
deterrence strategy effective against one potential adversary may not 
deter another. Consequently, the United States will apply a tailored 
approach to effectively deter across a spectrum of adversaries, 
threats, and contexts.
    Tailoring our deterrence strategy requires a diverse set of nuclear 
capabilities to provide the President the flexibility needed to address 
a spectrum of adversaries and threats and enable adjustments over time. 
Flexibility means having the appropriate range and mix of nuclear and 
other capabilities required to tailor deterrence strategies now and 
into the future.
    The United States has understood the value of flexibility for 
nuclear deterrence for six decades, but its importance is now magnified 
by the emerging diversity of nuclear and non-nuclear strategic threats 
and the dynamism and uncertainties of the security environment. This 
need for flexibility to tailor U.S. capabilities and strategies to meet 
future requirements and unanticipated developments runs contrary to a 
rigid, continuing policy of ``no new nuclear capabilities.''
    Potential adversaries do not stand still. On the contrary, they 
seek to identify and exploit weaknesses in U.S. capabilities and 
strategy. Thus, U.S. future force requirements for deterrence cannot 
prudently be considered fixed. The United States must be capable of 
developing and deploying new capabilities, if necessary, to deter, 
assure, or achieve U.S. objectives if deterrence fails, and hedge 
against uncertainty.
Declaratory Policy
    U.S. nuclear declaratory policy is consistent with the 2010 NPR and 
states that ``the United States would employ nuclear weapons only in 
extreme circumstance to defend the vital interests of the United 
States, allies and partners.'' The 2018 NPR clarifies that the 
``extreme circumstances'' that may lead the United States to consider 
nuclear use, include, but are not limited to: significant non-nuclear 
strategic attacks on U.S., allied, or partner civilian population or 
infrastructure; and significant non-nuclear strategic attacks on U.S. 
or allied nuclear forces, their command and control, or warning and 
attack assessment capabilities. This is not--as sometimes portrayed--an 
expansion of the circumstances under which the U.S. might consider the 
use of nuclear weapons, but rather a clarification intended to reduce 
the probability of adversary miscalculation.
    The 2018 NPR further states that ``The United States will not use 
or threaten to use nuclear weapons against non-nuclear weapons states 
that are party to the NPT and in compliance with their nuclear non-
proliferation obligations.''
                     united states nuclear posture
    The 2018 NPR confirms the findings of all previous NPRs that the 
diverse capabilities of the nuclear triad provide the flexibility and 
resilience needed for deterrence in the most cost-effective manner. 
Unfortunately, each leg of the triad is now operating far beyond its 
originally-planned service life. Consequently, we must not delay the 
recapitalization of the triad initiated by the previous Administration.
    The fiscal year 2019 budget request funds all critical Department 
of Defense (DOD) modernization requirements, helping to ensure that 
modern replacements will be available before the Nation's legacy 
systems reach the end of their extended service lives. The fiscal year 
2019 budget request for nuclear forces is $24 billion, which includes 
$11 billion for nuclear force sustainment and operations, $7 billion 
for recapitalization programs (including LRSO, B-21, GBSD, and the 
Columbia-class SSBN), and $6 billion for Nuclear Command, Control and 
Communications (including MILSATCOM).
    The DOD request to recapitalize the nuclear enterprise in fiscal 
year 2019 is about 1.4 percent of the total DOD base budget. Overall, 
nuclear force modernization will cost approximately $320 billion over 
23 years. At its highest level of funding in 2029, recent estimates, 
such as those from the 2018 Nuclear Posture Review, project that the 
total cost to sustain and modernize U.S. nuclear forces will account 
for about 6.4 percent of the Defense budget, returning to about 3 
percent upon completion of modernization.
Supplemental Capabilities
    The President's budget request includes two supplemental 
capabilities designed to enhance deterrence against emerging challenges 
in the near- and mid-term. The first of these is to modify a small 
number of existing submarine-launched ballistic missile (SLBM) warheads 
to provide a low-yield ballistic missile option in the near term. The 
Department requests $22.6 million in fiscal year 2019 to support 
integration of these warheads into the missile system. We also request 
funds of $1 million in fiscal year 2019 to initiate an analysis of the 
performance requirements and costs to pursue a modern nuclear-armed 
sea-launched cruise missile (SLCM) that could be available in the mid-
term. This capability was previously fielded but retired in 2011 given 
the hope of a more benign security environment.
    The modified SLBM warhead and a modern SLCM will provide additional 
low-yield employment capabilities that an adversary will have to 
consider if contemplating a limited use of nuclear weapons. They will 
also provide additional diversity in platforms, range, and 
survivability, and a valuable hedge against future nuclear ``break 
out'' scenarios. The SLCM also improves overall survivability of the 
deterrence force and provides additional assurance to allies. The 
availability of such systems will give an adversary pause, especially 
if paired with other demonstrations of U.S. and allied resolve, and 
thus lessen the risk of a catastrophic miscalculation. United States 
leadership will want options that are operationally effective and that 
signal unmistakably the will to defend vital interests and impose 
significant costs on an adversary--but that can be executed in a way 
that is perceptibly restrained and has some prospect of managing the 
risk of further escalation.
    This is not a warfighting approach, but rather reinforces 
deterrence of conflict at the outset. The possession of potent, 
flexible nuclear capabilities can bolster deterrence by convincing 
adversaries not to initiate a conventional war in the first place, or 
by compelling them to accept conventional defeat rather than reaching 
for nuclear weapons.
    These capabilities are consistent--and fully comply--with the New 
START Treaty and the INF Treaty. They will not add to the number of 
nuclear weapons in the U.S. nuclear stockpile or create pressures for 
an ``arms race,'' and when fielded will not pose a threat to Russia's 
nuclear retaliatory capabilities. Deployed at sea, these systems will 
not place added burdens on allies for basing and support.
    Some have suggested that low-yield nuclear weapons undermine 
deterrence by lowering the nuclear threshold and making nuclear war 
more likely. There is no empirical basis to this claim. The United 
States has long maintained a high threshold for nuclear use together 
with a diverse range of nuclear explosive yields and response options. 
These proposed supplements to our current strategic forces would 
contribute to deterrence by raising a potential adversaries' threshold 
for nuclear use. They would make nuclear war less, not more, likely by 
demonstrating to adversaries that the United States is fully prepared 
to deter nuclear threats at every stage of an escalating crisis or 
conflict.
    This would help ensure that potential adversaries do not perceive 
an exploitable advantage in using low-yield nuclear weapons and thereby 
deny them confidence that their coercive threats of either limited 
nuclear first use or actual first use can provide a useful advantage 
over us and our allies. These supplements are not intended to mimic or 
match adversary nuclear capabilities. They can, nevertheless, counter 
Russian limited nuclear war doctrine, help address the imbalance in 
U.S. and Russian non-strategic nuclear forces, and may create 
incentives for Russia to return to compliance with its nuclear arms 
control commitments and reduce numbers of non-strategic nuclear 
weapons.
                   arms control and nonproliferation
    The U.S. commitment to nonproliferation and arms control remains 
strong. We value an integrated approach that combines effective 
deterrence with a broad-based effort to reduce nuclear risks through 
global nonproliferation initiatives and a responsible program of arms 
control. The United States remains committed to all of its obligations 
under the Nuclear Non-Proliferation Treaty, including Article VI. By 
providing a credible nuclear umbrella extended to over thirty allies 
and partners, the U.S. is meeting their need for nuclear deterrence and 
at the same time enabling them to forgo independent nuclear weapons 
capabilities.
    Arms control can contribute to U.S., allied and partner security by 
helping to manage strategic competition among states. By codifying 
mutually agreed-upon nuclear postures in a verifiable and enforceable 
manner, arms control can help foster transparency, understanding, and 
predictability in adversary relations, thereby reducing the risk of 
misunderstanding and miscalculation.
    Arms control, however, is not an end in itself, and depends on the 
security environment and the participation of willing partners. Russia 
continues to violate a series of arms control treaties and commitments, 
most significantly, its non-compliance with existing obligations under 
the Intermediate-Range Nuclear Forces (INF) Treaty and its failure to 
abide by its obligations under numerous agreements such as the Helsinki 
Accords, which established the inviolability of borders. Russia also 
refuses to address the disparity in the number of non-strategic nuclear 
weapons in its stockpiles as compared to the United States.
    The United States does not wish to regard Russia as an adversary 
and seeks stable and productive relations. We remain committed to 
strategic dialogue when conditions permit and there is a meaningful 
prospect for positive outcomes. Given its actions in recent years, 
realistically the onus is on Russia to restore the basis for 
constructive engagement; if it does so, it will find a willing partner 
in NATO and the United States.
    We understand the importance of a balanced policy that combines 
effective deterrence with a broad-based effort to reduce nuclear risks 
through global nonproliferation initiatives and a responsible program 
of arms control. This past February, Washington and Moscow announced 
that they had achieved the negotiated limits of the New START Treaty, 
codifying the lowest levels of strategic nuclear weapons since the era 
of bilateral nuclear arms control began. The Treaty remains in effect 
until 2021 unless a decision is made to extend it.
    Today, however, it is difficult to envision further progress given 
Russia's significant non-compliance with its INF Treaty obligations and 
its refusal to discuss limits to nonstrategic nuclear weapons. Make no 
mistake, Russia's decision to violate the INF Treaty, regardless of the 
military implications, is a significant political act that calls into 
question its willingness to be a serious security partner. Still, the 
United States remains committed to finding a diplomatic solution that 
brings Russia back into full and verifiable compliance. The Alliance is 
united in this goal and this approach, as reflected in the 15 December 
2017 statement by the North Atlantic Council on the INF Treaty. While 
the United States will continue to pursue a diplomatic solution, we are 
also implementing economic and military measures intended to induce the 
Russian Federation to return to compliance. This includes a review of 
military concepts and options, including options for conventionally-
armed, ground-launched, intermediate-range missile systems.
    It is useful to view the NPR initiatives in this light. U.S. 
resolve to maintain modern nuclear forces and prevent destabilizing 
force imbalances from emerging or persisting provides the necessary 
foundation for effective arms control. This is a lesson borne out in 
the history of U.S.-Russia arms control, including the INF Treaty. The 
decision to pursue a modern sea-launched cruise missile capability is a 
Treaty-compliant response to Russia's violation of this Treaty and--it 
is hoped--will provide an incentive to Moscow to return to compliance 
or agree to negotiate limits on nonstrategic nuclear weapons that could 
enhance allied security.
    Likewise, minimizing the number of nuclear weapon states and 
limiting the spread of expertise and technology that enable nuclear 
proliferation remain foundations of American policy. We understand our 
unique leadership role in nonproliferation and nuclear security, and 
our commitment to these goals--and to exercising active leadership in 
pursuing them--is undiminished. We remain focused on a pragmatic 
approach to strengthening the NPT and the and other elements of the 
global nonproliferation regime and creating conditions within the NPT 
framework for further progress in disarmament, consistent with our 
obligations under Article VI of the Treaty.
    At the same time, despite the importance of these goals, we no 
longer believe they can be effectively advanced by unilaterally 
reducing or limiting the capabilities available to ensure deterrence. 
Today that path carries unacceptable risk. Nonproliferation faces acute 
challenges, to be sure, but can and will be pursued even as we take the 
steps necessary to strengthen nuclear deterrence.
                               conclusion
    According to Secretary Mattis, ``nuclear weapons have and will 
continue to play a critical role in deterring nuclear attack and in 
preventing large-scale conventional warfare between nuclear-armed 
states for the foreseeable future.''
    In an increasingly complex and threatening security environment, 
DOD must sustain the capabilities needed to deter and defend against 
attacks on our homeland, as well as those aimed at U.S. Forces deployed 
abroad, our allies and partners. This requires making the investments 
needed to address the on-going erosion of our nuclear capabilities. 
Along with our allies and partners, we must ensure that we have the 
capabilities needed, now and in the future, to protect our people and 
the freedoms we cherish, and are able to engage potential adversaries 
diplomatically from a position of strength. This is a top priority of 
the Department of Defense.
    While nuclear deterrence remains a bedrock of our security, 
Secretary Mattis has also observed that ``the U.S. approach to nuclear 
deterrence embraces two co-equal principles: First, ensuring a safe, 
secure and effective nuclear deterrent; and second, working wherever 
possible for nuclear nonproliferation and arms control, whenever it 
advances stability and security for us and our allies. Nuclear 
deterrence and efforts to foreclose proliferation and reduce the number 
of nuclear weapons are not mutually exclusive.''
    To achieve these goals, I urge you to support the important 
capabilities contained in the President's fiscal year 2019 budget 
request.
    Thank you again for the opportunity to testify. I look forward to 
your questions.

    Senator Fischer. Thank you.
    General Rand?

  STATEMENT OF GENERAL ROBIN RAND, USAF, COMMANDER, AIR FORCE 
                     GLOBAL STRIKE COMMAND

    General Rand. Good afternoon, Chairman Fischer and Ranking 
Member Donnelly. Thank you for allowing me to appear before you 
today, and thank you very much for your kind remarks.
    As I conclude my third year in command of Air Force Global 
Strike Command, I have four fundamental focus areas.
    First, the fight tonight, the fight in 2030, the 
professional development of our airmen, and the care and 
feeding of our families. Today I will highlight two of these 
areas in my opening comments.
    In the fight tonight, let me say the strength of Global Air 
Force Strike Command is in our 34,000 airmen and their 
remarkable families. Representing them today is Command Chief 
Master Sergeant Tommy Mazzone, a highly distinguished combat 
veteran and the senior ranking non-commissioned officer in our 
command. He is also my best wingman. He and these airmen are 
nothing short of spectacular and deserve our Nation's gratitude 
for their service of providing global strike and strategic 
nuclear deterrence.
    Right now, we have airmen deployed to the Intercontinental 
Ballistic Missile fields of Colorado, Nebraska, Wyoming, 
Montana, and North Dakota, where they provide a 24/7, 365-day 
umbrella of strategic nuclear deterrence and assurance for our 
Nation and our allies.
    At the same time, we have striker airmen deployed in the 
Middle East in support of Central Command and Africa Command 
fighting violent extremists. We have airmen deterring our 
adversaries and assuring our partners in European Command and 
Pacific Command, and we have airmen supporting counter-narcotic 
operations in United States Southern Command, all of this while 
our bomber airmen remain postured to support the United States 
Strategic Command's nuclear operational plan.
    At the direction of the commander of the United States 
Strategic Command, in September 2017, we reorganized to 
establish one line of authority for USSTRATCOM's air component 
under a single four-star commander. The reorganization 
established clear lines of authority, simplifying an outdated 
command structure for bomber and our missile forces. My 
position is now dual hatted as the Commander of Air Force's 
Strategic-Air Joint Force Air Component Commander and the 
Commander of Air Force Global Strike Command.
    A major part of this reorganization was to activate the 
Joint Global Strike Operations Center, or J-GSOC, headquartered 
at Barksdale Air Force Base. The J-GSOC enables us to focus on 
the operational nuclear deterrence and global strike missions, 
while the headquarters of Air Force Global Strike Command 
focuses on the organize, train, and equip aspects of our 
mission.
    Equally important as our ability to fight tonight is our 
ability to fight in 2030. Simply stated, modernization of our 
nuclear forces is at a critical juncture. The key to Air Force 
Global Strike Command's continued success will remain our 
ability to modernize, sustain, and recapitalize. To accomplish 
this we must have predictable, adequate, and flexible budgets 
in order to continue our readiness recovery while building a 
more capable and lethal force. The future, as great power 
competition reemerges as a major focus area, requires that Air 
Force Global Strike Command lead the way.
    I am happy to report today that we're on a good path moving 
forward, and I look forward to answering any of your questions 
about our modernization and sustainment plans related to our 
mission.
    Again, Madam Chairwoman and subcommittee members, Ranking 
Member Donnelly, I want to thank you for your dedication to our 
great Nation and the opportunity to appear before the committee 
today to highlight the missions and successes of the striker 
airmen and Global Air Strike. Thank you.
    [The prepared statement of General Rand follows:]

                Prepared Statement by General Robin Rand
                              introduction
    Chairwoman Fischer, Ranking Member Donnelly and distinguished 
members of the committee, thank you for allowing me to come before you 
and represent over 34,000 Air Force Global Strike Command (AFGSC) Total 
Force Airmen. It is an honor to be here today, and I look forward to 
updating you on what the command has accomplished and where we are 
going.
                air force global strike command mission
    Air Force Global Strike Command is a warfighting command 
responsible for two legs of our Nation's nuclear triad and the Nation's 
nuclear command, control, and communications (NC3) capabilities while 
simultaneously accomplishing the conventional global strike mission. As 
long as nuclear weapons exist, the United States must deter attacks and 
maintain strategic stability, assure our allies, and hedge against an 
uncertain future. At AFGSC, we're especially focused on today's 
evolving world and tomorrow's emerging threats.
    The command's top priority is to ensure our nuclear arsenal is 
lethal, safe, and secure. This priority underlies every nuclear-related 
activity in AFGSC, and we must never fail in the special trust and 
confidence the American people have bestowed on our nuclear warriors. 
To that end, our Nation's leaders must continue to support and advocate 
for the sustainment and modernization of these weapon systems. 
Sustaining and progressing these efforts require predictable, 
sufficient, and flexible budgets. Reinforced in the 2018 Nuclear 
Posture Review, the nuclear deterrent is at a crossroads, and there is 
no higher priority for national defense. We must concurrently modernize 
the nuclear triad and the infrastructure that enables its 
effectiveness, and we require budget stability to accomplish these 
efforts.
    In 2017, AFGSC significantly reorganized at the direction of the 
Commander, United States Strategic Command (CDRUSSTRATCOM), the first 
step in a larger USSTRATCOM restructuring. Under the previous 
construct, responsibilities for the air, space, and naval strategic 
missions were spread amongst several lines of authority. The 
reorganization solved two issues.
    First, it cleaned up an outdated and confusing command structure 
for bomber and intercontinental ballistic missile (ICBM) forces under 
USSTRATCOM. Second, it allowed AFGSC to reshape the command and stand 
up a full time air component to USSTRATCOM. Our Nation relies on the 
strategic deterrence AFGSC provides every day. In order to perform this 
high priority mission, AFGSC needed an organizational structure that 
allows a portion of the command to focus on supporting day-to-day 
deterrence, while the rest of the command focuses on OT&E commitments. 
On 29 September 2017, AFGSC stood up Air Forces Strategic-Air (AFSTRAT-
Air) as the full time air component to USSTRATCOM. This gives 
CDRUSSTRATCOM a single four-star general responsible for USSTRATCOM's 
air missions.
    The Joint-Global Strike Operations Center (J-GSOC) was created to 
handle the day-to-day responsibilities of the strategic deterrence 
mission for USSTRATCOM's air component. The J-GSOC consists of the 
Joint Air Operations Center (JAOC) Joint Nuclear Operations Center 
(JNOC). The JAOC, already in existence, handles the conventional 
portion of the command's mission. The two nuclear task forces were 
combined into the JNOC, and focuses on the nuclear portion of the 
command's mission. Several additional mission teams were also aligned 
under the J-GSOC. The National Airborne Operations Center (NAOC), 
combined with AFGSC's existing responsibility for the E-4B, allows 
AFSTRAT, through USSTRATCOM, to better organize, train, equip, and 
present the NAOC mission to support the President and Secretary of 
Defense. The Standoff Munitions Application Center (SMAC) was stood up 
to provide expertise in planning and targeting of Air Force standoff 
weapons. The Cruise Missile Support Activity Atlantic (CMSALANT) and 
Pacific (CMSAPAC) were also aligned under the J-GSOC, and combined with 
SMAC, give the J-GSOC the ability to plan and target any standoff 
weapon in support of any combatant commander.
    In addition to standing up the J-GSOC, CDRUSSTRATCOM also 
designated the AFGSC Commander as the Joint Force Air Component 
Commander (JFACC). The dual-hatted Commander, AFSTRAT-Air/JFACC has the 
ability to monitor, control, and direct all the air assets assigned or 
attached to USSTRATCOM anywhere in the world. These include the Air 
Force bomber, tanker, intelligence, surveillance, and reconnaissance, 
and ICBM forces as well as the USSTRATCOM Airborne Command Post (ABNCP) 
and Take Charge and Move Out (TACAMO) missions. The JFACC also supplies 
a common operating picture to CDRUSSTRATCOM that provides status and 
locations of all air assets.
    These warfighting authorities were immediately tested during 
USSTRATCOM's Global Thunder exercise, and performed well beyond 
expectations. We have already achieved initial operating capability and 
are on track to achieve full operational capability by July 1, 2018. As 
emphasized in the 2017 National Defense Strategy (NDS), the global 
security environment is now more complex and volatile than experienced 
in recent memory, and inter-state strategic competition is now the 
primary concern in U.S. national security. The Air Force fiscal year 
2019 budget prioritizes a more lethal and ready force, strengthening 
alliances and partnerships, and delivering greater performance. AFGSC's 
bomber, ICBM forces, and NC3 systems support both the NDS strategy and 
Air Force priorities by deterring potential adversaries, assuring our 
allies and partners, and guaranteeing the security of our national 
interests through cost-effective modernization. If deterrence should 
fail, AFGSC stands ready to defeat our adversaries through the 
persistent employment of lethal combat power.
                 air force global strike command forces
Intercontinental Ballistic Missile Forces
    Twentieth Air Force (20 AF), one of two Numbered Air Forces in 
AFGSC, is responsible for the Minuteman III (MMIII) ICBM, UH-1N 
helicopter forces, the Kirtland Underground Munitions Maintenance and 
Storage Complex at Kirtland Air Force Base, New Mexico, and a ground 
combat training squadron at Camp Guernsey, Wyoming. The 450 dispersed 
and hardened Launch Facilities (LFs), are controlled, maintained, 
defended, and supported by AFGSC airmen every single day, providing the 
bulk of our day-to-day nuclear alert force, and doing so with precision 
and professionalism. Our ICBM experts, the silent warriors, are 
deployed in place, and preserve strategic stability by providing the 
nation a credible and responsive deterrent in a contested environment 
and presenting adversaries a nearly insurmountable obstacle of numbers 
should they consider a disarming attack on the United States.
            Minuteman III
    We continue to sustain and modernize the MMIII ICBM and its 
command, control, and communications systems and support equipment. To 
modernize our existing fleet of large missile maintenance vehicles, we 
continue moving forward on the $123 million Transporter Erector Program 
(TERP) and the $201 million Payload Transporter Replacement (PTR). We 
currently expect PTR to begin production in fiscal year 2019.
    The ICBM Launch Control Centers (LCC) will be equipped with 
modernized communications systems to improve and replace aging and 
obsolete systems. The LCC Block Upgrade, expected to begin full 
deployment in 2019, is a $96 million modification effort that replaces 
multiple LCC components to include modern data storage and higher 
fidelity voice communications capabilities. A significant security 
upgrade to the remote visual assessment capability at our LFs will 
increase situational awareness and security. This $51.6 million program 
is expected to begin deployment in fiscal year 2019.
    In fiscal year 2018 we are scheduled to conduct three operational 
MMIII flight tests and two simulated electronic launch tests that will 
demonstrate the operational credibility of the nuclear deterrent force 
and the AF's commitment to sustaining that capability. We conducted 
four MMIII flight tests and two simulated electronic launch tests in 
fiscal year 2017.
    In an effort to vastly improve the nuclear capability of our ICBM 
force, the ICBM Programmed Depot Maintenance program began in fiscal 
year 2016. The program places operational LFs and LCCs on an 8-year 
depot-level maintenance cycle. It greatly increases the effectiveness 
and lethality of our ICBMs by ensuring their sustainment is done in an 
engineering-based, systematic way. Successful prototyping of the 
program was accomplished in fiscal year 2016, with 26 LFs and LCCs 
undergoing the maintenance. Thirty nine LFs and LCCs were completed in 
fiscal year 2017, and 50 are planned in fiscal year 2018. This program 
is key to ensure MMIII viability through the transition to Ground Based 
Strategic Deterrent (GBSD).
    Our effort to remove 50 ICBM boosters from their LFs as part of our 
effort to meet New Strategic Arms Reduction Treaty (START) limits is 
complete. The selected LFs are spread across all three ICBM wings and 
will remain fully operational and capable of receiving boosters, if 
needed. The final booster was removed in early June 2017, a full nine 
months ahead of the treaty-mandated suspense of February 2018.
            Ground Based Strategic Deterrent
    The Minuteman weapon system was fielded nearly 60 years ago, yet 
has remained a cornerstone deterrence platform. ICBMs are the sole 
weapon system capable of rapid global response and impose a time-proven 
and unpalatable cost to attack by peer, near-peer, and aspiring nuclear 
nations. The current system, the MMIII, suffers from age-out, asset 
depletion, and numerous performance shortfalls. Simply put, it will not 
meet critical mission performance or force requirements by 2030.
    To meet these requirements, we're successfully moving forward on 
developing the GBSD. OSD/AT&L approved the GBSD Acquisition Strategy in 
July 2016, Milestone A was achieved on 23 August 2016; on 21 August 
2017, technology maturation and risk reduction contracts were awarded, 
initiating a three year acquisition risk reduction activity. When 
complete, a second cost-reducing, competitive source selection will 
identify a single provider and initiate material development efforts 
beginning in the 2020 timeframe. GBSD is fully funded at $8.5 billion 
for fiscal year 2019 to 2023.
    We remain engaged with our Navy partners and have identified 
promising areas for intelligent commonality between GBSD systems and 
future Navy weapons. Additionally, we are collaborating with the 
National Nuclear Security Administration (NNSA) to develop a W78 
warhead replacement program starting in 2019. The replacement warhead 
will use a Mk21 aeroshell and will deploy on GBSD after fiscal year 
2030; the Navy will study the feasibility of using the same nuclear 
explosive package with their flight vehicle. Due to MMIII system age-
out, attrition, and commitment requirements, the first priority is to 
modernize the necessary facilities, replace the missile, and modernize 
command and control (C2) systems.
            UH-1N
    AFGSC is the lead command for the Air Force's Vietnam-era fleet of 
63 UH-1N helicopters. The majority of these aircraft support several 
critical missions: security of our ICBM fields, transport missions in 
the National Capitol Region and U.S. Pacific Command areas of 
responsibility, and critical Continuity of Operations. Additionally, 
they support Air Force survival training with rescue operations. 
Further, they participate in the Defense Support of Civil Authorities 
program and are frequently called upon to conduct search and rescue 
activities for missing or injured civilians. As an example, Malmstrom 
AFB's UH-1N Airmen have been credited with over 400 saves in their 
history.
            UH-1N Replacement
    In order to continue supporting these critical national missions 
and fully comply with Department of Defense (DOD) and United States 
Strategic Command (USSTRATCOM) requirements, the Air Force has 
committed $2.3 billion in fiscal year 2019 to 2023 toward replacing the 
UH-1N fleet, as the platform falls short of missile field operational 
needs--notably speed, range, endurance, payload, and survivability. The 
Air Force is pursuing a full-and-open competition to procure 84 
replacement helicopters. Vendor proposals were received in September 
2017, and contract award is anticipated summer of 2018.
            Airborne Launch Control System
    The Airborne Launch Control System (ALCS) is USSTRATCOM's only 
alternate and survivable launch control system for the MMIII. The ALCS 
consists of an airborne component onboard 16 Navy E-6Bs and a ground 
component housed at all 450 MMIII launch facilities.
    The current ALCS was fielded in 1987 and requires 100 percent 
recapitalization of existing architecture and infrastructure as well as 
full replacement of specific portions of the system. The ALCS 
Replacement program will replace and modernize the current system 
through 2035 and will replace both airborne and ground components 
enabling integration of GBSD command and control requirements through 
smart, modular design. ALCS-R is funded to $657.3 million in the Fiscal 
Year 2019 Presidential Budget.
Bomber Forces
    Eighth Air Force (8 AF) is responsible for the B-52H Stratofortress 
(B-52) bomber, the B-2A Spirit (B-2) bomber, and the B-1B Lancer (B-1) 
bomber. Bombers provide decision makers the ability to demonstrate 
resolve through generation, dispersal, and deployment.
    Since 1991, the Air Force has conducted continuous combat 
operations resulting in a growing toll on airmen, their readiness, and 
equipment. Bombers have supported operations through continuous 
rotations in United States Central Command (CENTCOM), United States 
Pacific Command (PACOM), United States Africa Command (AFRICOM), United 
States European Command (EUCOM), and United States Southern Command 
(SOUTHCOM) areas of responsibility (AORs). Bomber contributions to our 
national security in the Cold War, Vietnam, and operations Desert 
Storm, Allied Force, Iraqi Freedom, Enduring Freedom, and today's 
Inherent Resolve and Freedom Sentinel are well documented.
    At the end of Desert Storm in 1991, the Air Force had 290 total 
force bombers, 17 bomb wings, and 22 bomb squadrons. Today the number 
has dropped to 157 bombers, 5 bomb wings, and 9 bomb squadrons. That is 
a 46 percent decrease in our bomber force, a 70 percent decrease in 
bomb wings, and a 60 percent decrease in bomb squadrons. The demand 
signal for bombers has continued to increase in the last two decades, 
while long range airpower assets have decreased by 46 percent during 
the same timeframe. To assure our allies and partners, and to increase 
regional stability, AFGSC provides bomber forces arrayed across the 
globe, providing flexible, responsive options to combatant commanders. 
The deployments in support of the CENTCOM AOR and the Continuous Bomber 
Presence in the PACOM AOR send a strong signal to our allies of our 
commitment to our treaty obligations and their regional concerns. 
Additionally, AFGSC provides bomber forces to support SOUTHCOM's Joint-
Interagency Task Force-South, EUCOM, and AFRICOM through the Joint 
Staff's Global Force Management process and Bomber Assurance and 
Deterrence-ordered deployments and missions. These opportunities 
enhance our support to our allies and display our resolve to potential 
adversaries. The core of AFGSC assurance and deterrence is our 
unwavering commitment to USSTRATCOM and our nuclear mission. AFGSC must 
balance global force posturing with our nuclear mission, while not 
jeopardizing readiness and fleet health. Arraying bomber forces 
globally, to increase strategic flexibility and response to a changing 
global security environment, while doing no harm to our nuclear 
mission, will further enhance our assurance to allies and partners and 
posture our forces in such a manner where our adversaries take notice.
            B-1
    The B-1 is a highly versatile, conventional-only multi-mission 
weapon system that carries a large payload of both guided and unguided 
weapons, which it can rapidly deliver in support of combatant 
commanders around the globe. Multiple wartime employments, high 
operations tempo, and harsh environment exposure have proven the 
aircraft's combat effectiveness, but have impacted aircraft 
availability.
    The B-1 will continue to be in service for two more decades and 
avionics and weapon upgrades are critical for it to remain a viable 
combatant commander tool. The Integrated Battle Station/Sustainment 
Block-16 ($152 million fiscal 2019-23) includes an upgraded Central 
Integrated Test System, Fully Integrated Data Link, Vertical Situation 
Display, and flight simulator upgrades. These are essential 
capabilities and the will provide the aircrew with a much more 
flexible, integrated cockpit.
    The stand-off weapons currently employed by the B-1 include the 
Joint Air-to-Surface Standoff Missile (JASSM), the Joint Air-to-Surface 
Standoff Missile-Extended Range (JASSM-ER), and very soon the Long 
Range Anti-Ship Missile (LRASM). This unmatched precision strike 
capability has guaranteed a critical role for the B-1 in assuring our 
allies and deterring potential adversaries now and into the future.
            B-52
    The B-52 may be the most universally recognized symbol of American 
airpower, it is able to deliver the widest variety of nuclear and 
conventional weapons, and boasts the best aircraft availability and 
mission capable rates of all three bomber platforms.
    The B-52 will remain a key element of our bomber force until the 
2050s and it is paramount that we continue to invest resources into 
this aircraft. B-52s are still using 1960s radar technology with the 
last major radar upgrade done in the early 1980s. The current radar on 
the B-52 will be even less effective in the future threat environment, 
and without an improved radar system, there will be increased 
degradation in mission effectiveness. In order to remedy this, the $733 
million fiscal year 2019 to 2023 B-52 Radar Modernization Program now 
has an approved acquisition strategy, a Joint Staff-validated 
Capability Development Document, and has entered execution in the pre-
Milestone B phase. Furthermore, B-52 training simulators are lagging 
behind operational aircraft capabilities. They require integration of 
various programs such as Combat Network Communications Technology 
(CONECT), internal weapons bay upgrade, data link capabilities, air 
refueling, and information technology refresh. Supporting the 
revitalization of these critical training tools will create high 
fidelity training environments and increase the readiness of B-52 crews 
in support of nuclear and conventional missions.
    Additionally, the 1960-era TF-33 engines currently on the B-52 are 
operating on parts salvaged from aircraft no longer in the inventory. 
The supply of these parts, no longer made by industry, will be 
exhausted and leave the engines unsustainable by 2030. The Air Force is 
now funding efforts ($1.6 billion fiscal years 2019 to 2023) to 
integrate and deploy replacement B-52 engines, which will save fuel, 
extend the aircraft's range, and improve reliability and sustainment.
    Today, we have 37 B-52s converted to the CONECT configuration. This 
modification moves the B-52 into the digital age for the first time, 
providing an on-board local area network, allowing the aircrew to share 
a common battlespace picture. This modification is installed on every 
aircraft going through regular program depot maintenance cycle. The 
Internal Weapons Bay Upgrade increases B-52 smart weapons capacity by 
67 percent. This capability reached its initial operational capability 
milestone in May 2016 and added Joint Air-to-Surface Standoff Missile 
(JASSM) and Joint Air-to-Surface Standoff Missile-Extended Range 
(JASSM-ER) capability in October 2017. Communications remain the 
cornerstone of our long-range strike capability. The ability to launch 
bombers and retask and retarget them while enroute to the battlespace 
is a powerful force multiplier. We will add a critical communications 
node to enhance the operational picture with Link-16, integrating the 
aircraft into the warfighter's efforts. Currently, the B-52 is the only 
Combat Air Forces platform without line-of-site Link-16.
    Finally, we have converted 29 operational and 12 stored B-52 
aircraft to conventional-only configurations. These conversions were 
undertaken as a part of New START obligations, and were completed in 
January 2017, a full year ahead of the treaty-mandated suspense of 
February 2018.
            B-2
    For nearly 25 years, B-2s have provided the Nation with an assured 
penetrating bomber capability. The B-2's ability to penetrate enemy 
defenses, holding targets at risk anywhere on the globe, with a variety 
of nuclear and conventional weapons, has provided deterrence against 
our enemies and stability for our allies. The B-2's conventional 
accomplishments are numerous and incontrovertible; the bomber provided 
precision attacks during the Kosovo and Iraq Wars, strikes on the 
Taliban and al Qaeda in Afghanistan, and on forces in Libya.
    B-2 modernization efforts are addressing a nuclear command and 
control need by bringing a survivable very low frequency communication 
capability to the aircraft. Additionally, with the proliferation of 
anti-access/area denial threats, we are ensuring the B-2's ability to 
penetrate enemy defenses is maintained with the Defensive Management 
System Modernization program. Finally, the B-2 is upgrading to carry 
the B61-12 nuclear gravity weapon. This upgrade is currently programmed 
for $144 million in RTD&E and is critical to ensuring the bomber leg of 
the nuclear Triad remains a visible deterrent to those who wish us 
harm.
    Small fleet dynamics continue to challenge our sustainment efforts 
primarily due to vanishing vendors and diminishing sources of supply. 
We are striving to maintain the proper balance of fleet modernization 
and sustainment while maintaining combat readiness. Lessons learned 
from the difficulty of sustaining and modernizing the B-2's small 
fleet, and an ever-decreasing technological advantage, are some of the 
drivers for the planned minimum B-21 requirements.
            B-21
    Technology gaps between the U.S. and potential adversaries are 
closing. The B-21 Raider will support the nuclear triad by providing an 
advanced and flexible deterrent capability and the ability to penetrate 
modern and future air defenses. Further, the B-21 will provide 
flexibility across a wide range of joint military operations using long 
range capabilities, large and mixed payloads, and survivability. From 
the outset, the B-21 has been designed to have an open architecture, 
which enables it to integrate new technology and respond to future 
threats. The B-21 program is a national security imperative that will 
extend American air dominance and lethality against next generation 
capabilities and advanced air defense environments.
    The B-21 is fully funded in the fiscal year 2019 budget submission, 
and initial capability is projected for the mid-2020s. Extensive 
campaign and mission level analysis will determine the minimum number 
of B-21s required to meet combatant commander needs in the face of 
closing technology gaps and increasing threat capabilities.
    As the B-21 development progresses, the Air Force is conducting the 
strategic basing process. While B-21 fielding will include new 
construction and facility renovation, current bomber bases have 
infrastructure for operations, maintenance, munitions storage, 
security, and training. Additionally, base operating support and off-
base community support are well-established at current bomber bases. 
While conducting B-21 bed down, our primary focus will be providing 
safe, secure, and lethal bomber operations in a cost-efficient manner.
            Air Launched Cruise Missile
    The AGM-86B Air Launched Cruise Missile (ALCM) is an air-to-ground, 
winged, subsonic nuclear missile delivered by the B-52. Fielded in the 
1980s, the ALCM is over 30 years old, well beyond its life expectancy, 
and is involved in its third life extension program (LEP). While the 
ALCM remains effective today, we must replace it due to its aging 
subsystems, the shrinking stockpile of operational missiles (546), and 
advances in enemy defenses. We plan to invest $380 million in fiscal 
year 2019 to 2023 to continue SLEPs and testing efforts that include 
critical telemetry, encryption, and flight termination components until 
the Long Range Stand-Off (LRSO) missile reaches operational capability 
in 2030.
            Conventional Air Launched Cruise Missile
    The AGM-86C, Conventional Air Launched Cruise Missile (CALCM) is a 
conventional variant to the ALCM. Its only employment platform is the 
B-52 and unlike the ALCM, CALCM has not received any LEPs to maintain 
reliability or viability against enemy defenses. NDAA language prevents 
the service from removing this aging and obsolete weapon system from 
operational use pending the development, testing, and initial fielding 
of a LRSO conventional variant. The conventional long range stand-off 
capability currently resides in JASSM-ER and is a more survivable 
weapon system with low observable characteristics. JASSM-ER is capable 
of employment from the B-52 and B-1, with B-2 capability projected for 
fiscal year 2019. It is prudent that when our bomber force continues to 
make advancements in capability, that we divest ourselves of CALCM and 
focus our training and maintenance resources towards the use of more 
capable weapons.
            Long Range Stand-Off Missile
    The Air Force dedicated $2.6 billion in fiscal year 2019 to 2023 
for the LRSO to replace the aging ALCM. The ALCM has significant 
capability gaps that will only worsen through the next decade. The LRSO 
will be a reliable, long-range, and survivable weapon system and is 
absolutely an essential element of the nuclear triad. It will be 
flexible and compatible with B-52 and B-21 platforms.
    The LRSO missile will ensure the bomber force continues to hold 
high value targets at risk in an evolving threat environment, including 
targets deep within an area-denied environment. I cannot overemphasize 
this point: B-21 and B-52 without LRSO greatly reduces our ability to 
hold adversaries at risk, increases risk to our aircraft and aircrew 
members, and negatively impacts our ability to execute the mission. 
Additionally, AFGSC is synchronizing efforts with NNSA to fully 
integrate the W80-4 nuclear warhead with LRSO. This weapon will retain 
nuclear penetrating cruise missile capabilities through 2060. To meet 
operational, testing, and logistics requirements, the Air Force plans 
to acquire approximately 1,000 LRSO cruise missile bodies. This 
quantity will provide spares and supply sufficient non-nuclear missile 
bodies throughout ongoing flight and ground testing. The number of 
nuclear-armed LRSO cruise missiles (i.e., mated to a nuclear warhead) 
is expected to be equivalent to the current ALCM nuclear force. 
Milestone A for LRSO was declared in July 2016. The Air Force awarded 
contracts for technology maturation and risk reduction in August 2017.
            B61
    The B61 family of gravity nuclear weapons supports the airborne leg 
of the triad and is the primary weapon supporting our NATO allies under 
extended deterrence. The B61 is currently undergoing a LEP that results 
in a smaller stockpile, reduced special nuclear material in the 
inventory, modernized safety and security features, and reduced 
lifecycle costs by consolidating four weapon versions into one version, 
the B61-12. The B61-12 includes the addition of a digital weapons 
interface and a guided tail kit assembly. AFGSC is the lead command for 
the $419 million fiscal year 2019-23 B61-12 Tail Kit Assembly program, 
a DOD-developed system providing reduced maintenance, reduced cost and 
increased sustainability. The B61-12 Tail Kit Assembly program is in 
Engineering and Manufacturing Development Phase 2 and is synchronized 
with NNSA efforts. The Tail Kit Assembly design and production 
processes are on schedule and within budget to meet the planned fiscal 
year 2020 First Production Unit date, and support the lead time 
required for the inclusion of the Department of Energy (DOE) warhead 
service-life extension completion date of March 2020. This joint DOD 
and DOE endeavor allows for continued attainment of our strategic 
requirements and regional commitments.
            GBU-57
    AFGSC assumed responsibility as the lead MAJCOM for the GBU-57 
Massive Ordnance Penetrator (MOP) in the summer of 2015. The MOP is a 
30,000-pound guided conventional bomb designed to defeat hardened and 
deeply buried targets and is exclusively employed from the B-2. It has 
received several upgrades and enhancements based on warfighter 
requirements.
    AFGSC, PACOM, and the Air Force Life Cycle Management Center 
Program Office are currently validating a requirement to expand the 
weapon's operational capabilities.
                       security & infrastructure
    Nuclear security is a key function of the command's mission, and a 
major AFGSC security initiative continues to be new weapon storage 
facilities. These new facilities will consolidate nuclear maintenance, 
inspection, and storage into a single, modern and secure facility, 
replacing deficient 1960s-era weapon storage areas. Additionally, this 
initiative mitigates security, design, and safety deficiencies and 
improves our operational lethality.
    One of our growing concerns is the impact that degraded and 
unpredictable infrastructure funding is having on our missions, our 
airmen, and their families. Our bases are power projection platforms, 
and should be viewed as 3-D weapon systems. This is particularly true 
for our ICBM and B-2 bomber bases, which stand in continuous readiness 
to initiate global strike missions directly from these locations. For 
years, the Air Force has been forced to make deliberate decisions to 
take risk in infrastructure funding, in order to apply scarce dollars 
toward higher readiness and modernization priorities. The cumulative 
effect has been a steady erosion of our facilities and core 
infrastructure, and a huge growth in costs to address our exponentially 
growing repair and replacement backlogs. As we bring new systems online 
such as Weapon Storage Facilities, the B-21 Raider, and GBSD, some of 
our installation infrastructure will receive much needed 
recapitalization. However, it will be several years before those 
systems are in place, and will not address much of the infrastructure 
where our airmen work and live. We are seeing a growing risk in 
facilities and infrastructure reliability, higher overall costs due to 
accelerated deterioration, and increasing potential for unexpected 
catastrophic, mission-impacting failure. Our innovative airmen have, 
and will continue to, focus limited resources on ``mission critical, 
worst first'' facilities and infrastructure while accepting risk in the 
recapitalization of facilities with less-direct mission impact such as 
community and base support. There is without question a link between 
facility condition and quality of life, as well as quality of service. 
Without your support of the fiscal year 2019 President's request for 
MILCON and facility sustainment, restoration and modernization funding, 
we will not only continue to increase our risk of mission interruption 
or degradation, but will also be unable to adequately address the 
quality of life of our airmen and their families. Providing a 
predictable, stable budget will not only enhance our lethality, but 
will go far in providing our airmen with working and living 
environments that directly enhance their readiness.
              nuclear command, control, and communications
    Air Force nuclear command, control and communications (NC3) systems 
connect the President to senior advisors and the nuclear forces. 
Receiving presidential orders and converting them into actionable 
directives are critical to having a strong strategic deterrent. AFGSC 
is the Air Force's lead command for National Leadership Command 
Capabilities (NLCC)/NC3 which establishes a single focal point for the 
NC3 weapon system.
    AFGSC is aggressively working to maintain and sustain the NC3 
weapon system. Through the Nuclear Enterprise Review process and a 
cross-MAJCOM internal Air Force study, we identified multiple areas 
that have atrophied through decades of low prioritization. In a major 
organizational effort, AFGSC stood up the USAF NC3 Center in April 
2017. The NC3 Center oversees interoperability, standardization, and 
configuration control of the Air Force's NC3 weapon system, and will 
plan and program for NC3 investment, sustainment, and operations.
    In its first year, the NC3 Center has taken great strides in cross-
MAJCOM governance to ensure strong advocacy as NC3 programs compete for 
resources within the Air Force Corporate process. An outstanding 
example of the Air Force's increased emphasis on NC3 includes the $275 
million allocated for E-4B modernization programs, which is in the 
fiscal year 2019 Presidential budget for the fiscal year 2019 to 2023 
FYDP. Additionally, the E-4B replacement program, the Survivable 
Airborne Operations Center is programmed to receive $182 million to 
begin the effort to replace the aircraft itself. For nuclear planning 
and execution analysis, $72.6 million is allocated to complete the 
Mission Planning Application System Increment 5 program at USSTRATCOM. 
The Global Aircrew Strategic Network Terminal Increment 1 program for 
Advanced Extremely High Frequency (AEHF) capability at nuclear-tasked 
command posts receives $246 million to complete terminal procurement. 
To ensure connectivity with our B-52 fleet, $132.6 million is programed 
to integrate the Family of Advanced Beyond Line of Sight Terminals onto 
the aircraft. The B-52 will also integrate a new very low frequency 
receiver ($175.6 million), and we have allocated $73.9 million to 
upgrade our oldest system, the Strategic Automated Command Control 
System. To ensure connectivity with our ICBMs via USSTRATCOM's only 
alternate and survivable launch control system for the MMIII, the 
Airborne Launch Control System-Replacement has been funded $83 million 
in fiscal year 2019. Collectively, these NC3 efforts add $1.20 billion 
over the fiscal year 2019-23 FYDP to assure the President connectivity 
to the Nation's nuclear forces.
    In addition to modernization efforts, the NC3 Center is 
standardizing the training of airmen who operate and maintain NC3 
equipment. The Center built new courseware and developed ``hands-on'' 
simulators for airmen coming out of technical school to gain experience 
before arriving at operational bases. For more experienced personnel, 
the Center also secured distance learning systems to grant engineering 
graduate degrees through universities such as Harvard, Stanford, and 
Portland State University. Additionally, the Center has streamlined the 
reporting of communication system outages so combatant commanders 
receive real-time status and impact updates of temporary NC3 capability 
degradations and worked with Defense Logistics Agency to improve 
processes to provide a reliable, secure supply chain.
                          ongoing initiatives
    Since 2014, the Air Force has applied deliberate and sustained 
focus to address shortfalls. AFGSC's ongoing efforts--spanning the 
full-range of personnel, management, oversight, mission performance, 
training, testing, and investment--continue to produce tangible and 
lasting improvements. As this committee is well aware, the Air Force 
and AFGSC have undertaken monumental shifts to build a more lethal 
force.
    AFGSC initiated an effort to invigorate Security Forces (SF), 
specifically in the critical function of nuclear security. This 
initiative focuses on increasing SF lethality and readiness by 
enhancing leadership, proficiency, and effectiveness of personnel 
guarding our strategic deterrence capabilities. Changes have included 
increasing manning, especially in supervisory positions, increasing 
training cadre, investing in SF leadership through focused professional 
development, and implementing a Missile Security Operating Concept. 
This squadron deployment model, implemented across all three ICBM 
wings, optimizes core skill presentation in the field, keeps leadership 
with their airmen, and provides stable, work-rest-train cycles. While 
the command has achieved early success with this program, we still have 
improvements to make in modernizing equipment and infrastructure, and 
decreasing position vacancies. Finally, Secretary Wilson directed a 
follow-on review, led by AFGSC, which is expected to result in external 
recommendations for cross-cutting improvements to Air Force Security 
Forces that will enhance the nuclear mission by providing world-class 
security forces with world-class equipment.
    In 2017, we stood up an Independent Strategic Assessment Group 
(ISAG), comprised of former DOD leaders. The ISAG conducted a deep dive 
into numerous key areas, including current management structure and 
practices of the Nuclear Enterprise, and how AFGSC can field a more 
lethal force. The assessments produced nearly 50 action items the 
command is tackling so we can more effectively accomplish our 
deterrence and global strike missions. Going forward into this year, 
I've asked the group to look into additional key areas and provide 
recommendations. We will continue using this independent look to help 
shape innovation, change, and improvement throughout the command.
                               priorities
    My priorities remain the same and are relatively simple. They guide 
every decision I make. They are Mission, airmen, and families . . . 
rooted in our Air Force Core Values and reinforced by our rich 
heritage. We exist to serve the Nation by providing strategic 
deterrence and global strike; we are ready to fight tonight, and are 
planning for the fight in 2030. The airmen in this command make this 
possible and I have charged my staff to emphasize professional 
development and provide more opportunities for every rank. I truly 
believe that while we recruit airmen, we retain families, which is why 
one of my initiatives is a renewed focus on quality of life. I declared 
2017 the Year of the Family in AFGSC. We stood up the Family and Airmen 
Support Team to identify ways we can improve where our airmen live, 
learn, and receive medical care. We will continue to build upon this 
and other initiatives throughout 2018.
                               conclusion
    Although we account for less than one percent of the overall 
Federal budget, AFGSC forces represent two-thirds of the Nation's 
nuclear triad and oversee approximately 75 percent of the Nation's NC3 
systems. This is especially profound when considering these forces 
deliver U.S. national security 24 hours a day, 365 days a year, while 
also providing joint commanders rapid global combat airpower. AFGSC 
will continue to seek innovative, cost-saving measures to ensure our 
weapon systems are operating as efficiently and effectively as 
possible; however, as stated in the NDS, we cannot expect success 
fighting tomorrow's conflicts with yesterday's weapons.
    Modernization is critical. Great power competition has reemerged. 
AFGSC is operating a bomber force averaging over 40 years of age; 
operating ICBMs with 1960s infrastructure; and utilizing 1960s-era 
weapon storage areas. We cannot afford to delay modernization 
initiatives. The best way to avoid unthinkable conflict is to deter our 
adversaries and be prepared to fight with modern and reliable forces. 
Any American weakness emboldens competitors to subvert the rules-based 
international order and challenge the alliance and partnership network 
that underpins it. To continue to do what the Nation requires of us, we 
require a stable budget and we are on a good path moving forward; the 
American people and our allies are counting on continued congressional 
action to fund our nuclear enterprise modernization efforts.

    Senator Fischer. Thank you, General.
    Admiral Benedict?

  STATEMENT OF VICE ADMIRAL TERRY J. BENEDICT, USN, DIRECTOR, 
                   STRATEGIC SYSTEMS PROGRAMS

    Admiral Benedict. Yes, ma'am. Madam Chairman, Ranking 
Member Donnelly, thank you for the opportunity to be here 
today, and thank you for your support of the Navy's deterrence 
mission and for your very kind words to open.
    It's been my greatest privilege as the Director to 
represent the men and women of SSP [Strategic Systems Programs] 
for the last eight years. My goal as the Director has been to 
ensure that they are properly positioned to execute the mission 
with the same level of success today and tomorrow as they have 
done since our program's inception in 1955.
    SSP is currently extending the Trident II D-5 strategic 
weapon system to match the Ohio-class service life and to serve 
as the initial weapon system on the Columbia-class. I'll 
summarize our efforts by saying that all of our life extension 
programs remain on track and on budget. Our life extension 
efforts will ensure an effective and credible sea-based 
strategic deterrent on both the Ohio and the Columbia-class 
until the 2040s.
    The Navy is also taking steps to ensure a credible weapons 
system is available beyond 2040. In fact, the last Nuclear 
Posture Review directs the Navy to ``begin studies in 2020 to 
define a cost-effective, credible, and effective sea-launched 
ballistic missile that we can deploy through the life of the 
Columbia SSBN [Subsurface Ballistic Missile Nuclear] through 
the 2080s.'' We will execute that direction.
    I look forward to your questions. Thank you.
    [The prepared statement of Admiral Benedict follows:]

           Prepared Statement by Vice Admiral Terry Benedict
                              introduction
    Chairman Fischer, Ranking Member Donnelly, distinguished Members of 
the subcommittee, thank you for this opportunity to discuss the sea-
based leg of the triad. It is an honor to testify before you this 
morning representing the Navy's Strategic Systems Programs (SSP).
    The Nation's nuclear triad of intercontinental ballistic missiles, 
strategic bombers, and submarine launched ballistic missiles (SLBM) is 
essential to our ability to deter major warfare with adversaries and 
assure our allies. Each leg provides unique attributes and provides an 
effective hedge. The 2018 Nuclear Posture Review reaffirms that the 
nuclear triad is the bedrock of our ability to deter aggression, assure 
our allies, and hedge against an uncertain future. It also reaffirms 
the need to recapitalize each component of the triad.
    The Navy provides the most survivable leg of the triad with our 
Ohio-class ballistic missile submarines (SSBNs) and the Trident II (D5) 
strategic weapon system (SWS) they carry. SLBMs are responsible for a 
significant majority of the Nation's operationally deployed nuclear 
warheads. The Chief of Naval Operations (CNO) has made clear the 
priority the Navy places on the maintenance and modernization of the 
undersea leg of the triad, saying it ``is foundational to our survival 
as a Nation.''
    SSP's mission is to design, develop, produce, support, and ensure 
the safety and security of the Trident II (D5) SWS. The men and women 
of SSP and our industry partners remain dedicated to supporting the 
mission of our sailors on strategic deterrent patrol and our marines, 
sailors, and coast guardsmen who stand watch, ensuring the security of 
the weapons we are entrusted with by this Nation.
    Our fiscal year (FY) 2019 budget request provides the required 
funding to support the program of record for the Trident II (D5) SWS. 
To sustain this capability, I am focusing on my top priorities: Safety 
and Security; the Trident II (D5) SWS Life Extension Program; Trident 
II (D5) SWS Long-Term Sustainment; the Columbia-class Program; the 
Solid Rocket Motor Industrial Base; and my Navy Nuclear Deterrence 
Mission Oversight responsibility.
    The men and women of SSP and their predecessors have provided 
unwavering and single mission-focused support to the sea-based leg of 
the triad for over six decades. As an organization, SSP is facing a bow 
wave of critical work, as most recently evidenced by the 2018 Nuclear 
Posture Review. The organization must be prepared to sustain and 
modernize a credible and effective strategic weapon system to support 
our ballistic missile submarines and our strategic deterrent mission 
until the 2080s. It has been my highest honor to represent the men and 
women of SSP for the past eight years, and my goal, as the Director, is 
to ensure they are properly positioned to execute the mission with the 
same level of success today and tomorrow as they have done since our 
program's inception in 1955.
                          safety and security
    The first priority, and the most important, is the safety and 
security of the Navy's nuclear weapons. Accordingly, Navy leadership 
delegated and defined SSP's role as the program manager and technical 
authority for the Navy's nuclear weapons.
    At its most basic level, this priority is the physical security of 
one of our Nation's most valuable assets. Our Marines and Navy Master 
at Arms Sailors provide an effective and integrated elite security 
force at our two Strategic Weapons Facilities within their area of 
operations to include the Limited Area, Convoy Route, and the 
Waterfront Restricted Areas in Kings Bay, Georgia, and Bangor, 
Washington. U.S. Coast Guard Maritime Force Protection Units have been 
commissioned at both facilities to protect our ballistic missile 
submarines. Together, the Navy, Marine Corps, and Coast Guard team form 
the foundation of our security program, while headquarters' staff 
ensures that nuclear weapons-capable activities comply with safety and 
security standards.
    We thank the Congress for the authorities provided in the Fiscal 
Year 2017 National Defense Authorization Act allowing the Services to 
use technological means to counter unmanned aerial systems (UAS) at our 
installations. This authority has enabled us to deploy systems that 
give our security forces a greater ability to identify, track, and 
defeat unauthorized small UAS.
    The Navy and SSP maintain a culture of self-assessment in order to 
ensure safety and security. This is accomplished through formal 
biennial self-assessments, periodic technical evaluations, formal 
inspections, and continuous on-site monitoring and reporting at the 
Strategic Weapons Facilities and on submarines. We also strive to 
maintain a culture of excellence to achieve the highest standards of 
performance and integrity for personnel supporting the strategic 
deterrent mission and continue to focus on the custody and 
accountability of the assets entrusted to the Navy. SSP's number one 
priority is to maintain a safe and secure strategic deterrent.
                       d5 life extension program
    The Trident II (D5) SWS has been deployed on the Ohio-class 
ballistic missile submarines for nearly three decades and is planned to 
be deployed more than 50 years. This is well beyond its original design 
life of 25 years and more than double the historical service life of 
any previous sea-based strategic deterrent system. As a result, SSP is 
extending the life of the Trident II (D5) SWS to match the Ohio-class 
submarine service life and to serve as the initial SWS for the 
Columbia-class SSBN. This is being accomplished through an update to 
all the Trident II (D5) SWS subsystems: launcher, navigation, fire 
control, guidance, missile, and reentry. Our life extension of missile 
and guidance flight hardware components is designed to meet the same 
form, fit, and function of the original system, maintain the deployed 
system as one homogeneous population, control costs, and sustain the 
demonstrated performance of the system.
    The Navy's D5 life extension program remains on track. In 2017, the 
Navy deployed 24 life-extended missiles to the Fleet and remains on 
track to complete deployment by fiscal year 2024. Later this year, we 
will begin the Commander Evaluation Test (CET) program on life-extended 
missiles to measure the performance and capability of the system 
against the demonstrated performance.
    Another major initiative to ensure the continued sustainment of our 
SWS is the SSP Shipboard Systems Integration (SSI) Program, which 
manages obsolescence and modernizes SWS shipboard systems through the 
use of open architecture design and commercial off-the-shelf hardware 
and software. The SSI Program refreshes shipboard electronics hardware 
and upgrades software, which will extend service life, enable more 
efficient and affordable future maintenance of the SWS, and ensure we 
continue to provide the highest level of nuclear weapons safety and 
security for our deployed SSBNs while meeting U.S. Strategic Command 
(STRATCOM) requirements. Twelve installations were completed in 2017; 
and two have been completed so far this year with an additional twelve 
planned.
    The Navy also works in partnership with the Department of Energy's 
National Nuclear Security Administration (NNSA) to sustain our reentry 
systems. The Trident II (D5) is capable of carrying two types of 
warheads, the W76 and the W88. Both warheads are being refurbished. 
Deliveries of life-extended W76 warheads to the Navy are over 85 
percent complete and on track to finish by the end of fiscal year 2019. 
The W88 major alteration program remains on track to support a first 
production unit in calendar year 2019 with production scheduled to 
complete in fiscal year 2024.
    In accordance with the Nuclear Posture Review, the Navy's fiscal 
year 2019 budget request supports two near-term additional efforts. The 
budget request supports investigating the feasibility of fielding the 
nuclear explosive package from the Air Force's W78 warhead replacement 
in a Navy reentry body. It also includes funding to begin efforts to 
modify a small number of SLBM warheads to provide a low-yield option. 
The Nuclear Posture Review directed that the modification to the 
existing warheads will not increase the overall number of deployed 
ballistic missile warheads. This near-term capability will bolster our 
deterrence posture by helping ensure that no adversary perceives an 
advantage through the use of limited nuclear escalation.
               trident ii (d5) sws long-term sustainment
    The Trident II (D5) SWS continues to demonstrate itself as a 
credible deterrent and exceeds operational requirements established 
more than 30 years ago. Our life extension efforts will ensure an 
effective and credible SWS on both the Ohio-class and Columbia-class 
SSBNs until the 2040s. The Navy is also beginning an approach to 
maintain a credible and effective SWS beyond 2040, leveraging the work 
that is being done today to extend the life of the Trident II (D5) SWS 
as well as investigating opportunities to innovate, such as through the 
application of model-based engineering. In fact, the Nuclear Posture 
Review directs that the Navy ``begin studies in 2020 to define a cost-
effective, credible, and effective SLBM that we can deploy throughout 
the service life of the Columbia SSBN.''
    SSP has a history of more than 60 years of developing, producing, 
and supporting SWSs to support the undersea leg of the triad. We have 
optimized our SWS by applying lessons learned from six generations of 
missiles and will continue to do so until the 2080s.
                         columbia-class program
    The Navy's highest priority acquisition program is the Columbia-
class Program, which replaces the existing Ohio-class submarines. The 
continued assurance of our sea-based strategic deterrent requires a 
credible SWS, as well as the development of the next class of ballistic 
missile submarines. The Navy is taking the necessary steps to ensure 
the Columbia SSBN is designed, built, delivered, and tested on time 
with the right capabilities at an affordable cost.
    To lower development costs and leverage the proven reliability of 
the Trident II (D5) SWS, the Columbia SSBN will enter service with the 
life-extended Trident II (D5) SWS. Life-extended missiles will be 
shared with the Ohio-class submarines until their retirement. 
Maintaining a common SWS during the transition to the Columbia-class is 
beneficial from a cost, performance, and risk reduction standpoint.
    A critical component of the Columbia-class program is the 
development of a Common Missile Compartment (CMC) with the United 
Kingdom. The U.S. and the UK, one of our closest allies, have 
maintained a shared commitment to nuclear deterrence through the 
Polaris Sales Agreement since 1963. Today, the Trident II (D5) SWS is 
shared with the UK. Like the U.S. Navy, the UK is recapitalizing her 
four Vanguard-class submarines with the Dreadnought-class. The CMC will 
allow the life extended Trident II (D5) SWS to be deployed on the 
Columbia and the UK Dreadnought-class SSBNs. It will also support 
production of two new classes of SSBNs in both the U.S. and UK build 
yards. We have begun construction of missile tubes to support building 
the U.S. prototype Quad-pack module, the SWS--Ashore (SWS Ashore) 
integration test site, and the UK's first Dreadnought SSBN.
    To manage and mitigate technical risk to both the U.S. and UK 
programs, SSP is leading the development of the SWS Ashore integration 
test site at Cape Canaveral, Florida. This is a joint effort with the 
Navy and the state of Florida investing in the redevelopment of a 
Polaris site to conduct integration testing and verification for 
Columbia and UK Dreadnought programs. We reached a programmatic 
milestone last year when test bay one, which will be used to test the 
Missile Service Unit first article, achieved initial operational 
capability. In 2019, test bay two will achieve initial operational 
capability for verifying and validating the SWS support systems for the 
Columbia and UK Dreadnought programs.
    To mitigate the risk in the restart of launcher system production, 
SSP developed a surface launch test facility at the Naval Air Warfare 
Center Weapons Division, China Lake, California. This facility will 
prove that the launcher industrial base can replicate the performance 
of the Ohio-class Trident II (D5) launcher system. Last year, we 
started launching refurbished Trident II (D5) test shapes originally 
used in the 1980s. Ten evaluation launches were conducted in 2017 and 
we have conducted four of sixteen planned this year.
    The Ohio-class SSBNs will begin decommissioning in the late 2020s 
and the Columbia-class must be ready to start patrols in fiscal year 
2031 to maintain a minimum operational force of 10 SSBNs. The Navy has 
already extended the Ohio-class service life from 30 years to 42 years 
and there is no engineering margin left. Recapitalizing our SSBNs is a 
significant investment and something that happens every other 
generation, making it critically important that we do it right. Any 
delay has the potential to impact not only our ability to meet 
operational requirements, but also the UK's ability to maintain a 
continuous at sea deterrent.
                   solid rocket motor industrial base
    The defense and aerospace industrial base--in particular the solid 
rocket motor industry and its sub-tier supplier base--remains an 
important priority. While the Navy is maintaining a continuous 
production capability of rocket motors, the demand from both National 
Aeronautics and Space Administration (NASA) and the Air Force has 
precipitously declined. This decline has resulted in higher costs for 
the Navy and has put an entire specialized industry at risk. Though 
future Air Force modernization will provide some much needed relief 
beginning in the mid-2020s, our Nation cannot afford to lose this 
capability.
    While the efforts of our industry partners and others have created 
short-term cost relief, the long-term support of the solid rocket motor 
industry, including its sub-tier supplier base, and maintenance of 
critical skills remains an issue that must be addressed. For example, 
we are concerned with ensured access to and affordability of certain 
critical solid rocket motor constituents, such as ammonium perchlorate. 
At SSP, we will continue to work with our industry partners, the 
Department of Defense, senior NASA leadership, Air Force, and Congress 
to do everything we can to ensure this vital national security industry 
asset is preserved.
            navy nuclear deterrence oversight responsibility
    In 2014, the CNO directed establishment of a centralized Navy 
oversight authority for nuclear force readiness. As the Director of 
SSP, I have been assigned accountability, responsibility, and authority 
to serve as the single Flag Officer to monitor performance and conduct 
end-to-end assessments of the Navy Nuclear Deterrence Mission (NNDM) 
elements and report issues to the NNDM Oversight Council and the CNO. 
As the NNDM regulatory lead, I am tasked with developing, coordinating, 
and implementing policies approved by the CNO, and conducting end-to-
end assessments of the Navy's nuclear weapons and nuclear weapons 
systems and personnel, including Nuclear Command, Control, and 
Communications (NC3), for safe, reliable, and effective execution of 
the NNDM. In October of 2017, I submitted the second annual end-to-end 
assessment report to the CNO, and I assessed that the NNDM execution 
was effective and sustainable with some areas for improvement.
                               conclusion
    SSP ensures a safe, secure, and effective strategic deterrent and 
focuses on the custody and accountability of the nuclear assets 
entrusted to the Navy. Sustaining the sea-based strategic deterrent 
capability is a vital national security requirement. Our Nation's sea-
based deterrent has been a critical component of our national security 
since the 1950s and must continue to assure our allies and deter 
potential adversaries well into the future. I am privileged to 
represent this unique organization as we work to serve the best 
interests of our great Nation. I thank the committee for the 
opportunity to speak with you about the sea-based leg of the triad and 
the vital role it plays in our national security.

    Senator Fischer. Thank you, Admiral.
    As I noted in my opening statement, one of the basic 
premises of the NPR is that our nuclear forces must adapt to 
the changing threat landscape that we face. Some critics, 
including the Russian Government, have attacked us by denying 
that the security environment has changed, while others argue 
that the sheer power of the United States nuclear arsenal is 
somehow going to insulate us from any changes in a security 
environment.
    Dr. Soofer, you touched on this in your opening statement 
when you note that ``potential adversaries do not stand 
still,'' and consequently U.S. deterrence requirements cannot 
remain, as you put it, fixed.
    We've heard plenty of testimony about the changing threat 
environment on this committee and on the full committee. I 
don't think that's in question. But I'd like to explore the 
notion that U.S. nuclear forces have no need to adapt to a 
different security environment.
    So, Dr. Soofer, U.S. nuclear policy and planning has long 
emphasized the need for flexible adverse nuclear forces 
specifically to adjust to a changing threat landscape. Is that 
correct?
    Dr. Soofer. Yes, it is.
    Senator Fischer. I'm sure that you've seen these vague 
criticisms that the current U.S. nuclear posture is more than 
sufficient to deter any new threats. What is your reaction to 
statements like this? In your opinion, what would be the impact 
to strategic stability of overlooking the expansion of 
adversaries' arsenals, the increasing ability of adversaries to 
deny U.S. nuclear employment, and the violation of treaties, 
and concluding this warrants no change in U.S. nuclear posture?
    Dr. Soofer. Thank you, Madam Chair. As senior DOD 
leadership has testified, including General Hyten, today we 
have a strong nuclear deterrent, and there should be no 
question that we have the ability to deter current threats.
    In the course of the Nuclear Posture Review, we concluded 
that, as I indicated, the threat doesn't stand still, and 
there's some disturbing trends out there that require a 
response.
    One of the biggest problems that we faced was the growing 
disparity between Russia and the United States in a category of 
weapons called non-strategic nuclear weapons, sometimes 
referred to as tactical nuclear weapons. This has been a 
concern not only of ours but of previous administrations as 
well, and even during the New START ratification proceedings in 
2010 there was a provision in the resolution ratification that 
directed the administration within one year to address this 
disparity, bring the Russians back to the negotiating table.
    So we've been concerned about this for a long time, and we 
came to the conclusion that it wasn't just the numbers but it 
was the types of capabilities that they were deploying--depth 
charges, torpedoes, short-range ballistic missiles; air, land, 
and sea-launched cruise missiles. Why would you build so many 
different types of nuclear weapons? Both the United States and 
Russia reduced their tactical nuclear weapons at the end of the 
Cold War. We have a modest number that we are modernizing but 
certainly not expanding, but the Russians are expanding their 
capabilities.
    So they have the capabilities, plus you've heard about 
their nuclear doctrine, their limited nuclear war doctrine. 
Some people would argue that maybe the Russians wouldn't do 
this in an actual scenario, but we have to assume that they 
would because they have the capability and they exercise the 
capability.
    So you have the doctrine, you have the capabilities, you 
have what everybody agrees is a more belligerent Russia. So we 
add all that up, and we came to the conclusion that just maybe 
the Russians perceived an advantage with this new capability. 
After all, if they didn't think they needed them, they probably 
wouldn't build them given our strategic triad.
    So we felt we had to do something in the near term and in 
the long term to address this problem. In the near term it's 
the modification of a modest number of submarine-launched 
ballistic missile warheads, just so the Russians understand 
that at that low level of low-yield capability, we have a 
response option, the president has a response option. It's for 
deterrence purposes, not for warfighting.
    In the longer term, how do you address this growing 
disparity in non-strategic weapons? We've been trying to get 
the Russians to come back to the table to negotiate reductions, 
but they haven't been willing to come back. So by going forward 
with a sea-launched cruise missile capability, a capability 
that, by the way, is consistent with the INF Treaty, consistent 
with the New START Treaty, maybe this will give us some 
leverage to bring them back to the negotiating table.
    If we don't do this, the problem may be that we get to a 
point where the Russians may perceive they have not only a 
military advantage over us, because the numbers are so 
disparate, but now your allies start to worry. They say, well, 
the Russians have two times or three times, ten times as many 
weapons as the United States does. Maybe in a crisis situation, 
they'd question our leadership. So there's a real military and 
strategic problem associated, I think, with not addressing the 
growing threat.
    I hope that answers the question.
    Senator Fischer. Yes. As we look at Russia and their 
doctrine of escalate to deescalate, and I think we've had 
numerous discussions on that in this subcommittee and in the 
full committee as a whole, there seems to be acceptance of that 
now and kind of almost a downplaying of it, and instead the 
focus I think is on--and I think it comes from the Russians in 
many areas. The focus is on we are so superior in our nuclear 
capabilities, the power that the United States has, then why 
would the United States need to change? They view it as a 
change in the posture that we're taking.
    You mentioned so many points to that, but specifically how 
would you address the Russians saying that the United States 
has such superiority when it comes to our power that we have 
with our nuclear capabilities that there's no way they're going 
to do the escalate to deescalate?
    Dr. Soofer. First, the Russian claim in Putin's March 1st, 
speech, where he's claiming that he's doing this in reaction to 
what the United States is doing, of course that's nonsense 
because these capabilities, the Russian capabilities have been 
in development for decades. So it's clearly not a response to 
what the United States is doing. We are playing catch-up at 
this point. So I think that criticism on its face is just 
false.
    So I'm not quite sure how to address it other than that. I 
would just go back to say that even Ash Carter, former 
Secretary of Defense, he noted that there has been no arms 
race. The only country that's been running this race has been 
the Russians over the last 10, 20 years.
    Senator Fischer. Thank you.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Assistant Secretary Roberts, what is your assessment of the 
NNSA [National Nuclear Security Administration] efforts on 
modernization in general and the ability to produce up to 80 
plutonium pits by 2030, as required by statute?
    Secretary Roberts. Thank you, Senator, for the question. 
Given the future stockpile requirements, number one, I 
certainly support, as stated in the NPR, to produce 80 pits by 
2030. Based on the work that we've done now, I think that we're 
in a good position to actually achieve that. We've recently 
completed a review. It was basically an engineering analysis, 
as well as a workforce analysis on the path that we've looked 
at, the various alternatives that have come out of those, both 
an analysis of alternatives review and this engineering 
analysis that was just recently completed.
    The modernization aspects we've looked at that are in place 
at a production facility at Los Alamos, this is the one place 
where we still have existing and enduring production 
capabilities. In fact, Los Alamos has been the plutonium Center 
of Excellence for operations. They will have the capability to 
produce up to 30 pits per year. Now we have to look at how we 
get from 31 to 80.
    So this engineering analysis was looking at the processes 
that are necessary to select the best location for future pit 
production requirements of 50-plus pits per year, and we're 
undergoing right now a final assessment to make a 
recommendation to the Deputy Secretary of Energy. Hopefully 
that will be done very soon. We've looked at the various 
alternatives, and we've come up with a recommendation that will 
hopefully meet that requirement, and we'll do that before the 
11th of May, which we're required to do by law, as you know.
    Senator Donnelly. Thank you.
    Admiral Benedict, can you give us the status for fiscal 
year 2019 on the Navy role in the conventional prompt strike 
system?
    Admiral Benedict. Yes, sir. To date, we have been operating 
under the Defense-wide account. We flew a very successful 
experiment late last year in the fall. As I have briefed, the 
results of that were classified, but it was a very successful 
experiment, met all our objectives. We have now been directed 
to do the second experiment along the lines of conventional 
prompt strike, as well as at the direction of OSD [Office of 
the Security of Defense] we are running a motor competition. 
The inputs from industry are in SSP. We are evaluating those, 
and I would suspect that we will make an award here very 
shortly.
    Senator Donnelly. Thank you.
    Dr. Soofer, we haven't seen all the budget data for the 
low-yield submarine-launched ballistic missile. How much will 
it cost in fiscal year 2019 for the NNSA and for the DOD?
    Dr. Soofer. Thank you, Senator. I believe the request for 
Department of Defense is $23 million, and I think it will be 
$50 million to complete the project. Unfortunately, Senator, I 
don't have the numbers for NNSA. I'm going to say that they're 
going to be in a similar range, and those numbers will be 
provided to Congress by OMB [Office of Management and Budget] 
in a whole-of-government errata by the end of this month.
    Senator Donnelly. Okay. Thank you.
    General Rand, my understanding is we dropped from the B-2 
the ability to send and receive information with the new 
satellite system that can operate in a nuclear stress 
environment. Does that concern you?
    General Rand. No, sir. I made that decision largely, and 
then coordinated it with my boss, General Hyten, at STRATCOM. 
The rationale, sir, is that the AEHF [Advanced Extremely High 
Frequency] that you referred to will not be fielded until 2026. 
It's our intention to sunset the B-2 in the early 2030s. The 
six years of utility to have us receive and transmit isn't 
worth the squeeze when that $1.3 billion that we save can be 
used for other more critical MC-3 capabilities across the 
enterprise.
    I will tell you that what we did do is we have sped up the 
acquisition of what's called the common very low frequency 
receiver that we will start putting on the B-2 in fiscal year 
2019.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Donnelly.
    Senator Sullivan?
    Senator Sullivan. Thank you, Madam Chair.
    Gentlemen, thanks for being here.
    Dr. Soofer, I wanted to thank you for your help previously 
on the Advancing America's Missile Defense Act. A number of us 
worked on that last year and it became a full part of the NDAA 
[National Defense Authorization Act]; very strong bipartisan 
support, by the way. It started really significantly revamping 
our missile defense for our country when the threats are very 
significant.
    As you know, in the previous NDAA there had been a demand 
for the completion of the Ballistic Missile Defense Review, and 
I'm sure all of you are hard at work. I had the opportunity to 
question Undersecretary Rood on that recently, and I was 
pressing him. Didn't get it, but I'd like to press you now to 
try to get the review sooner rather than later because, again, 
one of the things that I think was very positive in this last 
go-around was that it was very bipartisan. I'm working with a 
number of folks on the committee and some of the folks in the 
Pentagon. I'm looking at ways to make progress again on some of 
the missile defense issues.
    It would be really important, as we're marking up the NDAA 
this year, to be informed by the review. Otherwise we 
essentially miss an entire year.
    So you probably were ready for this question, but can we 
get a commitment from you to have that done, say, by within the 
next month? You know how this schedule works.
    Dr. Soofer. Yes.
    Senator Sullivan. How about before we start marking up the 
NDAA in earnest?
    Dr. Soofer. Senator, we are now weeks away from getting 
this done. I think the draft is done. It's a coordination 
problem, and you know how difficult it is to get coordination.
    Senator Sullivan. Correct, but you know how difficult it is 
to miss the window.
    Dr. Soofer. Yes, sir.
    Senator Sullivan. Given your background, you know a lot 
about how the markup of that bill works. Do you think we'll 
have it in time to be informed as we mark up the next National 
Defense Authorization Act? It would be a missed opportunity is 
all I'm saying.
    Dr. Soofer. It would be, sir, and we will do our best to 
have it done and to you by the end of this month or early next 
month.
    Senator Sullivan. Okay. Good. Well, we want to keep working 
with you and keep pressing you on that.
    Let me ask, as we are looking at one of the things--we did 
a CODEL [Congressional Delegation], a number of us, up to Fort 
Greeley in Alaska where we're going to have a new missile 
defense field built. One of the challenges that we want to work 
with all of you on, Senator Inhofe and I, and I know the Chair 
and Ranking, I'm sure are very supportive of this as well, but 
when we were up there talking about how long it would take to 
actually fully operationalize a new field at Fort Greeley, 
which everybody agrees we need, the estimates were four, maybe 
five years--four, maybe five years. We won World War II in four 
to five years.
    So we want to work with all of you to accelerate the 
deployment of these missiles that are supposed to protect the 
entire United States, and I think four to five years is 
unacceptable. I think everybody says it's unacceptable, but we 
need to look at ways to make sure that--the threat is here. The 
threat is here right now, today. The whole point of the bill 
was to advance our missile defense. Four to five years doesn't 
help anyone.
    Do you care to comment on that, any of the members of the 
panel here? We need to do more, faster, and we can. We won a 
war in that amount of time. I think we can build a new missile 
field.
    Dr. Soofer. Senator, I agree. I've always wondered why it 
takes so long. The answer that usually comes back is the 
weather in Alaska, the construction----
    Senator Sullivan. Well, trust me, we built the Alcan 
Highway in World War II, which was 1,100 miles, in eight 
months. We can do this stuff. We can do it. We're Americans, we 
can do it. So the weather is not a big deal in Alaska, trust 
me.
    Dr. Soofer. I think the other limiting factor may be 
development of the redesigned kill vehicle.
    Senator Sullivan. We can get the silos built, and I'm not 
saying we have to get that done. How about just a commitment 
from all of you at all levels of the government to just 
accelerate this? Nobody wants this to be four to five years. 
Can I get that from everybody here in positions of authority?
    Dr. Soofer. Yes, sir.
    Admiral Benedict. Yes, sir. Absolutely.
    Senator Sullivan. One final question. As we are looking at 
the missile defense provisions in the NDAA, one issue that 
keeps coming up is the idea of space-based sensors uniformly to 
integrate our theater, Aegis, THAAD [Terminal High Altitude 
Area Defense], homeland. Would you all agree with that as a 
priority?
    Dr. Soofer. Absolutely.
    Senator Sullivan. Okay. Thank you.
    Senator Fischer. Thank you, Senator Sullivan.
    Senator Warren?
    Senator Warren. Thank you, Madam Chair.
    Thank you to our witnesses for being here today.
    So, the Administration's Nuclear Posture Review calls for a 
new low-yield submarine-launched ballistic missile. DOD has 
previously suggested that this could be accomplished quickly by 
modifying the W-76 warhead that goes into our existing 
submarine-launched Trident missile. The NNSA administrator 
recently came before our committee, and she testified that she 
didn't know how long it would take NNSA to modify the W-76 
warhead, and she didn't know whether it could be done before 
the life extension production line closes at the end of the 
year.
    So let me ask you this, Dr. Soofer. Does DOD know how long 
it will take to modify the W-76 warhead?
    Dr. Soofer. When we considered this during the Nuclear 
Posture Review, and, since then, we came to the conclusion 
based on talking to people at NNSA that this could take 2 to 3 
years at the most.
    Senator Warren. So you think 2 to 3. Does that mean it 
can't be done by the end of the life extension program?
    Dr. Soofer. I think it's important that it be done by the 
end of the life extension program.
    Senator Warren. So you think it will be within the end of 
the life extension program.
    Dr. Soofer. It should be.
    Senator Warren. Okay. All right. So, the NNSA administrator 
also testified that NNSA had not requested any funding to 
modify the W-76 warhead, she didn't know if they would request 
a reprogramming or a supplemental request, so let me ask you 
about that one, Dr. Soofer. I understand that the DOD budget 
does include $22.6 million for the SLBM [submarine-launched 
ballistic missile]. Is the OMB request next month a 
reprogramming or a supplemental?
    Dr. Soofer. They call it, as a formal term, errata. It's a 
whole-of-government errata.
    Senator Warren. An errata?
    Dr. Soofer. An errata.
    Senator Warren. Okay.
    Dr. Soofer. It's a new term to me, as well. But it 
essentially will be a reallocation of funds, because I think 
they're thinking of trying to do that with existing funds, but 
I'm not sure. It's called an errata, a whole-of-government 
errata.
    Senator Warren. Okay, but it's a reallocation is what 
you're telling me, it's not new money. You're shaking your 
head, right? It's a reallocation. So what is the money going to 
be reallocated from?
    Dr. Soofer. That's a decision for NNSA and the Department 
of Energy to make, and I'm not privy to that.
    Senator Warren. So we don't know where it comes from.
    Dr. Soofer. You'll know when you see the budget request.
    Senator Warren. Okay. But right now, it's that somebody is 
actually willing to give up $23 million, right? Okay.
    What is DOD using the $23 million for?
    Admiral Benedict. So, ma'am, the $23 million in the 
Department of Defense is actually in my budget, and my budget 
will be to do the integration of the NNSA effort to ensure that 
all my documentation is complete and consistent with this type 
of weapon, and to do the work at my strategic weapons 
facilities, to do the loud-out change between the current 
configuration on the submarines and this new configuration.
    Senator Warren. Okay. So the NNSA is going to do the actual 
modification.
    Admiral Benedict. Yes, ma'am.
    Senator Warren. The $22.6 million is so that you can--say 
that one more time?
    Admiral Benedict. I need to do the integration of their 
effort with----
    Senator Warren. So it's to integrate.
    Admiral Benedict. Yes, sir. Yes, ma'am, integrate with the 
system. I need to change all my documentation to ensure that 
I'm complete and consistent with nuclear weapons, and then I 
need to do the actual work at my strategic weapons facilities 
to change the warhead on the missiles. Yes, ma'am.
    Senator Warren. Okay. Thank you.
    You know, I appreciate and I think you all understand why 
we're concerned about this. We're all familiar with NNSA's 
program management challenges in recent years, and given that 
track record, I find the number of unknowns that we heard 
before from the administrator and that still seem to be there 
worrisome. We're already asking them to conduct an 
unprecedented number of life cycle extension programs, along 
with other demands of the stockpile stewardship programs, and I 
just have real concerns about their capacity to take on 
additional work. I think maintaining our current arsenal and 
our current programs should be our number-one priority and that 
we should manage that first.
    Thank you very much. Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Warren.
    Senator Cotton?
    Senator Cotton. Dr. Soofer, I want to speak to you first 
about Russia's pattern of behavior regarding their 
international commitments. Is Russia violating the INF Treaty?
    Dr. Soofer. Yes, it is, Senator.
    Senator Cotton. Is Russia still violating the Open Skies 
Treaty?
    Dr. Soofer. I believe so, Senator.
    Senator Cotton. We also know what happened in the United 
Kingdom a few weeks ago with the poisoning of two Russians. I 
know you aren't the lead for chemical weapons issues, but given 
what's been reported by our Government and the actions we've 
taken, is it fair to say that Russia has violated the Chemical 
Weapons Convention?
    Dr. Soofer. I don't know, Senator. I assume so.
    Senator Cotton. I'll answer yes.
    What about some other international agreements to which 
Russia is a party? The Budapest Memorandum, the Presidential 
Nuclear Initiatives, the Conventional Forces in Europe 
Agreement, the BNN document. Is Russia out of compliance with 
all of these in one way or another?
    Dr. Soofer. Yes, Senator.
    Senator Cotton. What do you think this pattern of behavior 
tells us about how much Russia respects its international 
commitments?
    Dr. Soofer. I think they scorn their international 
commitments, and they're bent on upsetting the status quo.
    Senator Cotton. So what about the New START Treaty? Is 
Russia complying with its obligations under New START?
    Dr. Soofer. We believe that they have met the limits. Yes, 
Senator.
    Senator Cotton. After all the scorn they show for these 
other commitments, they are upholding their commitments under 
the New START Treaty. Why would that be?
    Dr. Soofer. I think it's a strategic approach. I think that 
they are limiting their strategic nuclear weapons while they 
circumvent this by building up their non-strategic nuclear 
weapons that are not limited by the treaty. I think it's a very 
clever approach.
    Senator Cotton. So they are complying with their 
obligations under the treaty that tends to benefit them while 
they get the benefits of violating all of their other treaties.
    Dr. Soofer. Yes, sir.
    Senator Cotton. Well, New START expires in about 3 years, 
but we'll have the option to extend it for another 5 years. Do 
you think it makes sense in this set of circumstances to extend 
the New START Treaty if Russia remains in violation of almost 
every other international agreement that they have made?
    Dr. Soofer. Senator, we're going to begin a whole-of-
government review of the pros and cons of extending that 
treaty.
    Senator Cotton. Thank you.
    Finally, I want to address what President Putin said in his 
televised remarks last month about all kinds of new Russian 
capabilities. I don't think any of these capabilities were 
terribly surprising for people who have followed the matters. 
But would something like an intercontinental-range nuclear-
powered cruise missile be covered under the New START Treaty? 
Or what about his so-called intercontinental underwater 
vehicle?
    Dr. Soofer. Senator, these are not covered by the New START 
Treaty.
    Senator Cotton. So, all of the new systems he's announced 
are not covered by the treaty that benefits him, and he 
violates all the obligations under the other treaties that 
don't benefit him. Given that set of circumstances, I think we 
should take a serious second look at extending the New START 
Treaty.
    Admiral Benedict, if I can turn to you, I noted in the 
Nuclear Posture Review that it said we would now field a fleet 
of at least--that's the quote, ``at least''--12 Columbia-class 
SSBNs. I think the previous statement had been we would field 
12 Columbia-class SSBNs. Does that mean that there is some 
thinking inside the Navy or the broader Department of Defense 
that we might need more than 12 Columbia-class submarines?
    Admiral Benedict. Sure. I think that's a decision that will 
be made and a recommendation made by leadership as we approach 
the end of production. But I think, given the current changing 
world dynamic, we want to reserve the right to revisit that at 
some point.
    Senator Cotton. So that's the import of those words ``at 
least?''
    Admiral Benedict. Yes, sir.
    Senator Cotton. I think that's something we should 
entertain as well. I was glad to see that in the review, and 
thank you for that, Admiral.
    Gentlemen, thank you again for your testimony today.
    Senator Fischer. Thank you, Senator.
    We'll begin a second round of questions.
    Dr. Soofer, the Nuclear Posture Review repeatedly makes the 
point that we have not made sufficient progress towards a 
responsive nuclear infrastructure despite the fact that it's 
been a longstanding goal that's been confirmed in previous 
NPRs. So with that in mind, can you describe how the Department 
is translating the NPR into specific guidance, and what 
processes will be put in place so we can assure a successful 
implementation?
    Dr. Soofer. Thank you, Senator. Just today, as a matter of 
fact, we put together a package or a memo to the Secretary of 
Defense that lists about 40 different actions following from 
the Nuclear Posture Review. Those actions are assigned to 
specific entities within the Department of Defense--Joint 
Staff, Army, Navy, OSD policy, STRATCOM. It's our 
recommendation that the Office of the Secretary of Defense 
review the progress twice a year and report to the Deputy and 
the Secretary on how well we're implementing these specific 
recommendations.
    Again, there are about 40 different recommendations. Some 
of those recommendations speak directly to our hedging criteria 
and the need to have a more responsive nuclear infrastructure. 
I will note, however, that these implementation recommendations 
are only for the Department of Defense and do not pertain to 
the Department of Energy. They would have their own procedures.
    Senator Fischer. Will the Department provide that 
implementation guidance to this committee?
    Dr. Soofer. I think as soon as the Secretary of Defense 
signs that, we should come up and brief you on the 
implementation plan.
    Senator Fischer. Thank you.
    You mentioned hedging, and with the NPR we see that it 
emphasizes the importance of being able to hedge against the 
geopolitical and technical uncertainties that we're seeing out 
there.
    To what extent is the Department reviewing its hedging 
strategies to ensure that they're keeping pace with this new 
threat environment?
    Dr. Soofer. Maybe I can start, but Secretary Roberts, given 
his affiliation with the Nuclear Weapons Council, may be better 
suited. But this idea of hedging is nothing new. Previous 
administrations have done it, and they've hedged against 
geopolitical changes, what happens if the relationship with 
Russia gets even worse and they break out of the New START 
Treaty and they start deploying more weapons? How do you hedge 
against that? Do you hedge against technical problems in your 
force?
    Because our force is so old and we're in the process of 
recapitalizing every leg, we also have a new level of risk 
called programmatic risk or schedule risk. So what happens if 
the new systems don't come online in time before the old 
systems are retired? So we have to figure out a way to hedge 
against that possibility given the fact that sometimes programs 
are late.
    So again, this is part of the NPR implementation tasking, 
but I think the Nuclear Weapons Council is looking seriously at 
this as well.
    Senator Fischer. Mr. Secretary, that also is an issue when 
we look at the NNSA's protection capacity, correct?
    Secretary Roberts. Yes, yes.
    Senator Fischer. Would you like to continue from Dr. 
Soofer's comments on that?
    Secretary Roberts. Well, first of all, I endorse everything 
he said. But also, the Nuclear Weapons Council and the 
subordinate bodies, because we have now created three other 
subordinate bodies, one on standing and safety, one on 
transformation coordination, and then one on compartmental 
issues and an advisory committee for that regard, what we're 
doing is we are taking on that accountability and enforcement, 
looking at the priorities.
    Senator Fischer. When you say we're taking it on, is that 
the Weapons Council?
    Secretary Roberts. Yes, ma'am.
    Senator Fischer. Okay.
    Secretary Roberts. Taking on those roles and 
responsibilities, in effect an enforcing function because of 
the criticality of the dates we've set out very explicitly in 
the Nuclear Posture Review. There is no margin for many of 
these programs. If we don't, we're going to have a gap, and 
that gap is going to adversely affect our deterrence to the 
point where it may not be credible. So that's very important. 
It will be difficult, but it's something that we absolutely 
have to do.
    Senator Fischer. Do you have any insight into the future in 
looking at how that road map is going to differ, perhaps, from 
any existing plans or requirements that we have out there now?
    Secretary Roberts. I've been very----
    Senator Fischer. Or are you just right on schedule, right 
on point?
    Secretary Roberts. I've never been very good at predicting 
the future.
    Senator Fischer. But you do have the flexibility to 
confront any changes that may be happening on the world stage?
    Secretary Roberts. Yes, and that's part of my office's 
responsibilities, is that we'll be watching that very closely 
and identifying, in fact, and bringing to this committee any 
issues and problems that we see are important and that need to 
be addressed.
    Senator Fischer. Okay. Thank you very much.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Secretary Roberts, will the low-yield submarine ballistic 
missile warhead undergo the traditional 6.x review process the 
Nuclear Weapons Council has established for acquisition 
programs?
    Secretary Roberts. Yes, it will.
    Senator Donnelly. This would be for General Rand. My 
understanding is that your organization has ownership of the 
National Emergency Airborne Command Post, or NEACP, a modified 
747, which is aging out by the 2030s. How is its replacement 
coming along?
    General Rand. Sir, there has been no money yet laid into 
the palm or the fight app for this, but I think we are going to 
begin some very serious discussions in the next weeks and 
months to follow, but not only about the NEACP but, if I could, 
about the family of systems that includes the Take Charge and 
Move Out, as well as the Airborne Command Post. So I will pitch 
my opinions and ideas to the Chief of Staff of the Air Force 
and to General Hyten, and there is no doubt a need to get very 
serious about this.
    Senator Donnelly. Because the follow-up question I had is 
are some of its missions going to be split amongst other 
aircrafts and other commands?
    General Rand. No, sir, not at this time. We intend to keep 
the NEACP for what it's intended for the ability for the 
nuclear command and control communications, as well as to 
support Secretary of Defense. But we will keep those three, the 
Take Charge and Move Out that supports the Navy, and the 
Airborne Command Post, as well as how we use the NEACP.
    Senator Donnelly. Okay.
    General Rand. I personally am in favor of looking at some 
commonality in that platform, though, for those three missions.
    Senator Donnelly. Thank you.
    Admiral Benedict, what are we doing, or what do we need to 
be doing, to solve the radiation hardened microelectronic 
problem that seems to be looming?
    Admiral Benedict. Yes, sir. That is not a Navy problem, 
that is not an Air Force problem. I believe that is a national 
problem, and I will tell you that the Department of Defense is 
extremely serious about taking that on at the Department level. 
OSD Industrial Base, that group that manages industry, has 
formed a task force which has not just the Navy and the Air 
Force on it but also DTRA [Defense Threat Reduction Agency] and 
all the other interagency groups which will deal with radiation 
levels to an event of a nuclear capability. That is chaired by 
OSD Industrial Base, and the executive agent for that is 
actually Crane.
    Crane has done all our nuclear rad hard piece part work for 
the D-5 life extension effort. We have procured enough parts to 
ensure that we can sustain the Trident II D-5 life extension 
effort through the 2040s. Our next need will be in the follow-
on, which is directed in the NPR, and we are working closely 
with the United States Air Force. We passed the entire rad hard 
database that we developed for the life extension effort to the 
Air Force as part of commonality, and they will be the first 
ones to deal with the actual issue of reduced capacity for the 
rad hard industry in the U.S.
    Senator Donnelly. Thank you.
    Admiral Benedict, what's the status for the rocket 
propellant industrial base?
    Admiral Benedict. Sir, that remains, in my opinion, my 
professional opinion, fragile. We are down to, essentially, two 
major suppliers. If you were to segregate those between large 
capability and small to medium capability, we have one in each. 
Not only are we fragile in the major developers for solid 
rocket motors, we are seeing fragility within the suppliers of 
constituents, some of the necessary chemicals that make up a 
large percentage of a solid rocket motor. That is, again, being 
addressed in OSD at the Industrial Base Group through policy. 
We are working closely with the Industrial Base.
    I'll just remind this committee, we are the only strategic 
asset that is in production today. We have maintained a minimum 
state of production for the Trident II D-5 rocket motors in 
order to ensure that there is capacity. That skill set does 
remain alive, and we are producing at the minimum sustaining 
safe rate for the Trident rocket motors. The next, again, large 
rocket motor production requirement will be the Air Force GBSD 
[Ground-Based Strategic Deterrent] effort.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Senator Peters?
    Senator Peters. Thank you, Madam Chair.
    Thank you for all four of your testimonies here today and 
for your service to the country. We appreciate it.
    Dr. Soofer, I'd like to start with you and ask you a little 
bit about missile defense. I understand the NDAA is reviewing 
three potential locations for a continental U.S. interceptor 
site to join the current sites that are out there. One of the 
locations under consideration is Fort Custer Training Center, 
as you know, in Michigan, and my understanding is that that 
site is shovel ready. It provides the lowest cost, the least 
environmental impact options out there, which we're very proud 
of.
    In last year's STRATCOM posture hearing, General Hyten 
testified that it would likely take 5 to 10 years to construct 
a third site once the decision is made. This is not something, 
obviously, that you can just turn on. As a result of that, I 
would agree with Senator Sullivan, who suggested that we need 
this report as soon as possible so we can inform the NDAA and 
be thinking through some of these strategic implications going 
forward.
    So my question for you is, what are the criteria and 
priorities that the NDAA will consider when selecting a 
preferred site for the continental interceptor site, as 
required?
    Dr. Soofer. Senator, I think the Missile Defense Review 
will try to address some of that. If I could just talk 
generally about the types of criteria----
    Senator Peters. That would be great.
    Dr. Soofer. You have to ask yourself, what is the threat 
you're protecting against? If it's mostly coming from the east, 
say from the Middle East, there's one location. If you want to 
get the Middle East and provide additional protection from 
North Korea, you might choose a different site. Are you trying 
to maximize your battle space, get as many shots off as 
possible, have what's called a shoot opportunity? That will 
dictate which site.
    So all three of those in terms of getting input from the 
warfighter, balancing it against the threat, and the ease of 
construction, I think those are all being weighed.
    Senator Peters. In the full committee recently, actually in 
February, I asked General Robinson about the missile threat 
from Iran, and she indicated--I'll quote her statement in the 
committee. She said she ``watches North Korea with an eyeball 
and a half, and then a half an eyeball on Iran.''
    So from a battle space perspective, what are the current 
consequences--or I should say what would be the consequences 
for the current GMD [Ground-Based Midcourse Defense] system if 
Iran were to develop a ballistic missile capability that would 
threaten the United States?
    Dr. Soofer. Based on our analysis during the missile 
defense review--and I think this is supported by the previous 
administration's findings--you can actually protect most of the 
United States against an Iranian threat from the interceptors 
at Fort Greeley, as long as you have the proper sensor support 
on the east side. You may recall that we had plans to build a 
long-range discriminating radar in Alaska to help discriminate 
the threat from North Korea. You have to do the same from Iran.
    So there is some inherent capability today to defend 
against Iran, but it depends on the complexity of the Iranian 
threat. If they have more warheads, more counter-measures, then 
the system in Fort Greeley would not suffice and it would make 
sense to have an additional site, a third site somewhere else 
to deal with that threat.
    Senator Peters. Areas such as Michigan, New York, and Ohio 
that are being considered, something towards the Midwest or 
East would be the place to have it, would be the natural site 
for it?
    Dr. Soofer. Yes, sir.
    Senator Peters. So the question, though, as you mentioned, 
we may have that capability, unless the system is more 
sophisticated. However, given the fact that we have to look 5 
to 10 years out and that's not an easy task to do, but it's 
probably safe to assume that if they should get that 
capability, they will constantly be improving it over that 
time, that we need to be making these plans now. So that 
process, there's a balancing act of what we can do now and what 
we must do in the future. How do you weigh those?
    Dr. Soofer. Exactly right, sir. I'll be honest with you 
that one of the greatest areas of uncertainty is the nature of 
the threat. We can share with you the information we have in 
the intelligence world and have a more fulsome discussion about 
that, but then there's also the issue of cost.
    Senator Peters. Of course.
    Dr. Soofer. To go to an additional site, I'm thinking about 
$5 billion. Others say the priority should be sensors in space, 
or a multiple kill vehicle, so we have to weigh those.
    This committee had some very significant debates over an 
East Coast missile defense site, and I think where they came 
down was it's a hedge against the Iranian threat to go forward 
with a sensor. So there is a requirement for an Atlantic radar.
    All these considerations are important. What happens to the 
future of the agreement with Iran? This could all impact the 
nature of the threat, and I think that's going to be weighed in 
the final Missile Defense Review, sir.
    Senator Peters. Right. Thank you for your response, 
appreciate it.
    Senator Fischer. Thank you, Senator.
    I have one last question for the Admiral and the General. I 
would be interested in knowing your views on the NPR, if you 
support it, if you see it as enhancing our ability to deter our 
adversaries.
    General Rand. Madam Chair, as I told you this morning, I 
believe it's a good, sound document, and in my mind it's what 
the 11 previous administrations supported. It states the fact 
that there's a requirement for the triad to continue, that it 
needs to be lethal, and it should be used only in extreme 
circumstances. I like the fact that that is our declaratory 
policy, and I think it is a good guideline for setting the tone 
for deterrence and assurance.
    Senator Fischer. Thank you, sir.
    Admiral?
    Admiral Benedict. Yes, ma'am. I would echo what General 
Rand said. We were supportive during the development of the 
NPR. We stand fully in a supporting role of being able to 
deploy a low-yield weapon on the Trident weapon system as 
quickly as possible, and I believe it actually enhances 
deterrence. Yes, ma'am.
    Senator Fischer. Thank you, sir.
    Senator Donnelly, did you have other questions?
    Senator Donnelly. No, Madam Chair.
    Senator Fischer. Okay. With that, I would like to thank our 
panel of witnesses for coming before this committee today. Your 
information is always very helpful to us.
    We extend our best wishes to General Rand and Admiral 
Benedict for your many years of service to this country. Thank 
you very much.
    We are adjourned.
    [Whereupon, at 3:39 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Deb Fischer
                    stockpile responsiveness program
    1. Senator Fischer. Secretary Roberts, Dr. Soofer, the nuclear 
posture review emphasizes the importance of the NNSA's Stockpile 
Responsiveness Program (SRP). Please describe the Department's views of 
this program and the unique contribution it makes to the long-term 
future of our nuclear enterprise.
    Secretary Roberts. The Stockpile Responsiveness Program established 
by Congress directs National Nuclear Security Administration (NNSA) to 
continually exercise all capabilities required to conceptualize, study, 
design, develop, engineer, certify, produce, and deploy nuclear 
weapons. The SRP makes a unique and critical contribution to ensure the 
nation has a resilient and responsive nuclear weapons infrastructure. 
This program is critical to achieve the objectives of the Nuclear 
Posture Review (NPR) and could include: i. Development of rapid 
prototyping capabilities; ii. Development of options for modifying 
warheads to increase flexibility and responsiveness; iii. Surveying 
past and extant warhead designs to understand what can be certified 
without resuming full-scale nuclear testing; and iv. Reducing the time 
required to design, develop, and initially produce a warhead.
    Dr. Soofer. The Stockpile Responsiveness Program (SRP) established 
by Congress directs National Nuclear Security Administration (NNSA) to 
continually exercise all capabilities required to conceptualize, study, 
design, develop, engineer, certify, produce, and deploy nuclear 
weapons. The SRP makes a unique and critical contribution to ensure the 
nation has a resilient and responsive nuclear weapons infrastructure. 
This Program is critical to achieve the objectives of the 2018 Nuclear 
Posture Review (NPR) and include: 1) development of rapid prototyping 
capabilities; 2) development of options for modifying warheads to 
increase flexibility and responsiveness; 3) surveying past and extant 
warhead designs to understand what can be certified without resuming 
full-scale nuclear testing; and 4) reducing the time required to 
design, develop, and initially produce a warhead.

    2. Senator Fischer. Secretary Roberts, Dr. Soofer, will the 
Department playing a role in setting the goals or selecting the 
projects this program will pursue?
    Secretary Roberts. DOD will work with DOE/NNSA to identify DOD's 
roles and responsibilities; and identify a mechanism to establish 
governance to coordinate SRP activities.
    Dr. Soofer. DOD will work with the Department of Energy (DOE)/NNSA 
to identify DOD's roles and responsibilities; and identify a mechanism 
to establish governance to coordinate Stockpile Responsiveness Program 
activities.
                   sea-launched cruise missile (slcm)
    3. Senator Fischer. Dr. Soofer, please provide an anticipated 
timeline and associated milestones for the Department's Analysis of 
Alternatives (AOA) for the sea-launched cruise missile?
    Dr. Soofer. The U.S. Navy is working closely with the Joint Staff 
and the Office of the Under Secretary of Defense for Policy to evaluate 
options for a nuclear sea-launched cruise missile (SLCM) based on the 
policy guidance reflected in the 2018 NPR. This evaluation process, 
which is ongoing, will include an Analysis of Alternatives (AOA), as 
well as timelines and milestones.

    4. Senator Fischer. Dr. Soofer, what organization will lead the 
AOA?
    Dr. Soofer. The U.S. Navy, working closely with the Joint Staff and 
the Office of the Secretary of Defense.

    5. Senator Fischer. Secretary Roberts, Dr. Soofer, the AOA will 
presumably analyze alternatives related to the missile body and the 
platform, but the SLCM will also require a warhead. Will the AOA 
analyze alternatives related to which warhead will be mated with the 
missile, and if not, how and when will the Department synchronize the 
SLCM program with an NNSA warhead program?
    Secretary Roberts. In concurrence with the Analysis of Alternatives 
AOA, the nuclear weapons joint lifecycle process will provide the 
Nuclear Weapons Council with options for evaluation regarding the most 
appropriate sea-launched cruise missile (SLCM) warhead. The selected 
warhead will undergo a deliberate and detailed analysis in order to 
validate its suitability in meeting military requirements.
    Dr. Soofer. In concurrence with the Analysis of Alternatives AOA, 
the nuclear weapons joint lifecycle process will provide the Nuclear 
Weapons Council with options for evaluation regarding the most 
appropriate sea-launched cruise missile (SLCM) warhead. The selected 
warhead will undergo a deliberate and detailed analysis in order to 
validate its suitability in meeting military requirements.
                       nuclear enterprise reviews
    6. Senator Fischer. General Rand, in 2014, the Department made a 
series of recommendations that were intended to improve morale and 
operations at the missile wings. Some of these recommendations were 
implemented and closed out--like, for example, the elevation of the 
Commander of Global Strike Command to a four-star billet. Others are 
ongoing. Initially, the DOD Office of Cost Assessment and Program 
Evaluation was tasked with monitoring the implementation of the 
recommendations, but in December of 2016 that responsibility was 
transferred to the Navy and the Air Force.
    How is the Air Force monitoring the implementation of the 
recommendations?
    General Rand. AFGSC developed a regular mechanism to reinforce the 
progress we've made since the Nuclear Enterprise Review (NER) and ICBM 
and Bomber Force Improvement Programs (FIP) in order to ensure 
continued improvement. The Global Strike Health and Operations Board 
and Council (GSHOB/C) is one venue where commanders from across AFGSC 
gather monthly to review airmen, commander, and stakeholder inputs for 
improvement and tracking progress. This avenue provides every Striker a 
direct line of communication to the AFGSC Commander on how to improve 
our capability, capacity, and human capital. The meticulous tracking of 
every input guarantees all ideas are explored, identifies root causes, 
and implements long-term, sustainable solutions. This forum identifies 
and shares Best Practices across all organizations within the command 
and allows the AFGSC Commander to adapt and modify the venue to 
proactively respond to areas identified for command-wide focus, 
ensuring future generations do not repeat previous findings/
shortcomings. Additionally, this forum validates items that have been 
worked and subsequently closed. Specifically, validation looks at items 
closed 6 to 12 months prior to the meeting and aims to ensure actions 
taken corrected the identified shortcoming, have been built into a 
repeatable process and are enduring. In addition to the monthly GSHOB/C 
review of NER and FIP actions, AFGSC/A9 conducts Airmen Driven 
Innovation (ADI) analyses. The ADI is a preventative, functionally-
focused initiative designed to provide airmen at all levels with a 
voice to our senior leadership to communicate potential areas that need 
attention. It is comprised of a cross-functional team to rapidly 
implement solutions or engage other staff processes, and serves as a 
feedback mechanism to keep Striker Airmen, leadership and AFGSC Staff 
informed of our findings, progress, and organizational changes. ADI 
findings are tracked separately from FIP items through the GSHOB/C 
forum, but findings are cross-referenced to FIP and additional reports 
or studies as a trending analysis tool. In 2017, AFGSC hired a panel of 
independent consultants to provide an external assessment of the health 
of the Air Force Nuclear Enterprise. The Independent Strategic 
Assessment Group (ISAG) is comprised of former DOD leaders. The ISAG 
conducted a deep dive into numerous key areas, including current 
management structure and practices of the Nuclear Enterprise, and how 
AFGSC can field a more lethal force. The assessments informed AFGSC 
staff and resulted in the development of action items the command is 
tackling so we can more effectively accomplish our deterrence and 
global strike missions. Going forward, we will continue using this 
independent look to help promote innovation, change, and ultimately 
improvement throughout the command. Finally, we stood up the Family and 
Airmen Support Team (FAST) to identify ways we can improve where our 
airmen learn, live, play, receive medical and child care, and overall 
well-being. AFGSC hosts an annual conference to build initiatives in 
four major working groups: Airmen and family maintenance, physical 
environment, sustaining the family, and training and educating airmen.

    7. Senator Fischer. General Rand, does the Air Force plan on 
conducting an enterprise-wide assessment of the health of the missile 
force?
    General Rand. The health of the ICBM community is routinely 
analyzed and assessed several venues. The National Mission Assessment 
(NMA) is a comprehensive assessment of the nuclear mission that is 
congressionally directed, led by HAF/A10, and provided to the SECAF and 
CSAF. The assessment is organized by component (e.g. B-52, MMIII) 
across five performance areas. Performance measures focus on human 
capital, readiness, sustainment, modernization and effectiveness. This 
program helps break down information stovepipes across organizations 
and helps determine interdependencies between components and 
performance areas. In addition to the NMA, AFGSC has the tools to 
regularly assess the missile force. Such tools include Airmen Driven 
Innovation (ADI) events, a functionally-focused initiative to provide 
airmen at all levels with a voice to our senior leadership. 
Furthermore, AFGSC has implemented the No-Notice On-Site Visit (NNOSV) 
program which provides another touchpoint to assess the health of the 
force. NNOSVs are observations focused on Operations, Security Forces, 
Maintenance, People/Profession of Arms, and Support, providing an 
independent assessment of unit health, operational readiness, and 
lethality.

    8. Senator Fischer. General Rand, the Force Improvement Program 
(FIP) received credit for generating significant positive change within 
the culture and climate of the missile wings. That program officially 
ended last year. How will you ensure that those gains are not lost now 
that FIP is no longer official Air Force policy?
    General Rand. The initiatives undertaken by the SECAF and CSAF to 
support commanders down to the squadron level have provided commanders 
the most freedom of maneuver and authority to operate in recent years. 
AFGSC has expanded this effort through our own delegation of 
authorities initiative. Additionally, AFGSC hosts multiple events such 
as the Squadron Commander Course and monthly VTCs with wing leadership 
so leaders at multiple levels have several routine touch points to 
discuss past, present, and on-going initiatives. This approach ensures 
``the way it has always been'' is not the reason for execution; rather, 
commanders are charged with effective and efficient mission 
accomplishment and continual unit improvement on a regular basis. In 
addition to these regular touch points with new and sitting commanders, 
AFGSC's ``Striker Culture'' has been developed, defined and inculcated 
throughout the command. Our AFGSC culture slide was written by the 
airmen of AFGSC and approved by AFGSC senior leaders. The building 
blocks to guarantee positive change are well established with current 
and future leaders in AFGSC. AFGSC developed a regular mechanism to 
reinforce the progress we've made since the Nuclear Enterprise Review 
(NER) and ICBM and Bomber Force Improvement Programs (FIP) in order to 
ensure continued improvement. The Global Strike Health and Operations 
Board and Council (GSHOB/C) is one venue where commanders from across 
AFGSC gather monthly to review Airmen, commander, and stakeholder 
inputs for improvement and tracking progress. This avenue provides 
every Striker a direct line of communication to the AFGSC Commander on 
how to improve our capability, capacity, and human capital. The 
meticulous tracking of every input guarantees all ideas are explored, 
identifies root causes, and implements long-term, sustainable 
solutions. This forum identifies and shares Best Practices across all 
organizations within the command and allows the AFGSC Commander to 
adapt and modify the venue to proactively respond to areas identified 
for command-wide focus, ensuring future generations do not repeat 
previous findings/shortcomings. Additionally, this forum validates 
items that have been worked and subsequently closed. Specifically, 
validation looks at items closed 6 to 12 months prior to the meeting 
and aims to ensure actions taken corrected the identified shortcoming, 
have been built into a repeatable process and are enduring. In addition 
to the monthly GSHOB/C review of NER and FIP actions, AFGSC/A9 conducts 
Airmen Driven Innovation (ADI) analyses. The ADI is a preventative, 
functionally-focused initiative designed to provide Airmen at all 
levels with a voice to our senior leadership to communicate potential 
areas that need attention. It is comprised of a cross-functional team 
to rapidly implement solutions or engage other staff processes, and 
serves as a feedback mechanism to keep Striker Airmen, leadership and 
AFGSC Staff informed of our findings, progress, and organizational 
changes. ADI findings are tracked separately from FIP through the 
GSHOB/C forum, but findings are cross-referenced to FIP and additional 
reports or studies as a trending analysis tool. In 2017, AFGSC hired a 
panel of independent consultants to provide an external assessment of 
the health of the Air Force Nuclear Enterprise. The Independent 
Strategic Assessment Group (ISAG) is comprised of former DOD leaders. 
The ISAG conducted a deep dive into numerous key areas, including 
current management structure and practices of the Nuclear Enterprise, 
and how AFGSC can field a more lethal force. The assessments informed 
AFGSC staff and resulted in the development of action items the command 
is tackling so we can more effectively accomplish our deterrence and 
global strike missions. Going forward, we will continue using this 
independent look to help promote innovation, change, and ultimately 
improvement throughout the command. Finally, we stood up the Family and 
Airmen Support Team (FAST) to identify ways we can improve where our 
Airmen learn, live, play, receive medical and child care, and overall 
well-being. AFGSC hosts an annual conference to build initiatives in 
four major working groups: Airmen and family maintenance, physical 
environment, sustaining the family, and training and educating Airmen.
           nuclear command, control and communications (nc3)
    9. Senator Fischer. General Rand, please describe the current 
approach to developing Air Force officers qualified to be effective 
leaders in NC3 acquisition, architecture, and operations.
    General Rand. Developing leaders in Nuclear Command, Control, and 
Communications (NC3) is an ongoing process. Initially, officers train 
and certify in their core nuclear mission according to their Air Force 
Specialty Code (AFSC). Examples include ICBM operators, pilots, and 
combat systems officers. Mid-level education opportunities include the 
USAF Weapons School, organized by weapon system, and Intermediate 
Developmental Education programs with a nuclear concentration. Although 
there is no NC3 AFSC, all officers who fill these billets are 
designated with a special duty identifier. The NC3 officers are 
selected by interview from a pool of prior nuclear certified officers 
and receive training on Joint Nuclear Command and Control procedures 
and NC3 equipment. Additionally, they complete a locally graded 
certification before they are considered certified in NC3 operations. 
There are no specific NC3 acquisition and architecture officers. NC3 
uses general acquisition officers and civilian architects and trains 
them in NC3 background, history, and policies. They will receive on-
the-job training on the NC3 systems they are assigned. Acquisition 
leadership positions fall into two categories. Material Leaders (MLs) 
are typically responsible for a moderately sized program or several 
small programs. To be minimally qualified for an ML position, an 
officer must be a Lieutenant Colonel or Colonel and have achieved a 
Defense Acquisition Workforce Improvement Act (DAWIA) Level II 
Certification in Program Management. Generally speaking, this requires 
at least one tour in a Program Office with duties that involve cost, 
schedule, and performance on an acquisition program in addition to 
educational and formal acquisition training requirements. Senior 
Material Leaders (SMLs) are typically responsible for a large program 
of national significance or a portfolio of multiple programs. To be 
qualified for an SML position, an acquisition Colonel must have DAWIA 
Level III Certification in Program Management. Similar to a Level II 
Certification, a Level III Certification requires several years of 
experience with cost, schedule, and performance on an acquisition 
program. In this case, the minimum tenure is four years with additional 
formal acquisition training. Once determined qualified for ML or SML 
positions, officers are matched to specific positions commensurate with 
their background and experience. For NC3 acquisition leadership 
positions, some combination of prior experience in the acquisition, 
sustainment or operation of nuclear, command and control, or 
communications systems is desired.

    10. Senator Fischer. General Rand, please describe the process by 
which officers are selected and assigned into program management roles 
for NC3-related acquisition programs?
    General Rand. For Material Leader (ML) selection, interested and 
qualified officers are first vetted through a boarding process, chaired 
by senior acquisition leaders within the Air Force, to include at least 
one General Officer and Senior Civilian (SES). For Senior Material 
Leader (SML) selection, the CSAF has directed that all qualified 
Colonels compete for SMLs and other leadership opportunities on the 
CSAF's Command Screening Board. This board is comprised of Senior Air 
Force Leaders. In either case, the vetted MLs and SMLs are then bid 
into Program Manager Positions by Senior Air Force Acquisition Leaders 
based on background and level of experience. For example, the largest 
acquisition programs (ACAT I) require at least eight years of 
experience handling cost, schedule, and performance work on an 
acquisition program.

    11. Senator Fischer. General Rand, please describe the training or 
education they receive relating to the NC3 enterprise.
    General Rand. Beginning in 2017, the Air Force Nuclear Command, 
Control, and Communications Center (AFNC3C), in conjunction with the 
Air Education and Training Command (AETC) has been conducting NC3 150, 
a training course available to the NC3 community. The purpose of this 
course is to provide initial Nuclear Command, Control, and 
Communications training. There are four main topic areas that cover 
nuclear deterrence (history and strategy), organizational and command 
relationships essential to the NC3 mission, operational dimensions of 
NC3, and finally the future challenges the NC3 community faces. This 
course is available to officers, enlisted and civilian personnel 
recently assigned to NC3 billets. Additional courses (NC3 200, 300, and 
400) are in development and will provide further development 
opportunities for NC3 leaders. AFNC3C and AETC are also offering 
Distance Learning courses in NC3 Systems Engineering and Deterrence to 
selected individuals awarding certificates, Bachelors, Masters, 
Doctorates degrees or providing specific education as needed.

    12. Senator Fischer. General Rand, are you satisfied with the 
selection process and level of training, or are there areas you believe 
could be improved upon?
    General Rand. AFGSC is aggressively pursuing ways to improve the 
selection process and level of training in Nuclear Command, Control, 
and Communication (NC3). Accessions to the Air Force NC3 Center have 
expertise in their functional specialty and we are working to expand 
their NC3 expertise. We are on a good path moving forward. The Air 
Force NC3 Center is developing an integrated training plan to increase 
NC3 knowledge for both junior and senior officers, as well as enlisted 
and civilian Airmen. We have engaged the Air Force's Air Education and 
Training Command (AETC) and the Air Force Nuclear Weapons Center 
(AFNWC) to develop and deliver a multi-level NC3-focused curriculum. 
The first of these courses, NC3 150, was delivered in December 2017. 
While these efforts are still in their infancy, AFGSC is optimistic 
this training will provide the requisite breadth of knowledge for all 
personnel, and will guarantee the Air Force's continual focus on the 
NC3 Enterprise.
                                hedging
    13. Senator Fischer. General Rand, the 2018 Nuclear Posture Review 
(NPR) emphasizes the need to hedge against future uncertainty and 
states: ``This requires maintaining the U.S. capacity to upload hedge 
weapons onto existing delivery platforms to augment the deployed force 
as necessary if, for example, an unexpected operational or technical 
problem were to arise in U.S. forces.''
    General Rand. I concur with this statement. I have provided a 
classified annex to further expand on this topic.

    14. Senator Fischer. General Rand, Admiral Benedict, please 
describe the upload process, including the expected timeline for 
completion if the Department were asked to begin immediately and 
readiness of forces to execute such orders.
    General Rand. The upload process for hedge purposes applies to the 
Minuteman III (MMIII) ICBM. The MMIII is capable of being uploaded with 
two or three MK12A reentry vehicles each. The MK21 reentry vehicle can 
only be configured as a single reentry vehicle. Upon order from 
USSTRATCOM, AFGSC would partner with HAF/A4, the AF Nuclear Weapons 
Center, and NNSA, to flow build-up materials to each of the three 
missile wings. Each wing is designated for a rough equivalency share of 
uploading requirements, balancing the workload across the fleet. The 
specific number of ICBMs designated for upload and the required 
timeline is provided in a classified annex.
    Admiral Benedict. U.S. Strategic Command (USSTRATCOM) is 
responsible for the strategic war plan, to include strategic hedge 
requirements. The Navy remains confident in its ability to meet 
USSTRATCOM requirements and can brief you in a classified forum on the 
requirements, associated timelines, and the implications of potential 
changes to these requirements.

    15. Senator Fischer. General Rand, Admiral Benedict, what steps 
could the Department take in order to reduce that timeline or increase 
readiness of the forces?
    General Rand. In order to ensure timely response to hedge, AFGSC A4 
has received approval from HAF A4LR to build High Priority Mission 
Support Kits (HPMSK) at each missile wing allowing for immediate access 
to build-up materials. Use of HPMSKs will institutionalize hedge 
mission requirements; affording AFGSC a formal channel for programming 
and reporting hedge related assets through the Air Force's corporate 
process. Additionally, a Unit Type Code (UTC) is currently under 
development for hedge requirements with the intent to include HPMSKs 
within that UTC. Both measures will keep Air Force and Combatant 
Commanders apprised of hedge readiness. Please see classified annex on 
SIPRNet for additional information.
    Admiral Benedict. U.S. Strategic Command (USSTRATCOM) is 
responsible for the strategic war plan, to include strategic hedge 
requirements. The Navy remains confident in its ability to meet 
USSTRATCOM requirements and can brief you in a classified forum on the 
requirements, associated timelines, and the implications of potential 
changes to these requirements.
                         adversary developments
    16. Senator Fischer. General Rand, we have low-yield nuclear 
weapons in our triad's airborne leg; how is the development of advanced 
air defenses impacting our ability to hold targets at risk with these 
weapons?
    General Rand. Fielded in the 1980s, the Air Launched Cruise Missile 
(ALCM) is over 30 years old, well beyond its life expectancy, and is 
involved in its third life extension program (LEP). While the ALCM 
remains effective today, we must replace it due to its aging 
subsystems, the shrinking stockpile of operational missiles, and 
advances in enemy defenses. Advanced air defense systems increase the 
risk to aircrew and the weapons. Russia and China are quickly advancing 
their air defense technologies; advances in computer processing, 
digital networking technology, and targeting systems enable air 
defenses to better detect U.S. assets. Future systems, specifically the 
Long Range Stand-Off missile and the B-21 Raider will provide enhanced 
capabilities against these defenses.
                    warhead stockpile strategic plan
    17. Senator Fischer. Secretary Roberts, the Nuclear Posture Review 
(NPR) states: ``To provide the required strategic vision needed to 
inform critical warhead modernization investments, the DOD and DOE 
Nuclear Weapons Council approved a strategic plan. This plan describes 
a current and future path for the nuclear warhead stockpile to meet 
deterrence, assurance, and technical hedging requirements.''
    Please describe the new strategic plan, its key differences from 
pre-existing plans, and whether the new strategic plan still envisions 
a final composition of 3 interoperable ballistic missile warheads 
deployed on both the SLBM and ICBM legs of the Triad and 2 
interoperable air-delivered warheads or bombs.
    Secretary Roberts. As the NPR notes, we are now in the early stages 
of a comprehensive warhead sustainment program. The Nuclear Weapons 
Council approved the most recent Fiscal Year17-42 Strategic Plan in 
2016 and is currently revising that plan to account for the findings of 
the NPR. The Council expects the revised plan to be completed by the 
end of the year.
                               __________
              Questions Submitted by Senator Joe Donnelly
                        plutonium pit production
    18. Senator Donnelly. Dr. Soofer, are you concerned about the DOE 
NNSA's ability to produce 80 plutonium pits per year by 2030 as 
mandated in the statute?
    Dr. Soofer. Based on NNSA's engineering assessment, the schedule to 
reach 80 war reserve pits per year is extremely challenging. Any 
approach to achieve this objective will require leadership and intense 
focus by DOD and NNSA to meet the 2030 timeline. The NWC will exercise 
regular oversight and monitoring of this effort.
                      sea-launched cruise missile
    19. Senator Donnelly. Dr. Soofer, the Nuclear Posture Review 
proposes a sea launched cruise missile to replace the one dropped in 
the 2010 NPR. I don't want to pre-judge your analysis but many people 
for a long time, going back as far as the Regulus program in 1955, 
thought about which sea platform to put such a system on. Each time 
they came back to a submarine. What's different this time?
    Dr. Soofer. The U.S. Navy is working closely with the Joint Staff 
and the Office of the Under Secretary of Defense for Policy to evaluate 
options for a nuclear sea-launched cruise missile (SLCM) based on the 
policy guidance reflected in the 2018 NPR. The platform for the SLCM 
will be determined as part of the Analysis of Alternatives (AOA) 
evaluation.
                          oasd (ncb) staffing
    20. Senator Donnelly. Secretary Roberts, the Office of the 
Secretary of Defense has been undergoing a lot of organization and 
staffing changes with the split up of the Undersecretary for 
Acquisition and Logistics into two--one for Acquisition and Sustainment 
and one for Research. Do you have adequate staffing to do your job?
    Secretary Roberts. We are sufficiently staffed for our current 
portfolio of responsibilities. As our portfolio continues to evolve, 
however, our staffing levels will require constant reevaluation in 
order to ensure our responsibilities are fulfilled to the highest 
possible standard.
                          oasd (ncb) and dtra
    21. Senator Donnelly. Secretary Roberts, my understanding is that 
the Defense Threat Reduction Agency, like other field support agencies, 
will report directly to the Undersecretary for Acquisition and 
Sustainment. Before, it reported to you, given the extensive amount of 
work in nuclear weapons and non- and counter-proliferation it 
performed. What oversight do you now have of this field support agency?
    Secretary Roberts. A final decision on the organizational reporting 
structures within Office of the Under Secretary of Defense for 
Acquisition and Sustainment (OUSD(A&S)) and OUSD(R&E) is expected to be 
announced by the Deputy Secretary soon after June 1. I am not aware of, 
nor do I anticipate, any disruptive changes to the reporting 
relationship between NCB and the Defense Threat Reduction Agency 
(DTRA). Under the current reporting relationship, in accordance with 
DOD Directive 5134.08 and on behalf of the USD(A&S), the ASD(NCB) 
exercises authority, direction, and control over the Director of DTRA.
                 cocoms and nuclear operations planning
    22. Senator Donnelly. Dr. Soofer, U.S. Strategic Command 
traditionally performs all nuclear operations planning. Do you believe 
the Combatant Commands should also have such a capability and are you 
concerned whether they do or don't have one?
    Dr. Soofer. It is not necessary to replicate U.S. Strategic 
Command's (USSTRATCOM) capabilities across multiple Combatant Commands. 
The Department of Defense has been working with the Combatant Commands 
and Military Departments and Services to identify capabilities 
necessary to enable the United States to respond in a regional conflict 
should deterrence fail. This approach is reinforced in the 2018 NPR, 
which states that the United States will strengthen the integration of 
nuclear and non-nuclear military planning. Specifically, the Combatant 
Commands and their Service components will be organized and resourced 
for this mission, and they will plan, train, and exercise to integrate 
U.S. nuclear and non-nuclear forces to operate in the face of adversary 
nuclear threats. This includes developing a cadre of personnel within 
the Combatant Commands with knowledge of nuclear operations, 
identifying and sourcing any necessary augmentation that might be 
needed in a conflict, strengthening command and control relationships, 
and deploying equipment necessary to enable the Combatant Commanders to 
conduct secure communications.
                   role of 20th and 8th air force(s)
    23. Senator Donnelly. General Rand, U.S. Strategic Command has 
placed you in charge of ICBM and bomber operations. In prior years, the 
20th and 8th Air Force(s) were the direct report to STRATCOM for bomber 
and ICBM operations. What is their role under this new construct?
    General Rand. Previously, 8 AF and 20 AF were dual-designated Task 
Force 204 and Task Force 214 respectively. Operational control flowed 
from USSTRATCOM through these task forces to their subordinate wings. 
Operational control now flows from USSTRATCOM through the Commander, 
Air Forces Strategic-Air (AFSTRAT-Air), dual-hatted as the Commander, 
Air Force Global Strike Command. This presents a single Air Force 
commander to USSTRATCOM for assigned forces. Both 8 AF and 20 AF have 
retained their service administrative control (ADCON) responsibilities, 
and their supporting organize, train, and equip (OT&E) 
responsibilities. Day-to-day operational direction flows from 
USSTRATCOM to AFSTRAT-Air to the 8 AF and 20 AF commanders. These 
commanders continue to be responsible for their wings' compliance with 
and execution of orders either from USSTRATCOM or AFSTRAT-Air. Plus, 
they are responsible for ensuring their wings comply with service 
policy and guidance, are resourced for mission requirements, and that 
they are trained and capable of executing assigned missions. There is a 
direct supervisor-subordinate relationship between the wing commanders 
and their assigned number air force commander.
                      afgsc weapons storage areas
    24. Senator Donnelly. General Rand, I understand you are having 
cost growth issues with replacing the weapons storage areas for the 
missile and bomber wings. What is going on and what are you doing to 
contain the cost growth?
    General Rand. When the bids for the FE Warren Weapon Storage 
Facility (WSF) came in higher than expected, AFGSC took the following 
actions with all WSF stakeholders: We analyzed the bids to identify 
high cost drivers Conducted a two week High Performance Team (HPT) 
event to scrub operational/institutional requirements and WSF designs 
to ensure we had the right balance between combat lethality, risk, and 
cost Implemented a series of Program Control events to baseline source 
documents, improve the control process, and improve the WSF program 
oversight/approval process As a result of this initiative, we 
eliminated a $439 million plus material handling development 
requirement and lowered expected costs for the first three WSFs by over 
$200 million. Going forward, the Program Control process will enable us 
to maintain tight control of WSF scope, cost, and schedule.
          next generation submarine-launched ballistic missile
    25. Senator Donnelly. Admiral Benedict, I understand you are now 
looking to a new strategic missile system to be introduced into the 
Columbia-class. What are the major issues you will concentrate on for 
this new missile system?
    Admiral Benedict. The Navy is extending the life of the Trident II 
(D5) strategic weapon system (SWS) until the 2040s to match the hull 
life of the Ohio-class SSBN and serve as the initial delivery and 
payload system on the Columbia-class SSBN. The Navy is also beginning 
to study how to maintain a credible and effective SWS beyond 2040 by 
leveraging the work that is being done today to extend the Trident II 
(D5) SWS, as well as investigating opportunities to innovate through 
the application of model-based engineering. In fact, the Nuclear 
Posture Review directs that the Navy ``begin studies in 2020 to define 
a cost-effective, credible, and effective SLBM that we can deploy 
throughout the service life of the Columbia SSBN.'' These studies will 
determine the most appropriate and cost-effective combination of pull-
through technologies and modernized components to meet U.S. Strategic 
Command requirements, address technology obsolescence, and allow for 
sufficient future flexibility in an evolving security environment. The 
Navy will focus these studies on ensuring industrial base capacity, 
payload flexibility, survivability, system performance, operational 
availability, and planning efficiency.
                               __________
             Questions Submitted by Senator Martin Heinrich
                           plutonium strategy
    26. Senator Heinrich. Secretary Roberts, the Nuclear Posture Review 
reaffirms the military requirements for plutonium pit production of 30 
per year by 2026, ramping up to 80 by 2030. The initial capability of 
30 per year will be at Los Alamos. The source of the additional 
capacity is still under review by the Nuclear Weapons Council. I 
believe this process has taken far longer than necessary. What is the 
status of the council's review and agreement on a path forward for pit 
production?
    Secretary Roberts. USD (A&S) Lord and NNSA Administrator Gordon-
Hagerty have agreed on a path forward that repurposes the Mixed-Oxide 
Fuel Fabrication Facility at the Savannah River Site to produce at 
least 50 pits per year, and to continue to invest in Los Alamos 
National Laboratory to produce at least 30 pits per year. This path 
forward is acceptable to the Secretary of Defense and the Nuclear 
Weapons Council (NWC) as a resilient and responsive option to meet DOD 
requirements. The NWC recognizes that there are major construction and 
certification schedule risks with this or any path forward on plutonium 
pit production. The NWC will be exercising regular coordination and 
monitoring of progress, and seeking opportunities to reduce risk.

    27. Senator Heinrich. Secretary Roberts, has the Department's Cost 
Assessment and Program Evaluation Office, or ``CAPE,'' been charged to 
do an independent review?
    Secretary Roberts. Section 3141 of the National Defense 
Authorization Act for Fiscal Year 2018 requires CAPE to conduct a 
reconciliation of its 2013 CAPE plutonium production capability review 
with the Department of Energy (DOE)/NNSA's recommended alternative. 
CAPE's subsequent review of the 2018 NNSA Plutonium Engineering 
Assessment (EA) indicates the acquisition cost estimates included in 
the EA appear consistent and were reconciled with the 2013 review 
outcomes.

    28. Senator Heinrich. Secretary Roberts, in your view, will the 
goal of 80 pits per year by 2030 be met and will the council meet the 
deadline of May 11th to make a recommendation?
    Secretary Roberts. The NWC met the deadline of May 11, 2018, to 
provide its certification of DOE/NNSA's recommended alternative. NNSA 
delivered its recommended alternative, supporting materials, and the 
NWC Chairwoman's certification letter to the congressional defense 
committees on May 10. We will continue to work closely with NNSA to 
achieve the goal of 80 pits per year by 2030.
                        fy19 nnsa authorization
    29. Senator Heinrich. Dr. Soofer, NNSA's FY18 appropriation and 
FY19 budget request fully support the program of record for stockpile 
and modernization programs, but any specific new military requirements 
of the NPR have not been defined by the Nuclear Weapons Council. Will 
the DOD and NNSA be submitting modifications soon for the FY19 budget 
request so that the committee can properly consider any new 
authorizations required?
    Dr. Soofer. The Department of Defense (DOD) is in the process of 
implementing the outcomes of the 2018 Nuclear Posture Review (NPR), 
including defining military requirements for supplemental capabilities 
such as the W76-2 warhead and the sea-launched cruise missile. These 
requirements will be integrated into DOD and Department of Energy/
National Nuclear Security Administration (DOE/NNSA) guidance, including 
among other things a revised Nuclear Weapons Council Strategic Plan.
    The fiscal year 2019 budget request for the DOD included funding 
for NPR priorities including sustainment of existing systems and 
continued investment in recapitalization programs. The fiscal year 2019 
budget request for NNSA is being amended to fund the W76-2 warhead. For 
details on NNSA's fiscal year 2019 budget request, I refer you to my 
colleagues at the DOE. As requirements and costs for supplemental 
capabilities identified in the NPR are determined, future budget 
requests may incorporate funds for such programs.
            schedule for deployment of new low-yield warhead
    30. Senator Heinrich. Dr. Soofer, the W76 life-extension program is 
on schedule to be completed in FY2019, about 18 months from now; 
however, you stated the process to develop a new low-yield warhead must 
be part of the ongoing LEP and would take two to three years. Of 
course, work on a proposed new low-yield warhead has not been 
authorized and could well take longer than expected. What are the 
specific plans and time-line for the near-term modification required to 
provide a low-yield warhead before the W76 LEP has been completed as 
scheduled in FY2019?
    Dr. Soofer. Weapons development is managed through the Nuclear 
Weapons Council Joint Nuclear Weapons Lifecycle Process. Using this 
process, the NNSA believes it can achieve W76-2 first production unit 
(FPU) within 3-6 months after congressional authorization. Production 
for the W76-1 is ongoing. With congressional authorization, development 
engineering work can begin on the W76-2. NNSA will seek timely 
authorization. The W76-2 is not expected to adversely impact the 
current W76-1 production schedule, which is scheduled to be complete by 
mid-2019. Further details can be provided in a classified briefing.
                    schedule impacts on ongoing leps
    31. Senator Heinrich. Dr. Soofer the national labs and sites have 
said they are as busy as they have ever been when considering the Life 
Extension Projects that are already underway and the ones planned in 
the future. What are the additional work and funding requirements for 
the proposed new low-yield warhead for a sub-launched ballistic 
missile?
    Dr. Soofer. DOE has sought congressional authorization to 
reallocate $65 million in funding within the DOE Weapons Activities 
account to support the low-yield ballistic missile recommended by the 
2018 NPR. Because the W76-2 is a minor modification to the existing 
W76-1, there will be minimal workforce impact. At the time the FY 2019 
Budget was transmitted to the Congress, the details of the 2018 NPR 
were still being developed, and were not ready for inclusion in the FY 
2019 Budget.
    DOD has requested $22.6m in FY 2019 and $48.5m across the Future 
Years Defense Program (FYDP) for Trident modifications that will 
qualify the missile to deliver low-yield nuclear weapons.

    32. Senator Heinrich. Dr. Soofer, have you considered the possible 
impacts on the existing schedule for the ongoing and planned life-
extension programs and the additional costs and effort on top of all 
the other outstanding requirements across the complex?
    Dr. Soofer. Yes, I have. The Nuclear Weapons Council is focused on 
ensuring that NNSA's nuclear weapons activities are aligned and 
synchronized with DOD's modernization programs, and that it has the 
resources to execute these activities. We do not expect the low-yield 
ballistic missile to impact planned life-extension program schedules 
because it is a modification to the W76-1 currently in production.
              uncertainties in future security environment
    33. Senator Heinrich. Dr. Soofer, the NPR includes a discussion of 
uncertainties regarding the future security environment and the threats 
it may pose, including technological threats to the U.S. deterrent. 
Sandia National Labs, on behalf of NNSA, has specific capabilities to 
ensure the stockpile can withstand technological breakthroughs or the 
development of wholly new technologies. However, Sandia's and the other 
labs' threat experimentation capabilities are decades old. What is your 
perspective regarding whether the NNSA labs should be contemplating 
increasing their science and engineering capabilities to outflank 
unanticipated technological breakthroughs?
    Dr. Soofer. DOD and NNSA work together to conduct ongoing 
evaluations of the current and future security environments to ensure 
the United States remains at the forefront of science and technology 
and to reduce the likelihood of technological surprise. NNSA's national 
laboratories possess science and engineering capabilities that enhance 
deterrence and national security writ large. The NNSA laboratories have 
the capability to respond effectively to emerging threats, 
unanticipated events, and technological innovation. Continued support 
for and investment in these capabilities, including threat environment 
experimentation capabilities, at the NNSA National Laboratories is 
essential. The NNSA laboratories are also currently in the process of 
implementing the statutrory Stockpile Responsiveness Program to 
exercise these capabilities further with DOD coordination.
                         hypersonic technology
    34. Senator Heinrich. Dr. Soofer, I understand the Department is 
still in the process of building its Missile Defense Review, but I 
would like your assessment of where the NPR and the Missile Defense 
Review will converge around hypersonic capabilities of Russia. Noting 
that we are in an open session today, can you discuss with the 
Subcommittee what the Department's specific priorities are for 
hypersonic technology?
    Dr. Soofer. DOD takes the threat posed by offensive hypersonic 
weapons seriously. Hypersonic threats and technology development will 
be addressed in the Missile Defense Review (MDR). Recently, Under 
Secretary of Defense for Research and Engineering Mike Griffin made 
hypersonic technology/capability development his top technical 
priority. If a potential adversary gains an advantage in hypersonic 
technology, it could invite the mistaken impression that the United 
States could be coerced into not upholding its security commitments to 
allies and partners. We are concerned about our ability to characterize 
and defend against hypersonic systems. The Department is conducting a 
formal Analysis of Alternatives (AOA) that will characterize hypersonic 
weapon threats and identify alternatives for defending against them. 
This AOA is well underway and on-track to provide its final report by 
the end of this calendar year 2018.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                      sea-launched cruise missile
    35. Senator Warren. Admiral Benedict, I understand that no decision 
has been made at this point about where a low-yield nuclear SLCM would 
be deployed, but that the entire fleet is being considered. Can you 
describe what would be required to put nuclear weapons back on surface 
ships or attack submarines --in terms of manpower, training, security, 
and operations?
    Admiral Benedict. The Navy, working closely with the Joint Staff 
and the Office of the Secretary of Defense, is evaluating requirements 
associated with the nuclear sea-launched cruise missile. Manpower, 
training, security, and operations are factors that will be part of the 
evaluation. Specialized training and certification will be required to 
ensure the safety and security of the weapons. The Navy successfully 
performed the mission associated with the nuclear sea-launched cruise 
missiles on surface ships and attack submarines for decades.

    36. Senator Warren. Admiral Benedict, both Secretary Spencer and 
Admiral Richardson have listed the Navy's readiness as one of their top 
concerns. Will the impact on readiness be part of the Department's 
analysis of alternatives?
    Admiral Benedict. Yes. The Navy, working closely with the Joint 
Staff and the Office of the Secretary of Defense, is evaluating 
requirements associated with the nuclear sea-launched cruise missile. 
Specialized training and certification will ensure surface ships and 
submarines are adequately prepared for deployment.

    37. Senator Warren. Admiral Benedict, will putting nuclear weapons 
on attack submarines or surface ships require making new arrangements 
for port visits with U.S. allies and partners, some of whom have 
legislated specific requirements for the transit of nuclear weapons on 
or through their territory?
    Admiral Benedict. We do not discuss the presence or absence of 
nuclear weapons on our vessels. The current policy of the U.S. 
Government is not to deploy nuclear weapons aboard U.S. Navy surface 
ships and attack or guided missile submarines. Our entry into another 
state's ports is subject to whatever conditions the foreign state may 
require. If there are new or existing restrictions that would apply to 
our port visits, we may need to request exemptions or negotiate new 
arrangements. However, the outcome of any negotiations with a 
particular state would be speculative at this point.
                            b83-1 retirement
    38. Senator Warren. Dr. Soofer, the NPR proposes to keep the B83-1 
warhead until a suitable replacement is found. For how much longer can 
NNSA retain the B83-1 without performing an ALT or LEP?
    Dr. Soofer. As part of DOD's implementation of the 2018 NPR, we 
will review whether it is necessary to retain the B83-1 and for how 
long. NNSA can provide classified technical details pertaining to how 
much longer NNSA can retain the B83-1without performing an ALT or life-
extension program (LEP).

    39. Senator Warren. Dr. Soofer, how would a refurbishment or life 
extension for the B83-1 impact NNSA's already aggressively ambitious 
program of work?
    Dr. Soofer. There is no current plan to seek a B83-1 refurbishment 
or LEP. If a decision were made to refurbish or life extend the B83-1, 
DOD and DOE would carefully coordinate to balance the competing demands 
on NNSA's infrastructure. A request for further specificity about what 
this would entail should be directed to NNSA.

    40. Senator Warren. Dr. Soofer, according to your previous public 
comments, the B83 is required to hold certain targets in North Korea at 
risk. What has changed about the North Korean threat that requires DOD 
to retain the B83; are there targets that cannot be held at risk by 
other weapons in the U.S. arsenal?
    Dr. Soofer. As a result of the significant and rapid worsening of 
the international security environment since the 2010 NPR, the 
Administration decided to postpone B83-1 retirement until completion of 
a 2018 NPR-directed study assessing the requirements necessary to meet 
policy and operational objectives, and if required, a suitable 
replacement capability is identified.

                                 <all>
</pre></body></html>
